<html>
<title> - LEGISLATIVE HEARING ON H.R. 1522, TO PROVIDE FOR THE ADMISSION OF THE STATE OF PUERTO RICO INTO THE UNION, ``PUERTO RICO STATEHOOD ADMISSION ACT''; AND H.R. 2070, TO RECOGNIZE THE RIGHT OF THE PEOPLE OF PUERTO RICO TO CALL A STATUS CONVENTION THROUGH WHICH THE PEOPLE WOULD EXERCISE THEIR NATURAL RIGHT TO SELF-DETERMINATION, AND TO ESTABLISH A MECHANISM FOR CONGRESSIONAL CONSIDERATION OF SUCH DECISION, AND FOR OTHER PURPOSES, ``PUERTO RICO SELF-DETERMINATION ACT OF 2021''--PART 2</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                       H.R. 1522, ``PUERTO RICO 
                        STATEHOOD ADMISSION ACT'';
                    AND H.R. 2070, ``PUERTO RICO SELF-
                        DETERMINATION ACT OF 2021''
                               --PART 2

=======================================================================

                          LEGISLATIVE HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, June 16, 2021

                               __________

                            Serial No. 117-5

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-978 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                JESUS G. ``CHUY'' GARCIA, IL, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
                  BRUCE WESTERMAN, AR, Ranking Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Garret Graves, LA
Joe Neguse, CO                       Jody B. Hice, GA
Mike Levin, CA                       Aumua Amata Coleman Radewagen, AS
Katie Porter, CA                     Daniel Webster, FL
Teresa Leger Fernandez, NM           Jenniffer Gonzalez-Colon, PR
Melanie A. Stansbury, NM             Russ Fulcher, ID
Nydia M. Velazquez, NY               Pete Stauber, MN
Diana DeGette, CO                    Thomas P. Tiffany, WI
Julia Brownley, CA                   Jerry L. Carl, AL
Debbie Dingell, MI                   Matthew M. Rosendale, Sr., MT
A. Donald McEachin, VA               Blake D. Moore, UT
Darren Soto, FL                      Yvette Herrell, NM
Michael F. Q. San Nicolas, GU        Lauren Boebert, CO
Jesus G. ``Chuy'' Garcia, IL         Jay Obernolte, CA
Ed Case, HI                          Cliff Bentz, OR
Betty McCollum, MN
Steve Cohen, TN
Paul Tonko, NY
Rashida Tlaib, MI
Lori Trahan, MA

                     David Watkins, Staff Director
                        Sarah Lim, Chief Counsel
               Vivian Moeglein, Republican Staff Director
                   http://naturalresources.house.gov
                               
                               ------                                

                               CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 16, 2021.........................     1

Statement of Members:

    Gonzalez-Colon, Hon. Jenniffer, a Resident Commissioner in 
      Congress from the Territory of Puerto Rico.................     2
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     6
        Prepared statement of....................................     7
    Velazquez, Hon. Nydia M., a Representative in Congress from 
      the State of New York......................................     4

Statement of Witnesses:

    Cabrera, Carmen, President, League of United Latin American 
      Citizens (LULAC) Faith Council, Hatillo, Puerto Rico.......    25
        Prepared statement of....................................    27
        Questions submitted for the record.......................    28
    Caraballo-Cueto, Jose, Professor of Economics, University of 
      Puerto Rico, Cayey, Puerto Rico............................    36
        Prepared statement of....................................    37
    Cordova, Andres L., Professor of Property Law, Inter American 
      University of Puerto Rico, San Juan, Puerto Rico...........    32
        Prepared statement of....................................    34
        Questions submitted for the record.......................    35
    Cox Alomar, Rafael, Professor of Constitutional Law, 
      University of the District of Columbia, Washington, DC.....    13
        Prepared statement of....................................    14
    Gutierrez, Luis, Former Representative, Illinois' 4th 
      District, Chicago, Illinois................................     8
        Prepared statement of....................................    10
    Martinez-Orabona, Annette, Director, Caribbean Institute of 
      Human Rights, San Juan, Puerto Rico........................    20
        Prepared statement of....................................    21
        Questions submitted for the record.......................    25
    Ponsa-Kraus, Christina, Professor of Constitutional Law, 
      Columbia University, New York, New York....................    28
        Prepared statement of....................................    30
        Revised Testimony........................................    31

Additional Materials Submitted for the Record:

    Submissions for the Record by the U.S. Department of Justice

        Statement on H.R. 1522, the Puerto Rico Statehood 
          Admission Act..........................................    99
        Statement on H.R. 2070, the Puerto Rico Self-
          Determination Act of 2021..............................   107

    Submissions for the Record by Rep. Gonzalez-Colon

        Puerto Rico Estadidad, Letter to the Committee, April 
          2021...................................................    42
        Frente Estadista, Letter to the Committee, June 10, 2021.    45
        Gregorio Igartua, Letter to the Committee, June 11, 2021.    48
        Juan C. Ruiz Pinzon, Letter to the Committee, June 16, 
          2021...................................................    54
        Roberto Lefranc Fortuno, Letter to the Committee, June 
          16, 2021...............................................    56
        Maria Melendez, Statement for the Record.................    57
        National Puerto Rican Equality Coalition (NAPREC), 
          ``Frequently Asked Questions--Statehood for Puerto 
          Rico''.................................................    58

        National Puerto Rican Equality Coalition (NAPREC), 
          Statement of Support and Cosponsor H.R. 1522/S. 780....    60
        National Puerto Rican Equality Coalition (NAPREC) & 
          Puerto Rico Statehood Council (PRSC), Letter to the 
          Committee, June 14, 2021...............................    61
        Transcript of Video: ``Statements to the Natural 
          Resources Committee on 6/16/21 Status Hearings''.......    65

    Submissions for the Record by Individuals or Organizations

        Jimarie Martinez Baladeio, Letter to the Committee, March 
          31, 2021...............................................   111
        Federation of Municipal Legislators of Puerto Rico, 
          Letter to the Committee, April 6, 2021.................   113
        League of United Latin American Citizens (LULAC), Letter 
          to Congress............................................   114
        Federation of Mayors of Puerto Rico, Letter to the 
          Committee, May 14, 2021................................   115
        Resolution in Support of Congressional Action for Puerto 
          Rico Statehood, Submission by Council of State 
          Governments (CSG) Eastern Region Conference............   117
        Puertorriquenos Unidos En Accion (PUA), Letter to the 
          President, June 11, 2021...............................   118
        Jose Luis Dalmau-Santiago, President of the Senate of the 
          Commonwealth of Puerto Rico, Letter to the Committee, 
          June 15, 2021..........................................   119
        Miriam J. Ramirez, Statement for the Record..............   122
        Movimiento Puertorriqueno Reunificacionista con Espana 
          (MPRE), Letter to the Committee, June 16, 2021.........   123
        Professor Roland Blasini, Statement for the Record.......   124
        Movimiento Revolucion Estadista Inc., Statement for the 
          Record.................................................   129
        Puerto Rico Escogio Estadidad, Letter to the Committee, 
          June 17, 2021..........................................   131
                                     


 
 LEGISLATIVE HEARING ON H.R. 1522, TO PROVIDE FOR THE ADMISSION OF THE 
STATE OF PUERTO RICO INTO THE UNION, ``PUERTO RICO STATEHOOD ADMISSION 
 ACT''; AND H.R. 2070, TO RECOGNIZE THE RIGHT OF THE PEOPLE OF PUERTO 
    RICO TO CALL A STATUS CONVENTION THROUGH WHICH THE PEOPLE WOULD 
EXERCISE THEIR NATURAL RIGHT TO SELF-DETERMINATION, AND TO ESTABLISH A 
  MECHANISM FOR CONGRESSIONAL CONSIDERATION OF SUCH DECISION, AND FOR 
 OTHER PURPOSES, ``PUERTO RICO SELF-DETERMINATION ACT OF 2021''--PART 2

                              ----------                              


                        Wednesday, June 16, 2021

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 1:01 p.m., via 
Webex, Hon. Raul M. Grijalva [Chairman of the Committee] 
presiding.
    Present: Representatives Grijalva, Sablan, Huffman, 
Gallego, Porter, Leger Fernandez, Stansbury, Velazquez, 
McEachin, Soto, San Nicolas, Garcia, Case, Cohen, Tlaib, 
Trahan; Gohmert, McClintock, Gosar, Graves, Hice, Radewagen, 
Webster, Gonzalez-Colon, Fulcher, Stauber, Tiffany, and 
Boebert.
    Also present: Representative Ocasio-Cortez.

    The Chairman. Thank you very much, Mr. Robles, and the 
Committee will come to order. The Committee is meeting today to 
receive testimony on two bills to resolve Puerto Rico's 
political status.
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chair and the Ranking Minority 
Member or their designees. This will allow us to hear from our 
witnesses sooner and help Members keep to their schedules.
    However, for today's hearing, we will allow the bill 
sponsors to make a statement in support of their legislation 
before we turn to the rest of the witnesses.
    I therefore ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Clerk by 5 p.m. today or the close of the 
hearing, whichever comes first.
    Hearing no objection, so ordered.
    Without objection, the Chair might also declare a recess 
subject to the call of the Chair. As described in the notice, 
statements, documents, or motions must be submitted to the 
electronic repository at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cc84829e8fa8a3afbf8ca1ada5a0e2a4a3b9bfa9e2aba3bae2">[email&#160;protected]</a> Additionally, 
please note that as with in-person meetings, Members are 
responsible for their own microphones. As with our in-person 
meetings, Members may be muted by staff to avoid inadvertent 
background noise. Finally, Members or witnesses experiencing 
technical problems should inform the Committee staff 
immediately, and that phone number was in your information. We 
are going to begin opening statements.
    The Chair will now recognize the Vice Ranking Minority 
Member for Insular Affairs and Ranking Member designee with 
respect to her opening statement and with respect to H.R. 1522, 
legislation sponsored by herself and Representative Soto. With 
that, Representative Gonzalez-Colon, the time is yours.

  STATEMENT OF THE HON. JENNIFFER GONZALEZ-COLON, A RESIDENT 
   COMMISSIONER IN CONGRESS FROM THE TERRITORY OF PUERTO RICO

    Miss Gonzalez-Colon. Thank you, Mr. Chairman. Today, the 
Committee is holding a second hearing to address Puerto Rico's 
political status following the November 3 referendum in which a 
clear majority of voters on the island chose statehood. Also, I 
think, 2 days ago, the Department of Justice issued a report on 
the constitutional and legal perspective of the bills before 
us.
    H.R. 1522, the Puerto Rico Statehood Admission Act, which I 
introduced with Congressman Darren Soto from Florida, 
recognizes and respects that Puerto Rico has, through the 
ballot box, exercised its right to self-determination, rejected 
the current territorial status, and voted for statehood.
    H.R. 1522 will constitute Congress' response to my 
constituents on the island. It makes a formal offer of 
statehood to the American citizens living in Puerto Rico, which 
would have to be ratified in a federally sponsored referendum. 
As the DOJ recognizes, H.R. 1522 does not impose or force 
statehood on the people of the island. It empowers, as we would 
have the final say on the matter through our vote, the only 
true and proven self-determination process. The bill follows 
the precedent established for Alaska and Hawaii, setting forth 
a binding, self-executing process to admit Puerto Rico as a 
state should a majority of the voters favor it.
    The other bill, H.R. 2070, blatantly ignores the will of 
the people of Puerto Rico and the voters and has serious 
constitutional flaws according to the Department of Justice.
    During our last hearing, it also became clear that this 
bill attempts to mislead voters in Puerto Rico by establishing 
a complicated status convention process in which just a few 
delegates could come up with fanciful or unconstitutional 
status options. It even goes as far as saying that Congress 
would be required to ratify whatever option comes out of this 
process, something Congress cannot constitutionally bind itself 
to do, as the DOJ report has explicitly pointed out.
    The DOJ also stated that the only two non-territorial 
status options consistent with the U.S. Constitution are 
statehood and independence. We don't need a status convention 
to tell this to Congress or to the people of the island. Any 
other option that this convention may come up with would be 
incompatible with the U.S. Constitution.
    Mr. Chairman, a few days ago, on a separate matter, the 
Department of Justice announced that it would defend before the 
Supreme Court the constitutionality of the law that excludes 
Puerto Rico residents from the Supplemental Security Income, or 
SSI, as we know the program. Some Members of Congress, 
including members of this Committee, rightfully denounced this 
decision, calling for a legislative solution and a permanent 
fix to this unequal treatment.
    It is true that Congress can pass legislation to give 
Puerto Rico access to SSI and to other Federal programs under 
which we are excluded. As the island's sole representative in 
Congress, I have introduced multiple bills to achieve this and 
will continue to advance these efforts. But it is similarly 
true that a future Congress could take away that access, and 
that is because as a territory, we will always be at Congress' 
mercy.
    Mr. Chairman, the so-called parity is not equality, and it 
is not a permanent solution. And that is why we must respect 
Puerto Rico's vote and support H.R. 1522, because statehood 
will guarantee full and permanent equality for the 3.2 million 
citizens living on the island. And only statehood guarantees 
constitutional citizenship.
    Now, as we discuss a path forward in this Committee, we 
must also make a choice. Are we going to ignore the will of the 
voters on the island and pretend that we know better than them, 
or are we going to stand with the fellow citizens living in 
Puerto Rico and respect their vote for full equality and for 
statehood?
    I assume we are going to do the correct thing and assure 
that H.R. 1522 is going to be passed. Thank you, Mr. Chairman, 
and I yield back.

    [The prepared statement of Miss Gonzalez-Colon follows:]

  Prepared Statement of the Hon. Jenniffer Gonzalez-Colon, a Resident 
       Commissioner in Congress from the Territory of Puerto Rico
    Thank you, Mr. Chairman.
    Today the Committee is holding a second hearing to address Puerto 
Rico's political status, following the November 3rd referendum in which 
a clear majority of voters on the Island chose statehood. Also, 2 days 
ago the Department of Justice (DOJ) issued a report on the 
constitutional and legal perspective of the bills before us.
    H.R. 1522, the Puerto Rico Statehood Admission Act, which I 
introduced with Congressman Darren Soto, recognizes and respects that 
Puerto Rico has--through the ballot box--exercised its right to self-
determination, rejected the current territorial status, and voted for 
statehood.
    H.R. 1522 would constitute Congress's response to voters on the 
Island. It makes a formal offer of statehood to the American citizens 
of Puerto Rico, which would have to be ratified in a federally 
sponsored referendum. As DOJ recognizes, H.R. 1522 does not impose or 
force statehood on the people of Puerto Rico. It empowers us, as we 
would have the final say on the matter through our vote, the only true 
and proven self-determination process. The bill follows the precedent 
established for Alaska and Hawaii, setting forth a binding, self-
executing process to admit Puerto Rico as a State should a majority of 
voters favor it.
    The other bill, H.R. 2070, blatantly ignores the will of Puerto 
Rico's voters and has serious constitutional flaws, according to DOJ.
    During our last hearing it also became clear that this bill 
attempts to mislead voters in Puerto Rico by establishing a 
complicated, status convention process in which a few delegates could 
come up with fanciful or unconstitutional status options. It even goes 
as far as saying that Congress would be required to ratify whatever 
option comes out of this process, something Congress cannot 
constitutionally bind itself to do as the DOJ report has explicitly 
pointed out.
    DOJ also stated that the only two non-territorial status options 
consistent with the U.S. Constitution are statehood and independence. 
We don't need a status convention to tell this to Congress or to the 
people of Puerto Rico. Any other option that this convention may come 
up with would be incompatible with the Constitution.
    Mr. Chairman, a few days ago, on a separate matter DOJ announced 
that it would defend before the Supreme Court the constitutionality of 
the law that excludes Puerto Rico residents from the Supplemental 
Security Income (SSI).
    Some Members of Congress, including Members of this Committee, 
rightfully denounced this decision, calling for a legislative solution 
and a permanent fix to this unequal treatment.
    It is true that Congress can pass legislation to give Puerto Rico 
access to SSI and other Federal programs under which we are excluded. 
As the Island's sole representative in Congress, I've introduced 
multiple bills to achieve this and will continue to advance these 
efforts.
    But it is similarly true that a future Congress could take away 
that access. And that's because as a territory, we will always be at 
Congress's mercy. Mr. Chairman, so-called ``parity'' is not equality, 
and it's not a permanent solution.
    That's why we must respect Puerto Rico's vote and support H.R. 
1522. Because only statehood will guarantee full and permanent equality 
for the 3.2 million Americans on the Island, and only statehood 
guarantees constitutional citizenship.
    Now, as we discuss a path forward in this Committee, we must also 
make a choice: are we going to ignore the will of voters in Puerto 
Rico, and pretend that we know better than them? Or are we going to 
stand with our fellow citizens on the Island and respect their vote for 
full equality, for statehood?
    Thank you. I yield back.

                                 ______
                                 

    The Chairman. The gentlelady yields, and thank you, Miss 
Gonzalez-Colon, for your statement.
    The Chair now recognizes the sponsor of H.R. 2070, the 
gentlelady from New York, Representative Velazquez, for 5 
minutes. Ms. Velazquez, you are recognized.

 STATEMENT OF THE HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you, Mr. Chairman, to you and the 
Ranking Member for holding this second hearing on the issue of 
statehood for Puerto Rico. There is a popular saying in Spanish 
that goes like this. ``El rio siempre vuelve a su cauce,'' 
which translates to, ``The river always makes it to the 
delta.'' And here we are today with newly issued reports from 
the U.S. Department of Justice confirming what we have been 
saying all along.
    The past plebiscites have never produced any permanent 
results, that statehood is not a done deal, and that Puerto 
Ricans need to freely vote on all possible options. And more 
importantly, that the DOJ only explicitly supports my bill and 
not H.R. 1522, the statehood bill. So, here we are at the 
delta. After reading DOJ's reports, it is now more clear than 
ever that the Puerto Rico Self-Determination Act is the 
inclusive democratic approach to solving Puerto Rico's status, 
while the Statehood Admission bill is a one-sided, undemocratic 
bill that does not even achieve the aim it supposedly purports. 
I want to thank Chairman Grijalva for requesting these reports, 
which revoke the token points on statehood that had been pushed 
by politicians and lobbyists to the tune of about $12 million 
since 2013. For years, Puerto Rican statehood leaders have used 
the promise of admission as a state for their own political and 
electoral purposes.
    They have lied time and again about how close statehood for 
Puerto Rico really is. They allege massive support it has and 
all the benefits of this option, at times downplaying the 
responsibility it will carry. H.R. 1522 is not different, and 
the DOJ agrees. First and foremost, H.R. 1522 proponents argue 
this bill is self-executing and that statehood is automatic. 
That is false.
    The DOJ report clearly states that the bill itself will not 
admit Puerto Rico as a state and, in fact, recommends a new 
name for this bill and, I quote, ``the Department recommends 
that the title of the bill be the ``Puerto Rico Statehood 
Determination Act'' or simply the ``Puerto Rico Statehood 
Act,'' so as not to imply that admission of Puerto Rico as a 
state is a fait accompli.'' So, even the name of the bill is 
misleading.
    Secondly, H.R. 1522 has been advertised on the full premise 
that Puerto Ricans already decided in favor of statehood. 
Wrong. The DOJ questions the validity of the past plebiscite by 
noting that the ballot propositions in 2012 and 2017 contain 
inaccuracies and were potentially misleading and that the 
premise of the 2020 plebiscite was faulty. Finally, opponents 
of H.R. 2070 argue that my bill is too complex. Wrong again. 
DOJ notes that it is in line with the Constitution to provide 
the voters of Puerto Rico with clear notice of what they will 
be approving. My bill is the only bill that offers a clear, 
transparent, inclusive, and democratic way for Puerto Ricans to 
be informed on the consequences of becoming a state or on any 
other future status.
    In fact, my bill creates an educational campaign and 
allocates money for such purposes. It also requires 
transitional plans accompany options during a vote. A decision 
to become a state of the Union binds Puerto Ricans forever. The 
voters in Puerto Rico have the right to know, understand, and 
vote upon the terms and condition for each of the status 
options. My bill offers Puerto Ricans the opportunity to define 
for themselves the status option that they will vote for.
    Bear in mind that after the statehood option loss in 1993 
plebiscite, the Statehood Party vowed never to allow others to 
present their own status options and instead craft subsequent 
plebiscite and status options on their own accord. That 
explains the one-sided, undemocratic referendum we have had 
today. If we truly want to solve the issue of status for the 
island, we need to give Puerto Ricans the tools to design a 
true self-determination process. Thank you, Mr. Chairman. I 
yield back.
    The Chairman. The gentlelady yields, and I thank the 
gentlelady for her statement.
    Madam Ranking Member, is Mr. Westerman going to be here to 
make a statement, the Ranking Member, or not?
    Miss Gonzalez-Colon. No, sir.
    The Chairman. OK. Thank you.
    Let me now recognize myself for an opening statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. As was stated, we are meeting today for a 
second day of hearings on H.R. 1522, the Puerto Rico Statehood 
Admission Act, and H.R. 2070, the Puerto Rico Self-
Determination Act of 2021, both of which are seeking to 
conclusively address the island's future political status after 
123 years as a territory of the United States.

    When we met for the first hearing in April, we heard from 
elected officials from Puerto Rico, including the Governor and 
the Speaker of the House of Representatives, who urged passage 
of the bill they supported. Today, we will hear from academics, 
residents of Puerto Rico, and mainland leaders, who will also 
address their preferred solution to Puerto Rico's political 
status.

    The journey to address Puerto Rico's political status began 
in 1952, when the United States enacted legislation 
establishing the current relationship between Puerto Rico and 
the United States. Since then, there has been a series of 
plebiscites to find out whether the residents of Puerto Rico 
were satisfied with the current territory status or if they 
wanted to change it. The most recent of these plebiscites 
yielded support in favor of statehood, which led to the 
introduction of the two bills that are before us today.

    At our last hearing, there was debate and discussion of 
whether the residents of Puerto Rico desire a permanent union 
with the United States that guarantees their U.S. citizenship 
and equal rights and responsibilities as Americans residing in 
the 50 states. We also heard arguments insisting that the 
residents of Puerto Rico are still unsure of agreeing to a 
permanent union and should therefore be allowed to debate and 
discuss all the non-territory status options available through 
a status convention.

    As you are all aware, we reached out to the Biden 
administration's Department of Justice for an assessment of the 
two bills. I want to thank the Department for submitting the 
information to the Committee in a timely manner so it could be 
available to all of us for this meeting. And, in summary, the 
official reports indicate that the Department of Justice 
supports providing the people of Puerto Rico the opportunity to 
vote on whether to become a State of the Union, as H.R. 1522 
would do. Also, the Department would support H.R. 2070, if it 
facilitates a choice among three constitutionally permissible 
status options: statehood, independence, and territory status.

    We anticipate today's hearing will be similar to our first 
hearing but also a focus on DOJ's opinions on the two pieces of 
legislation before us today. Once again, I want to be 
straightforward with the residents of Puerto Rico and my 
colleagues on this Committee. This issue is a divisive issue in 
Congress for both parties. There is uncertainty around what 
would happen if there were a Committee or Floor vote on either 
of these bills.
    Nevertheless, I recognize this Committee's responsibility 
in playing a leading and constructive role in resolving this 
issue, which is a priority for the people of Puerto Rico. For 
this reason, I am committed to moving this process forward. The 
Committee is approaching a decision-making point, which is what 
the residents of Puerto Rico expect and deserve.

    [The prepared statement of Mr. Grijalva follows:]

 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    We are meeting today for a second day of hearings on H.R. 1522, the 
Puerto Rico Statehood Admission Act and H.R. 2070, the Puerto Rico 
Self-Determination Act of 2021; both of which are seeking to 
conclusively address the island's future political status after 123 
years as a territory of the United States.
    When we met for the first hearing in April, we heard from elected 
officials from Puerto Rico--including the Governor and Speaker of the 
House of Representatives--who urged passage of the bill they supported. 
Today, we will hear from academics, residents of Puerto Rico, and 
diaspora leaders, who will also passionately advocate for their 
preferred solution to Puerto Rico's political status.
    The journey to address Puerto Rico's political status began in 1952 
when the U.S. enacted legislation establishing the current relationship 
between Puerto Rico and the United States. Since then, there has been a 
series of plebiscites to find out whether the residents of Puerto Rico 
were satisfied with the current territory status or if they wanted to 
change it. The most recent of those plebiscites yielded support in 
favor of statehood, which led to introduction of the two bills before 
us.
    At our last hearing there was a spirited debate and discussion of 
whether the residents of Puerto Rico desire a permanent union with the 
United States that guarantees their U.S. citizenship, and equal rights 
and responsibilities as Americans residing in the 50 states. We also 
heard arguments insisting that the residents of Puerto Rico are still 
unsure of agreeing to a permanent union and should therefore be allowed 
to debate and discuss all the non-territory status options available to 
them through a status convention.
    As you are all aware, we reached out to the Biden Administration's 
Department of Justice for an assessment of the two bills. I want to 
thank the Department for submitting the information to the Committee. 
In summary, the official reports indicate that the Department of 
Justice supports providing the people of Puerto Rico the opportunity to 
vote on whether to become a State of the Union, as H.R. 1522 would do. 
Also, that the Department would support H.R. 2070, if it facilitates a 
choice among three constitutionally permissible status options--
statehood, independence, and territory status.
    We can anticipate that today's hearing will likely be as lively as 
the first hearing. Once again, I want to be straightforward with the 
residents of Puerto Rico, this is a divisive issue in Congress--for 
both delegations--and there is great uncertainty around what would 
happen if there were a Committee or Floor vote on either of these 
bills.
    Nevertheless, I recognize this Committee's responsibility in 
playing a leading and constructive role in resolving this issue, which 
is a priority for the people of Puerto Rico. For this reason, I am 
committed to moving this process forward. The Committee is approaching 
a decision-making point, which is what the residents of Puerto Rico 
expect and deserve.
    With that in mind, I want to welcome our witnesses. I also want to 
welcome our former colleague, former Representative Luis Gutierrez. I 
look forward to receiving all your testimonies.

                                 ______
                                 

    The Chairman. I want to welcome our witnesses. I also want 
to welcome our former colleague, former Representative Luis 
Gutierrez, who is here with us today. I look forward to 
receiving all your testimonies, and I will begin.
    I will now turn to our witnesses. Before introducing them, 
I will remind the witnesses that they are encouraged to 
participate in the witness diversity survey created by the 
Congressional Office of Diversity and Inclusion. Witnesses may 
refer to their hearing invitation materials for how to access 
that information.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but that 
their entire statement will appear in the hearing record. When 
you begin, the timer will begin, and it will turn orange when 
you have 1 minute remaining. I recommend that Members and 
witnesses use ``stage view'' so they can pin the timer on their 
screen.
    After your testimony is complete, please remember to mute 
yourself to avoid any inadvertent background noise. I will also 
allow the entire panel to testify before questioning witnesses. 
And that questioning process will occur based on seniority of 
those Members in that category that are present with us today.
    With that, let me begin by formally inviting our former 
colleague and dear friend of mine, the Hon. Luis Gutierrez, 
Former Representative of Illinois' 4th District from Chicago.
    Congressman, you are recognized for 5 minutes, sir.
    Mr. Gutierrez.

 STATEMENT OF LUIS GUTIERREZ, FORMER REPRESENTATIVE, ILLINOIS' 
                4TH DISTRICT, CHICAGO, ILLINOIS

    Mr. Gutierrez. Thank you, Chairman Grijalva, Ranking Member 
Westerman, and members of the Committee. Puerto Rico is a 
nation, a colonized nation, but a nation nonetheless. As 
colonization began first under the Spanish Empire in 1493 and 
then under the U.S. imperialism in 1898, Puerto Rico's identity 
and nationality was born in resistance to colonialism that 
today continues to manifest itself rightly in the ongoing 
struggle for decolonization and for self-determination.
    Two brilliant and visionary Puerto Rican women have 
proposed a bill to end the over 122 years of U.S. colonization 
of Puerto Rico. Representatives Nydia Velazquez and Alexandria 
Cortez are the embodiment of Lola Rodriguez de Tio and Mariana 
Bracetti. Their bill outlines a careful and inclusive 
mechanism, whereby Puerto Ricans could establish a 
constitutional assembly to openly discuss, debate, and 
ultimately select a non-territorial status option.
    The Puerto Rico Self-Determination Act of 2021 represents 
the only genuine democratic legislation about Puerto Rico's 
status before the 117th Congress. I would like to say that it 
seems to me that democracy and the foundation is based on the 
pillars of allowing for dissent, allowing for different 
opinions, of allowing people to debate and discuss and for all 
of those opinions to be respected. The only bill that does that 
is the bill presented by Congresswoman Nydia Velazquez and 
Ocasio-Cortez. The statehood bill, we could not say the same of 
it.
    I just want to quickly go back to 2017. In 2017, there was 
a plebiscite in Puerto Rico. The Statehood Party controlled the 
House, the Senate, and the Governorship. They determined all of 
the definitions of all of the statuses and they defined all of 
the statuses. And guess what happened. They got a whopping 97 
percent. They did so good that they had to do a repeat 4 years 
later because no one thought--because not even Putin gets 97 
percent of the vote.
    But why did they get 97 percent of the vote? Mr. Chairman, 
members of the Committee, because people boycotted the process, 
because the people of Puerto Rico felt that this was an imposed 
process on them. And how did they demonstrate their rejection 
of the plebiscite? Through a boycott.
    Now, let's remember that is what Gandhi did to bring down 
the empire of Britain. That is what the Civil Rights Movement 
did under Martin Luther King to bring about justice and 
fairness and civil rights. It is what the farmworkers did in 
saying we will boycott the lettuce and Cesar Chavez led to 
fairer working conditions.
    It is a political tool that has been used by the resistance 
ad memoriam. And it is one that the Puerto Rican people used in 
2017. So, let's just discard that. Nobody believes they got 97 
percent, not even the proponents of the statehood bill. Why? 
They figured they had to do it all over again. And what did 
they do? They said next time we are going to force people to 
have to vote.
    But guess what they did. This time they said that the only 
thing we are going to allow the people of Puerto Rico to 
consider is statehood, yes or no. We are not going to allow 
them to consider independence. We are not going to allow them 
to consider free association. We are not going to allow them to 
consider any other option, non-territorial. That is what Nydia 
Velazquez's bill does because Nydia Velazquez's bill is based 
on the pillar of what? Respecting other people's opinion and 
bringing about consensus so that we can move forward, not the 
statehood bill.
    Listen. I think I might be only one of very few here that 
was actually in Puerto Rico during the last November election 
that we celebrated last November. Guess what. The people in 
Puerto Rico didn't take that referendum seriously. The 
Department of Justice didn't take the referendum seriously. 
They promised the people of Puerto Rico that if they voted for 
statehood and they won, that Congress would immediately allow 
them to enter as the next state.
    I know that is not what they say here, but there is a 
duality of what they say before the Congress of the United 
States and what they say on the island of Puerto Rico. I have 
lived there for the last 2\1/2\ years, and I have heard it 
plenty. I want everyone to understand that when they got a 
whopping 52 percent--wow, just imagine. You exclude all your 
opposition. You only give the people one alternative, your 
alternative, and you get a whopping 52 percent, not quite the 
mandate I think we would all consider, especially when you get 
to win because you are the only alternative.
    Nydia Velazquez and Ocasio-Cortez allow the people of 
Puerto Rico to define the status issues, non-territorial, in 
conjunction with this Committee and with the Congress of the 
United States so that when it finally happens, it happens for 
real. And Mr. Chairman, I campaigned for Biden. I campaigned 
for Biden all across the country. Biden won the election. Biden 
campaigned for President of the United States saying that he 
would not listen to that plebiscite, that he would ensure that 
the only plebiscite he would listen to is one that heard all 
the different voices. And that is in spite of the fact that he 
supports statehood for Puerto Rico.
    He said, no, I am only going to promote and accept and 
campaign on the basis of people of Puerto Rico being allowed to 
freely accept and promote a status that they determined, always 
and when multiple different versions and the referendum are put 
before the people of Puerto Rico. You know what? That is Nydia 
Velazquez's bill. Maybe we should amend it to the Biden bill 
because it reflects in its entirety what President Biden 
campaigned on for the people of Puerto Rico.
    Listen. The people of the United States of America elected 
that man, Biden. We should respect the will of the people of 
the United States of America and allow the people of Puerto 
Rico to have a free and open discussion. Two other things that 
I think are important. The proponents of statehood demand that 
we respect, according to them, their civil rights. But they do 
not respect the civil rights of the LGBT community in Puerto 
Rico.
    Homophobic slurs are abundant in the rhetoric of the 
Statehood Party in Puerto Rico. They do not respect the rights 
of women and her reproductive rights in the legislation in 
Puerto Rico. They recently had a bill in which they say we will 
protect the unborn. Everybody knows what that means. Women 
don't get to decide about their reproductive rights. They went 
even further, Mr. Chairman, members of the Committee, in saying 
to the LGBT community, apart from the homophobic slurs that are 
abundant, they went and said, you know what--We are going to 
debilitate the right of a gay couple to have a child when they 
reformed the legislation.
    This is a party that demands and says we come before the 
Congress of the United States demanding equal rights and 
demanding that our civil rights are protected, but they don't 
protect the civil rights and the human rights of the people of 
Puerto Rico. And lastly, let's be clear. The false premise on 
the basis of which the people of Puerto Rico--they said vote 
for statehood, and poverty will vanquish. Well, Mr. Chairman, 
we know since 1971, the 15th Congressional District of the 
State of New York has had a Puerto Rican in the leadership. 
That district is the iconic Puerto Rican district. And guess 
what? Unfortunately and tragically and sadly, it is the poorest 
congressional district of 435. They have lived statehood for 
the last 50 years, and yet they are still the poorest. 
Statehood does not eliminate poverty. What eliminates poverty 
is the fight against income inequality, raising the minimum 
wage, and fighting for social justice.

    [The prepared statement of Mr. Gutierrez follows:]

       Prepared Statement of Former Congressman Luis V. Gutierrez
                       on H.R. 2070 and H.R. 1522
    Thank you, Chairman Grijalva, Ranking Member Westerman, and members 
of the House Committee on Natural Resources for this invitation.
    Puerto Rico is a nation, a colonized nation. Its colonization 
began, first under the Spanish Empire in 1493, and then under the U.S. 
empire in 1898. Puerto Rican identity and nationality was born in 
resistance to colonialism, and today continues to manifest most 
brightly in the ongoing struggle for decolonization and self-
determination.
    Two brilliant and visionary Puerto Rican women have proposed a bill 
to end the over 122 years of U.S. colonization of Puerto Rico. 
Representatives Nydia Velazquez and Alexandria Ocasio-Cortez are the 
embodiment of Lola Rodriguez de Tio and Mariana Bracetti. Their bill 
outlines a careful and inclusive mechanism whereby Puerto Ricans could 
establish a constitutional assembly to openly discuss, debate, and 
ultimate select a non-territorial status option. The Puerto Rico Self-
Determination Act of 2021 (H.R. 2070) represents the only genuinely 
democratic legislation about Puerto Rico's status before the 117th U.S. 
Congress.
    The same cannot be said of the Puerto Rico Statehood Admission Act, 
which has the support of the pro-statehood party, the Partido Nuevo 
Progresista (PNP). The proponents of that bill claim that the Puerto 
Rican people, en masse, support Puerto Rico's admission into the union. 
But this is not true. While they are quick to report that statehood won 
the November 2020 referendum with 52% of the vote, they routinely omit 
that a mere 55% of the Puerto Rican electorate took part, one of the 
lowest turnouts in recent Puerto Rican history. Like the Statehood 
Admission Act, the referendum, excluded other non-territorial options. 
It is now clear that they must exclude to achieve a so-called 
``majority.'' You cannot lose if you allow no competition. The 2020 
referendum was the second referendum that the PNP steamrolled in the 
past legislative cycle. In 2017, the PNP put before the Puerto Rican 
people another exclusionary referendum on statehood, which received an 
unprecedented 97% for support. Even though they trumpeted this result, 
no one in Washington or Puerto Rico took it seriously because the 
referendum was boycotted by nearly 80% of the Puerto Rican electorate. 
Unable to advance their cause, these zealots for statehood tried a do-
over in 2020. In both cases, the PNP controlled house, senate, and 
governorship disregarded the principled opposition of the Popular 
Democratic Party, the Puerto Rican Independence Party, and other local 
political parties. Unsurprisingly, these referendums were widely seen 
by Puerto Rican civil society as an illegitimate and undemocratic 
imposition of annexation.
    The Partido Nuevo Progresista translates in English to the New 
Progressive Party. However, there is little progressive about this 
party. Although it paints itself in Washington as a champion of civil 
rights, the PNP has often stood against, and at times systematically 
opposed, civil rights in Puerto Rico. It has long been a bastion of 
religious fundamentalism and has contributed what one prominent LGBT 
rights advocate has rightly labeled, ``institutionalized homophobia.'' 
The PNP was responsible for delaying the extension of anti-
discrimination protections to the LGBT community and reluctant to 
oppose conversion theory. In 2017, as a Member of Congress, I denounced 
on the House floor the homophobic and transphobic slurs and policies of 
Thomas Rivera Schatz, the President of the Puerto Rican Senate and a 
leader of the PNP.
    Successive PNP governorships remained silent on the issue of 
femicide on the island and ignored the demands of women's rights and 
feminist movements. Only in January of this year, thanks to aggressive 
activism, did a PNP governor finally declare a state of emergency on 
femicides against cis- and trans-women. We cannot forget that the 
ousted and disgraced former governor Ricardo Rossello called former 
speaker of the New York City Council Melissa Mark Viverito a ``puta.''
    On matters of race, the PNP has little to celebrate. In 2020, a PNP 
representative used the N-word in the Puerto Rico chamber. After his 
remarks were challenged, one of his colleagues proposed a resolution 
that compared him to the great African American civil rights leader, 
Rosa Parks. It was not that long ago that Heidi Wys Toro, the advisor 
to Jenniffer Gonzalez, then the President of the Puerto Rico House of 
Representatives, unleashed a series of racist tweets against then 
President Barack Obama and first lady Michelle Obama. In one tweet in 
2012, Wys Toro wrote: ``Who cares? Take her to Burger King, buy her a 
sundae with double banana, take her to your homeland, Kenya!''
    The PNP's leadership, they wish us to forget, expressed fealty to 
Donald Trump time and time again. But the people of Puerto Rico have 
not forgotten how Governor Rossello co-signed Trump's minimization of 
the death toll after Hurricane Maria, in which likely over 4,000 
persons lost their lives. The fact that Trump called Mexican immigrants 
rapists and bad hombres, characterized Central American, Caribbean, and 
African countries ``shitholes,'' and embolden white supremacists did 
not stop the resident commissioner of Puerto Rico from becoming the 
Republican Chairwoman for Latinos for Trump.
    The PNP today knows that its electoral influence is waning. It will 
not soon recover from the historic protests that ousted then Governor 
Rossello in 2019, after a series of misogynistic, homophobic, and 
classist messages between him and his advisors were leaked. Perhaps 
without parallel, over one-third of Puerto Rico's population of three 
million at some point took to the streets in protest against Rossello 
and his corrupt administration. What informs the PNP's fanatical and 
fundamentally anti-democratic quest to impose statehood on Puerto Rico 
now is not its electoral strength but its fragility. Isn't ironic that 
Rossello, who was forced to flee the island as governor, was recently 
elected to become a paid lobbyist in Washington for Puerto Rican 
statehood to the tune of over $150,000. How is there plenty of money 
for this disgraced and ousted governor of Puerto Rico while thousands 
of children go without classrooms and thousands of families on the 
island go without roofs?
    Today, I doubt that proponents of statehood will address these 
issues. Instead, they will double down on myths they have grown fond of 
telling. I have already dispelled one of those myths--the claim that 
statehood has majority support on the island. Again, that is simply not 
true and must be openly questioned.
    Another myth the PNP has told is that statehood is a panacea for 
Puerto Rico. But it is not. Matters are much more complicated. If 
Puerto Rico were admitted today into the union, it would become, by 
far, the poorest of the 51 states. I once asked a Democratic 
Congressman from Mississippi on our way to vote, why he supported 
statehood? His response was: ``I'm tired of Mississippi being called 
the poorest state. That honor will now go to Puerto Rico.'' Even so, 
the PNP love to tell the Puerto Rican people that statehood would end 
poverty. As a matter of fact, a leading advocate for statehood and 
former resident commissioner and governor of Puerto Rico, the late 
Romero Barcelo authored a book titled, Statehood is for the Poor. Yet, 
they do not offer an explanation as to why Puerto Ricans in the 
diaspora remain among the poorest and most marginalized populations in 
U.S. society after having lived statehood for several generations. On 
many occasions, statehood supporters have told those of us who live in 
the U.S. that we have enjoyed the benefits of statehood by living in a 
state, benefits we would denied them. It saddens me that after 50 years 
of Puerto Rican congressional representation--Herman Badillo, Robert 
Garcia, Jose Serrano, and today Richie Torres--the 15th Congressional 
District in the Bronx remains the poorest district of all the 50 
states. Unsurprising, the 2020 referendum offered voters no details 
about what statehood would entail, economically or culturally. Unlike 
the Admission Act, the Puerto Rican Self-Determination Act explicitly 
demands that voters receive detailed information about each of the 
status options and their implications for Puerto Rican society.
    The PNP has also expressed a most damaging myth: Puerto Ricans and 
Puerto Rico are just any other group of Americans. They deny that 
Puerto Rico is a nation, that Puerto Ricans are a people. Kenneth 
McClintock, one of the senior statesmen of the PNP, recently made this 
point to me at a debate in Puerto Rico. It should then come as no 
surprise that the PNP is willing to sell off Puerto Rico, its beaches 
and historic buildings, to the highest binder and openly calls for the 
privatization of public utilizes and social services. Contrary to this 
self-hating and colonial position, I affirm that Puerto Ricans have a 
language, a history, a culture, and a proud legacy of resistance 
against both Spanish and U.S. colonization. If Puerto Rico were not a 
nation, what explains the swiftness of the response of Puerto Ricans in 
Chicago, Orlando, and New York after Hurricane Maria? Why do Puerto 
Ricans, wherever they happen to reside, raise their mono-starred flag 
and take pride in the athletic, musical, and intellectual achievements 
of their fellow Puerto Ricans. Throughout Puerto Rico and its diaspora, 
schools and colleges are named after individuals that affirmed Puerto 
Rican identity and self-determination, such as Julia de Burgos, Eugenio 
Maria de Hostos, Jose de Diego, and Albizu Campos. Eighty-four years 
after Rafael Hernandez Marin composed and penned ``Preciosa,'' the song 
still stirs the hearts of Puerto Ricans. I remember my parents singing, 
``Preciosa te llaman los bardos/Que cantan tu historia/No importa el 
tirano te trate/Con negra maldad.'' The same is true about the lament, 
``En Mi Viejo San Juan.'' Decades from now, our children may add Bad 
Bunny's ``Estamos Bien'' to this patriotic catalogue.
    We are a nation, and many of us refuse to relinquish or cancel our 
nationality, as the PNP seems to desire. All these myths rest on a 
peculiar and distorted history of Puerto Rico. It is a history that 
downplays the painful reality of U.S. colonization. There is no 
accounting for the history of political persecution, assassinations, 
massacres, imprisonments meted out to those that believe and struggle 
for Puerto Rican independence and self-determination. Look up ``La Ley 
de la Mordaza,'' which made it illegal to advocate and organize for 
Puerto Rican independence. They say nothing about the mass 
sterilization of Puerto Rican women or the bombing in Vieques, which 
has led to high levels of cancer among the population. Are we to forget 
that when the U.S. invaded Puerto Rico, our Caribbean archipelago had 
already secured a Charter of Autonomy between itself and Spain and that 
American conquistadors believed Puerto Ricans were incapable of self-
rule? Can we forget how the U.S. divided up the island among U.S. sugar 
barons and made English the official language? Can we forget how the 
Jones Act imposed U.S. citizenship on Puerto Rico, against the 
expressed will of the only Puerto Rican representative body on the 
island at the time, and how citizenship gave us the ``right'' to die in 
foreign wars? Should we forget the series of Organic acts and Supreme 
Court decisions that determined that Puerto Rico belonged to but was 
not a part of the United States, a position based racist and eugenicist 
ideas about a ``mongrel'' race?
    In conclusion, we cannot decolonize Puerto Rico without a genuinely 
democratic and inclusive process. That is precisely what Nydia 
Velazquez and Alexandria Ocasio-Cortez's Puerto Rico Self-Determination 
Act offers. We have had 500 years--over half of a millennia--of 
colonial oppression. However, today, the PNP opposes this measure and 
seeks to impose annexation and force assimilation. They claim to have a 
mandate but over two-thirds of the Puerto Rican electorate voted 
against their gubernatorial candidate. The PNP refuses to come to the 
table and collaborate, in good faith, with the other parties and 
political orientations to resolve the status of Puerto Rico. Instead, 
they have told many myths and falsehoods in airwaves in Puerto Rico and 
in the halls of Congress. Both Congress and Puerto Rico deserve better. 
Thankfully, we have an alternative path. I urge the U.S. Congress to 
endorse the Puerto Rican Self-Determination bill. It is a bill that can 
help ensure a better, more just, and decolonized future for Puerto 
Rico. And that is the future I will continue to fight for.
    Thank you, Chairman Grijalva, Ranking Member Westerman, and members 
of the House Committee on Natural Resources for your time and 
consideration.

                                 ______
                                 

    The Chairman. The gentleman yields. Thank you, and to the 
other folks, I will provide the courtesy of extending time.
    Let me now recognize Dr. Rafael Cox Alomar, Professor of 
Constitutional Law at the University of the District of 
Columbia. Doctor, you are recognized.

  STATEMENT OF RAFAEL COX ALOMAR, PROFESSOR OF CONSTITUTIONAL 
  LAW, UNIVERSITY OF THE DISTRICT OF COLUMBIA, WASHINGTON, DC

    Dr. Cox Alomar. Mr. Chairman, thank you so much. Due to the 
fact that the DOJ only recently published its legal opinions on 
both bills, I find it necessary to devote my opening statement 
to addressing some of the more salient conclusions put forward 
by the Department of Justice in its legal memoranda. 
Observation No. 1, while highly persuasive, DOJ opinions on 
territorial issues are not binding or controlling on Congress.

    Congress alone possesses constitutional authority to make 
all needful rules and regulations respecting the territories. 
When the framers assembled in Philadelphia in the summer of 
1787, they agreed to delegate the exclusive authority over the 
territories to the legislative branch, not to the executive 
branch. This Committee should be mindful of this nuance because 
it goes to the heart of America's separation of powers 
arrangement.

    Observation No. 2, along similar lines, the Supreme Court 
alone and not the DOJ is the final interpreter of the Federal 
Constitution. Chief Justice Marshall hinted that in Marbury v. 
Madison.

    Observation No. 3, international law in the words of 
Justice Gray in the Paquete Habana case is part of our law. 
Under both the United Nations charter and the International 
Convention on Civil and Political Rights, the United States is 
bound to de-colonize Puerto Rico if its people so choose. The 
Department of Justice's opinions leave this aspect of the 
conversation untouched.

    This is highly problematic because, after all, Puerto Rico 
came under U.S. sovereignty pursuant to an international 
treaty, namely the Treaty of Paris of 1899, and the United 
Nations has never fully relinquished its authority to revisit 
the Puerto Rico case per its authority under the charter, which 
is an international agreement which was ratified by the U.S. 
Senate.
    Observation No. 4, while it is true as the Department of 
Justice so addressed, that the territory is a constitutional 
option, nothing in the Constitution requires its inclusion in 
the ballot. The inclusion or rejection of the territorial 
option is a matter of policy. It is not a matter of 
constitutional law.
    Observation No. 5, although free association shares 
important foundational elements with full independence, it must 
be distinguished from independence in significant respects as 
the International Court of Justice has intimated in the Namibia 
and Western Sahara cases. No one could possibly suggest that 
Palau or the Republic of the Marshall Islands are on an equal 
footing with East Timor, now fully independent from Indonesia, 
or that Greenland's legal status is identical to that of 
Denmark or that Curacao or St. Martin enjoy the same political 
arrangement as the independent Republic of Suriname, also a 
former Dutch colony. Under free association, Puerto Rico would 
be sovereign in an international sense but still be bound to 
the United States on the basis of a unique relationship carved 
out by both contracting parties in light of their geostrategic 
needs and realities.
    This Committee should be well-advised to look at the 
various free association arrangements around the world, in 
particular the British, the Dutch, the Danish, and the Finnish. 
There is no one-size-fits-all approach with respect to free 
association as the DOJ appears to suggest.
    Observation No. 6, and finally, the DOJ's contention that 
PROMESA is not incompatible with statehood raises very tough 
questions of first impression under the so-called Equal Footing 
Doctrine. In the final analysis, if history has taught us 
anything, it is that the resolution of the Puerto Rico status 
conundrum is not so much a constitutional issue as it is an 
issue of political will or lack thereof. Thank you so much, Mr. 
Chairman.

    [The prepared statement of Dr. Cox Alomar follows:]
       Prepared Statement of Rafael Cox Alomar, Professor of Law,
David A. Clarke School of Law, University of the District of Columbia, 
                             Washington, DC

                            i. introduction
    Chairman Grijalva, Ranking Member Westerman, and distinguished 
members of the Committee on Natural Resources. Thank you for inviting 
me to testify today.
    I am a professor of law at the David A. Clarke School of Law of the 
University of the District of Columbia in Washington, DC, where I teach 
Constitutional Law and Public International Law, among other topics. 
Furthermore, this coming Winter I will teach a course on American 
Constitutionalism and the Insular Cases at Harvard Law School. I am, 
moreover, the author of The Puerto Rico Constitution (Oxford University 
Press, 2022) (forthcoming) and Revisiting the Transatlantic Triangle: 
The Constitutional Decolonization of the Eastern Caribbean (Ian Randle 
Publishers, 2009). I am also the co-author of The Law of the U.S. 
Territories (Carolina Academic Press, 2023). I appear regularly as a 
constitutional law analysist for CNN En Espanol, France 24, and NTN24.
  ii. congress' constitutional power to chart a decolonizing path for 
                              puerto rico
    The time is ripe for Congress to take stock of the seminal lessons 
stemming from the long string of failed attempts at disentangling 
Puerto Rico's political status conundrum. The first lesson that must be 
clearly understood is that the Constitution vests in Congress plenary 
power to chart, along with the people of Puerto Rico, a path for 
achieving the island's decolonization. The language chosen by the 
founders in Philadelphia leaves little room for equivocation: ``The 
Congress shall have power to dispose of and make all needful rules and 
regulations respecting the territory or other property belonging to the 
United States.'' (U.S. Const. Art. IV, Sec. 3, Cl. 2). Thus, it is not 
incumbent on the judiciary or the executive branches to articulate a 
decolonizing solution for Puerto Rico. Only Congress bears that 
constitutional responsibility. Decolonizing Puerto Rico is both a moral 
and legal imperative, consistent with the corpus of anti-colonial 
values leading the founders to overthrow (in the words of Jefferson) 
George III's ``absolute tyranny'' \1\ in order to form a ``more perfect 
union.'' \2\ Decolonizing Puerto Rico, moreover, is consistent with the 
treaty obligations of the United States pursuant to the International 
Convention on Civil and Political Rights \3\ and the U.N. Charter.\4\
---------------------------------------------------------------------------
    \1\ Refer to the text of the 1776 Declaration of Independence.
    \2\ U.S. Const. Preamble.
    \3\ 99 U.N.T.S. 171 (1966). Note that the U.S. Senate ratified the 
Convention on Civil and Political Rights on June 8, 1992--subject to a 
series of reservations. Refer to 138 Cong. Rec. S4781-01 (1992). Of 
significance is the fact that the U.S. Senate, in exercising its 
constitutional prerogative of advice and consent, explicitly 
established that Articles 1 through 27 of the Convention are not self-
executing. This notwithstanding, the United States is legally bound to 
the self-determination principles enshrined in the Convention.
    \4\ Refer to Articles 2, 55 and 56 of the U.N. Charter. Note that 
the U.S. Senate ratified the U.N. Charter on July 28, 1945.
---------------------------------------------------------------------------
       iii. puerto rico presents a unique territorial case-study
    The second lesson that must be clearly understood is that the case 
of Puerto Rico finds no parallel in the territorial architecture of the 
United States.
    Puerto Rico is not the District of Columbia nor is it similarly 
situated to the Native American nations.
    The District is a community culturally and linguistically 
intertwined to the mainland, devoid of a sovereignty movement, which 
came to life upon the founding of the Republic per the strictures of 
Article I, Section 8 of the federal Constitution.
    Puerto Rico is unlike the Virgin Islands. By the time the United 
States signed the treaty of cession with the Danish Kingdom in 1916,\5\ 
the Virgin Islands were subject to an excessively centralized colonial 
system devoid of any quantum of self-government under the Danish 
colonial statute of 1863.\6\ Puerto Rico, to the contrary, was a fully 
autonomous overseas province of the Spanish Kingdom \7\ upon the U.S.'s 
invasion in 1898; remaining to this day a more complex political jigsaw 
puzzle than its immediate neighbors--hostage, as it is, to a wide 
universe of ideological movements on constant collision against each 
other.
---------------------------------------------------------------------------
    \5\ For the ratification instruments refer to 39 Stat. 1706 (1917). 
Note that the U.S. Senate ratified the cession treaty with Denmark on 
September 7, 1916. The Danish Kingdom, for its part, followed suit on 
December 22, 1916.
    \6\ For the metes and bounds of the 1863 Danish colonial 
legislation see, for instance, Virgin Islands: Hearing, Committee on 
Insular Affairs, H.R. 7183 and H.R. 8517 (1926), 1 et seq.
    \7\ Carta Autonomica de 1897 (Charter of Autonomy of 1897), issued 
by Spanish Queen Maria Cristina de Habsburgo y Lorena, on the advice of 
her Council of Ministers, on November 25, 1897.
---------------------------------------------------------------------------
    On that same token, Puerto Rico is not Guam. While the Spanish 
Crown transferred its sovereignty over both jurisdictions to the United 
States pursuant to the 1898 Treaty of Paris,\8\ in Guam there was no 
civil government until 1950 \9\ and it has, since then, been governed 
``not by a formal constitution but by an organic act'' \10\ of 
Congress--free from the ideological balkanization that has torn apart 
Puerto Rico's political milieu since 1898.
---------------------------------------------------------------------------
    \8\ 30 Stat. 1754 (1898).
    \9\ See Arnold Leibowitz, Defining Status (2013), 307.
    \10\ 48 U.S.C. Sec. Sec. 1421-24.
---------------------------------------------------------------------------
    Puerto Rico, furthermore, is not American Samoa. Since their 
annexation to the United States, following the signing of the 1899 
Tripartite Convention among Great Britain, Germany and the United 
States,\11\ the people of American Samoa have plodded along a different 
territorial path than Puerto Rico--devoid of U.S. citizenship, governed 
by an organic act of Congress and still in the United Nations' List of 
Non-Self-Governing Territories.\12\
---------------------------------------------------------------------------
    \11\ For the text of the Tripartite Convention, concluded on 
November 7, 1899, see Malloy, Treaties, Conventions, International 
Acts, Protocols and Agreements between the United States and Other 
Powers 1776-1909, Vol. II, 1576 (1910).
    \12\ Puerto Rico was removed from the U.N.'s List of Non-Self-
Governing Territories in 1953. Refer to G.A. Res. 748 (VIII), U.N. 
GAOR, 8th Sess., Supp. No. 17, at 25, U.N. Doc A/2630 (Nov. 27, 1953).
---------------------------------------------------------------------------
    Puerto Rico, moreover, is unlike the Commonwealth of the Northern 
Mariana Islands and, most noticeably, dissimilar to the Republic of the 
Marshall Islands, the Republic of Palau, and the Federated States of 
Micronesia. These jurisdictions, originally placed under the fiduciary 
care of the U.N. Trust Territory of the Pacific Islands (which came to 
life in 1947 under the aegis of the U.N. Security Council), deserve 
separate analysis. By the time the U.N. Security Council appointed the 
United States as their trustee,\13\ Puerto Rico was at the verge of 
electing its own governor (pursuant to the 1947 Elective Governor Act) 
\14\--soon to convene a Constitutional Convention for drafting an 
internal constitution of its own making.\15\
---------------------------------------------------------------------------
    \13\ Refer to the statement made by the U.S. Representative to the 
U.N.'s Security Council on presentation of the Trust Agreement, 
available at 2 U.N. SCOR (113th mtg.) 410 (1947).
    \14\ 61 Stat. 770 (1947).
    \15\ 64 Stat. 319 (1950) (most commonly known as Public Law 600). 
Public Law 600 was enacted ``in the nature of a compact'' between 
Congress and the people of Puerto Rico. Following its ratification in a 
local referendum held on June 4, 1951, the constitution-making process 
began in earnest. Delegates to the Constitutional Convention were 
elected on August 27, 1951. The newly drafted Constitution, while 
ratified by the people of Puerto Rico on March 3, 1952, was 
unilaterally modified by Congress--which finally ratified it on July 3, 
1952. The Commonwealth's Constitution was finally inaugurated on July 
25, 1952. PROMESA has significantly eviscerated the vitality of the 
1952 Constitution.
---------------------------------------------------------------------------
    Against this background, it is safe to conclude that history, 
geography, culture, language, politics, demographics, and economics 
have conspired to make Puerto Rico a unique case study within the 
U.S.'s wider territorial tapestry. Thus, Puerto Rico's unique location 
within the U.S.'s territorial topography requires a unique decolonizing 
solution--not inconsistent with the United States' constitutional 
arrangement, but carefully designed to address the unique 
characteristics of the Puerto Rican landscape.
     iv. designing a binding procedural mechanism is of the essence
    All federal initiatives for disentangling Puerto Rico's colonial 
knot have so far foundered, in no small measure, due to flawed 
procedural mechanisms. That is why there can be no serious talk of 
self-determination without first discussing process.
    Therein lie the failed experiences of the 1959 Fernos-Murray 
bill,\16\ the 1963 Aspinall bill \17\ (leading President Johnson to 
appoint the failed status commission of 1966),\18\ the 1973 Ad Hoc 
Advisory Group on Puerto Rico's Status appointed by President 
Nixon,\19\ the 1989-1991 Bennett Johnston-Ron De Lugo bills,\20\ the 
1997 Young bill,\21\ along with the more recent bills authored by the 
island's resident commissioner and various members of the U.S. 
House.\22\ Furthermore, none of the 5 local plebiscites held in the 
island prior to 2020 (namely in 1967,\23\ 1993,\24\ 1998,\25\ 2012 \26\ 
and 2017 \27\) have led anywhere. And the 2020 ``statehood yes or no'' 
vote will also die a quiet death much like its predecessors.
---------------------------------------------------------------------------
    \16\ A bill to provide amendments to the compact between the people 
of Puerto Rico and the United States, H.R. 5926, 86th Cong., 1st sess. 
(1959).
    \17\ To establish a procedure for the prompt settlement, in a 
democratic manner, of the political status of Puerto Rico, H.R. 5945, 
88th Cong., 1st sess., (1963).
    \18\ United States-Puerto Rico Commission on the Status of Puerto 
Rico, Report of the United States-Puerto Rico Commission on the Status 
of Puerto Rico (Washington, DC.: Government Printing Office, 1966).
    \19\ See Report of the Ad Hoc Advisory Group on Puerto Rico, 
October 1, 1975. Also consult H.R. 11200, 121 Cong., 1st sess. (1975) 
(To approve the Compact of Permanent Union between Puerto Rico and the 
United States). Memorandum from Jim Cannon to President Gerald Ford 
(Office of the Domestic Policy Advisor, October 28, 1976) (Ford 
Presidential Library).
    \20\ To provide for a referendum on the political status of Puerto 
Rico, S. 712, 101 Cong., 1st sess. (1989); Puerto Rico Status 
Referendum Act, S. 244, 102 Cong., 1st sess. (1991); To enable the 
people of Puerto Rico to exercise self-determination, H.R. 4765, 101 
Cong., 2nd sess. (1990).
    \21\ United States-Puerto Rico Political Status Act, H.R. 856, 
105th Congress (1997).
    \22\ H.R. 2070 (along with its sister bill in the U.S. Senate) and 
H.R. 1522.
    \23\ July 23, 1967: ``Enhanced'' Commonwealth 60.41%, Statehood 
38.98%, Independence 0.60%. Note that the Puerto Rico Independence 
Party boycotted the 1967 plebiscite.
    \24\ November 14, 1993: ``Enhanced'' Commonwealth 48.89%, Statehood 
46.64%, Independence 4.47%.
    \25\ December 13, 1998: None of the Above 50.46%, Statehood 46.63%, 
Independence 2.55%, Free Association 0.29%, Territorial Status 0.06%.
    \26\ 54% voted against the territorial status quo. A sizable 
proportion of voters abstained from casting their ballots on the 
plebiscite's second question, following the Popular Democratic Party's 
boycott of that aspect of the local process. Against that background, 
Statehood 61.16%, so-called Estado Libre Asociado Soberano 33.34%, 
Independence 5.49%.
    \27\ June 11, 2017: following the boycott of the Popular Democratic 
Party and the Independence Party, voter turnout plummeted to 23%. 
Against that background, Statehood received 97% of those ballots cast.
---------------------------------------------------------------------------
    Those who forget the lessons of history, in the words of the 
Spanish essayist Jorge Santayana y Borras, are condemned to repeat 
their mistakes. Thus, fresh thinking is of the essence. The path 
leading to local (or criollo) referenda must be irrevocably discarded. 
These are but exercises in the dark, not binding on Congress. Under 
this mechanism, the people of Puerto Rico would cast their ballots 
without knowing what each formula entails. How can the people of Puerto 
Rico seriously exercise their inalienable right to self-determination 
in a referendo criollo if they do not know for what they are voting 
for? It is well settled that defining the substantive scope of the 
status formulas requires Congress' active participation in the process. 
Thus, from a procedural perspective, there are only 2 viable options 
for Puerto Rico. On the one hand, a federal plebiscite (with detailed 
definitions already agreed upon with Congress) and, on the other, a 
status convention (also referred as the constitutional convention). It 
is essential to note that these procedural options are not, 
necessarily, mutually exclusive. The federal plebiscite option would 
require, moreover, voting resolutions in Congress for the expedited 
consideration, and subsequent execution, of the results. Due to the 
tight timetable of biannual congressional elections, putting in place 
the expedited consideration mechanism will infuse the necessary 
continuity to a process that might take several years. The option of 
the federal plebiscite, however, would be patently incomplete without a 
congressional bilateral negotiation commission insulated from the 
vagaries of congressional elections and local politics. Because the 
life of the status convention would be independent from Congress' and 
Puerto Rico's electoral cycles, it achieves the twin goals of stability 
and continuity more effectively than the federal plebiscite option. The 
Committee on Natural Resources would be well advised to seriously 
consider the status convention approach delineated in the Velazquez-
Ocasio Cortes Bill.
    Far from silencing those voices opposing statehood, the Velazquez-
Ocasio Cortes Bill opens the door to an inclusive and democratic 
mechanism for all ideological movements. Pursuant to H.R. 2070, 
Congress acknowledges the inherent authority of Puerto Rico's 
Legislature to call a status convention and, moreover, commits itself 
to consider the self-determination option chosen by the people of 
Puerto Rico in a final status referendum. This new procedural approach 
avoids the mistakes of the past, while opening the door to in-depth 
deliberations and negotiations between the people of Puerto Rico and 
the political branches in Washington. Far from un-American, the status 
convention is the most American of all plausible procedural mechanisms.
    v. congress ought not act upon the results of the november 2020 
                               referendum
    The November 2020 referendum was not a legitimate exercise of self-
determination. Puerto Rico Law No. 51 of May 16, 2020 was an empty 
statute. It did not define a path to statehood. It failed to describe 
the transitional period for the application to Puerto Rico of the Tax 
Uniformity Clause, which requires that ``all Duties, Imposts and 
Excises shall be uniform throughout the United States.'' (U.S. Const. 
Art. I, Sec. 8, Cl. 1). Puerto Rico Law No. 51 left the people of 
Puerto Rico (and those legal persons established under the laws of the 
Commonwealth) in the dark, with respect to their tax liabilities under 
statehood. Nowhere did it address the phasing out of the various tax 
preference programs currently in full force and effect in Puerto Rico. 
Equally importantly, Puerto Rico Law No. 51 remained silent as to which 
specific provisions of the Puerto Rico Constitution, and the Federal 
Relations Act, might be preempted by the full application to Puerto 
Rico of the federal Constitution; nor did it enumerate the federal 
statutes currently not applying to Puerto Rico but that would apply to 
the island under the federal Constitution's equal footing requirement. 
Similarly, the cultural, linguistic, and debt-restructuring aspects of 
the equation were left untouched. As Deputy Attorney General Jeffrey 
Rosen correctly concluded, Puerto Rico Law No. 51 is not compatible 
with the Constitution, laws, and policies of the United States.\28\ It 
is a ``decidedly pro-Statehood'' \29\ bill, designed to further the 
governing party's political interests at the 2020 local election. 
Unsurprisingly, the referendum was held on election day--namely 
November 3, 2020.
---------------------------------------------------------------------------
    \28\ Letter authored by Deputy Attorney General Jeffrey Rosen, 
dated July 29, 2020.
    \29\ Id.
---------------------------------------------------------------------------
                 vi. non-territory status options \30\
---------------------------------------------------------------------------
    \30\ Mindful that the Committee on Natural Resources has requested 
an opinion with respect to status options outside the reach of the 
Territory Clause, the author has refrained from discussing in extenso 
whether it is constitutionally viable for Congress and the people of 
Puerto Rico to enhance their current relationship through the 
devolution of further political authority to Puerto Rico within the 
federal framework. Pursuant to this formulation, sovereignty would not 
be transferred to Puerto Rico, but the island would no longer be 
subject to Congress' plenary powers under the Territory Clause. The 
constitutionality (let alone the desirability from a public policy 
perspective) of Congress' partial disposition of its powers under the 
Territory Clause has been the subject of intense debate. The DOJ's 
answer to this legal question has been far from consistent. (Compare 
the legal opinions rendered by the DOJ in 1960, 1963, 1975 with the 
ones issued in 1991 and 1994.) This notwithstanding, the recent 
concurrent opinion of Justice Sonia Sotomayor in Financial Oversight 
and Management Board v. Aurelius, 590 U.S. ____ (2020), bringing to the 
fore the glaring discontinuities and inconsistencies surrounding this 
debate, justifies revisiting this legal issue in light of Justice 
Sotomayor's observations.
---------------------------------------------------------------------------
    Non-Territory Status options, by definition, are not susceptible to 
Congress' plenary powers under the Territory Clause (U.S. Const. Art. 
IV, Sec. 3, Cl. 2). Clearly, independence is a non-territory status 
option. Needless to say, upon the proclamation of the Republic of 
Puerto Rico all obligations and responsibilities of the U.S. 
Government, arising under the 1898 Treaty of Paris, shall cease. 
Sovereignty, in the international sense, will devolve to the people of 
Puerto Rico. Independence, however, will require a bilateral transition 
commission addressing a host of seminal matters pertaining to the 
public debt, monetary policy, foreign relations, defense and security, 
international commerce, accession to multilateral financial 
institutions, citizenship, the phasing-out of a number of federal 
programs, among others. The precedents of Cuba (1902) \31\ and the 
Philippines (1946) \32\ are inapposite to the Puerto Rican context. The 
uniqueness of the Puerto Rican landscape, bound to the United States 
through common citizenship in the midst of a highly interdependent 
global economy, will require a different transitional approach to the 
one applied in the cases of Cuba and the Philippines.
---------------------------------------------------------------------------
    \31\ Note that Cuba never belonged to the United States. Pursuant 
to a Joint Resolution of Congress (commonly referred as the Teller 
Amendment), the United States had made it clear that the people of Cuba 
``are, of right ought to be, free and independent.'' H.J. Res. 233 
(1898). In the aftermath of the Spanish-American War, the United States 
formally occupied Cuba from January 1, 1899 until May 20, 1902. Yet, 
the process leading to the drafting of the 1901 Cuban Constitution, 
including the incorporation of the so-called Platt Amendment to Cuba's 
constitutional text, was heavily influenced by the United States.
    \32\ The 1916 Philippines Organic, different from the 1917 Jones 
Act, did not extend U.S. citizenship to the nationals of the Filipino 
archipelago.
---------------------------------------------------------------------------
    Statehood is yet another non-territory status option. It is well 
settled that states are sovereign entities within the Republic's 
federal design. Each state accedes to the Union on an equal footing 
with its sister states, retaining for itself an inviolable quantum of 
sovereignty, as Madison acknowledged in his drafting of the 10th 
Amendment. State sovereignty, moreover, is not commensurate to 
``international sovereignty.'' As the Supreme Court has suggested on 
various occasions, states are ``autonomous political entities, 
sovereign over matters not ruled by the Constitution.'' \33\ The path 
to statehood, as suggested above, will also require a well-defined 
transitional period. If Puerto Rico chooses to bear the economic 
burdens of statehood, it must do so on the basis of an informed 
decision.
---------------------------------------------------------------------------
    \33\ Rodriguez v. Popular Democratic Party, 457 U.S. 1, 8 (1982).
---------------------------------------------------------------------------
    Besides independence and statehood, free association is the third 
non-territorial option. Seldomly explored, the concept of free 
association deserves serious analysis. Free association, as a legal 
construct, is not foreign to federal constitutional law or to public 
international law. Yet, neither legal order offers detailed guidance on 
the substantive content of free association. Bearing in mind that the 
decisions of the International Court of Justice (ICJ) constitute 
sources of public international law,\34\ it is worth noting that in its 
advisory opinion in the case of Western Sahara \35\ the ICJ found that 
``free association with an independent state'' was a legitimate 
decolonizing formula. U.N. Resolution 1541(XV) throws little light on 
the metes and bounds of free association. It only establishes that free 
association must be ``the result of a free and voluntary choice by the 
people of the territory concerned,'' that the associated territory 
retains for itself both ``the freedom to modify its status through the 
expression of its will,'' and ``the right to determine its internal 
constitution without outside interference.'' \36\ Public international 
law does not explicitly establish any further requirements. Thus, it is 
up to the contracting parties to carve out a free association model not 
inconsistent with their respective domestic legal orders and public 
policy imperatives. Under a free association arrangement, Congress 
would relinquish its sovereignty over Puerto Rico--devolving it to the 
people of Puerto Rico. Consequently, the United States' international 
obligations, under the 1898 Treaty of Paris, would come to an end. 
Simultaneously, Puerto Rico (in the exercise of its newly devolved 
sovereignty) and the United States (through the political branches' 
exercise of their constitutional powers under the Treaty Clause (U.S. 
Const. Art. II, Sec. 2)) shall enter into a new constitutional order--
where Puerto Rico would reserve for itself authority over some matters, 
while delegating to the United States authority over other areas. 
Defining the various fields of legal responsibility (i.e. economic 
relations, foreign affairs, defense, and security) will require in-
depth study and comprehensive negotiation between the parties. The 
final associational agreement, moreover, would be embodied in an 
international treaty subscribed by both contracting parties. Whether 
the treaty of association ought to be self-executing or non-self-
executing, requiring Congress to enact enabling domestic legislation, 
should be determined by the parties in the course of their 
negotiations. The Department of Justice's (DOJ) superficial reading of 
free association must be taken to task. Seeking refuge in the compacts 
of free association of the Marshall Islands, Palau and the Federated 
States of Micronesia with the United States, the DOJ has tossed aside 
free association as a ``type of independence.'' \37\ This uncritical 
approach has led to a rather skewed notion of how to superimpose to the 
Puerto Rican landscape a free association arrangement. A close perusal 
of the various free association models available around the globe 
renders the DOJ's analysis patently incomplete. There is no fixed 
approach to free association nor is there a fixed model. Each model is 
autochthonous, thus, adjusted to the specific realities of the 
partners. Construing a viable free association model for Puerto Rico 
requires a thorough exploration of the ways in which other 
jurisdictions have structured similar arrangements. Contrary to 
conventional wisdom, the Micronesian model is inapposite to the Puerto 
Rican scenario. The Micronesian archipelago, unlike Puerto Rico, was 
part of the territories entrusted to the U.N. Trust Territory of the 
Pacific Islands in the early stages of the postwar period. 
Consequently, its politico-constitutional relationship with the United 
States is completely different to Puerto Rico's. As a threshold matter, 
no common citizenship binds the Micronesian archipelago to the United 
States, while issues pertaining to geography, demographics, culture, 
language, and economics further sets it apart from Puerto Rico. Against 
this background, it is essential to explore the associational models 
engineered in other jurisdictions. More specifically, the associational 
models articulated by Denmark,\38\ Finland,\39\ the Netherlands,\40\ 
and Britain \41\ in decolonizing their territorial peripheries deserve 
special attention. The process of carving out an associational model 
for Puerto Rico will necessarily entail resolving complex legal and 
policy issues. In so doing, Congress should not limit itself to the 
``one size fits all'' approach the DOJ proposes with respect to free 
association.
---------------------------------------------------------------------------
    \34\ For the sources of public international law see, for instance, 
Article 38 of the Statute of the International Court of Justice. Also 
refer to Section 102 of the Restatement (Third) of the Foreign 
Relations Law of the United States.
    \35\ Western Sahara, Advisory Opinion, I.C.J. Reports 1975.
    \36\ Declaration Guiding the Determination of Self-Government, G.A. 
Res. 1541 (XV) (Annex) of December 15, 1960, 15 U.N. GAOR, Supp. (No. 
14), U.N. Doc. A/4684.
    \37\ See, for instance, Report by the President's Task Force on 
Puerto Rico's Status (Washington, D.C.: White House, 2011), 25.
    \38\ Act on Greenland Self-Government, Act. No. 473 of June 12, 
2009 (Green.).
    \39\ Act on the Autonomy of Aland, 1991/1144 (1991) (Fin.).
    \40\ Statuut voor het Koninkrijk der Nederlanden [Charter for the 
Kingdom of the Netherlands], Stb. 1954 (Neth.).
    \41\ Statute of Westminster, 1931, 22&23 Geo. 5, c. 4 (Eng.). Also 
consult the West Indies Act of 1967, 11&12 Eliz. 2, c. 4 (Eng.).
---------------------------------------------------------------------------
                            vii. conclusion
    The resolution of Puerto Rico's status is not so much a legal 
issue, as it is a political one. This is not a legal question for the 
U.S. Supreme Court to decide, as the high court itself recently 
intimated in Financial Oversight and Management Board v. Aurelius,\42\ 
but rather a political question that will require a political 
compromise between Congress and the people of Puerto Rico. Achieving 
this goal necessarily requires a new procedural approach. The time for 
non-binding local plebiscites is over. Only a status convention, with 
equitable participation from all Puerto Rican stakeholders, will 
command sufficient legitimacy in Washington, San Juan, and around the 
world, to jumpstart Puerto Rico's decolonization. Because H.R. 2070 
offers the appropriate procedural vehicle for achieving that aim within 
the context of an inclusive political mechanism, this Committee ought 
to support it.
---------------------------------------------------------------------------
    \42\ Financial Oversight and Management Board v. Aurelius, 590 U.S. 
____ (2020).

---------------------------------------------------------------------------
                                 ______
                                 

    The Chairman. The gentleman yields. Thank you very much, 
Doctor.
    The next witness is the Director of the Caribbean Institute 
of Human Rights in San Juan, Puerto Rico, Ms. Annette Martinez-
Orabona. Five minutes are yours.

  STATEMENT OF ANNETTE MARTINEZ-ORABONA, DIRECTOR, CARIBBEAN 
        INSTITUTE OF HUMAN RIGHTS, SAN JUAN, PUERTO RICO

    Ms. Martinez-Orabona. Good afternoon, Chairman Grijalva, 
and members of the Committee. My name is Annette Martinez-
Orabona, and I am an international human rights law professor 
at the Inter American University of Puerto Rico School of Law. 
This is not the first time that Congress engages in a 
discussion of the political future of Puerto Rico. But one 
fundamental aspect that is repeatedly missing in this 
discussion is that self-determination is first and foremost a 
fundamental human right, which is well-defined by specific 
international norms.
    This set of norms has been accepted by the United States 
when it signed and ratified one of the most important 
international human rights treaties, the International Covenant 
on Civil and Political Rights, which very clearly establishes, 
under Article 1, the right to self-determination. This means 
that self-determination is not a matter of purely internal or 
domestic jurisdiction.
    It is actually a matter of international relations, and it 
is important to emphasize this particular difference. This is 
not a matter of minority rights, but a matter of a distinct 
people with a distinct identity, a distinct territory under 
colonial rule for over 123 years.
    H.R. 2070 actually does include this recognition of the 
international law as a matter of importance for this 
discussion. What this also means is that administrative states 
are not free to decide when and how self-determination is to be 
exercised. Under international law, self-determination is a 
legal entitlement recognized to peoples in colonized 
territories. And its valid exercise entails obligations of 
conduct and obligations of outcome.
    In terms of the duty of conduct, we are talking about 
conditions present in the territory at the time of the exercise 
of self-determination, as well as the process itself, which 
needs to be transparent, participatory, and it needs to reflect 
the clear understanding of what the options are and the level 
of participation that leaves no doubt as to the will of the 
people.
    And it is important to recognize as well that the 
conditions present in a territory may affect the legitimacy of 
a process. A process of decolonization should not be presented 
as a desperate possibility of survival. Administrative states 
have a responsibility of a fiduciary character, which requires 
the adoption of measures designed to advance the economic, 
social, and cultural freedoms of the peoples in these 
territories.
    Conditions of economic freedom and stability are necessary 
so that political self-determination does not become a futile, 
invalid exercise. In other words, economic dependency, poverty, 
and starvation may inhabilitate the free exercise of this 
right. In this sense, I may say the imposition of the Financial 
Oversight Board was a step in the wrong direction and runs 
contrary to the international obligations of the state which 
require more independent, democratic means of governance, not 
less.
    Secondly, decolonization is a matter that requires an 
environment of mutual trust where both parties interact as 
equals, each exercising their full autonomy and sovereign 
powers. In that sense, the United States needs first to rectify 
the record of what happened in 1952, providing accurate and up-
to-date information on the current status of Puerto Rico to the 
United Nations and secondly, recognizing that the people of 
Puerto Rico are a distinct nation with a sovereign right to 
self-determination.
    In terms of the options identified under international law 
as acceptable decolonization outcomes, there are three very 
straightforward, clear alternatives which are independence, 
free association, and integration with another state. It should 
be clear, though, that the right to self-determination does not 
allow for a colonial relationship to remain intact. This means 
that in the case of Puerto Rico, any inclusion of an option of 
a territorial character that will maintain the status quo is 
not a valid option of decolonization. International law 
explicitly prohibits colonialism by consent.
    In the case of integration, the international community has 
always been suspicious of a non-self-governing territory's 
integration into its former colonial power for very obvious 
reasons. In fact, of the approximately 100 non-self-governing 
territories that have been placed on the U.N. list since 1945, 
around 70 have gained independence and integration with the 
former colonial power.
    To finalize, I would like to add that any process of 
decolonization must be accompanied by a transitional plan that 
expels out the international responsibility of the United 
States and guarantees measures of redress with concrete 
reparations for the multiple human rights violations committed 
during its colonial rule.
    Thank you.

    [The prepared statement of Ms. Martinez-Orabona follows:]

  Prepared Statement of Annette M. Martinez-Orabona, Adjunct Professor
of International Public Law, Inter-American University of Puerto Rico, 
                             School of Law
    Good afternoon, Chairman Grijalva and members of the House 
Committee on Natural Resources, my name is Annette Martinez-Orabona, 
and I am an International Human Rights lawyer and Professor at the 
Inter-American University of Puerto Rico, School of Law. I hereby 
submit my written statement on the international public law aspects of 
decolonization and the United States' responsibility to respect and 
guarantee Puerto Rico's right of self-determination, as a fundamental 
aspect of human rights law.
I. Introduction
    For decades, there have been numerous discussions and debates on 
the political future of Puerto Rico, some of which have led to local 
referendums, legislative efforts, a presidential task force, many 
congressional hearings, among others, and none of them have provided 
any meaningful result.
    It is my view that these efforts have been flawed from the start. 
All of them repeatedly ignored a basic and fundamental aspect of 
political determination in international law. That is, that the 
exercise of self-determination is first and foremost an exercise of 
sovereignty, and should be guided by the international normative 
framework on decolonization.
    Additionally, in the case of Puerto Rico, as well as has happened 
with many former colonies, the exercise of colonial rule has been 
accompanied with the erosion of the rule of law, allowing for the 
unilateral exploitation of natural resources, the imposition of 
inadequate economic standards, commercial impediments, land 
appropriation, and environmental degradation, which often results in 
internal displacement, contamination, discriminatory practices, 
inequality, poverty and overall conditions of vulnerability for present 
and future generations.
    The reason why I am including these two areas in my exposition is 
because they are inextricably interrelated. The fact that the United 
States has limited Puerto Rico's exercise of its own economic and 
sovereign powers has led to a distinct result with regard to the 
practice of self-determination, but it has also had an effect on the 
human rights and the dignity of all Puerto Ricans. Colonial rule, only 
operates for the benefit of the colonial power, and that is why the 
practice of colonialism has been strongly rejected by international 
law.
II. The Right to Self-Determination, Decolonization and Acceptable 
        Options for a Non-Territory Status
    The right to self-determination has many manifestations, but its 
most robust legal content is found in the decolonization context. Under 
international law, self-determination is a legal entitlement recognized 
to all colonized peoples. This right is considered a general principle 
of international law, as well as a customary norm that has been 
expressly incorporated into multiple human rights treaties. 
Furthermore, the International Court of Justice has reiterated its erga 
omnes character.\1\ Today it is widely considered a norm of ius 
cogens.\2\
---------------------------------------------------------------------------
    \1\ Legal Consequences of the Separation of the Chagos Archipelago 
from Mauritius in 1965, Advisory Opinion, I.C.J. Reports 2019, p. 139, 
para. 180; Case Concerning East Timor (Portugal v. Australia), 
Judgment, I.C.J. Reports 1995, p. 102, para. 29.
    \2\ M. Nowak, U.N. Covenant on Civil and Political Rights. CCPR 
Commentary (Engel, Kehl, 2005) p. 9; A. Cassese, Self-Determination of 
Peoples: A Legal Reappraisal (Cambridge University Press, Cambridge, 
1995), p. 319-320; H. Gros Espiell, The Right to Self-determination: 
Implementation of United Nations Resolutions, E/CN.4/Sub.2/405/Rev.1 
(United Nations, New York, 1980) par. 70.
---------------------------------------------------------------------------
    Art. 1 of the International Covenant on Civil and Political 
Rights,\3\ which is binding on the United States, expressly recognizes 
this right and imposes specific duties for its realization. 
Specifically, Article 1(3) expresses that all States that assumed 
``responsibility for the administration of Non-Self Governing and Trust 
Territories, shall promote the realization of the right of self-
determination, and shall respect that right, in conformity with the 
provisions of the Charter of the United Nations.'' \4\
---------------------------------------------------------------------------
    \3\ ``All peoples have a right to self-determination. By virtue of 
that right they freely determine their political status and freely 
pursue their economic, social and cultural development.''
    \4\ International Covenant on Civil and Political Rights, 999 
U.N.T.S. 171 (1966).
---------------------------------------------------------------------------
    This obligation is two-fold: first, it imposes the responsibility 
to guarantee the realization of the right of self-determination, and 
second, it incorporates as a legal obligation the provisions of the 
United Nations Charter regarding Non-Self-Governing Territories.\5\ 
Under article 73 of the U.N. Charter, administrative States have a non-
delegable duty to: administer the dependent territory in the best 
interest of its inhabitants, ensuring the practical achievement of 
their political, economic and social advancement, adopting measures to 
promote their development, and assisting them in the development of 
self-government, the full realization of their political aspirations 
and the achievement of their free political institutions.
---------------------------------------------------------------------------
    \5\ There are two Chapters of the U.N. Charter that regulate the 
responsibility of administrative States toward dependent territories 
(Chapters XI and XII). For a detailed analysis, see: Steven P. Lausell 
Recurt, The Song Remains the Same, The United States' Fiduciary Duty to 
Puerto Rico as a Basis for Legal Responsibility. Master Thesis. Spring 
2016.
---------------------------------------------------------------------------
    In summary, colonial powers have a responsibility to support these 
territories in varying ways with the purpose of achieving self-
government and independence. Professor Steven Lausell refers to this 
obligation as one with a ``clear fiduciary character'', reminiscent of 
general institutions of trusteeship whereby one party has a duty to 
forego its own personal interests and act solely in the interests of 
another.'' \6\ By definition, the obligations identified under the U.N. 
Charter, must be temporary. The late honorable, international expert 
Antonio Cassese, defined it as ``a temporary legal regime that must of 
necessity lead to the eventual extinction of legal title.'' \7\ In 
other words, under International Law, colonial rule has to have an 
expiration date, and the ultimate obligation of administrative States 
is to take all necessary steps to guarantee the required conditions for 
a decolonization process. This process can only be achieved if the 
rights to economic, social and cultural freedom are protected, as 
intrinsic to the achievement of political freedom.\8\
---------------------------------------------------------------------------
    \6\ Steven P. Lausell Recurt, The Song Remains the Same, The United 
States' Fiduciary Duty to Puerto Rico as a Basis for Legal 
Responsibility. Master Thesis. Spring 2016.
    \7\ A. Cassese, Self-Determination of Peoples: A Legal Reappraisal 
(Cambridge University Press, Cambridge, 1995) pp. 186-187.
    \8\ Id. at footnote 52, citing: H. Gros Espiell, The Right to Self 
Determination: Implementation of United Nations Resolutions, E/CN.4/
Sub.2/405/Rev.1 (United Nations, New York, 1980), par. 113.
---------------------------------------------------------------------------
    It is important to emphasize that under international law, all 
people living under colonial rule must achieve a ``full measure of 
self-government'' in order to extinguish their status as non-self 
governing territories.\9\ This also means that a valid decolonization 
process requires an environment of mutual trust, where both parties 
interact as equals, each exercising their full autonomy and sovereign 
powers. We should bear in mind, that any decolonization process is a 
matter of international relations. In that sense, the responsibility 
falls on the United States to rectify the record of what happened in 
1952, providing accurate and up to date information on the real current 
status of Puerto Rico to the United Nations, which will set into motion 
a valid process of status determination under international law.
---------------------------------------------------------------------------
    \9\ Steven P. Lausell Recurt, supra note 5, p. 17.
---------------------------------------------------------------------------
    Now, having discussed the general obligations of the colonial 
State. Let me turn now to the discussion of the options identified 
under international law as acceptable decolonization outcomes. The 
normative content of the right to self-determination and its outcomes 
is defined mainly in three U.N. General Assembly Resolutions, these 
are, Resolution 1514 (XV) of 14 December 1960,\10\ Resolution 1541 (XV) 
of 15 December 1960,\11\ and Resolution 2625 (XXV) of 24 October 
1970.\12\ Resolution 1541 identifies three alternatives for achieving a 
full measure of self-government, which are: independence, free 
association, and integration with another State.\13\ In regard to the 
option of free association, Resolution 1541 offers some clarity, 
indicating that it should be the result of the free, voluntary and 
informed decision of the people, that it entails the recognition of the 
associated territory's right to internal self-government without 
outside interference, and that a free associated state should retain 
the right to re-negotiate or modify the terms of the association at any 
time.\14\
---------------------------------------------------------------------------
    \10\ General Assembly Resolution 1514 (XV), Declaration on the 
granting of independence to colonial countries and peoples (14 December 
1960).
    \11\ General Assembly Resolution 1541 (XV), Principles which should 
guide Members in determining whether or not an obligation exists to 
transmit the information called for under Article 73e of the Charter 
(15 December 1960).
    \12\ General Assembly Resolution 2625 (XXV), Declaration on 
principles of International Law concerning friendly relations and 
cooperation among States in accordance with the Charter of the United 
Nations (24 October 1970).
    \13\ Principle VI, UNGA Resolution 1541 (XV).
    \14\ Principle VII, UNGA Resolution 1541 (XV).
---------------------------------------------------------------------------
    Apart from the three established options for decolonization, U.N. 
Resolution 2625 also makes reference to ``any other political status 
freely determined by a people.'' The Resolution however, offers no 
clarity as to what that could mean in practice. What is undoubtedly 
clear, however, is that the meaningful exercise of the right to self-
determination does not allow for a political relationship of a colonial 
nature to remain intact. Therefore, U.N. Resolution 2625 cannot be used 
to justify `colonialism by consent'. In sum, all valid options for 
decolonization have three main pre-conditions: (a) recognition of the 
free and independent sovereignty of both parties, (b) elimination of 
colonial rule; and (c) the free and informed participation of the 
people.
III. Self-Determination and the Right to Reparations under 
        International Human Rights Law
    In 1953, the United States falsely claimed in front of the United 
Nations that it had entered into a ``mutually agreed association'' with 
Puerto Rico, which effectively ended its colonial status. Today, it is 
unambiguously clear that contrary to that assertion, Puerto Rico has 
never been allowed to meaningfully exercise its right to self-
determination.
    Furthermore, it is evident that the United States government has 
historically acted in favor of its own interests in Puerto Rico and not 
in favor of Puerto Rico's development as mandated by Article 73 of the 
U.N. Charter. Decolonization requires that conditions of economic 
freedom and stability are met so that political self-determination does 
not become a futile exercise. If a colonial power conducts itself in a 
way that undermines the possibility of greater development and economic 
independence, then those actions are compounded violations of the human 
right to self-determination.
    As explained earlier, the right to self-determination is a 
fundamental principle of human rights law, one that, as any other human 
right generates obligations, including the duty to redress and repair 
the effects of its violations. In this sense, the process of 
decolonization in Puerto Rico must be accompanied by the United States' 
formal recognition of international responsibility, and the 
identification of necessary steps to redress and repair the compounded 
effects of multiple human rights violations perpetrated during its 
colonial rule in Puerto Rico. The United States has breached its 
international human rights obligations to the people of Puerto Rico 
through direct and indirect action, for 123 years of colonial rule in 
the territory.
    To give an example, the outstanding debt that Puerto Ricans are 
being forced to pay is in itself a violation of the human right to 
their survival as peoples, and runs contrary to the fiduciary 
obligations that the U.S. has over the territory.\15\ As long as Puerto 
Rico remains a colonial territory and its economy, and even its 
Constitution, is by design made to work for the benefit of the 
administrative power, the accumulated debt is the sole responsibility 
of the colonial authority in control. Sovereignty and responsibility go 
hand in hand. In this sense, the imposition of the Oversight Control 
Board is a step in the wrong direction, and runs contrary to the 
international obligations of the State, which requires more 
independent, democratic means of governance, not less.
---------------------------------------------------------------------------
    \15\ On the relationship between debt and human rights in Puerto 
Rico, see: U.N. Independent Expert on Foreign Debt and Human Rights, 
Press release: ``Puerto Rico debt crisis: ``Human rights cannot be 
sidelined''--UN Expert Warns'', Geneva, 9 January 2017.
---------------------------------------------------------------------------
    The reality is that Puerto Rico's colonial status has led to its 
economic, social and environmental regression. This relationship 
between the colonial status and the territory's poor living conditions, 
was most recently recognized by the Special Rapporteur on Extreme 
Poverty and Human Rights, Mr. Phillip Alston. During his official visit 
to the United States in December 2017, which included visits to Puerto 
Rico, he concluded that poverty and the absence of political rights are 
inextricably linked in Puerto Rico.\16\
---------------------------------------------------------------------------
    \16\ Report of the Special Rapporteur on Extreme Poverty and Human 
Rights on his mission to the United States of America. A/HRC/38/33/
Add.1, 4 May 2018, pars. 22-24.
---------------------------------------------------------------------------
    It should also be mentioned that poverty, inequality and 
environmental degradation have also been the result of inadequate 
policies applied in Puerto Rico by federal rule, which were exacerbated 
by the impact of hurricanes Irma and Maria, and the inadequate and 
discriminatory response by agencies in charge. All of these conditions, 
as well as a the imposition of PROMESA and the Oversight Control Board, 
are examples of the United States' violations of its basic 
responsibilities toward the people of Puerto Rico and shows a lack of 
willingness to advance a project of true self-determination.
IV. Conclusion
    In conclusion, the issue of self-determination is ultimately a 
question of human dignity, a question of freedom in its most basic 
form, and a fundamental element of the notion of human rights. This is 
why self-determination is included at the very beginning of the two 
main international human rights treaties, and is considered a 
fundamental aspect of international relations. Today, the right to 
self-determination is considered not just an issue of political 
determination, but a condition that affects all aspects of human 
dignity and the possibility for achieving its full development.
    All previous ``decolonization'' efforts have failed to recognize: 
(1) that self-determination is a fundamental human right and an issue 
of international relations; (2) that the United States has forsaken and 
limited the exercise of this right for 122 years; and, (3) that under 
human rights law, these limitations have resulted in multiple 
violations of substantive human rights norms.
    After Puerto Rico was removed from the United Nations' list of non-
self governing territories in 1953, the United States has maintained 
that the islands of Puerto Rico have no sovereign powers of their own 
and that its internal autonomy could be revoked by the U.S. Congress at 
any moment. This position--albeit wrong, racist and discriminatory--was 
endorsed and regarded as correct, by the U.S. Supreme Court in 
Commonwealth of Puerto Rico v. Sanchez Valle, 136 S. Ct. 1863 (2016). 
See also: Financial Oversight and Management Board v. Aurelius 
Investment, 590 U.S. (2020). According to the Court, the 1952 exercise 
of constitutional drafting and approval was merely an authority 
``conferred'' by Congress, which makes ``Congress the original source 
of power for'' Puerto Rico (at pp. 1875-1876). This historical and 
juridical conclusion will need to be re-addressed and corrected in 
order for any process of true self-determination to take place. No 
legitimate exercise of self-determination can take place, without an 
express recognition of the U.S. government that the people of Puerto 
Rico are entitled to exercise their sovereign power and to decide on 
their own terms, and without interference, their political, economical, 
social and cultural future.
    As a final remark, I would also like to mention that, the 
legitimacy of any decolonization process depends heavily on its honesty 
and transparency. All discussions on this subject, including this 
hearing and any other in the future, as well as all legislative 
actions, executive orders, policies, drafts and laws concerning Puerto 
Rico's future will never be really transparent and open for meaningful 
public debate, if they continue to be held in English, without 
simultaneous translation to Spanish. This very simple change, is one of 
utmost importance, when the discussion deals with the future of people 
that cannot effectively participate in any of the debates since it is 
designed, discussed, amended and debated in a language they do not 
understand. All these procedures are incomplete and violate the 
fundamental right of meaningful participation when they continue to be 
held and written in English, leaving those who are the rightful 
protagonists of this discussion out of the conversation. This is in 
itself another example of a colonial decision that affects the 
legitimacy of these efforts.
    Thank you.

                                 ______
                                 

    Questions Submitted for the Record to Annette Martinez-Orabona, 
  Director, Caribbean Institute of Human Rights and Professor of Law, 
                Inter American University of Puerto Rico

Ms. Martinez-Orabona did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

              Questions Submitted by Representative Sablan
    Question 1. As a State, Puerto Rico would be on equal footing with 
states to receive key federal resources like Supplemental Security 
Income, which is currently not available for residents of the island. 
An estimated 436,000 residents of Puerto Rico--who are aged, blind, and 
disabled, and with very low incomes--would benefit every year. Funding 
would also increase for federal programs including Medicaid, Medicare, 
and the Supplemental Nutritional Assistance Program. Why shouldn't 
Congress move to support statehood for Puerto Rico?

                                 ______
                                 

    The Chairman. Thank you. The gentlelady yields.
    Let me now turn to Rev. Carmen Cabrera, President of the 
League of United Latin American Citizens Faith Council. 
Reverend, 5 minutes are yours.

STATEMENT OF CARMEN CABRERA, PRESIDENT, LEAGUE OF UNITED LATIN 
 AMERICAN CITIZENS (LULAC) FAITH COUNCIL, HATILLO, PUERTO RICO

    Rev. Cabrera. Good afternoon, distinguished members of the 
Committee on Natural Resources. I am honored today to join you 
in this hearing of H.R. 2070 and H.R. 1522. I appear before you 
today in representation of the Puerto Rico Chapter of the 
League of United Latin American Citizens, also known as LULAC, 
the oldest and most widely respected Hispanic civil right 
organization in the United States of America.
    I also appear before you in representation of the majority 
of voters in Puerto Rico like, as me, voted last November to 
choose statehood as the permanent political status for the 
island. I was born, raised, and have lived in Puerto Rico all 
of my life. I know firsthand the geography, culture, politics, 
and the faith in God of the Puerto Rican people. I also know 
firsthand that the people of Puerto Rico's hope is to soon wake 
up in a place where justice and equality shine upon all more 
than the sun at noon, in a place where the limbo of territorial 
second-class citizenship has been abolished, and where full 
democracy and voting rights at the Federal level prove our 
equality as American citizens.
    Puerto Ricans have incredible talents and skills, and make 
countless contributions to America in fields like music, art, 
sports, and science. We even have a proud Puerto Rican 
astronaut in NASA, Joseph Acaba, a true patriot hero, yet these 
contributions pale in comparison to the sacrifice and bloodshed 
by our Puerto Rican soldiers who had fought and died defending 
America's liberty and democracy. The value of their lives and 
the sacrifices of the families who have seen their loved ones 
come back in flag-draped coffins can never be fully repaid by 
America, yet the least that Congress can do is to respect the 
will of the majority of voters of Puerto Rico that have 
demanded equality and extend a formal offer of statehood so 
that island residents can make a final choice.
    As a leading national civil rights organization, LULAC 
advocates for all American citizens, including those in Puerto 
Rico, to have equal rights and equal opportunities. But the 
simple truth is that as long as the island remains a territory, 
Congress will continue to treat Puerto Rico unequally and deny 
them full rights and representation at the Federal level.
    For these reasons, here in Puerto Rico, we endorse H.R. 
1522 by Representative Darren Soto and Resident Commissioner 
Jenniffer Gonzalez-Colon, which respects the will of the 
majority of voters in Puerto Rico and we oppose H.R. 2070. Why? 
Because H.R. 2070 seeks to present the perspective on the 
historic feelings and suffering of the people of Puerto Rico if 
we were a separate nation. And in doing so, it pays to give a 
definite solution to the vast majority who treasured our 
American citizenship. Instead, H.R. 1522 offers proven medicine 
that will put an end to citizen disenfranchisement and 
inequality to Puerto Rico.
    If Puerto Rico had already been a state and not just a 
territory when the island was ravaged by Hurricane Maria, 
shaken by the earthquake, and enveloped by the COVID-19 
pandemic, the Federal Government's response would have been 
very different when dealing with these life-and-death events 
that have greatly affected our island and its people.
    If we had already been a state and not just a territory, 
the disaster relief would have come more quickly, saved more 
lives, and the ongoing post-disaster reconstruction would have 
made much more progress than it has in the last 4 years. We 
already voted to choose statehood. Congress needs to act now. 
Thank you for the privilege of speaking here today.
    I truly believe that God has placed in your hands the 
opportunity to do justice by the people of Puerto Rico, and I 
humbly ask that in considering this issue, not only use your 
minds and your reason but that you look into your hearts for 
the right things to do.
    May God bless you all and enlighten you to understand and 
pass H.R. 1522. Thanks.

    [The prepared statement of Rev. Cabrera follows:]

 Prepared Statement of Rev. Carmen G. Cabrera, League of United Latin 
             American Citizens (LULAC), Puerto Rico Chapter
    Good afternoon distinguished members of the Committee on Natural 
Resources. I am honored to join you in this hearing on H.R. 2070 and 
H.R. 1522.
    I appear before you today in representation of the Puerto Rico 
Chapter of the League of United Latin American Citizens also known as 
LULAC, the oldest and most widely respected Hispanic civil rights 
organization in the United States of America. I also appear before you 
in representation of the majority of voters in Puerto Rico, which last 
November chose statehood as the permanent political status for the 
Island.
    I was born, raised and have lived in Puerto Rico all of my life. I 
know first-hand the geography, culture, arts, politics, and the faith 
in God of the Puerto Rican people. I also know first-hand that the 
People of Puerto Rico's hope is to soon wake up in a place where 
Justice and Equality shine upon all more than the sun at noon. In a 
place where the limbo of territorial second-class citizenship has been 
abolished, and where full democracy and voting rights at the federal 
level prove our equality as American Citizens.
    Puerto Ricans have incredible talents, skills and make countless 
contributions to America in fields like music, art, sports, and 
science. We even have a proud Puerto Rican Astronaut in NASA, Joseph 
Acaba, a true patriot hero. Yet, these contributions pale in comparison 
to the sacrifice and bloodshed by our Puerto Rican soldiers who have 
fought and died defending America's liberty and democracy. The value of 
their lives, and the sacrifices of the families who have seen their 
loved ones come back in flag draped coffins, can never be fully repaid 
by America. Yet the least that Congress can do is to respect the will 
of the majority of voters in Puerto Rico that have demanded equality 
and extend a formal offer of statehood so that island residents can 
make a final choice.
    We are in a moment of reckoning in Puerto Rico. For the first time 
in my life, people are not afraid to be honest and call Puerto Rico's 
relationship with the U.S. what it is. Puerto Rico is a colony. A 
possession. We are done with the ``Commonwealth'' label. It is time to 
fix it. The Constitution is clear: Congress makes the final decision on 
how to resolve the current undemocratic arrangement. Both proposals 
pending before Congress involve a vote by the people of Puerto Rico. 
However, H.R. 2070 imposes on the people of Puerto Rico a 
Constitutional convention before we hold a referendum vote. The people 
of Puerto Rico have not asked for this Constitutional convention. The 
convention would be imposed on us. This is not democracy. As a Puerto 
Rican voter, I urge Congress to be direct. If Congress cannot guarantee 
my continued U.S. citizenship, I need to know that now. The answer is 
available now. We don't need a convention to find out. Congress and the 
White House have considered this issue for decades. As voters, Puerto 
Ricans have made their choice. We want statehood now.
    As a leading national civil rights organization, LULAC advocates 
for all American citizens, including those in Puerto Rico to have equal 
rights and equal opportunities, but the simple truth is that as long as 
the island remains a territory Congress will continue to treat Puerto 
Ricans unequally and deny them full rights and representation at the 
federal level.
    For these reasons we endorse H.R. 1522 by Rep. Darren Soto and 
Resident Commissioner Jennifer Gonzalez-Colon, which respects the will 
of the majority of voters in Puerto Rico, and oppose H.R. 2070. H.R. 
1522 would put an end to citizen disenfranchisement and the racialized 
oppression of unincorporated territory status. The solution for this 
citizen inequality is for Puerto Rico to finally become a state of the 
Union.
    If Puerto Rico had already been a state, and not just a territory, 
when the island was ravished by Hurricane Maria, shaken by earthquakes 
and enveloped by the COVID-19 pandemic, the Federal Government's 
response would have been very different when dealing with these life 
and death events that have greatly affected our island and its people. 
If we had already been a state, and not just a territory, the disaster 
relief would have come more quickly, saved more lives, and the ongoing 
post disaster reconstruction would have made much more progress than it 
has in the last four years.
    Thank you for the privilege of speaking here today. I truly believe 
that God has placed in your hands the opportunity to do justice by the 
People of Puerto Rico, and I humbly ask that in considering this issue 
you not only use your minds, and your reason, but that you look into 
your hearts for the right thing to do. May God bless you all, and 
enlighten you to understand and pass H.R. 1522.

                                 ______
                                 
Questions Submitted for the Record to Carmen Cabrera, President, League 
        of United Latin American Citizens (LULAC) Faith Council
              Questions Submitted by Representative Sablan
    Question 1. Like my district, the Northern Mariana Islands, Puerto 
Rico was recently devastated by powerful storms resulting in loss of 
life and billions of dollars in damages. How do you think the federal 
response would have been different had Puerto Rico been a state in 
2017?

    Answer:

    <bullet> First, Puerto Rico is a territory of the United States 
            under the Territorial Clause of the Constitution.

    <bullet> Puerto Rico belongs to but is not part of the United 
            States.

    <bullet> Being that the case, the U.S. Congress can discriminate 
            against American Citizens on the island because they are 
            not subject to the same rights and laws as in the mainland.

    <bullet> This is a problem because Puerto Ricans cannot decide 
            their fate and can't oblige the President nor Congress to 
            act respecting public policy and quick responses, like is 
            the case of the federal response soon after hurricane 
            Maria.

    <bullet> States like Texas and Louisiana didn't have these issues.

    <bullet> They are states with full rights and are subject to all 
            the guarantees of the Constitution, differently from the 
            case of Puerto Rico.

    <bullet> Today the Government of Puerto Rico is battling in the 
            court equality with Medicaid and Social Security.

    <bullet> We have the same problem with those issues as with the 
            federal funds of hurricane Maria.

    <bullet> The President can block funds without any consequence 
            because he can do it.

    <bullet> There's now law to prohibit it but on contrary, he can 
            discriminate because we are not a state.

    <bullet> In overall, if Puerto Rico were a state in 2017, the 
            situation could have been totally different.

    <bullet> Immediately we would have received the approval of funds 
            and would be illegal for the President to block them.

    <bullet> Also, the people of Puerto Rico could have expressed 
            themselves in the ballots in 2020 for their best interest 
            and benefits.

                                 ______
                                 

    The Chairman. Thank you, Reverend.
    Let me now invite Dr. Christina Ponsa-Kraus--welcome back. 
She was at the last hearing--Professor of Constitutional Law at 
the Columbia University from New York, New York.
    Doctor, you are recognized for 5 minutes.

STATEMENT OF CHRISTINA PONSA-KRAUS, PROFESSOR OF CONSTITUTIONAL 
          LAW, COLUMBIA UNIVERSITY, NEW YORK, NEW YORK

    Dr. Ponsa-Kraus. Thank you and good afternoon. I am 
Christina Ponsa-Kraus. I am a Law Professor at Columbia 
University and a scholar of Puerto Rico's constitutional 
status, and I am Puerto Rican. I testified at the hearing in 
April, and I appreciate the invitation to appear again today.
    At the April hearing, I explained why I support H.R. 1522 
and oppose H.R. 2070. Today, I will comment on the DOJ's legal 
analysis, with which I agree. I will take issue with one policy 
conclusion in the DOJ report, and I will respond to several 
criticisms of H.R. 1522 that have been made by its opponents.
    In April, I identified two flaws in H.R. 2070: that it 
opens the door to unconstitutional status options and that it 
purports to bind Congress to ratify whatever option the people 
of Puerto Rico choose. The DOJ report confirms the existence of 
both of these flaws. On the first flaw, the DOJ report confirms 
that by failing to specify the available options, H.R. 2070 
implicitly includes non-territorial commonwealth, which is not 
a constitutional option.
    On the second flaw, the DOJ confirms that H.R. 2070 makes 
an illusory promise by stating that Congress ``shall approve'' 
a joint resolution ratifying whatever option Puerto Ricans 
choose following a convention. The DOJ explains that, instead, 
Congress may offer one or more constitutionally valid options 
to Puerto Rico and give Puerto Ricans the option to accept or 
reject such an offer.
    That, of course, is exactly what H.R. 1522 does. As this 
last point suggests, the DOJ approves of two basic approaches 
to Puerto Rican self-determination, a referendum, which is a 
yes/no vote on one option, or a plebiscite, which is a vote 
among all the options. I agree. However, I disagree with the 
DOJ's policy conclusion that a plebiscite must also include the 
current territorial status, and clearly I am not alone.
    The DOJ defends this conclusion on the ground that it is 
simply adhering to the long-standing executive branch policy of 
neutrality among the legally permissible options. But the fact 
that an option is legally permissible does not mean that it is 
legally required. The sole purpose of both bills is to end 
Puerto Rico's perpetual territorial status. With all due 
respect to the executive branch, it is nothing short of 
incoherent to insist that a territorial status be included 
among the options for ending it.
    The executive branch should remain faithful to the 
principle of democratic equality for all U.S. citizens and 
abandon its neutrality toward continued colonialism. The United 
States should enthusiastically support the ending of Puerto 
Rico's territorial status while remaining neutral among Puerto 
Rico's constitutional non-territorial options: statehood and 
independence with or without free association.
    Finally, I will respond to three criticisms of H.R. 1522. 
First, critics of H.R. 1522 argue that Congress should not 
respond to the November referendum with an offer of statehood 
because voter turnout was too low and the margin of victory was 
too slim. These objections are factually baseless. Neither 
turnout nor margin, nor the margin of victory, was abnormally 
low.
    But even if they had been, the objections are a red 
herring. Neither international law nor U.S. domestic law 
predicates the legitimacy of a democratic vote, including a 
self-determination vote, on turnout or supermajority 
requirements. It is not a coincidence that H.R. 2070 includes 
neither.
    Second, critics of H.R. 1522 argue that it is not 
inclusive, whereas H.R. 2070 is. But criticism fails to 
recognize that H.R. 1522 is merely one step in a longer, larger 
process, including a fully inclusive debate in Puerto Rico that 
led to the election of a government that ran on a platform of 
holding a vote on statehood. It also fails to recognize that a 
yes/no referendum is a valid self-determination process under 
both domestic and international law.
    Third, some statehood opponents object to H.R. 1522 on the 
ground that Puerto Rico is a nation and that self-determination 
for a nation cannot include statehood. But international law 
itself recognizes the right of even a nation to choose 
integration into another nation. In sum, these criticisms of 
H.R. 1522 are without merit. H.R. 1522 provides a clear, 
careful, and constitutionally sound approach to self-
determination, and Congress should enact it. Thank you.

    [The prepared statement of Dr. Ponsa-Kraus follows:]

Prepared Statement of Christina D. Ponsa-Kraus, Law Professor, Columbia 
                               University
    Good afternoon. My name is Christina D. Ponsa-Kraus. I am a law 
professor at Columbia University and an expert on Puerto Rico's 
constitutional status, and I am Puerto Rican. I testified at the 
hearing in April and I appreciate the invitation to appear again today. 
At the April hearing, I explained why I support H.R. 1522 and oppose 
H.R. 2070. Rather than repeat those arguments today, I will respond to 
several criticisms of H.R. 1522.
    First: Critics of H.R. 1522 argue that Congress should not respond 
to the November referendum with an offer of statehood because voter 
turnout was too low and the margin of victory was too slim. These 
objections are specious. As a preliminary matter, the claim of 
unusually low voter turnout is factually baseless. The rate of 
participation was about the same as for any territorial office, 
including that of the governor. Moreover, eligibility to vote was based 
on voter rolls from 2012, and it is well known that Puerto Rico lost 
nearly a half a million people between 2012 and 2020, which means the 
official turnout figures substantially understate the actual percentage 
of voters who reside on the island and turned out to vote. But more 
fundamentally, the question of voter turnout is a red-herring. Neither 
international law nor U.S. domestic law predicates the legitimacy of a 
democratic vote--including a self-determination vote--on voter turnout 
or supermajority requirements. In a democracy, the voters who cast 
ballots decide the outcome. And under the well-settled rules of 
democracy, a simple majority prevails absent a fairly adopted rule 
requiring a supermajority. Under no circumstance do those who lose get 
to impose a supermajority requirement after the fact. Tacitly 
acknowledging these elementary truths, even H.R. 2070 does not include 
a voter turnout or a supermajority requirement. Nor have its supporters 
insisted on either.
    Second: Critics of H.R. 1522 argue that it is not inclusive whereas 
H.R. 2070 is. If they mean that every option should receive a fair 
hearing, the criticism fails to recognize that H.R. 1522 is merely one 
step in a larger process. A fully inclusive debate in Puerto Rico led 
to the election of a government that ran on a platform of holding a 
vote on statehood, which it did last November. The ``No'' option 
represented all who opposed statehood and was promoted by a vigorous 
campaign against statehood. Litigation against the referendum failed. 
The vote resulted in a majority for statehood, which H.R. 1522 would 
respect by responding to it with a vote on statehood under federal law, 
in accordance with precedents in other territories. If enough voters 
choose ``No'' this time around, they will remain free to pursue their 
preferred options. No option, no party, and no voter has been excluded 
from this process.
    If critics mean instead that a self-determination process cannot be 
democratically legitimate unless the ballot includes all legally 
permissible status options, they are simply incorrect, as ``Yes/No'' 
votes on independence all over the globe and throughout history 
demonstrate. In fact, even the president of the anti-statehood 
commonwealth party called for a yes-no vote on statehood as recently as 
2017, describing it as a ``true and unimpeachable'' method for 
determining the will of the people.
    That said, I should add that it is not my view that a ``Yes-No'' 
vote is the only legitimate self-determination mechanism for Puerto 
Rico. A ballot including all of the constitutionally valid status 
options would be another--as long as it met additional criteria of 
legitimacy. These include, first and foremost, clear, accurate, and 
federally sanctioned definitions of the options, without which Puerto 
Ricans would simply be consigned to an inconclusive debate over what 
each option entails. For example, were such a process to include 
independence with a free association treaty, it would have to inform 
voters that such a treaty could not, under international and domestic 
law, provide the same guarantee of perpetual birthright U.S. 
citizenship that statehood would provide.
    Third and finally: Some statehood opponents object to H.R. 1522 on 
the ground that Puerto Rico is a nation and that self-determination for 
a nation, by definition, cannot include the option to become a state of 
another nation.
    Understood as a procedural argument against H.R. 1522, this 
``nationalism'' objection fails. International law recognizes the right 
of a nation to choose full integration into another nation in a self-
determination decision, as for example U.N. General Assembly Resolution 
1541(XV) states explicitly. H.R. 1522 simply offers Puerto Ricans that 
choice. Understood as a substantive argument against statehood itself, 
it offers no ground for denying Puerto Ricans who disagree the 
opportunity to vote for statehood. For what it's worth, the November 
2020 referendum is only the most recent evidence that a majority of 
Puerto Ricans see no inconsistency between their identity and the 
choice of statehood, which would bring them equality as citizens of the 
United States.
    In sum, these criticisms of H.R. 1522 are without merit. H.R. 1522 
provides a clear, careful, and constitutionally sound self-
determination process, and Congress should enact it without further 
delay.

                                 ______
                                 

                 Testimony of Christina D. Ponsa-Kraus
                               [REVISED]

    [On June 14, I submitted my testimony. The same day, the Department 
of Justice released its analysis of the two bills. What follows is my 
testimony as revised in light of that analysis.]

    Good afternoon. My name is Christina D. Ponsa-Kraus. I am a law 
professor at Columbia University and a scholar of Puerto Rico's 
constitutional status, and I am Puerto Rican. I testified at the 
hearing in April and I appreciate the invitation to appear again today.
    At the April hearing, I explained why I support H.R. 1522 and 
oppose H.R. 2070. Today, I will comment the DOJ's legal analysis, with 
which I agree; I will take issue with one policy conclusion in the DOJ 
report; and I will respond to several criticisms of H.R. 1522 that have 
been made by its opponents.
    First: In April, I identified two flaws in H.R. 2070: that it opens 
the door to unconstitutional status options and that it purports to 
bind Congress to ratify whatever option the people of Puerto Rico 
choose. The DOJ report confirms the existence of both of these flaws.
    On the first flaw, the DOJ report confirms that by failing to 
specify the available options, H.R. 2070 implicitly includes non-
territorial commonwealth, which is not a constitutional option.
    On the second flaw, the DOJ confirms that H.R. 2070 makes an 
illusory promise by stating that Congress ``shall approve'' a joint 
resolution ratifying whatever option Puerto Ricans choose following a 
convention. The DOJ explains that, instead, Congress may offer one or 
more constitutionally valid options to Puerto Rico and give Puerto 
Ricans the option to accept or reject the offer. That, of course, is 
exactly what H.R. 1522 does.
    As this last point suggests, the DOJ approves of two basic 
approaches to Puerto Rican self-determination: a referendum (which is a 
Yes/No vote on one option) or a plebiscite (which is a vote among all 
the options). I agree. However, I disagree with the DOJ's policy 
conclusion that a plebiscite must also include the current territorial 
status.
    The DOJ defends this conclusion on the ground that it is simply 
adhering to the long-standing executive branch policy of neutrality 
among the legally permissible options. But the fact that an option is 
legally permissible does not mean it is legally required. The sole 
purpose of both bills is to end Puerto Rico's perpetual territorial 
status. With all due respect to the Executive Branch, it is nothing 
short of incoherent to insist that territorial status be included among 
the options for ending it. The Executive Branch should remain faithful 
to the principle of democratic equality for all U.S. citizens and 
abandon its neutrality toward continued colonialism. The United States 
should enthusiastically support the ending of Puerto Rico's territorial 
status, while remaining neutral among Puerto Rico's constitutional, 
non-territorial options: statehood and independence, with or without 
free association.

    Finally, I will respond to three criticisms of H.R. 1522:

    First: Critics of H.R. 1522 argue that Congress should not respond 
to the November referendum with an offer of statehood because voter 
turnout was too low and the margin of victory was too slim. These 
objections are factually baseless: Neither the turnout nor margin of 
victory was abnormally low. But even if they had been, the objections 
are a red-herring: Neither international law nor U.S. domestic law 
predicates the legitimacy of a democratic vote--including a self-
determination vote--on turnout or supermajority requirements.

    Second: Critics of H.R. 1522 argue that it is not inclusive whereas 
H.R. 2070 is. The criticism fails to recognize that H.R. 1522 is merely 
one step in a larger process, including a fully inclusive debate in 
Puerto Rico that led to the election of a government that ran on a 
platform of holding a vote on statehood. It also fails to recognize 
that a Yes/No referendum is a valid self-determination process--under 
both domestic and international law.

    Third: Some statehood opponents object to H.R. 1522 on the ground 
that Puerto Rico is a nation and that self-determination for a nation 
cannot include statehood. But international law itself recognizes the 
right of a nation to choose full integration into another nation.

    In sum, these criticisms of H.R. 1522 are without merit. H.R. 1522 
provides a clear, careful, and constitutionally sound self-
determination process, and Congress should enact it without further 
delay.

                                 ______
                                 

    The Chairman. Thank you very much. The doctor yields.
    Let me now turn to Professor Andres Cordova, Professor of 
Property Law at the Inter American University of Puerto Rico.
    Professor, 5 minutes are yours.

  STATEMENT OF ANDRES L. CORDOVA, PROFESSOR OF PROPERTY LAW, 
INTER AMERICAN UNIVERSITY OF PUERTO RICO, SAN JUAN, PUERTO RICO

    Mr. Cordova. Thank you, Mr. Chairman. I would like to begin 
by thanking the Committee for holding these hearings on the two 
bills addressing Puerto Rico's political status question. Any 
public discussion which draws attention to the political 
disenfranchisement of Puerto Rico's American citizens is, in 
itself, already a step in the right direction.
    Instead of repeating what has already been so eloquently 
stated by others in the previous hearings, on the urgency of 
moving forward with H.R. 1522, I would like to focus my 
attention on certain fundamental aspects of H.R. 2070 which I 
believe require closer scrutiny. H.R. 2070 calls on the rights 
of the people of Puerto Rico to invoke a status convention to 
which they would exercise what is referred to as their natural 
right to self-determination.
    The unexpressed assumption of the bill is that Puerto 
Ricans are not Americans, notwithstanding their American 
citizenship. From a legal perspective, this justification 
implicitly relies on international legal principle. At the time 
of its creation in 1945, the United Nations included Puerto 
Rico under the list of non-autonomous territories. In 1952, the 
U.S. Congress authorized Puerto Rico to draft its own 
constitution and create its own local self-governing 
institutions. Upon ratification, the United States informed the 
United Nations that Puerto Rico had acquired a level of self-
government that justified its exclusion of the list of non-
autonomous territories.
    In 1953, the United Nations exempted the United States from 
presenting further reports on Puerto Rico, exemption which 
continues to this day. In 1960, the United Nations approved 
Resolution 1514, which declared the rights of national self-
determination and decolonization. Those factions which favor 
independence have long tried to have Puerto Rico re-listed as a 
colonial possession subject to the jurisdiction of the United 
Nations, notwithstanding the consistent recommendation by the 
United Nations Special Committee on Decolonization led by Cuba 
and Venezuela. The General Assembly has rejected the 
committee's recommendations on 38 separate occasions.
    The long-held political strategy of the pro-independence 
factions, for evident reasons, has been to place the status 
question within the context of international law to underscore 
the political and legal differences between the people of 
Puerto Rico and the people of the United States. Contrary to 
these efforts, the United States has historically argued, 
correctly in my estimation, that the issue regarding Puerto 
Rico's political future is a domestic matter under the 
jurisdiction of the Constitution and the laws of the United 
States.
    Surely, international law is relevant but always within the 
constitutional context, not the other way around. It should be 
noted how the Department of Justice's recent comments on H.R. 
2070 exclude international law from its analysis. By virtue of 
1898, the Treaty of Paris, Spain ceded Puerto Rico to the 
United States under which terms the United States acquired the 
right to dispose of the civil rights of its inhabitants as 
accorded by Congress.
    In 1990, the Foraker Act created the civil government of 
Puerto Rico, among other provisions. We should highlight that 
the people of Puerto Rico, as a legal category, is a creation 
of statute and not of any philosophical claim of political 
identity.
    Although it is true that international treaties signed by 
the United States are part of its statutory law, as Supreme Law 
of the land, they are still under the Constitution. Contrary to 
what some would have us believe, international treaties and 
obligations are not above constitutional authority. When 
Congress exercises its plenary powers under the Territorial 
Clause, international provisions do not govern these actions, 
which in any case are not self-executing according to long-held 
judicial precedent.
    In the Commonwealth of Puerto Rico v. Sanchez Valle in 
2016, the Supreme Court left no doubt that Puerto Rico's 
sovereignty lies in the United States, in Congress, and that 
any sovereign claim to the contrary must pass through the 
Territorial Clause. The Department of Justice's comments on 
H.R. 2070 questioning the bill's claims of--and I quote--``the 
Puerto Rico legislature's inherent authority to call a status 
convention,'' is an elegant critique drawn from this same 
principle.
    The fundamental purpose of the promoters of the status 
convention is to lay the legal groundwork for Puerto Rico to 
claim sovereignty over and against the United States and the 
will of the same people they claim to represent. As a matter of 
political reality, Puerto Ricans have been exercising their 
right to self-determination in every electoral process since 
1952 and subsequent general elections and local plebiscites 
since then, albeit incompletely and inconclusively. As a matter 
of democratic vocation, the next step in this long-overdue 
process is a federally mandated referendum. I endorse H.R. 1522 
with amendments, if required, and I oppose H.R. 2070. Thank 
you.

    [The prepared statement of Mr. Cordova follows:]

 Prepared Statement of Andres L. Cordova, Professor at Inter American 
    University of Puerto Rico, School of Law, San Juan, Puerto Rico
    Mr. Chairman, I would like to begin by thanking the Chair and the 
House Committee on Natural Resources for holding these hearings on the 
two bills addressing Puerto Rico's political status question. Any 
public discussion which draws attention to the political 
disenfranchisement of Puerto Rico's American citizens is in itself, 
already, a step in the right direction.
    In the previous hearing the Committee heard from various witnesses, 
among them Prof. Christina Ponsa-Krauss, whose statements succinctly 
presented the constitutional constraints and difficulties of H.R. 2070, 
Puerto Rico Self-Determination Act and--in contrast--of the legal and 
political solvency of H.R. 1522, Puerto Rico Statehood Admission Act. I 
fully subscribe to her views on the matter, together with my earlier 
remarks submitted for the written record for the April 14, 2021 
hearing, which I herein include by reference.
    Instead of repeating what has already been so eloquently stated by 
others on the urgency of moving forward with the PR Statehood Admission 
Act, I would like to focus my attention on certain aspects of PR Self-
Determination Act which I believe require closer scrutiny.
    The PR Self-Determination Act calls on the right of the people of 
Puerto Rico to convoke a Status Convention through which they would 
exercise what is referred to as their natural right to self-
determination. The unexpressed assumption of this bill is that Puerto 
Ricans are not Americans, notwithstanding their American citizenship, 
and the cry for ``self-determination'' in this context aims to impede 
the electoral majority call for statehood.
    From a legal perspective, its justification implicitly relies on 
international legal principles. At the time of its creation in 1945 the 
United Nations included Puerto Rico under the list of non-autonomous 
territories. In 1952 the U.S. Congress authorized Puerto Rico to draft 
its own Constitution and create its own local self-governing 
institutions. Upon ratification, the United States informed the United 
Nations that Puerto Rico had acquired a level of self-government that 
justified its exclusion of the list of non-autonomous territories. In 
1953 the United Nations exempted the United States from presenting 
further reports on Puerto Rico, exemption which continues to this day.
    In 1960 the United Nations approved Resolution 1514 (XV) which 
declared the rights of national self-determination and decolonization. 
Those factions which favor independence have long tried to have Puerto 
Rico relisted as a colonial possession subject to the jurisdiction of 
the United Nations. Notwithstanding the consistent recommendation by 
the United Nations Special Committee on Decolonization--led by Cuba and 
Venezuela--the General Assembly has rejected the Committee's 
recommendation on 38 occasions.
    The long held political strategy of the pro-independence factions 
has been to place the status question within the context of 
international law, to underscore the political and legal difference 
between the people of Puerto Rico and the people of the United States. 
The PR Self-Determination Act implicitly endorses this view.
    Contrary to these efforts, the United States has historically 
argued--correctly in my estimation--that the issue regarding Puerto 
Rico's political future is a domestic matter, under the jurisdiction of 
the Constitution and the laws of the United States. Surely 
International Law is relevant, but always within the constitutional 
context, not the other way around
    By virtue of the 1898 Treaty of Paris, Spain ceded Puerto Rico to 
the United States, which under the terms of the Treaty acquired the 
rights to dispose of the civil rights of its inhabitants by Congress. 
In 1900 the Foraker Act created a civil government, among other 
provisions. We should highlight that the people of Puerto Rico, as 
legal category, is a creation of this statute and not of any 
philosophical claims of political identity.
    Although it is true that international treaties signed by the 
United States are part of its statutory law, as Supreme Law of the 
land, they are still under the Constitution. Contrary to what some 
would have us believe, international treaties and obligations are not 
above constitutional authority. When Congress exercises its plenary 
powers under the Territorial Clause, international provisions do not 
govern its actions, which in any case are not self-executing according 
to long held judicial precedent. The 2016 PROMESA, which created a 
Financial and Oversight Management Board to supervise the bankrupt 
government of Puerto Rico and the treatment of Puerto Rico as a foreign 
jurisdiction for purposes of the Internal Revenue Code are two on-going 
example of the exercise of this authority.
    In the recent Commonwealth of Puerto Rico v. Sanchez Valle (2016) 
the Supreme Court left no doubt that Puerto Rico's sovereignty lies in 
the United States, in Congress, and that any sovereign claim to the 
contrary must pass through the Territorial Clause of the Constitution. 
More timely, the constitutional challenge currently before the Supreme 
Court in the case of United States v. Vaello-Madero, regarding the 
exclusion of SSI benefits to American citizens in Puerto Rico, assumes 
congressional authority to dispose of the territory without the direct 
participation of the people of Puerto Rico.
    Any pretense of placing Puerto Rico outside of the Territorial 
Clause must necessarily do so either as a State or as an independent 
nation, in any of its guises. The continuous efforts by certain 
factions of trying to carve out a mythical constitutional space where 
Puerto Rico is not subject to the ultimate authority of Congress under 
the Territorial Clause has been consistently and decisively rejected by 
all branches of the United States government. Ironically, the PR Self-
Determination Act itself is a belated recognition that Puerto Rico is 
under the authority of Congress and does not have the constitutional or 
legal right to exercise any natural law claim.
    Puerto Rico is a territory of the United States, and the use of 
loaded terms such as ``colonial'' and ``self-determination'' are 
underhanded attempts to place the status question within the context of 
International Law instead of the United States Constitution, where it 
belongs. Although perfectly understandable as part of the give and take 
of political discourse, it is disconcerting that Congress would even 
consider a piece of legislation which implicitly undermines its own 
constitutional authority.
    A Status Convention which purports to be the depositary of the will 
of the people of Puerto Rico would necessarily need to include all 
sectors of the island's political spectrum, including those that favor 
statehood. What exactly would a Status Convention propose that has not 
already been proposed in the last 122 years by the different political 
parties and analyzed by the political branches of the Federal 
Government? Invariably a Status Convention would reproduce the same 
positions that everybody is familiar with. Are we to believe that the 
delegates to such a convention are to discover any new constitutionally 
viable formula that has not been part of the political debate for the 
last century? From a practical point of view, a Status Convention would 
not offer any other alternative that we haven't already had before us 
and that can be settled by means of a plebiscite or referendum.
    The fundamental purpose of the Status Convention is to lay the 
legal groundwork for Puerto Rico to claim sovereignty over and against 
the United States and the will of the same people they claim to 
represent. As a matter of political reality, the Puerto Ricans have 
been exercising their right to self-determination in every electoral 
event since the approval of the 1952 Constitution and subsequent 
general elections and local plebiscites, albeit incompletely and 
inconclusively. The next step in this long overdue process is a 
federally mandated referendum.

    I endorse PR Statehood Admission Act and oppose PR Self 
Determination Act.

                                 ______
                                 

  Questions Submitted for the Record to Professor Andres L. Cordova, 
  Professor of Property Law, Inter American University of Puerto Rico
              Questions Submitted by Representative Sablan
    Question 1. The people of Puerto Rico have, as recently as last 
November, voted in favor of statehood. The results of that vote, 
however, were 52.5% in favor and turnout was 54.7% of eligible voters. 
How do you respond to people who say that those election results may 
indicate that Puerto Rican voters are not supportive enough for 
something as irreversible as statehood?

    Answer. The central characteristic of a representative democracy is 
the electoral participation of its citizens in the decision-making 
process. There will always be differences of opinion in a society. The 
electoral process is precisely the manner in which we solve our 
differences without recurring to the use of force. There has never been 
a legal requirement in the history of the United States that in order 
for a territory be admitted as a state there has to be a given 
percentage of electoral approval. That is not the way democracy works. 
The votes that count are the ones that are cast, and the majority 
prevails. This is precisely what occurred in the November, 2020 
election.
    If in Congress has concerns as to the validity of previous 
plebiscites, all it needs to do is to exercise its constitutional 
authority and legislate a federal mandated referendum or plebiscite. 
H.R. 1522 does this. What should not happen is for Congress to argue 
that the previous plebiscites were not valid and therefore no do 
anything about it, using the pretext that Congress will act when Puerto 
Ricans come to an agreement.
                                 ______
                                 
    The Chairman. The gentlemen yields.
    Our final witness is Dr. Jose Caraballo-Cueto, Professor of 
Economics at the University of Puerto Rico.
    Doctor, 5 minutes are yours and you are recognized.

  STATEMENT OF JOSE CARABALLO-CUETO, PROFESSOR OF ECONOMICS, 
         UNIVERSITY OF PUERTO RICO, CAYEY, PUERTO RICO

    Dr. Caraballo-Cueto. Thank you, Mr. Chairman. Forty-four 
years ago arguably was the last time that Congress took a 
strong action to boost Puerto Rico's economy. Section 936 of 
the Federal tax code was enacted. After that policy, we have 
observed many congressional hearings but few to no positive 
economic policies. Some observers are betting on the new 
geopolitics in the Caribbean, such as the China's Belt and Road 
influence on Latin America, as a way for pushing Congress to 
favor Puerto Rico again, but that is just a theoretical 
scenario.
    The bottom line is that no matter how much Federal funds 
are sent to Puerto Rico for long-term economic development, 
Puerto Rico needs a fundamental change in its political 
relationship with the United States. Fiscal, monetary, and 
industrial policies are key to economic development. But Puerto 
Rico has barely any control over this.
    The monitory policy, for instance, exchange rates and 
interest rates imposed on Puerto Rico by the Federal Reserve, 
also known as the Fed, is not designed for the island, and 
sometimes the Fed exacerbates economic conditions of this 
territory. Puerto Rico has almost no representation in effect. 
The local fiscal policy is now handled by the Fiscal Control 
Board imposed by Congress, reducing the elected official 
authority.
    Industrial policy, such as preferential taxes to 
manufacturing industries, have been recently managed by 
Congress without major considerations of Puerto Rico. For 
instance, the GILTI, the Global Intangible Low-Taxed Income, is 
also harming the remnant of the industrial sector in Puerto 
Rico. And if the global taxation of 15 percent is extended to 
the island, it will have a similar or even greater negative 
effect.
    For some unexplained reason, Congress provides better 
economic tools to other territories: the U.S. Virgin Islands is 
exempt from the Jones Act, and the Northern Mariana Islands and 
Guam have a visa waiver program that boosts their tourism. The 
Jones Act does not just increase import costs according to most 
studies, moreover, it excludes Puerto Rico from international 
logistics.
    In 2015, Puerto Rico paid in Federal taxes almost five 
times more than the taxes paid by other U.S. territories 
combined. Both sovereignty and statehood provide better 
economic prospect than the current status. Sovereignty will let 
Puerto Rico implement tailor-made fiscal, monetary, and 
industrial policies, for instance, protection for local 
businesses without being subject to the interstate commerce 
clause.
    In addition, it will also liberate the island from the 
Jones Act and other regulation. But independence also has its 
cost. Most Federal funds received in Puerto Rico are 
contractual benefits, such as Social Security, Medicare, and 
veteran benefits. Part of the difference could be substituted 
from abroad. However, without the remaining Federal transfer, 
local government must be very efficient.
    All in all, if economic actors take full advantage of the 
benefits of sovereignty, the disadvantages can be outweighed. 
In the case of statehood, fiscal, industrial, and monetary 
policies will not depend on the sympathy of Congress and the 
Fed but on the negotiation that takes place when 
Representatives from Puerto Rico have voting power.
    Just by receiving supplemental security income and parity 
and nutritional assistance, the poverty rate would decrease by 
14 percentage points in Puerto Rico. In addition, by being 
fully annexed, Puerto Rico would take advantage of its 
comparative edge over states in terms of wages, and would 
receive more investment from the United States. In the case of 
Hawaii, its economy or gross state product did not decline 
after annexation, although structural changes were felt by the 
population.
    Statehood also carries disadvantages. First, Federal 
taxation will impact the middle class and small- and middle-
sized enterprise of the island. Second, many multi-national 
manufacturers that operate as control foreign corporations in 
Puerto Rico will move to a third country, shrinking the 
industrial base even further. However, the disadvantages of 
statehood are probably not worse than the disadvantages of the 
colony.
    That is why my first recommendation is to strongly oppose a 
recommendation of the U.S. Department of Justice to include the 
territorial status and to avoid specific mandates to the 
Federal Government. Excluding the territorial status is a 
consensus that I identify here. After all, this is the same 
Department of Justice that would oppose parity and SSI to 
Puerto Rico.
    No. 2, both bills should specify that if statehood is not 
supported by either a majority of Puerto Ricans or by the 
Federal Government itself, the U.S. Government will end the 
territorial status on a specific date.
    No. 3, change the PROMESA Act so that the Fiscal Control 
Board disappears once the debt restructuring ends.
    No. 4, exclude Puerto Rico from the global tax of 15 
percent and the GILTI taxation, and from any other measure that 
entails a greater erosion of the industrial policies of Puerto 
Rico.
    No. 5, exclude Puerto Rico from the Jones Act and from any 
colonial decision.
    Thank you.

    [The prepared statement of Dr. Caraballo-Cueto follows:]

 Prepared Statement of Dr. Jose Caraballo-Cueto, University of Puerto 
                                  Rico
                              introduction
    Thank you all for the invitation to testify before the Natural 
Resources Committee hearing on H.R. 2070, ``Puerto Rico Self-
Determination Act of 2021'' and H.R. 1522, ``Puerto Rico Statehood 
Admission Act.'' These projects are commendable efforts; my 
congratulations to the individuals that wrote them. Below I provide a 
short analysis on Puerto Rico's political status and economic 
development. At the end, I provide my recommendations.
        political status and economic prospects for puerto rico
    According to the world data gathered by Angus Madisson from 1955 to 
1980, the economy of Puerto Rico was among the top growing economies in 
the world. The Gross Domestic Product per capita was 210% higher in 
1980 than in 1955. Such growth doubled the world rate (83%) and would 
have placed the Island among the top 14 countries in the world in terms 
of income per capita growth.
    The economic model at the time was rather simple: attract 
manufacturing corporations from abroad with federal and local tax 
incentives. In the words of Baumol and Wolff (1996): ``Puerto Rico 
serves as an example of an extreme form of what Prebisch and his 
colleagues called `dependence,' both in terms of import openness and 
its reliance on foreign direct investment--both almost exclusively from 
the U.S. mainland. Yet, because of its high investment rate and 
educational gains, Puerto Rico grew very rapidly, at least from the 
mid-1940s through the early 1970s.'' (Baumol and Wolff, p. 883). This 
was in part due to Section 936 of the federal tax code enacted 45 years 
ago; arguably the last time that Congress took a strong action to boost 
Puerto Rico's economy. After that policy, we have observed many 
congressional hearings but few to none positive economic policies.
    The problem with such a model was its fragility: after trade 
liberalization and the removal of Section 936 of the federal tax code 
the economy of Puerto Rico collapsed (for more details, see Caraballo & 
Lara, 2018). This finding leads to the crucial questions: Is there a 
new economic model for Puerto Rico?
    Policymakers attempt to implement one by increasing federal 
funding, providing tax incentives to attract high-income individuals 
(local Act 22 of 2012 and inclusion in federal designation of 
opportunity zones), and to promote the export of services (local Act 20 
of 2012). However, such a model is insufficient in its ability to grow 
an economy that has not grown sustainably since 2006. Some observers 
are betting on the new geopolitics in the Caribbean (e.g. China's Belt 
& Road influence on Latin America) as a way for pushing Congress to 
favor Puerto Rico again, but that is just a theoretical scenario.
    The bottom line is that, no matter how much federal funds are sent 
to Puerto Rico, for long-term economic development Puerto Rico needs a 
fundamental change in its political relationship with the United 
States. Federal funds can provide economic growth only in the short 
term, but they will not put Puerto Rico in its past growth path. 
Ilzetzki et al. (2010) found that fiscal stimulus has a low impact on 
economies with a ratio of external trade to Gross Domestic Product that 
exceeds 60%. In the case of Puerto Rico, that ratio was 156% in 2020.
    Fiscal, monetary, and industrial policies are key to economic 
development, especially in this new century, but Puerto Rico has barely 
any control over these. The monetary policy (e.g. exchange rate and 
interest rate, among others) imposed on Puerto Rico by the Federal 
Reserve (Fed) is not designed for the particular business cycle of the 
island and sometimes the decisions taken by the Fed exacerbate the 
economic conditions of this territory. Puerto Rico has almost no 
representation in this important institution. The local fiscal policy 
(taxes and government spending) is now handled by the fiscal control 
board imposed by Congress, reducing the elected officials' authority 
from low to no influence on these issues: in fact, the last couple of 
budgets have been imposed by this board.
    Industrial policies, such as preferential taxes to manufacturing 
industries, have been managed by Congress without major consideration 
of the economic situation of Puerto Rico. For instance, the current 
debt crisis was caused by (in addition to the exclusion of Puerto Rico 
from the federal bankruptcy code in 1984) the economic clash created by 
the removal of federal tax incentives without any alternative economic 
strategy: this deindustrialization reduced government revenues, 
increasing Puerto Rico's dependency on external funding (Caraballo and 
Lara, 2018). The GILTI (Global Intangible Low-Taxed Income) enacted in 
2017 is also harming the remnant of the industrial sector in Puerto 
Rico and if the global taxation of 15% is extended to the island, it 
will have a similar or even greater negative effect.
    For some unexplained reasons, Congress provides better economic 
tools to other territories: the U.S. Virgin Islands is exempt from the 
1920 Jones Act and the Northern Mariana Islands and Guam have a visa 
waiver program that boosted their tourism.\1\ The Jones Act does not 
just increase import costs according to most studies,\2\ moreover, it 
excludes Puerto Rico from international logistics. For instance, a 
vessel departs from, say, Colombia to Puerto Rico, it cannot continue 
to the largest market in the region (the U.S.): either the vessel 
returns to Colombia or goes to another small economy. It should be 
pointed out that in 2015 Puerto Rico paid altogether $3.5 billion in 
federal taxes; almost five times more than the combined taxes paid by 
the U.S. Armed Service members overseas and other U.S. territories (IRS 
2015).
---------------------------------------------------------------------------
    \1\ https://www.guamvisitorsbureau.com/news/news-releases/
philippine-arrivals-soar-in-march-2016.
    \2\  https://docs.wixstatic.com/ugd/
5b4228_4e79040fd1b043a59df921358825334a.pdf.
---------------------------------------------------------------------------
    Both sovereignty and statehood provide better economic prospects 
than the current status. Let me start with the case of sovereignty. In 
the 20th century, some economies (such as Singapore (1963), Ireland 
(1921), Finland (1917), S. Korea (1945), and Iceland (1944) have 
benefited from independence while others did not (e.g. almost all 
African former colonies (except for S. Africa (1910), many colonies in 
the Middle East, and many countries in South Asia). However, the 
initial conditions for Puerto Rico, in terms of infrastructure and 
level of income, are more favorable than many former colonies of the 
last century. Sovereignty would let Puerto Rico implement tailor-made 
fiscal, monetary, and industrial policies (e.g. protection for local 
businesses without being subject to the interstate commerce clause). In 
addition, it would also liberate the island from institutional 
constraints such as the Jones Act and regulations associated with 
product quality. Research by Caraballo-Cueto and Gautier (2020) shows 
that Puerto Rico export potential is limited by about $20 billion (in 
2011 PPP dollars, after adjusting for transfer pricing effect) in 2016. 
This would represent about 17% of the Puerto Rico's GDP. This number 
does not consider export of services.
    However, independence also has its costs to Puerto Rico. Firstly, 
if residents do not save more, without access to broker deposits and 
other instruments, interest rates would be very high, limiting 
households and businesses investments. Secondly, currency devaluation 
would be good for exporters but hurtful for consumers. Thirdly, 
reconstruction after disasters would be similar to other countries in 
Latin America, where there is a net negative effect. Most federal funds 
received in Puerto Rico are contractual rights such as Social Security, 
Medicare, and veteran benefits. In 2020, $14 billion out of $25 billion 
were this type of transfer. Part of the difference ($11 billion) could 
be substituted with remittances from abroad (Dominican Republic 
receives more than $3 billion in remittances). However, without the 
remaining federal transfers, local government must be very efficient. 
Otherwise, essential services would be worse than now. All in all, if 
economic actors take full advantage of the benefits of sovereignty, the 
disadvantages can be outweighed.
    In the case of statehood, fiscal, industrial, and monetary policies 
would not depend on the sympathy of Congress and the Fed but on the 
negotiation that takes place when representatives from Puerto Rico have 
voting power. In the case of Puerto Rico, there are no current studies 
but in the past Jenkins and Islam (1998) found that sectors unrelated 
to Section 936 (both households and residents) won with statehood while 
local government lost funds. In 2013, if Puerto Rico were a state, 
small and medium size enterprises (SMEs) as well as its middle and 
upper classes would have paid an additional $2.9 billion in federal 
taxes but low-income individuals would have received an additional $3 
billion in federal funds. Just by receiving parity in Supplemental 
Security Income and nutritional assistance, the poverty rate would 
decrease by 14 percentage points (Caraballo-Cueto 2019). In addition, 
by being fully annexed, Puerto Rico would take advantage of its 
comparative edge over other states in terms of wages and would receive 
more investments from the United States. In the case of Hawaii, its 
gross state product did not decline after annexation in 1959 (Schmitt 
1977), though structural changes were felt by the population (Bell 
2019).
    Statehood also carries disadvantages. Firstly, federal taxation 
would impact the middle class and SMEs of the Island. Secondly, if 
local taxes are decreased to compensate SMEs, more painful austerity 
would be needed to balance the budget. Thirdly, statehood also changes 
the tax status of Puerto Rico and many multinational manufacturers that 
are now in Puerto Rico operating as a Controlled Foreign Corporation 
would move to a third country, shrinking the industrial base even 
further. However, these disadvantages of statehood are probably not 
worse than the disadvantages of the colony.
    Both a ``PRexit'' or statehood will carry painful structural 
adjustments in the short term, but in the long term will probably be 
better for economic growth. There are no recent empirical studies but 
my colleagues and I will soon use a mathematical model to construct 
diverse scenarios to better inform this discussion.
                            recommendations

 1.  Streamline the H.R. 2070 by reducing steps and establishing 
            specific dates. I strongly oppose the recommendations of 
            the U.S. Department of Justice to include the territorial 
            status and to avoid specific mandates to the Federal 
            Government.

 2.  In the case of H.R. 1522, it should specify that if statehood is 
            not supported by either a majority of Puerto Ricans or by 
            the Federal Government, the U.S. Government will end the 
            territorial status on a specific date.

 3.  Change the PROMESA act so that the fiscal control board disappears 
            once the debt restructuring ends. This would return fiscal 
            policy to duly elected officials.

 4.  Exclude Puerto Rico from the global tax of 15%, the GILTI 
            taxation, and from any other measure that entails a greater 
            intervention from the Federal Government in the Puerto Rico 
            economy.

 5.  Exclude Puerto Rico from the 1920 Jones Act.

                               references

1.  Baumol, W.J. & Wolff, E.N. (1996). Catching up in the postwar 
period: Puerto Rico as the fifth ``Tiger''? World Development, 24(5), 
869-885.

2.  Bell, R. (2019). Last among equals: Hawaiian statehood and American 
politics. University of Hawaii Press.

3.  Caraballo-Cueto, J. & Lara, J. (2018). Deindustrialization and 
unsustainable debt in middle-income countries: The case of Puerto Rico. 
Journal of Globalization and Development, 8(2).

4.  Caraballo-Cueto, J. (2019). The impact of disparities in SNAP and 
SSI on Puerto Rico's poverty and economic growth. Retrieved from: 
https://www.researchgate. net/publication/
340610699_The_impact_of_disparities_in_SNAP_and_SSI_on_ 
Puerto_Rico's_poverty_and_economic_growth.

5.  Caraballo-Cueto, J. & Gautier, L. (2020). Are Satellite Economies 
Losing Trade? Manuscript under revision.

6.  IRS (2015). Internal Revenue Service Data Book. Retrieved from: 
https://www.irs.gov/pub/irs-soi/15databk.pdf.

7.  Ilzetzki, E., Mendoza, E.G., & Vegh, C.A. (2010). How big (small?) 
are fiscal multipliers? (No. w16479). National Bureau of Economic 
Research.

8.  Jenkins, G.P. & Islam, N. (1998). Economic Consequences of 
Statehood for Puerto Rico: A General Equilibrium Analysis (No. 1998-
06). JDI Executive Programs.

9.  Schmitt, R.C. (1977). Historical Statistics of Hawaii. Retrieved 
from: https://files.hawaii.gov/dbedt/economic/data_reports/Historical- 
Statistics-of-Hawaii.pdf.

                                 ______
                                 

    The Chairman. I want to thank the panelists for their 
testimony. Next we will go to questions. Committee Rule 3(d) 
imposes a 5-minute limit on questions and responses. The Chair 
reminds Members that under the Chair's right of recognition 
described in Rule 3(d), the Chair can provide some reasonable 
additional time whenever any Member has a question for Rev. 
Carmen Cabrera to account for an interpreter. Members are 
encouraged to ask all questions in English to avoid 
complications with the interpretation.
    The Chair will now recognize Members for any questions they 
may wish to ask. As I indicated earlier, we will try to do this 
based on seniority. Let me now turn to our colleague, Mr. 
Sablan.
    Mr. Sablan, you are recognized for any questions or 
comments you might have.
    Mr. Sablan. Yes. Thank you, Mr. Chairman. Thank you very 
much for holding this hearing. I am going to yield most of my 
time, but just two general questions I would like to ask. Has 
anyone looked into how much Puerto Rico would gain or lose from 
its taxation if they are subjected to the Internal Revenue 
Code?
    And then a question that I need to ask is, there was a 
recent referendum in which statehood was supposed to be 
approved. What was wrong with that, and could somebody 
eventually provide that to me in writing because I need to 
yield 2 minutes to the gentlelady from New York, Ms. Velazquez, 
please.
    Ms. Velazquez. Thank you, Mr. Sablan, for yielding. I would 
like to address my first question to Professor Cox. Is there 
anything in the U.S. Constitution that prohibits Congress from 
entertaining a free association agreement with Puerto Rico 
different from the current agreement and different from 
independence?
    Dr. Cox Alomar. There is no obstacle in the Constitution 
for that. As a matter of fact, under Congress' foreign 
relations powers, Congress has even more authority than when it 
acts domestically because it is not bound by the enumerated 
powers under Article I, Section 8. So, the answer, in short, is 
no.
    Ms. Velazquez. Thank you. And can Puerto Ricans still 
retain their U.S. citizenship under other status options that 
are not statehood?
    Dr. Cox Alomar. The answer is yes, but it needs a bit of 
explanation. There is a wide consensus that unilateral 
revocation of U.S. citizenship to those folks who already have 
U.S. citizenship would run afoul basic constitutional 
principles. The question remains--what happens with the unborn, 
right? And that is a question of first impression that 
obviously the political branches, more specifically Congress, 
must actually answer.
    Ms. Velazquez. OK. Thank you. And this question is 
important.
    Mr. Sablan. Thirty seconds.
    Ms. Velazquez. OK. I yield back.
    Mr. Sablan. Thank you, Ms. Velazquez.
    Ms. Velazquez. And thank you for yielding.
    Mr. Sablan. I would like to yield the remainder of my time, 
which is just about 2 minutes, to the Resident Commissioner of 
Puerto Rico, Ms. Gonzalez-Colon. Jenniffer.
    Miss Gonzalez-Colon. Thank you to the Vice Chair of the 
Committee, Mr. Sablan, for yielding time. And I just want to 
thank the witnesses for joining us, particularly the witnesses 
Dr. Ponsa-Kraus from Columbia University and Professor Cordova, 
who teaches on the island at the Inter American University of 
Puerto Rico School of Law.
    Given the Department of Justice has provided the Committee 
its analysis on the constitutionality and legality of both 
bills, I believe their testimony will be particularly valuable. 
Before going through my questions, I would like to introduce 
for the record letters and statements in support of H.R. 1522 
from Representative Maria Mayita Melendez, Roberto Lefranc 
Fortuno, and Elizabeth Torres. Same thing with the National 
Puerto Rican Equality Coalition, Dr. Zayira Jordan, and Mr. 
Juan Camilla.

    [The information follows:]
                 PR ESTADIDAD                      

        Hon. Raul Grijalva            Hon. Bruce Westerman
        Chairman                      Ranking Member
        House Committee on Natural 
        Resources                     House Committee on Natural 
                                      Resources

        Hon. Joe Manchin              Hon. John Barrasso
        Chairman                      Ranking Member
        Senate Committee on Energy 
        & Natural Resources           Senate Committee on Energy & 
                                      Natural Resources

    Dear Chairman Grijalva, Ranking Member Westerman, Chairman Manchin, 
Ranking Member Barrasso:

    As U.S. citizens from Puerto Rico, we are coming together to 
express our support for the Puerto Rico Statehood Admission Act, H.R. 
1522 and S. 780, and to call on Congress to pass this legislation as 
quickly as possible.
    Puerto Ricans have been part of the U.S. for over one hundred and 
twenty years and we have made countless contributions to the betterment 
of American society. During that time the population of Puerto Ricans 
stateside has grown to close to six million. Yet for the three million 
U.S. citizens that remain on the island, we remain disenfranchised in 
federal elections and subjected to unequal treatment in federal laws 
and programs. This reduces economic development, has robbed our poor 
and elderly of lifesaving healthcare, and every day breaks up our 
families and communities as people feel forced to move stateside to 
seek out better opportunities and quality of life for themselves and 
their children.
    Congress must immediately end its inherently colonial territorial 
rule over Puerto Rico, because it violates America's values of 
democracy, equal justice under the law, and government by the consent 
of the governed. Beyond that, it doesn't serve either America or Puerto 
Rico to prolong an outdated, dysfunctional and morally corrupt form of 
government which its own citizens have now rejected on multiple 
occasions.
    On November 3, 2020, an undisputable majority of 53% of Puerto 
Rico's voters demanded change in a locally sponsored referendum calling 
for full democracy and equality through statehood. While some bills in 
Congress, like H.R. 2070 & S. 865, seek to delay, confuse and distract 
from this electoral majority mandate in the name of ``self-
determination,'' only the Puerto Rico Statehood Admission Act 
acknowledges and responds to the freely expressed will of the people.
    A majority of voters in Puerto Rico have requested statehood, now 
Congress must respond by officially offering it and allowing voters on 
the island to ratify their choice in a binding vote. To turn around and 
tell voters to go back to the drawing board and re-define multiple 
other options which the majority has rejected three times in the last 
eight years in favor of statehood, would not only be insulting to us, 
but effectively serve as a form of voter suppression. That is simply 
unacceptable and un-American.
    We are natural born U.S. citizens and want an equal seat at the 
table in the federal government that writes and implements the laws 
that we live under. We want our full voting rights as American 
citizens, and would challenge any voting Member of Congress that would 
deny that to us to answer if their constituents would accept the 
second-class citizenship that we are subjected to under territory 
status.
    We are proud to be Puerto Ricans, and also proud to be U.S. 
citizens, and know that there is no law that limits us from being both. 
So, don't let anyone tell you that statehood will somehow diminish our 
cultural pride and heritage. If anything, the economic progress that 
statehood would unleash will allow Puerto Rico to flourish in ways that 
will mutually benefit the Island and the States.
    If you really believe in democracy, justice, government by the 
consent of the governed, you must not hesitate any further or give any 
more excuses. Congress must grant us the equal rights and equal 
responsibilities that we have earned with the blood of our veterans and 
the tears of their mothers, wives, children and families. Pass the 
Puerto Rico Statehood Admission Act as soon as possible and together we 
can help make America a more perfect Union.

            Sincerely,
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                        
                               *****

There were an additional 250 pages of signatures received for this 
petition. A full listing of all signatures received are part of the 
hearing record and are being retained in the Committee's official 
files.
                                 ______
                                 
                           FRENTE ESTADISTA        

                                                      June 10, 2021

Hon. Raul Grijalva, Chairman,
Natural Resources Committee,
United States House of Representatives,
Washington, DC 20510

Hon. Bruce Westerman, Ranking Member,
Natural Resources Committee,
United States House of Representatives,
Washington, DC 20510

    Dear Chairman and Ranking Member:

    We hereby list, and later debunk, all the arguments put forth on 
the letter dated June 10, 2021 from the ``Frente Puertorriquenista'' 
(FP) with the intention to discredit and disavow Puerto Rico's mandate 
for statehood and to promote the bill introduced by Representative 
Nydia Velazquez and Representative Alexandria Ocasio-Cortez, H.R. 2070, 
under consideration by the Committee of Natural Resources:

  1.  FP's members claim that Puerto Rico's Congressional Delegation 
            Special Election deriving from the Commonwealth of Puerto 
            Rico's Law 167 of 2020, calling for the election of two (2) 
            delegates to the United States Senate and four (4) 
            delegates to the United States House of Representatives, 
            had low voter turnout with only 3.9% of registered voters.

  2.  FP's members claim that former Governor Ricardo Rossello, of the 
            New Progressive Party (NPP), the only pro-statehood party 
            in the island, was rejected by the majority of the 
            population during the Summer 2019 manifestations in which 
            protesters stationed themselves in front of La Fortaleza 
            asking for his resignation due to the fact that details of 
            a chain of private text messages were revealed to the 
            public.

  3.  Finally, FP's members also claim that former Governor Ricardo 
            Rossello is under investigation by Puerto Rico's Department 
            of Justice regarding a statement submitted to the State 
            Elections Commission about his domicile. Their claim is 
            that the pending case against the former governor should 
            immediately and permanently disqualify him from becoming a 
            delegate in the Special Delegation under the terms of Law 
            167 of 2020.

    Here, we present our counterarguments in response to the claims in 
the letter submitted by the FP:

    1) Law 167 of 2020 was rejected right from the onset by the parties 
opposing statehood for Puerto Rico. Furthermore, the anti-statehood 
parties hindered the ability of the State Elections Commission at every 
step, most importantly, rejecting agreements for an educational 
campaign as demonstrated by Certification CEE-AC-21-066.\1\ This, along 
with many other actions reflected in the State Elections Commissions' 
records, demonstrate the partisan approach to the enacting of Law 167 
seeking to undermine the special election at every step. Invariably, 
the only party left to make Puerto Rico's mandate for statehood 
effective through this election was the NPP.
---------------------------------------------------------------------------
    \1\ https : / / ww2.ceepur.org / sites / ComisionEE / es_pr /
Secretaria /Acuerdos/Campa%C3%B1a%20 
educativa%20elecci%C3%B3n%20especial%20Ley%20para%20crear%201a%20Delegac
i%C3%B3n %20Congresional%20de%20Puerto%20Rico.pdf.
---------------------------------------------------------------------------
    It is important to note that anti-statehood parties, namely the 
Popular Democratic Party (PDP), the Citizen's Victory Movement (CVM), 
and the Puertorrican Independentist Party (PIP), all actively promoted 
a No vote in the plebiscite resulting in their defeat and, therefore, 
do not in any way represent the Will of the People as expressed in the 
November 3, 2020 vote for statehood.
    Despite opposition from these minority political factions, Law 167 
of 2020 was enacted, by the will of the people, and by the will of 
democracy evidenced through our voting power. While the anti-statehood 
parties attempted to make a media farce of Law 167 of 2020, their 
attempted media hijacking and repeated attempts at blocking its 
implementation, proved unsuccessful. Voters, once again, honored our 
democracy and elected our delegates. Five of the six elected delegates: 
Elizabeth Torres, Maria (Mayita) Melendez, Roberto Lefranc, Zoraida 
Buxo, and Melinda Romero, completed a lengthy and rigorous process to 
achieve certification for their candidacy to be able to appear in the 
ballot. The requirements included: submitting endorsements signed by 
3,000 citizens, providing tax records for the last ten (10) years, 
submit a sworn and notarized statement about their interest in the 
position, a negative drug test, a certification to attest absence of 
criminal records, certifications various about absence of debts in 
various governmental agencies, and certifications to attest completing 
trainings on ethics and government budget management. Candidates in 
this election completed all these requirements, which go way beyond the 
requirements the House or Senate have, in a matter of six (6) weeks. 
Dr. Rossello's path to candidacy followed a different path because his 
nomination came up as a matter of popular acclaim. He accepted the 
offer to be part of the delegation three days before the electoral 
event and agreed that if elected via ``direct nomination'' he would 
comply with requirements to that effect.
    Claiming a low voter turnout in the Congressional Delegation's 
Special Election is a weak, if not altogether invalid, argument since 
already, and even with the COVID-19 pandemic restrictions, the majority 
of our people voted, unequivocally, not only for two representatives of 
the NPP, the only party seeking our admission into the Union, but voted 
in even higher numbers in the plebiscite to express their approval for 
an immediate admission of Puerto Rico as a state of the Union.
    1,289,135 American Citizens in Puerto Rico voted yes or no to 
statehood in the 2020 Plebiscite. 52.52% unequivocally said yes to the 
question about the immediate admission of Puerto Rico into the Union as 
the 51st state of the United States.
    If we were to address the inadmissible claim that low voter turnout 
constitutes in any way an argument for questioning election results, we 
must put this into fair perspective. The Center for American Progress 
states, in an article calling on ways to increase voter participation 
in the United States, that ``[a]lmost 92 million eligible Americans did 
not vote in the 2016 presidential elections. In the 2014 midterm 
elections, an estimated 143 million eligible Americans failed to vote, 
marking the lowest voter participation in 72 years.\2\ ''
---------------------------------------------------------------------------
    \2\ https://www.americanprogress.org/issues/democracy/reports/2018/
07/11/453319/increasing-voter-participation_america/.
---------------------------------------------------------------------------
    Furthermore, despite the low voter turnouts in previous elections 
within the United States, the same democratic institutions which we 
resemble in our own model of democracy, the will of the majority of 
those who exercise their right to vote is not disregarded, or their 
votes made void. Democracy owes its stability to the continuation of 
government based on the votes that are cast, not those that are not.

    2) As to the argument that former Governor Ricardo Rossello should 
be placed in controversy sequestering the Will of the People, we only 
wish to present the facts. Roughly 70,000 Puerto Rican voters wrote-in 
Dr. Ricardo Rossello's name on the ballot to elect him as a delegate to 
the House, so that he, along with the other delegates, lobbies in 
Congress for our status to change from that of a territory to that of a 
State. Must those, or any of the votes for the delegates or any other 
elected official, be rendered void and null using any sort of 
questionable reasoning. But, what type of government shall we become if 
we were to ignore and deny the expressed Will of the People?
    As to the events that transpired in the summer of 2019, these are 
easy to misjudge. A supposed ``majority of people'' in our Island rose 
to take down what they deemed untenable leadership. We must then bring 
to bear as evidence the necessary parallels between these and the 
events occurred in Capitol Hill on January 6, 2021. The entire world 
watched on their screens the scenes in which a group of American 
Citizens protested violently to undermine the nature of elections and, 
with it, the nature of democracy. Protesters revolted in loud 
proclamations and violent acts against the decision of the majority of 
American Citizens who voted to, as statutorily set forth by the Federal 
Government, complete the mandate by which the very foundation of the 
United States of America is sustained.
    The majority of American Voters were nowhere near a representation 
of the insurrectionists who attempted to manifest through sheer brute 
force their claims over justice and democracy at the doorsteps of 
Capitol Hill. No matter how loud they screamed, no matter what force of 
violence they utilized, those American Citizens who participated in the 
January 6th insurrection, disregarding the democratic voices of the 
rest of the American people, stand as a seditious mob akin to that on 
Calle Fortaleza in the Summer of 2019. A loud minority of individuals, 
incited by seditious groups benefiting from the unrest, used the 
discontent ripped from many struggles at once to not only protest, but 
to vandalize businesses, homes, and churches, and instigate and commit 
acts of violence against the police. Former Governor Ricardo Rossello 
resigned in good part due to the amount of violence these minorities 
used. He decided to step aside to avoid a tumultuous and violent rising 
of these groups who were keen to overtake La Fortaleza, the Governor's 
residence, which stands as an emblem of our Constitution, and 
Democracy, and Freedom.
    The questionable origins of the events immediately preceding Dr. 
Rossello's resignation seem to have been forgotten by voters who have 
actively sought out his return to office as one of the delegates who 
are to further statehood in the House of the United States Congress.

    3) The investigation of the claims against Dr. Ricardo Rossello is 
currently underway at the Department of Justice headed by General 
Attorney Domingo Emmanuelli. Should the investigation find that Dr. 
Rossello committed a negligible act or acts in pursuit of a position in 
the Delegation under the terms of Law 167 of 2020 or any other law, the 
appropriate authority will advise and enact the due course of action. 
Only fate will decide. As we stand, the matter is in the hands of the 
Puerto Rico Department of Justice and the two attorneys spearheading 
the case. In any case, there are five (5) more delegates that will 
ensure the continuation of efforts to bring about statehood for Puerto 
Rico. They were all elected. They will go on to do their job. Their 
jobs and their role, our mandate and our future, must not be hijacked 
by unsubstantiated accusations nor will it be.

    In conclusion, while the written statements submitted to Congress 
by the FP and co-signed by Carmen Yulin Cruz, Anibal Acevedo Vila and 
Luis Gutierrez among others, seem reasonable, not everything is as it 
appears. At least two of the proponents of FP's arguments, Cruz and 
Acevedo-Vila, belong to the PDP party. The PDP seeks to maintain our 
territorial status adding more benefits brought about by the United 
States. A fallacy. Furthermore, both ran for office in the 2020 
elections and both lost. As you may gather, Cruz and Acevedo-Vila in no 
way represent the will of the majority that rules democracy. Cruz ran 
for Mayor of our Capital city of San Juan, only to lose to Miguel 
Romero from the NPP, again, the candidate from the only pro-statehood 
party. We must further bring forth the evidence that points to Cruz's 
mismanagements during her eight years as Mayor of San Juan which is 
starting to come out as Romero audits the city's vaults. Acevedo-Vila, 
on the other hand, a former governor from the PDP from 2005-2009 who 
also held the office of Resident Commissioner from 2001-2005 had to 
deal with 13 corruption charges brought against him by the Federal 
Bureau of Investigation. The charges were cleared through scapegoating 
as many under his purvue took the fall. All accused but Acevedo were 
found guilty. Additionally, the People of Puerto Rico have not 
forgotten the impeding weight of the taxation he imposed upon us, in 
the form of ``el IVU,'' otherwise referred as to the Sales and Use Tax, 
the amount of 11% of any purchase that a person in Puerto Rico must pay 
when buying an item as well as the irresponsible and outrageous debt 
issued during his incumbency, amongst many other failures. Acevedo 
carries the stigma of being the ultimate statehood blocker. In 1998, 
Acevedo sabotaged a plebiscite to solve the status question by 
promoting a vote for ``None of the above.'' In 2016, he called a 
boycott of another plebiscite to decide on the status question. In 
2020, he asked to burn the statehood yes/no plebiscite ballots. Acevedo 
has wreaked havoc to effectively sabotage efforts that would forever do 
away with his own political agenda and stance for Puerto Rico, 
independence. Knowing well that support for statehood has grown with 
the passage of time and will continue to grow, Acevedo insists on 
turning a blind eye to the People's mandate.
    Both, Cruz and Acevedo, oppose statehood and have sought to 
overturn their own political party's historical stance on status to 
have it embrace the ideology of independence. Both lack objectivity in 
their claims and have claimed in FP's own mission statement that they 
are against Statehood and they will fight to deter it.
    As to former U.S. Representative of Illinois' 4th District Luis 
Gutierrez, in an article written in the Chicago Sun on April 7th of 
this year by columnist Mark Brown, Gutierrez openly stated, ``What got 
me into politics was the fight for the independence of Puerto Rico.'' 
Further, the Committee should also be reminded that, during his time in 
the House, Gutierrez was investigated in 2017 after having been 
arrested during a protest outside of the White House. After paying a 
fine for his misconduct, the House Committee on Ethics recommended no 
further action. In 2013, Gutierrez was investigated for using funds 
from his Member's Representational Allowance from 2003-2013 for an 
unauthorized purpose--to retain an individual to provide services to 
his congressional office that more closely resembled those provided by 
an employee or consultant, rather than a contractor. In March 2018, the 
House Committee on Ethics reproved Gutierrez for using his Member 
Representational Allowance inappropriately, albeit possibly 
unwittingly, and ordered him to reimburse the US Treasury for that use. 
On November 28, 2017, Representative Gutierrez announced he would not 
seek reelection. He moved to Puerto Rico to campaign for the No in the 
plebiscite and push to pro-independence propaganda for a year. This 
year he moved back to Chicago.
    ``Do not cast a stone if you yourself are not free of sin,'' warned 
Jesus to the mob. These FP members have casted big stones they 
themselves should not, in good faith, even hold in their hands.
    We must finalize by addressing the matter of HR2070's alleged 
benevolence in seeking Puerto Rico's self-determination while, in fact, 
doing the complete opposite: standing as pure election denialism. The 
arguments in defense of HR2070, the legislation introduced by 
Representatives Velazquez and Ocasio-Cortez, are corrupted in their 
efforts to sound democratic. While the arguments claim to pursue 
inclusion of all the political factions now represented throughout our 
Island, it denies the fact that all political factions participated and 
even campaigned during the time prior to the statehood plebiscite. The 
result is clear. The No was defeated. And HR2070 is none other than an 
attempt at ignoring the People's Will and blocking the passage of 
HR1522 and the process of democracy. No doubt, HR2070s authors have 
devised a form of procedural filibuster, in the sense that they seek to 
prolong a never-ending rhetoric of manipulative political inclusion in 
order to obstruct progress and justice for the People of Puerto Rico.
    Democracy is clear, when the majority votes, such is the rule of 
law that it requires that the minority of any political faction or any 
minority political opinions, no matter how desirous they are for power, 
should concede and abide by the Will of the People, and even assist 
that majority in drawing the plans for a shared future. All, in good 
faith, for the well-being, freedom, safety, and security of the People.
    We voted. We decided. More than 600,000 US citizens in Puerto Rico 
expressed their unequivocal will by answering Yes to the question of 
statehood. Our mandate must not only be heard, it must be respected and 
it must be swiftly acted on. Such is the rule of the law. Such is the 
basis of our democracy. Where the majority elects and sits leaders and 
determines the direction of our future. Our democracy protects our 
votes. Our votes protect our democracy. We rest our case.

            Respectfully,

                                       Zayira Jordan-Conde,
                                                            Founder

                                 ______
                                 

     Domestic and International Legal Advice, LLC  
                               c/o Gregorio Igartua
                                              Aguadilla, PR

                                                      June 11, 2021

Hon. Raul Grijalva
House Committee on Natural Resources
1324 Longworth House Office Building
Washington, DC 20515

Re: WRITTEN TESTIMONY FOR COMMITTEE ON PUERTO RICO'S TERRITORIAL 
        STATUS--P.R. SELF DETERMINATION ACT, STATEHOOD ADMISSION ACT

    Dear Chairman Grijalva:

    I was born in Puerto Rico, U.S.A., and, I am an American citizen 
resident of Puerto Rico. I am sending this written testimony in 
opposition to the proposed ``Self Determination Act'', which is not 
constitutionally viable, and to support the Puerto Rico Statehood 
Admission Act. It is the only political alternative that fits in the 
U.S. Constitutional Framework, and it is 122 years overdue.
    As you know, Puerto Rico has been a part of the United States since 
1898. For 122 years we have been under the U.S. Government 
discriminatory practice of being denied the right to vote in Federal 
Elections, and of government without the consent of the governed (3.4 
million American Citizens by birth). We are also subject to unequal 
treatment in economic policies implemented by Congress for the states, 
which have moved Puerto Rico into bankruptcy. Moreover, for some cases 
the Federal Courts apply the U.S. Constitution, and not for others. 
(Consider, for example: the stance of the US DOJ in US v. Vaello, USSC 
#20-303, now before the Court, opposing equal protection treatment for 
Puerto Rico in the SSSI benefits; versus, President's Biden support for 
applicability of the SSSI; versus, the USDOJ stance in the case of US v 
PR Police Dept., 922-FS 2nd 185 (2013), requiring Puerto Rico, under a 
penalty payment of 100 million dollars, to train police to secure U.S. 
equal protection and due process rights. Such are the constitutional 
contradictions the Congress is allowing for legal and economic 
treatment for 3.3 million American Citizens. (See San Juan Star Article 
enclosed). Ironically, we pay more than $3 billion dollars a year in 
federal taxes, more than some states and many state regions. (IRS 
Highlights 2020). Moreover, Congress grants annually billions of 
dollars to foreign countries, and can also implement federal taxes in 
Puerto Rico as to the states, at will.
    The Committee of Natural Resources you preside, has expressed 
interest in pursuing Congressional action in the issue of the political 
status of Puerto Rico. I suggest that you consider as the most viable 
alternative that Puerto Rico be certified as an incorporated territory 
first, which de facto it is. Notwithstanding incorporation is not 
permanent, therefore Congress should simultaneously resolved to move 
Puerto Rico in transit to statehood at a definite date. Certification 
of Incorporation would make the U.S. Constitution fully applicable, and 
would give us parity with federal funds as if Puerto Rico were a state. 
We qualify for incorporation by having been assimilated more than any 
other U.S. Territory before becoming a state. Although there may be 
conflicting views of what is the political relation of Puerto Rico to 
the United States, due to the reality that we are still not a state, 
Congress has assimilated us gradually since 1898 into a federalist 
relation to be like a de facto incorporated territory. (See: G. 
Igartua, The ``de facto'' Incorporated Territory U.S. of Puerto Rico. A 
copy of the Book was mailed to you a few months ago, and one was mailed 
to the Committee).
    I respectfully suggest that you consider proposing to Congress to 
declare Puerto Rico officially an Incorporated Territory of the United 
States in transit to statehood. (See Petition enclosed--Annex A). It is 
the only political alternative that fits into the U.S. Constitutional 
framework, it is 122 years overdue. Rather than holding more hearings 
on what we could hypothetically be, which is discriminatory, our 
political and civil rights must be recognized by Congress based on what 
we are, 3.4 American citizens by birth residents of a de facto 
incorporated territory. Incorporation was recently supported 
unanimously by the National Association of U.S. Mayors. (Annex B). (See 
also, Consejo de Salud Playa de Ponce v Rullan, 586 FS 2nd 22 (2008)).
    No one in Puerto Rico wants independence, nor continue to be 
confused with political status alternatives which do not fit within the 
U.S. constitutional framework. No one in Puerto Rico wants to renounce 
their American Citizenship. A Republic of American citizens would be a 
matter of national security concern. (3.3 million residing in Puerto 
Rico, 5 million residing in states). Many are confused by the daily 
practice of uncertainty brought by the questioning about what our 
rights are as American citizens, or could be. Consider within this 
context the ``Puerto Rico Self Determination Act'' proposed for 
American citizens after 122 years under our American flag. Were 
African-Americans subjected, or should be subjected, to hearings on 
whether they would like to be slaves again, or be moved to a Country in 
Africa? Should Mexican-Americans be asked whether they would like to 
renounce their American Citizenship to Mexican and be moved back to 
Mexico, or should their American citizenship status be questioned, as 
your Committee is doing with us in Puerto Rico in 2021? Insulting to 
the American citizens of Puerto Rico to be forced to participate in a 
plebiscite on whether these vote for independence, not for equality as 
American citizens.
    Consider as constitutionally viable only to start holding hearings 
on how the American Citizens residents of Puerto Rico can have equal 
rights and government by the consent of the governed. (U.S. 
Constitution Amendments XIV and XV). Congressman Grijalva, statehood 
for you, for Congresswomen Velazquez and Ocasio, for all the members of 
your Committee, for all Congressmen, and statehood for us the American 
citizens residents of Puerto Rico. Time is of the essence.
    I respectfully request to be allowed to participate in the June 16, 
2021, hearing your Committee has scheduled on this subject, and in 
support of our American Citizenship rights.

            Sincerely yours,

                                           Gregorio Igartua

                                 *****
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 *****
                                 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                                      June 16, 2021

Hon. Raul M. Grijalva, Chairman,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515

Hon. Bruce Westerman, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515

Re: COMMITTEE HEARING ON PUERTO RICO POLITICAL STATUS BILLS H.R. 1522 
        AND H.R. 2070

    Dear Chairman, Ranking Member, and Members of the Committee:

    I write to you in support of H.R. 1522: the Puerto Rico Statehood 
Admission Act, and to speak against H.R. 2070, the Puerto Rico Self-
Determination Act of 2021.
    My reasons to support H.R. 1522 are simple: respecting the will of 
American citizens, enfranchising 3.3 million Americans not adequately 
represented in their government, and provide them with full 
constitutional protections and equal protection of laws.
    In pursuance to solving the century-old ``political status'' 
question, Puerto Rico has held six plebiscites. The November 2020 
plebiscite was different from previous ones. Together with the general 
elections, the ballot asked a straightforward question modeling the 
same proposition Alaska and Hawaii used in their plebiscites before 
being admitted as states: Should Puerto Rico be admitted immediately 
into the Union as a State? Yes or No. With 53% of the votes, YES to 
Statehood won. It received substantially more votes than any political 
party or candidate, including the pro-statehood party and for the 
offices of Governor and Resident Commissioner. Statehood won in every 
senatorial district on the island and in 33 of 40 representative 
districts. Notwithstanding, in the seven districts where the No option 
won, Yes to statehood obtained more votes than the candidate who was 
elected. It was also the first time when every political faction, 
party, or group assumed a clear position on the options.

    The last plebiscite showed three things:

  1.  Support for statehood supersedes partisan politics. It is a 
            multipartisan, multi-ideological movement composed of 
            people from all around the island and backgrounds.

  2.  Puerto Ricans can differentiate between partisan politics and 
            political status. Although the pro-status quo party won the 
            majority in the local legislature, it does not erase and 
            must not ignore that in the same elections statehood won.

  3.  Confirmed a trend that previous plebiscites had shown. Support 
            for the Commonwealth option was declining and ultimately 
            rejected, and support for statehood increased until it 
            finally won as the preferred alternative.

    To uphold the will of Americans in the last plebiscite, 
Congresswoman Jenniffer Gonzalez-Colon (R-PR), alongside Rep. Darren 
Soto (D-FL), file H.R. 1522 to provide for the admission of the State 
of Puerto Rico. It currently has 68 co-sponsors: 17 Republicans and 51 
Democrats.

    The filing and cosponsorship of the bill right away tell three 
facts that speak for themselves:

  1.  It was introduced by Puerto Rico's elected representative in 
            Congress, not by other members representing other districts 
            that Americans on the island did not vote for.

  2.  It shows that admitting Puerto Rico as a state is a bipartisan 
            effort representing a movement that, just as in the island, 
            is diverse and encompasses people from all sides of the 
            political spectrum.

  3.  The bill is cosponsored by two members who hold leadership 
            positions in the House: Majority Leader Steny Hoyer and 
            Republican Conference Chair Elise Stefanik.

    By contrast, H.R. 2070 has only Democratic support with no House 
leadership involved, and the representative elected by Puerto Rico 
strongly opposes the bill. The Self-Determination Act is a flawed and 
contradictory bill.

  1.  Sec. 3(a) of the bill establishes that the legislature of Puerto 
            Rico has the ``inherent authority to call a status 
            convention.'' However, it ignores that by that same 
            authority Puerto Rico's duly elected politicians have 
            called for referendums, and they must be given deference in 
            their actions. H.R. 1522 recognizes the Puerto Rico 
            legislature's inherent authority to call for referendums 
            and acts on the people's choice.

  2.  The bill says it recognizes Puerto Rico's ``natural right to 
            self-determination.'' It is interesting that while it 
            acknowledges that we have that right, H.R. 2070 completely 
            ignores the times when Puerto Ricans themselves have 
            exercised it. H.R. 1522 takes the self-determination option 
            Puerto Rico voted for and provides a ratifying vote.

  3.  Sec. 3(a)(2)(1) states that delegates to the convention shall 
            draft options for Puerto Rico ``outside the Territorial 
            Clause'' of the U.S. Constitution. That language creates 
            the fantasy of multiple options when there are only two: 
            statehood and independence. A compact of free association, 
            which is not guaranteed, would be after achieving 
            independence.

  4.  H.R. 2070 is not time bounded. It does not specify the length of 
            the convention, terms on when and how Congress or the 
            Puerto Rico legislature may act, and no limits at all. The 
            bill is time-open until who knows when the delegates would 
            draft the options, hold a referendum, and sent it to 
            Congress. H.R. 1522 is time-specific, sets due dates the 
            President and the Government of Puerto Rico must act.

  5.  The bill complicates the political status issue with unfamiliar 
            voting formats with the intention to delude the will of the 
            people. In addition, the voting options are prone to 
            confusion. Sec. 5(a)(C) establishes that there could be 
            ``more than one choice with the same self-determination 
            definition'' but with different transition plans. H.R. 2070 
            proposed referendum suffers from the same inconsistencies 
            some people have complained about in local plebiscites. On 
            the other hand, H.R. 1522 is clear and will ask the people 
            if they agree with the terms prescribed by Congress and it 
            also details the transition from territory to state.

  6.  Finally, this bill tries to bind Congress to the results of the 
            self-determination referendum. The legislative branch has 
            absolute sovereignty in its legislative power; it cannot 
            force itself to legislate one way or the other except by 
            the limitations outlined in the Constitution because its 
            sovereign power over legislative matters is complete. Much 
            less could bind futures Congresses. By contrast, H.R. 1522 
            binds the Executive, a legitimate exercise of congressional 
            authority via a statutory requirement to the President to 
            formally proclaim, once the bill is passed and the 
            admission act is ratified, Puerto Rico as a State of the 
            Union.

    In summary, H.R. 1522 is the bill that respects the will of 
Americans who voted for statehood. It has specific provisions regarding 
the admission of Puerto Rico into the Union, has support that is both 
bipartisan and reaching all sides of the political spectrum, and lets 
the people vote again to ratify the Admission Act. Anti-statehood 
opponents and skeptics say that the results of the 2020 plebiscite are 
not enough. I would like to remind them that 53% is the absolute 
majority of the electorate; that with lesser margins laws are passed, 
judicial and executive appointments are confirmed, and politicians, 
including presidents, are elected, shaping forever the future of the 
country. That is called living in a democracy.

    Justice John Marshall Harlan said:

        ``The idea that this country may acquire territories anywhere 
        upon the earth . . . the people inhabiting them to enjoy only 
        such rights as Congress chooses to accord to them is wholly 
        inconsistent with the spirit and genius, as well as with the 
        words, of the Constitution . . . I cannot grasp the thought 
        that Congress, which lives and moves and has its being in the 
        Constitution, and is consequently the mere creature of that 
        instrument, can at its pleasure legislate or exclude its 
        creator from territories which were acquired only by authority 
        of the Constitution'' Downes v. Bidwell, 182 U.S. 244 (1901) 
        (Harlan, dissenting).

    Justice Harlan was known as the Great Dissenter for his dissenting 
opinions in cases that restricted civil rights. Dissenting in Plessy v. 
Ferguson, he stated that the Constitution is colorblind and that all 
citizens should have equal access to civil rights. In 1954, he was 
vindicated in Brown v. Board of Education. It is up to you, members of 
the Committee, to vindicate once again a Justice who stood in the right 
side of history.
    Statehood means complete protection of the U.S. Constitution to 
more than 3 million Americans in Puerto Rico who somehow, only for 
living on the island, lose equal protection in many laws. Statehood is 
self-governance and upholding the ideals and values the United States 
was founded, and for which thousands of Puerto Ricans have fought and 
died defending freedom and democracy. It is equal justice under the 
law; it is ``securing the blessing of Liberty to ourselves and our 
posterity.''

            Respectfully,

                                        Juan C. Ruiz Pinzon

                                 ______
                                 

                                                      June 16, 2021

Hon. Raul Grijalva, Chairman,
House Committee on Natural Resources

Hon. Bruce Westerman, Ranking Member,
House Committee on Natural Resources

    Dear Chairman Grijalva and Ranking Member:

    The purpose of this letter is to urge you to act upon Puerto Rico's 
current colonial and/or territorial status. It is mind boggling to me 
and many of my Puerto Rican brothers and sisters that the land of the 
free, has held a colony hostage for 113 years.
    Over a quarter million Puerto Rican soldiers have defended our 
great nation: 18,000 in WWI, 65,000 in WWII, 61,000 in the Korean War, 
48,000 in the Vietnam War, 48,000 in the Gulf War and Iraqi Freedom, 
and 39,000 active, reserve and National Guard members; yet the home of 
the brave, regrettably, is not home to my Puerto Rican brothers and 
sisters who have bravely defended our great nation, but cannot vote to 
elect their Commander in Chief, nor have full representation in 
Congress. We have earned statehood with the blood of the Puerto Rican 
brothers and sisters who have proudly defended our nation.
    It is unacceptable that Congress has historically chosen to ignore 
the express will of the American citizens living in Puerto Rico. I do 
not need to state Puerto Rico's history, as you are well aware of our 
colonial status, and how that status has kept us from fully enjoying 
the privileges of American citizenship. The question before you today 
is whether you choose to act to change that. Puerto Rico and its people 
certainly are.
    Puerto Rico already acts like a state; we have US currency, we 
already pay federal taxes like Medicare, Medicaid and Social Security, 
we speak both English and Spanish and our government has the same 
structure as other state governments. That notwithstanding, we are not 
recognized the same the same rights as citizens who live in the other 
50 states.
    By supporting HR 2070 by Congresswomen Velazquez and Ocasio Cortez 
you will be doing the complete opposite. You would impose a course of 
action by Congress that ignores the will of Puerto Ricans who already 
voted in favor of statehood. That would be the utmost expression of 
Colonialism and contrary to what the United States of America stands 
for. Therefore, I strongly urge the Members of Congress to support HR 
1522 introduced by Congressman Darren Soto and Puerto Rico's lawfully 
elected official Resident Commissioner Jenniffer Gonzalez. This is the 
only bill that respects the will of the 655,505 American citizens 
living in Puerto Rico, 53% whom voted yes to statehood.
    You have the privilege and opportunity today to take a step in the 
right direction. I strongly urge you to be in the right side of 
history. Support statehood for Puerto Rico. As American citizens, we 
deserve no less than our mainland brothers and sisters.

            Cordially,

                                   Roberto Lefranc Fortuno,
                            US Representative (Shadow), Puerto Rico

                                 ______
                                 

                        Statement for the Record
                             Maria Melendez

    Good afternoon (morning). Thank you to the Committee leadership for 
convening this hearing and for the opportunity to speak in support of 
H.R. 1522. This hearing is an essential step in the desegregation of 
the American citizens of Puerto Rico and the full recognition of our 
rights as American citizens.
    As a former three-term mayor of the city of Ponce, current shadow 
representative, and a lifelong resident of the Island, I can attest to 
the dire effects the current territorial status has had on our economy, 
our institutions, and our people. For the past two decades we have 
experienced an unprecedented demographic crisis. Almost twenty-five 
percent (25%) of our fellow citizens have had to move from the Island 
to the States fragmenting our families and distressing our 
socioeconomic fabric. Unequal treatment and lack of political 
participation at the federal level have placed us in a subordinate 
position, a state of structural disadvantage with dire implications. We 
are not talking about purely theoretical or philosophical concepts but 
about realities that we face daily.
    Effective political participation, and thus fundamental civil 
rights, requires the right to participate in all these public affairs 
that impact us. The interrelation between effective political 
participation and social and economic development does not arise 
exclusively from our experience. Instead, it constitutes a principle 
recognized in multiple international instruments, including the Inter-
American Democratic Charter of the Organization of American States, 
which provides in its preamble that: ``. . . economic growth and social 
development based on justice and equity and democracy are 
interdependent and mutually reinforcing.'' This is why we cannot 
isolate Puerto Rico's problems from the status discussion; they are 
intricately connected.
    The perils of our political condition have become more visible and 
critical at a time when even the exercise of the most elementary rights 
and political prerogatives at the state level are subject to review by 
a federally appointed financial oversight board. The coexistence of 
what in essence, constitute two parallel governments has weakened 
public confidence in their institutions. There is an urgent need for 
fundamental changes! This demand is not mine, but of the American 
citizens of the Island that have acknowledged the harmful effects of 
this deprivation and have rejected the current status in free and 
democratic elections.
    During my frequent visits after the devastation caused by Hurricane 
Maria, most members of this honorable Congress privately confessed that 
one of the biggest problems facing the Island was the lack of complete 
and permanent presence at the federal level. However, some of these 
same distinguished representatives are the first to disparage our 
claims publicly and distort our reality.
    Let us be clear! On election day, November 3, 2020, the American 
citizens of Puerto Rico reiterated the public expression on multiple 
previous electoral events: We demand change, and we demand statehood!
    Procedural arguments cannot be used as a subterfuge to impose the 
individual will over the collective will or extend this discussion 
indefinitely in the hope that the public's decision would be different 
in the future. If these same arguments were deemed valid and applied to 
the elections of most federal elected officials, their legitimacy would 
be questionable.
    It is because of this legitimate demand by the American citizens on 
the Island that I urge all members of this Committee to recommend the 
approval of H.R. 1522.
    This bill is the only one that takes into consideration the 
expression of the people of Puerto Rico. The form, structure, and 
forcefulness of that vote can hardly be questioned. Voting for 
statehood on a simple and direct question is a mandate for all public 
officials. Precisely, the bill presented makes the execution of said 
mandate feasible through a process similar to that followed by other 
territories that were admitted as states, including the holding of a 
ratifying vote and other transitory processes. Furthermore, this 
project brings with it the legitimacy of the direct vote of the people 
and the support of the public official who obtained the most votes on 
the Island.
    The obligation to solve this century-old issue is reciprocal. We 
must close the gap between the American citizens who live in Puerto 
Rico and those who live on the continent. We are not requesting special 
considerations or exceptions; we are only asking for fair, equitable, 
and dignified treatment. We should not be required to abandon our 
families and our communities to reap the benefits of citizenship. There 
are no persuasive or logical arguments to support our continued 
treatment as second-class citizens. It is impossible to talk about 
effective governance without access to the rights that serve as a 
precondition to its exercise. It is impossible to address the issue of 
individual rights without simultaneously addressing the collective 
structural problem. Governance and legitimacy require that citizens 
feel that their claims are being heard, that their aspirations are part 
of the conversation, that democracy is not a mirage.

                                 ______
                                 

            NAPREC--National Puerto Rican Equality Coalition
         Frequently Asked Questions--Statehood for Puerto Rico

1.  Was November 3, 2020, the first time that voters in Puerto Rico 
were asked about their political status?

        No. The U.S. citizens of Puerto Rico have been asked the 
        question regarding the island's status three times in the last 
        decade, with different language, and each time ``statehood'' 
        has gained the majority of support.

2.  What was the voter turnout and results of November 3, 2020 general 
election plebiscite in Puerto Rico?

        With a 54.72% participation rate, the final certified results 
        of the plebiscite were 655,505 votes (52.52%) ``Yes'' and 
        592,671 votes (47.48%) ``No,'' on whether Puerto Rico should 
        join the Union as a state.

3. What was the question presented to voters?

        The plebiscite question derived by the elected representatives 
        of Puerto Rico to voters was ``[s]hould Puerto Rico be admitted 
        immediately into the Union as a State? Yes or No.''

4.  Didn't the U.S. Department of Justice (DOJ) deny Puerto Rico the 
disbursement of $2.5 million to resolve the island's future political 
status?

        While the DOJ denied the disbursements of the $2.5 million, the 
        DOJ's own disregard of congressional guidelines as to 
        acceptable ballot materials and failure to meet congressional 
        deadlines led to the inability to disburse funds prior to the 
        plebiscite.

          a.   House Report 116-101 (H. Rprt. 116-101) was enacted with 
        the signing of the Consolidated Appropriations Act, 2020 (P.L. 
        116-93), on December 20, 2019.

          b.   DOJ was required within 45 days of enactment of P.L. 
        116-93 ``to provide the Committee, as well as the Puerto Rico 
        State Elections Commission, with a report regarding the 
        acceptable versions of voter education materials, plebiscite 
        ballot formats, and related materials that would allow the 
        Department to obligate this funding for a future plebiscite'' 
        and to ``expeditiously act upon any request for this funding.'' 
        \1\
---------------------------------------------------------------------------
    \1\ House Report 116-101, Commerce Justice, Science, and Related 
Agencies Appropriation Bill, 2020, https://www.congress.gov/
congressional-report/116th-congress/house-report/101/1?q=%7B% 
22search%22%3A%5B%22House+Report+116-101%22%5D%7D&s=1&r=1.

          c.   DOJ disregarded directives to provide acceptable 
        plebiscite materials by the congressional deadlines to the 
        required parties, which caused the delayed and limited 
        timeframe for review. In April 2020, DOJ did publish the 
        delayed report but with very limited guidance.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Justice, Report Submitted to the House and 
Senate Committees on Appropriations and the Puerto Rico State Elections 
Commission as requested by House Report 116-101 accompanying the 
Consolidated Appropriations Act, 2020.

          d.   Additionally, DOJ demanded that all the status options 
        be included on the ballot, in violation of the directives in H. 
        Rprt. 116-101 which directed that ``[t]he current territorial/
        Commonwealth status should be excluded from any future 
        plebiscite, since it fails to address key inequities.'' \3\
---------------------------------------------------------------------------
    \3\ House Report 116-101, Commerce Justice, Science, and Related 
Agencies Appropriation Bill, 2020, https://www.congress.gov/
congressional-report/116th-congress/house-report/101/1?q=%7B% 
22search%22%3A%5B%22House+Report+116-101%22%5D%7D&s=1&r=1.

5.  Since the DOJ did not disburse the funds does that mean the 
---------------------------------------------------------------------------
plebiscite was illegitimate?

        NO, any controversy about the language of the question was 
        resolved prior to the plebiscite by the Supreme Court of Puerto 
        Rico (``PRSC'').

          a.   On October 5, 2020, the PRSC upheld the 
        constitutionality of the November 3, 2020 plebiscite, 
        determining that it was a constitutionally valid exercise of 
        self-determination and that those who contend the plebiscite is 
        not neutral or is discriminatory fail to notice the legal 
        effects of the 2012 and 2017 plebiscites.\4\
---------------------------------------------------------------------------
    \4\ Aponte-Rosario, et al., v. President EEC, et al., 2020 PRSC 119 
(P.R. 2020).

          b.   Additionally, the PRSC held that there has never been a 
        single or standard process for admission as a state, and the 
        denial by the DOJ was inconsequential since holding the 
        plebiscite only depends on the will of the territory, not on 
        congressional authorization.\5\
---------------------------------------------------------------------------
    \5\ Id.

6.  What are the federal legislative proposals to resolve Puerto Rico's 
---------------------------------------------------------------------------
political status?

        In the 117th Congress the legislative proposals introduced to 
        address Puerto Rico's status are as follows:

          a.   H.R. 1522 and S. 780, Puerto Rico Statehood Admission 
        Act, introduced by Rep. Darren Soto (D-FL-09), Resident 
        Commissioner Jenniffer Gonzalez-Colon (R-PR At Large), and 
        Senator Martin Heinrich (D-AZ).

          b.   H.R. 2070 and S. 865, Puerto Rico Self-Determination Act 
        of 2021, by Rep. Nydia Velazquez (D-NY-07) and Senator Robert 
        Menendez (D-NJ).

7. What are the main differences between the legislative proposals?

          a.   H.R. 1522 and S. 780 respect the will of voters in 
        Puerto Rico, by mandating a binding ratification vote on the 
        statehood ``Yes'' or ``No'' question previously presented to 
        Puerto Rican voters and establishes the terms of admission as a 
        state into the Union within 12 months if ``statehood'' is 
        ratified.

          b.   H.R. 2070 and S. 865 reject and silence the will of 
        voters in Puerto Rico, by disregarding the electoral results 
        and forcing the Legislature of Puerto Rico to establish a non-
        binding status convention composed of newly elected local 
        delegates, supervised by a federal negotiating commission, to 
        present a potential multitude of status options to voters with 
        no certainty or guarantee that its proposed status option will 
        be accepted by Congress.

8.  Why are H.R. 1522 and S. 780 binding, while H.R. 2070 and S. 865 
are non-binding?

          a.   H.R. 1522 and S. 780 are binding because the legislation 
        is self-executing following the direct ratification vote of 
        Puerto Ricans on the island. If statehood is chosen again by 
        the people of Puerto Rico, the President of the United States 
        merely needs to execute the law and proclaim Puerto Rico as a 
        state after 12 months.

          b.   H.R. 2070 and S. 865 are non-binding because the 
        legislation fails to establish clear timelines for choosing the 
        self-determination option and when a referendum will take 
        place. Also, they are non-binding since no convention can 
        impose a status option upon Congress or mandate the automatic 
        adoption of an unknown future resolution.

9.  Puerto Rico just held a special election to choose a ``Shadow 
Puerto Rico Congressional Delegation.'' What is the purpose, make-up, 
and term of this delegation?

          a.   On May 16, 2021, Puerto Rico held a special election to 
        choose the Puerto Rico Congressional Delegation 
        (``Delegation''), entrusted with the duty to demand Congress 
        honor the results of the November 3, 2020 plebiscite and admit 
        Puerto Rico as a state.

          b.   The Delegation includes two special delegates to the 
        United States Senate and four special delegates to the United 
        States House of Representatives.

          c.   The term of the Delegation from is July 1, 2021 to 
        December 31, 2024.

10.  Opponents of statehood claim that the low voter turnout for the 
special election of the Delegation invalidates the vote in November. Is 
this correct?

          a.   No. In the United States we have general elections and 
        special elections with varying levels of voter turnout, and yet 
        we do not disregard those results.

          b.   Elections are decided by ballots and votes cast, not by 
        those who fail to vote on an issue.

          c.   In a time when we are protecting the right to vote and 
        the integrity of our elections, we must not reverse or 
        disregard the definitive will of U.S. citizens legally voting 
        to choose their future political status.

                                 ______
                                 

            NAPREC--National Puerto Rican Equality Coalition
Support and Cosponsor H.R. 1522/S. 780: Puerto Rico Statehood Admission 
                                  Act

Historical Background
    Puerto Rico was ceded to the United States by Spain at the end of 
the Spanish-American War in 1898. On April 12, 1900, the Foraker Act 
(P.L. 56-191) established the first form of civil administration of 
local government affairs in Puerto Rico. The Foraker Act also 
established the position of Resident Commissioner to represent the 
island in Congress. In 1917, through the Jones-Shafroth Act (P.L. 64-
368), Congress extended U.S. citizenship by statute to the residents of 
Puerto Rico and granted further local self-government. In 1952, the 
Puerto Rico Federal Relations Act (P.L. 81-600) granted Puerto Rico 
authority over matters of internal governance when Congress approved 
the island's Constitution. Puerto Rico has since been known formally as 
the ``Commonwealth of Puerto Rico,'' but the island is still a 
possession of the United States under the Territorial Clause, Article 
4, Section 3 of the United States Constitution.
    Since the first World War, Puerto Ricans have fought in every 
military conflict of the United States. From the honorable service of 
the Army's 65th Infantry regiment to present day, Puerto Rican service 
members continue to defend and protect our country honorably. However, 
these veterans and the U.S. citizens of Puerto Rico have no voting 
representation in Congress and cannot vote for their Commander in 
Chief. To end this inequality, we urge you to cosponsor and support 
H.R. 1522/S. 780, Puerto Rico Statehood Admission Act.
Facts:

    <bullet> In the last decade, the U.S. citizens of Puerto Rico have 
            held three separate plebiscites to resolve their political 
            status, and each time the majority of voters chose 
            statehood.

    <bullet> On November 3, 2020, Puerto Rico held the general election 
            plebiscite on ``[s]hould Puerto Rico be admitted 
            immediately into the Union as a State? Yes or No.''

             --  Prior to the plebiscite the Supreme Court of Puerto 
        Rico held that the question and the plebiscite to be a 
        legitimate and constitutionally valid exercise of self-
        determination.\1\
---------------------------------------------------------------------------
    \1\ Aponte-Rosario, et al., v. President EEC, et al., 2020 PRSC 119 
(P.R. 2020).

    <bullet> With a 54.72% participation rate, the final certified 
            results of the plebiscite were 655,505 votes (52.52%) 
---------------------------------------------------------------------------
            ``Yes'' and 592,671 votes (47.48%) ``No.''

    <bullet> In the 117th Congress the legislative proposals to address 
            Puerto Rico's status are as follows:

             --  H.R. 1522 and S. 780, Puerto Rico Statehood Admission 
        Act, introduced by Rep. Darren Soto (D-FL-09), Resident 
        Commissioner Jenniffer Gonzalez-Colon (R-PR At Large), and 
        Senator Martin Heinrich (D-NM)

             --  H.R. 2070 and S. 865, Puerto Rico Self-Determination 
        Act of 2021, by Rep. Nydia Velazquez (D-NY-07) and Senator 
        Robert Menendez (D-NJ).

    <bullet> H.R. 1522 and S. 780 respect the will of voters and would 
            mandate a binding ratification vote on the statehood 
            ``Yes'' or ``No'' question previously presented to Puerto 
            Rican voters and establishes the terms of admission as a 
            state into the Union within 12 months if ``statehood'' is 
            ratified.

    <bullet> H.R. 2070 and S. 865 reject voters by calling for a non-
            binding status convention composed of newly elected local 
            delegates, supervised by a federal negotiating commission, 
            to present a potential multitude of status options to 
            voters with no certainty or guarantee that its proposed 
            status option will be accepted by Congress.

                                 ______
                                 
                    NAPREC                        PRSC
        National Puerto Rican 
        Equality Coalition            Puerto Rico Statehood Council

                                                  June 14, 2021    

        Hon. Raul M. Grijalva, 
        Chairman                      Hon. Bruce Westerman, Ranking 
                                      Member
        Committee on Natural 
        Resources                     Committee on Natural Resources
        1324 Longworth Office 
        Building                      1324 Longworth Office Building
        Washington, DC 20515          Washington, DC 20515

    Dear Chairman Grijalva and Ranking Member Westerman:

    We write to express our support for the bipartisan proposal H.R. 
1522, Puerto Rico Statehood Admission Act, introduced by Congressman 
Darren Soto (D-FL-09) and Resident Commissioner Jenniffer Gonzalez-
Colon (R-PR At Large), which respects the will of U.S. citizens 
residing in Puerto Rico about their future political status. On 
November 3, 2020, a majority of Puerto Ricans residing on the island 
determined their future status and voted for equality through 
statehood. Now that a majority of Puerto Ricans have definitively 
spoken, the most appropriate response for Congress is to act on their 
will and extend a formal offer of admission through the enactment of 
H.R. 1522.
    With a participation rate of 54.72 percent, the results of the 
November plebiscite were 52.52 percent (655,505 votes) ``Yes'' and 
47.48 percent (592,671 votes) ``No,'' on whether the island should be 
admitted as a state.\1\ The plebiscite question presented by the local 
elected representatives of Puerto Rico to voters was ``[s]hould Puerto 
Rico be admitted immediately into the Union as a State? Yes or No.''
---------------------------------------------------------------------------
    \1\ Puerto Rico State Elections Commission, Plebiscite Results, 
https://elecciones2020.ceepur.org/Escrutinio_General_93/index.html#es/
default/PLEBISCITO_Resumen.xml (Last visited June 9, 2021).
---------------------------------------------------------------------------
    Not surprisingly, many of the same opponents of statehood that 
actively campaigned for the ``No'' option and lost at the ballot box, 
now try to argue that Congress should ignore the plebiscite results. 
Yet, the various reasons they provide are all easily refutable.
Plebiscite Valid Despite Failure of DOJ to Approve $2.5 million 
        Appropriation
    One common argument is that the U.S. Department of Justice 
(``DOJ'') decided not to disburse $2.5 million in federal funds 
previously allocated by Congress for Puerto Rico to carry out a 
plebiscite to resolve its future political status when the Government 
of Puerto Rico requested such funds before the November 2020 vote. This 
argument ignores that DOJ itself disregarded congressional guidelines 
to provide the Government of Puerto Rico examples of acceptable ballot 
formats and materials. The DOJ also failed to meet congressional 
deadlines and then used the excuse of insufficient time as 
justification for their failure to disburse funds prior to the 
plebiscite.
    Congressional guidance was provided to the DOJ in House Report 116-
101 (H. Rprt. 116-101) with the enactment of the Consolidated 
Appropriations Act, 2020 (P.L. 116-93), on December 20, 2019. DOJ was 
required within 45 days of enactment ``to provide the Committee, as 
well as the Puerto Rico State Elections Commission, with a report 
regarding the acceptable versions of voter education materials, 
plebiscite ballot formats, and related materials that would allow the 
Department to obligate this funding for a future plebiscite'' and to 
``expeditiously act upon any request for this funding.'' \2\ However, 
DOJ delayed the publication of the report until April 2020, and the 
report itself provided very limited guidance.\3\
---------------------------------------------------------------------------
    \2\ House Report 116-101, Commerce Justice, Science, and Related 
Agencies Appropriation Bill, 2020, https://www.congress.gov/
congressional-report/116th-congress/house-report/101/1?q=%7B% 
22search%22%3A%5B%22House+Report+116-101%22%5D%7D&s=1&r=1.
    \3\ U.S. Department of Justice, Report Submitted to the House and 
Senate Committees on Appropriations and the Puerto Rico State Elections 
Commission as requested by House Report 116-101 accompanying the 
Consolidated Appropriations Act, 2020.
---------------------------------------------------------------------------
    DOJ also demanded that all the status options be included on the 
ballot, in violation of the directives in H. Rprt. 116-101 which 
directed that ``[t]he current territorial/Commonwealth status should be 
excluded from any future plebiscite, since it fails to address key 
inequities.'' \4\ DOJ's indication that the current territory option 
was excluded failed to take into account that a ``No'' vote would 
effectively mean the continuation of the current territory status. 
Additionally, DOJ argued that the use of the word ``immediately'' in 
the question would somehow bias voters in favor of statehood without 
recognizing that the Government of Puerto Rico is fully within its 
right to ask island voters if their possible desire for statehood 
admission is something immediate or not.
---------------------------------------------------------------------------
    \4\ House Report 116-101, Commerce Justice, Science, and Related 
Agencies Appropriation Bill, 2020, https://www.congress.gov/
congressional-report/116th-congress/house-report/101/1?q=%7B% 
22search%22%3A%5B%22House+Report+116-101%22%5D%7D&s=1&r=1.
---------------------------------------------------------------------------
Statehood ``Yes'' or ``No'' is a Valid Exercise of Self-Determination
    Another line of argument by statehood opponents is that somehow the 
statehood ``Yes'' or ``No'' question posed in the 2020 plebiscite, 
which would be repeated as a ratification vote in H.R. 1522, was not a 
legitimate exercise of self-determination. However, they ignore that 
this controversy was resolved prior to the plebiscite by the Supreme 
Court of Puerto Rico (``PRSC''). On October 5, 2020, the PRSC upheld 
the constitutionality of the November 3, 2020 plebiscite, determining 
that it was a constitutionally valid exercise of self-determination and 
that those who contend the plebiscite is not neutral or is 
discriminatory fail to account for the results of the 2012 and 2017 
plebiscites where the other valid status options were presented.\5\ 
Additionally, the PRSC held that there has never been a single or 
standard process for admission as a state, and the failure of DOJ to 
approve funding for the vote was inconsequential since the decision to 
hold the plebiscite only depends on the will of the territory, and did 
not require congressional authorization.\6\
---------------------------------------------------------------------------
    \5\ Aponte-Rosario, et al., v. President EEC, et al., 2020 PRSC 119 
(P.R. 2020).
    \6\ Id.
---------------------------------------------------------------------------
    The U.S. citizens of Puerto Rico have been asked the question 
regarding the island's status three times in the last decade, with 
different language, and each time ``statehood'' has gained the majority 
of support. With more than half of eligible voters casting their 
ballots to determine their political status, the results from this 
latest plebiscite have unequivocally stated the preference of the U.S. 
citizens that reside in Puerto Rico for statehood. Not only did 
statehood win by a bigger margin than the results of the U.S. 
Presidential race,\7\ but more votes were casted in favor of statehood 
than for the sitting Governor of Puerto Rico, Hon. Pedro Pierluisi.\8\ 
This confirms that the majority on the island want equality through 
statehood regardless of which local political party is in power.
---------------------------------------------------------------------------
    \7\ National Archives, 2020 Electoral College Results, https://
www.archives.gov/electoral-college/2020 (Last visited June 9, 2021).
    \8\ Puerto Rico State Elections Commission, Governor Results, 
http://elecciones2020.ceepur.org/Escrutinio_General_93/index.html#es/
default/GOBERNADOR_Resumen.xml (Last visited June 9, 2021).
---------------------------------------------------------------------------
    H.R. 1522 respects the results of the plebiscite in November and 
provides a constitutionally valid and direct path to admission. The 
legislation calls for a final binding ratification vote on the 
statehood ``Yes'' or ``No'' question previously presented to Puerto 
Rican voters. If the island chooses to become a state again, H.R. 1522 
establishes the terms of admission as a state to the Union and repeals 
all laws that are incompatible with the island's new status within 12 
months. Therefore, the island's residents will have a final chance to 
vote ``Yes'' if they support statehood, or ``No'' if they support any 
of the alternative status options.
Statehood Opponents Are Engaging in Election Denial
    Statehood opponents argue that their alternative to H.R. 1522 is an 
innocuous bill whose only objective is to be fair, neutral and 
democratic. Yet H.R. 2070, Puerto Rico Self-Determination Act of 2021, 
introduced by Congresswoman Nydia Velazquez (D-NY-07) is anything but 
fair and neutral because it is fundamentally based on a rejection of 
the voice of the people of Puerto Rico who have already voted for 
statehood as their future political status on three separate occasions 
in the past 10 years. In fact, in an action that can only be understood 
as election interference, just weeks before the November 3, 2020 
plebiscite, a similar version of this bill was filed in the 116th 
Congress with the implication to island voters that the forthcoming 
vote was meaningless in the eyes of the bill author and its sponsors. 
The purpose of its introduction then, similar to its purpose now, was 
not to respect the will of voters in Puerto Rico, but to subvert it by 
ignoring the significance of the locally led self-determination efforts 
that have been carried out to date. As opposed to being a more fair and 
inclusive alternative to H.R. 1522, as written H.R. 2070 basically 
engages in election denial pretending as if the status plebiscite votes 
had not happened or as if they do not matter. This is wrong, anti-
democratic, unjust and Congress must reject it.
Statehood Opponents Call for A Binding Process & Then Do the Opposite
    A key argument of statehood opponents is that the mechanism for 
Puerto Rico's self-determination must be ``binding'' on Congress so 
that the voters on the island are empowered to make the ultimate 
decision and Congress will accept their choice. However, H.R. 2070, 
would propose that the Legislature of Puerto Rico establish a ``status 
convention'' of newly elected delegates that would create a complicated 
process, without any certainty or guarantee that its proposed status 
option will be accepted by Congress. This proposal is non-binding since 
no convention can impose a status option upon Congress or mandate the 
automatic adoption of an unknown future resolution. So, by calling 
itself binding, but taking the power away from voters to choose 
directly on the option that the majority has already favored, 
statehood, the bill makes promises to voters it simply cannot keep. 
When this is combined with the fact that the bill also fails to 
establish clear timelines for defining self-determination options and 
when a referendum will take place, it becomes clear this is less about 
fairness and more about blunting the momentum of last November's 
majority vote for statehood.
    The bill sponsors have also discussed the possibility that the 
convention would consider options that are unconstitutional which would 
spoil the legitimacy of their proposed process, since real self-
determination needs to be a choice between the constitutionally valid 
alternatives and not a flight of fancy.
Statehood Opponents Seek to Privilege International Law Over the U.S. 
        Constitution
    Instead of recognizing the significance of the last three 
plebiscite votes, H.R. 2070 seeks to shift the footing of the debate 
away from the firm ground of the U.S. Constitution into the shifting 
sands of international law. In fact, the bill findings privilege 
international law over the locally led self-determination efforts that 
have taken place over the last decade which were all directed to 
address this issue within the framework of the U.S. Constitution. A 
notable example of this dynamic is that the bill proposes the creation 
of a ``Congressional Bilateral Negotiating Commission,'' under the 
assumption that Puerto Rico can only exercise true self-determination 
under the context of international law. The reality is that ``bilateral 
negotiations'' are only needed if Puerto Rico were to choose 
independence with or without free association, options that have been 
repeatedly discarded by island voters. Statehood admission does not 
require such an instrument because the terms of statehood are already 
defined by current federal laws and the U.S. Constitution.
    Ironically, the bill sponsors for H.R. 2070, who decry the 
undemocratic impact of Puerto Rico's Financial Oversight and Management 
Board (FOMB), use a similar selection mechanism to appoint members to 
the proposed Negotiating Commission to tell the status convention 
delegates and the people of Puerto Rico how they should choose their 
destiny. The bill implies that Puerto Ricans are unable to 
independently interpret federal laws and choose their self-
determination options without the prescriptions of federally appointed 
policymakers. In spite of the bill's premise regarding the people of 
Puerto Rico choosing their future, H.R. 2070 is merely an 
unconstitutional facade of self-determination with no specific end-date 
meant indefinitely delay a final resolution to Puerto Rico's status.
Statehood Opponents Are Telling Congress to Discard Plebiscite Vote 
        Results
    Prominent statehood opponents including former Rep. Luis Gutierrez 
and former Gov. Anibal Acevedo Vila, have argued in a recent letter to 
Congress that the results of the 2020 statehood vote should be 
invalidated and discarded because of a subsequent special election. On 
May 16, 2021, Puerto Rico held a special election to choose the Puerto 
Rico Congressional Delegation (``Delegation''), entrusted with the duty 
to demand Congress honor the results of the November 3, 2020 plebiscite 
and admit Puerto Rico as a state. Opponents claim that because there 
was a low voter turnout for this special election, the will of the 
voters in November should be disregarded. That is patently absurd. 
Everywhere in the United States we have general elections and special 
elections with varying levels of voter turnout, and yet we do not 
disregard the results of either. Elections are decided by ballots and 
votes cast, not by those who fail to participate and vote on any given 
issue or candidate. In a time when America must make extra effort to 
protect the right to vote and the integrity of our elections, Congress 
must not reverse the will of U.S. citizens legally voting to choose 
their future political status.
Conclusion--H.R. 1522 is the Appropriate & Constitutionally Viable 
        Process for Solving Puerto Rico's Ultimate Political Status

    To put an end of the island's current colonial and territorial 
status, and in accordance with Article 4, Section 3 of the United 
States Constitution, we urge the U.S. House Committee on Natural 
Resources to ``Respect Puerto Rico's Statehood Vote'' and promptly pass 
H.R. 1522. Statehood will guarantee the U.S. citizens residing in 
Puerto Rico the same civil rights and congressional representation 
afforded to the U.S. citizens of the 50 states. No territory that has 
requested admission as a state has been denied before. Puerto Ricans 
have self-determined, and it is now Congress' time to listen to voters 
on the island and ratify their will by establishing the means of 
admission as a state to the Union. Only H.R. 1522 meets the principles 
of equality and respects the will of voters instead of rejecting and 
silencing them.

    We thank you in advance for your attention to this matter. If you 
require additional information or have any questions, please do not 
hesitate to contact the Martin E. Rivera, Esq., Executive Director of 
the National Puerto Rican Equality Coalition, at (r) r-rr or via email 
at rrrrrr, as well as George H. Laws Garcia, Executive Director of the 
Puerto Rico Statehood Council, at (r) r-rr or via email at rrrrrr.

            Sincerely,

        Martin E. Rivera, Esq.,       George H. Laws Garcia,
        Executive Director            Executive Director
        National Puerto Rican 
        Equality Coalition            Puerto Rico Statehood Council

                                 ______
                                 
Transcript of Video: ``Statements to the Natural Resources Committee on 
               Occasion of the 6/16/21 Status Hearings''
       Link to video: https://www.youtube.com/watch?v=tzC7QwYO5dw

Introductory Remarks by Dr. Zayira Jordan:
    Las declaraciones que hare hoy son dirigidas al Comite de Recursos 
Naturales con respecto a los proyectos de la Camara de Representantes 
federal, el H.R. 1522 y el H.R. 2070, y en defensa de las voces de 
Puerto Rico que votaron en su mayoria en el plebiscito por la estadidad 
en noviembre 3 del 2020. Hoy, junio 16 de 2021, se discute en el 
Congreso de los Estados Unidos el futuro de todos los que habitamos en 
la isla de Puerto Rico. Se discute nuestro futuro y el destino de 
nuestro estatus. Yo habia preparado un mensaje para presentar en las 
vistas sobre estatus en el Congreso. No estare deponiendo en persona, 
pero no quise dejar que el mensaje permaneciese en silencio. Mi mensaje 
no solo le pertenece al Congreso, sino a Puerto Rico. Asi que hoy, 16 
de junio de 2021, el mismo dia que se estan tomando decisiones sobre 
nuestro bienestar y sobre el futuro de nuestro destino, les entrego mi 
mensaje. Recuerden que aqui no le estare hablando al pueblo de Puerto 
Rico, le estare hablando a aquellos que tienen nuestro futuro en sus 
manos. Le estare hablando a los miembros del Comite de Recursos 
Naturales de la Camara de Representantes del Congreso de los Estados 
Unidos para que nuestras voces sean escuchadas.

    English Translation:

    The statements that I will make today are directed to the Natural 
Resources Committee regarding the bills before the U.S. House of 
Representatives, H.R. 1522 and H.R. 2070, and in defense of the voices 
of Puerto Rico who voted in their majority in the plebiscite for 
statehood on November 3, 2020. Today, June 16, 2021, the future of all 
of us who live on the island of Puerto Rico is being discussed in 
Congress. Our future and the fate of our status are being discussed. I 
had prepared a message to deliver in the public hearings in Congress. I 
will not be testifying in person, but I did not want to let the message 
remain silent. My message belongs not only to Congress, but to Puerto 
Rico. So today, June 16, 2021, the same day that decisions are being 
made about our well-being and the future of our destiny, I deliver my 
message to you. Remember that here I will not be addressing the people 
of Puerto Rico, I will be addressing those who have our future in their 
hands. I will be addressing the members of House Natural Resources 
Committee in Congress, so that our voices are heard.

Statement by Dr. Zayira Jordan:

    I speak to all members of the Natural Resources Committee . . .. 
How did you come to be here today?
    This is my first question.
    Clearly, none of you were born into the positions you now find 
yourselves in.
    Some of you might be here because you found yourself enchanted by a 
career in politics.
    Some of you might be here because life, for some strange or 
unexpected reason, put you into the position you now find yourselves 
in.
    Call it destiny, call it struggle or perseverance.
    You are all here today to make decisions for tomorrow.
    What are we discussing today?
    This is my second question.
    You are all here today to make a decision as to the future of more 
than 3 million people, and more than them, a decision for those who are 
not born yet, but will be born under the terms of the decision you will 
make today.
    What does it take?
    This is my third question.
    I understand clearly, as an American citizen, the difficulty of 
these proceedings.
    Last night, on the website of https://statehood.dc.gov. I read the 
blueprint of Washington DC path to statehood. The website outlined what 
was begun by Mayor Muriel Bowser and the New Columbia Statehood 
Commission, and what is known as the ``Tennessee Plan'' and I quote, 
Under the Tennessee Plan, the prospective state's electorate votes on 
statehood and ratifies a constitution, without an enabling act, and 
then uses this as a basis to petition Congress for admission. This 
approach was pioneered by Tennessee in 1796 and used by Michigan, Iowa, 
California, Oregon, Kansas, and Alaska to gain admission to the Union.
    Congress approved statehood for Tennessee, making Tennessee the 
16th state of the Union in 1796.
    In Puerto Rico, we have done every step according to the Tennessee 
Plan . . ..
    We have a constitution, ratified and put into effect since 1952. We 
have held a more than one referendum in which the majority of the 
people have voted, unequivocally for statehood. We have had ``dream 
teams'' of representatives to fight for our rights, right there on the 
doorsteps of Congress.
    Before the new special delegates under Law 167 of 2020 swear in on 
July 1st of this year to defend our rights; not only statehood, but for 
our democracy, there was the Democracy Commission, or as we better know 
it, in the island La Comision de la Igualdad, created and put into 
effect by former Governor Ricardo Rossello. This commission was 
composed of appointees in the task of lobbying in Congress to approve 
Puerto Rico's request for statehood.
    I ask you, what more does it take to make the will of my people be 
Heard? If we have done practically everything in our power to attain 
our Union within the United States.
    Does it take sacrifice? . . .
    We have sacrificed our sons, and daughters, and fathers, and 
mothers . . . Since 1917, the fateful year in which we became American 
citizens, we have fought and sacrificed as Americans not only in World 
War I, but also in World War II, the Korean War, and the Vietnam War. 
We have fought and we will continue fighting and sacrificing in every 
war in which the nature of democracy and liberty is at stake. Together, 
side by side, with our brothers and sisters, citizens of the United 
States of America.
    So as you see, thousands of Puerto Ricans have sacrificed to defend 
the American flag, which holds 50 stars, but has room to add one more 
singular star. If not many more . . ..
    Does it take history?
    When the United States fought the cold war against Cuba and Russia, 
we stood as an emblem of democracy and freedom, when so many decided to 
turn their backs against the United States, until President Ronald 
Reagan proclaimed his famous words in 1987 . . ..
    ``Mr. Gorbachev . . . tear down this wall.''
    I ask the same thing today as former president Ronald Reagan asked 
then on that fateful day. Please, tear down this wall of indifference.
    Tear down this wall of anti-democracy.
    Tear down this wall now, and once and for all . . ..
    You might be asking yourselves . . .
    Maybe before I tear down this wall of indifference, it takes more 
suffering. Well, I'll tell you this . . ..
    We have suffered enough.
    Hurricanes, earthquakes, the terrible imprint of the COVID-19 
PANDEMIC.
    We have suffered, and we are used to suffering . . .
    Still, We the people of Puerto Rico, stand strong. Because, United 
we stand, and divided we fall.
    But maybe . . . just maybe . . . it does not take sacrifice, nor 
history, nor suffering. Maybe it takes a little bit of Politics. For 
one cannot be so naive, so as to think that the principles of which you 
stand for politically speaking, could possibly be dismissed in such a 
historical decision.
    It lives within you, your political party, it is like the blood 
which keeps your heart pumping . . ..
    But, let me tell you something about my people . . .
    They could either be democrats or republicans . . .
    I'll tell you this . . ..
    Do not be deceived by the fact that only because we speak Spanish 
and we enjoy the freedoms of this United States, that the majority will 
immediately choose to be one way or the other; democrat or republican.
    Do not be deceived by the fact that many of us are God fearing 
people, and enjoy the benefits of Capitalism, and hold dearly and close 
to our hearts our traditions, that we will be one way or the other; 
republican or democrat . . .. Most immigrants from Cuba who migrated to 
Florida after escaping the Castro dictatorship of communism, found 
their principles to be more attached to that of the Republican Party. 
But most Hispanic immigrants who migrate for economic or social issues 
who end up in California or New York have found their principles to be 
more Democratic leaning.
    I have always chosen to remain bipartisan in my leanings when it 
comes to bringing up the issue of statehood for Puerto Rico. It is a 
question of simply letting go of those things which have politically 
bound us to think one way or the other.
    Democracy, Freedom, Justice is as bipartisan as it gets . . . Truth 
is equally bipartisan.
    We the People of Puerto Rico, American Citizens of this United 
States, are not willing to wait any longer. All I can tell you is that 
the People of Puerto Rico will hold in very high esteem those who 
decide to recognize our voices.
    We will not forget the decision made by all of you today. A 
decision easy to ignore and be indifferent to. Unless your decision 
makes history, which it will, and so all of your names which abide by 
our democracy shall be remembered . . .
    Before I conclude, I will ask of all of you, (Hold one finger up 
and keep it there)
    Just one last question . . .
    For all of you elected officials, whether democrat or republican, 
whether if chosen by destiny, or here, through your own struggles and 
perseverance through it all . . .. If the United States does not 
protect the democracy of its territories, how could it possibly protect 
itself?
    When it comes to doing the right thing, there should be no right or 
left. There should only be up, equality and justice, or down, 
indifference.
    This is a court, and the decision of this jury, will decide the 
fate of the Island of Puerto Rico, and 3 million people, and those who 
are not born yet, but will be born under the terms of the decision you 
will make today.
    The future of this Island belongs to our sons and daughters.
    They will stand in place of us, who have failed them.
    They are stronger than us, for they have suffered every possible 
ordeal capable of human suffering. They are not so easily defeated.
    They will fight, and they will persevere.
    I'll let them speak for themselves . . .. Thank You.

Statement by Mr. Juan Camilo Ruiz-Pinzon:

    Dear Chairman, Ranking Member and members of the Committee:

    I stand in support of H.R. 1522, the Puerto Rico Statehood 
Admission Act, and to speak against H.R. 2070, the Puerto Rico Self-
Determination Act. My reasons to support the Admission Act are simple: 
respecting the will of Americans as was expressed in the best self-
determination mechanism a free country can offer: the ballot box, 
enfranchising 3.3 million Americans not adequately represented in their 
government, and to provide full constitutional coverage and equal 
protection of laws for Americans in Puerto Rico.
    H.R. 1522 responds to the call Americans on the island made last 
November, where they voted YES to Statehood in a referendum modeled 
after the ones held in Alaska and Hawaii before becoming states. 
Statehood received more votes than any political candidate or party. It 
won in all senatorial districts and in 33 of the 40 representative 
districts. In the 8 that lost, YES to Statehood still got more votes 
than the candidate who was elected. The last plebiscite showed that: 
support for statehood overcomes partisan politics and that Puerto 
Ricans can differentiate between partisan politics and political 
status.
    Although the pro-status quo party won the Legislature, that fact 
does not and must not erase or ignore that in the same elections, 
Statehood won. I would like to remind people, who object the results of 
the plebiscite because they say that 53% is not enough, that it is the 
absolute majority of the electorate. With lesser margins: laws are 
passed, judicial and executive appointments are confirmed and 
politicians, including presidents, are elected. That's called living in 
a democracy.
    The filing and cosponsorship of the Admission Act tells 3 facts 
that speak for themselves:
    First, it was introduced by Puerto Rico's elected representative in 
Congress, not by another member representing another district. Second, 
it shows that admitting Puerto Rico as a state is a bipartisan effort 
representing a diverse movement from all sides of the political 
spectrum. Third, two members cosponsoring this bill hold leadership 
positions in the House: Majority Leader Steny Hoyer and Republican 
Conference Chair Elise Stefanik.
    The Self-Determination Act is flawed and contradictory for the 
following reasons. It says that the Legislature of Puerto Rico has the 
inherent authority to call for a status convention but ignores that, by 
that same authority, our duly elected leaders have called for 
referendums. It says that it recognizes our natural right to self-
determination, but ignores that Puerto Ricans themselves already 
exercised that right and chose statehood. It gives the fantasy that 
there are multiple options when there are only two: statehood or 
independence. It is not time-bounded, complicates the issue with 
unfamiliar voting formats and unclear definitions of choices, and tries 
to bind Congress in a potential exercise of legislative entrenchment; 
therefore making the proposed referendum non-binding.
    Statehood means complete protection of the U.S. Constitution to 
more than 3 million Americans who somehow, just by living on the 
Island, lose equal protection of many laws. It means equal justice 
under the law; self-government; and upholding the ideals and values 
upon which the United States was founded, and for which thousands of 
Puerto Ricans have fought and died for without being able to enjoy them 
on the Island.

    Justice John Marshall Harlan, dissenting in Downes v. Bidwell 
(1901), wrote:

        ``The idea that this country may acquire territories anywhere 
        upon the earth . . . the people inhabiting them to enjoy only 
        such rights as Congress chooses to accord to them is wholly 
        inconsistent with the spirit and genius, as well as with the 
        words, of the Constitution.'' Justice Harlan was known as the 
        Great Dissenter for his dissenting opinions in cases that 
        restricted civil rights. Dissenting in Plessy v. Ferguson, he 
        argued that the constitution was color-blind and that all 
        citizens should have equal access to civil rights. In 1954, he 
        was vindicated in Brown v. Board of Education.

    And now, it is up to you to vindicate once again a Justice who 
stood in the right side of history.

Statement by Ms. Zuleyka Rivera:

    Por que Puerto Rico debe ser estado? Puerto Rico debe ser estado 
porque los ciudadanos puertorriquenos tendriamos los mismos derechos 
que los demas estadounidenses. Asi tendriamos representacion en el 
congreso para todo lo relacionado con los programas de los diferentes 
departamentos, ya sea salud, educacion, trabajo, seguridad, economia, 
entre otros. Adicional, tendriamos el derecho de votar por el 
presidente en las elecciones generales cada cuatro anos. Esto nos 
ayudaria a que se defendieran nuestras ayudas, salarios, programas y 
asistencia en todos los ambitos. Otro derecho seria el tener salarios 
justos y razonables como los tienen los otros estados. Siendo el estado 
51 no nos sentiriamos discriminados por ser una isla como ocurre 
actualmente por no tener representacion congresional. Tanto nuestros 
jovenes y adultos tendriamos mejores oportunidades educativas y 
laborales. De esta manera nuestros policias, maestros, enfermeros y los 
demas profesionales estarian mejor pagados y asi no tendrian que irse 
de la isla.

    De ser Puerto Rico un estado, no seriamos discriminados ni 
rechazados por ser un territorio como ocurre ahora mismo. Nuestros 
hombres y mujeres han servido en las fuerzas armadas y asi se sentirian 
bien valorados y aceptados como los demas de los otros estados; pues 
han sido marginados a pesar de haber dado hasta la vida en muchos 
frentes de batallas.

    Para tener todo lo antes expuesto, es necesario que seamos el 
estado 51 de la nacion norteamericana con los mismos derechos y 
privilegios que tienen los otros 50 estados. La mayoria del pueblo 
puertorriqueno asi lo expreso en las elecciones. Llevamos mas de 100 
anos siendo una colonia y necesitamos la igualdad. A nivel personal yo 
quiero quedarme aqui, quiero que mi familia y amigos regresen y quiero 
que volvamos a estar unidos pues se han ido a los estados a buscar un 
mejor porvenir. Pero y por que irnos? si es aqui donde debemos estar y 
se que si logramos lo que tanto anhelamos que es convertirnos en el 
estado 51, sucedera.

    English Translation:

    Why should Puerto Rico become a state? Puerto Rico should become a 
state because Puerto Ricans would have the same rights as other 
Americans. We would have representation in Congress for everything 
related to the programs of the different departments, either health, 
education, work, security, economy, among others. Additionally, we 
would have the right to vote for the president in the general election 
every four years. This would help us to defend our aid, salaries, 
programs and assistance in all areas. Another right would be to achieve 
fair and reasonable wages as the other states have. Being the 51st 
state, we would not feel discriminated against for being an island as 
it happens currently for not having congressional representation. Both 
our young people and adults would have better educational and 
employment opportunities. This way our police, teachers, nurses and 
other professionals would be better paid and so they would not have to 
leave the island.

    If Puerto Rico were a state, we would not be discriminated against 
or rejected for being a territory as it happens right now. Our men and 
women have served in the military and would feel well valued and 
accepted like the rest of the other states; because they have been 
marginalized despite having given up life on many fronts of battles.

    To obtain what I have expressed, it is necessary that we are the 
51st state of the American nation with equal rights and privileges that 
the other 50 states have. Most of the people of Puerto Rico expressed 
this in the election. We have been a colony for more than 100 years and 
we need equality. On a personal level I want to stay here. I want my 
family and friends to come back and I want them to let us be united 
again because they have gone to the states to look for a better way to 
come.

Statement by Ms. Bianca Cardona, Esq.:

    Women in Puerto Rico have played an important role in the 
development of history. If we study women from a social context, women, 
as in other countries, have been marginalized in the most important 
sectors, such as politics, employment and equal rights. For years women 
in Puerto Rico were only considered for domestic work, and were 
prevented from being part of the development of the society in which 
they lived in, the culture and above all were limited to the 
achievement of their ambitions they had as women. However, it is 
important to note that, although in the first half of history women had 
a social boom, after the American colonization of the island, women 
began to capture quotas of social participation, forming an essential 
part of our history.
    That is why today I am proud to be part of this effort, 
representing women, because just as we have fought in the past to 
advance women's rights, today I fight for the equality of all Puerto 
Ricans, socially, economically and politically.
    The history that defines the people of Puerto Rico has been one 
full of stumbles, uncertainties and stagnation. While we have managed 
to overcome in a Puerto Rico that is suffering an economic and 
political recession, we must aspire to guarantee a stable future for 
the generations that are growing up and those to come. The political 
euphoria that we are experiencing at this time is the result of people 
who are tired of coming to a Puerto Rico with limitations and no hope 
for development.
    The people of Puerto Rico, aware of the problem of our territorial 
relationship, have expressed themselves in different ways to demand 
that the U.S. Congress take action on our social, political and 
economic future. The plebiscite on Puerto Rico's status have been one 
of the main forums in which the people have expressed themselves on the 
preferential status for Puerto Rico. However, other mechanisms have 
also been used to raise the issue of Puerto Rico's disadvantaged status 
in its relationship with the United States.
    Today, the United States is composed of 50 states, 48 of which are 
often referred to as mainland states, to differentiate them from Alaska 
and Hawaii, both because of their location and because of their insular 
nature. As are the island territories, such as Puerto Rico.
    Since the independence of the thirteen British colonies on July 4, 
1776, the United States did not officially stop growing until President 
Dwight D. Eisenhower approved the incorporation of Alaska and Hawaii as 
the 49th and 50th states, respectively. The construction of the 
country, mainly throughout the 19th and 20th centuries, was the result 
of various forms of territorial expansion. On one hand, much of the 
territory was acquired through purchases and transfers of British, 
French, Spanish and Mexican territories; among other examples, we find 
the cases of the purchases of Louisiana and Florida. On the other hand, 
the United States acquired some territories by conquest from other 
political entities, such as the Republic of Texas or the United Mexican 
States.
    In the case of Puerto Rico, it became a part of the United States 
as a result of the Spanish-American War, which culminated in the Treaty 
of Paris of December 10, 1898, between Spain and the United States. The 
Treaty of Paris set a precedent for the United States as it was the 
first time it acquired a territory without the intention of making it a 
state. The expansionist policy of the United States in the 19th 
century, before the Spanish-American War, reflected a theory: that of 
incorporation as a territory in preparation for statehood. All 
territories acquired multiplied their original population and 
dissipated boundaries with a view to integrating them as members of the 
American nation.
    The Treaty of Paris provided that the political conditions and 
civil rights to be conferred on the territories acquired under the 
treaty would be determined by Congress. This idea practiced by the 
United States in the colonization of Puerto Rico was contrary to the 
value it preached as a nation, since it was precisely on those 
principles that it based its independence.
    [Other states have adopted admission mechanisms, such as the 
Tennessee Plan, which has achieved the admission of 34 territories, 
including the State of Tennessee.] The Tennessee Plan is a strategy 
that was founded in 1795 for the incorporation of Tennessee as a state 
of the Union. As part of the process, a referendum was held in which 
the majority of the people voted in favor of admitting Tennessee as a 
state. A law was then passed to elect a legislature with two senators 
and representatives, who would go to the U.S. Congress to represent the 
mandate of the people and achieve the incorporation of Tennessee as a 
State of the Union.
    For its part, Puerto Rico has taken different mechanisms that 
emerge in the self-determination of the people to determine its 
political future. As part of these mechanisms, Puerto Rico passed 
legislation in 2017 to adopt the Tennessee Plan and held a referendum 
of the people, where Statehood obtained 97% of the voters' support. 
Accompanied by that process, the Act of Admission was filed by Resident 
Commissioner Jennifer Gonzalez Colon. Due to the extraordinary 
circumstances that occurred with the atmospheric event of Hurricane 
Maria and the devastation it left on the island, unfortunately the 
process was hindered.
    Puerto Ricans were recently granted the opportunity to express 
themselves again, this time under a particular plebiscite, where the 
people were asked if they wanted Statehood, Yes? Or No? As a result of 
the plebiscite, Statehood obtained 52.5% of the votes. [Following this, 
the legislature approved Laws No. 1654 and No. 1675, for the adoption 
of the Tennessee plan, this time with a delegation elected by the 
people of Puerto Rico. The delegation is composed of 6 members, 2 
Senators and 4 Representatives, who have the duty to represent the 
mandate of the people of Puerto Rico expressed in the status plebiscite 
of November 3, 2020.]
    Accompanying this process, the Puerto Rico Admission Act was filed 
under H.R. 1522, by our Resident Commissioner, Jennifer Gonzalez and 
Florida Representative Darren Soto. The bill was filed on March 2, in 
commemoration of the 104th anniversary of the granting of U.S. 
citizenship to Puerto Ricans. Since the filing of H.R. 1522, it has the 
support of 60 Members of Congress, including senators and 
representatives, such as Alaska Representative Don Young.
    Finally, Puerto Rico finds itself in a historic scenario, where for 
the first time, after 123 years as a territory of the United States, 
and more than 500 years of colonialism, Puerto Rico will have the 
opportunity to be admitted as a State of the Union. Puerto Rico has in 
its favor the number of U.S. citizens residing in the territory, with 
approximately 3 million citizens according to the most recent census. 
This would represent a significant electoral weight, which would give 
it more political power than 25 states in the nation.
    For all the aforementioned reasons, the Puerto Rico Statehood 
Admission Act, H.R. 1522 should be taken into consideration in order 
for the Puerto Rican people to be able to ratify the results of the 
past plebiscite.
    Thank you for your time.

Statement by Mr. Ricardo Marrero-Passapera:

    Puerto Rico has been a territory for more than 500 years, first of 
Spain and now of the United States. Therefore, it should not be foreign 
to our will that the status is an issue that moves us as Puerto Ricans. 
As a result of the discussion on the status, six (6) plebiscites have 
been held to decide between the options of Statehood (annexation), 
Independence (separation) or Commonwealth (current status), as well as 
the approval of evaluation committees on the status of Puerto Rico.
    The Foraker Act of 1900 formally represented the non-incorporation 
of territories as a state, thus granting greater powers to Congress and 
the President to administer the territory. This unequal treatment over 
the other states of the nation led to the argument that Puerto Rico was 
treated as territory and not as part of the union. Under this premise 
and through the insular cases the legal creature of the U.S. Congress, 
was named ``unincorporated territory'' was established and validated, 
maintaining as a foundation that we belong to, but are not part of [the 
United States]. This doctrine was validated by Associate Justice Edward 
Douglass White in his opinion offered in the case of Downes v. Bidwell, 
for the controversy that asserted whether it was constitutional for 
Congress to impose through the Foraker Act a tariff on trade between 
Puerto Rico and the United States, in light of the Uniformity Clause.
    The great changes resulting from the military conflicts between the 
countries of the Western Union, and the intervention of the United 
States in these conflicts, led to changes in the civil and political 
order in Puerto Rico. President William Howard Taft took the initiative 
to propose the granting of American citizenship for Puerto Rico, which 
culminated in the approval of the Jones bill, which was finally signed 
by President Woodrow Wilson on March 2, 1917. This bill was the product 
of great controversy, due to the conditions that were imposed, since it 
would grant citizenship without the motivation of admitting Puerto Rico 
as a state.
    This act leads us to argue about the violation of the value of 
equal treatment of American citizens. The first violation we must 
recognize is not having the right to vote for those Members of Congress 
who pass Federal laws that apply to Puerto Rico, not having fair 
representation in Congress, and not being able to vote for the 
President of the United States.
    Interpreting what is expressed in the Constitution of the United 
States, this closes the doors to the millions of Puerto Ricans residing 
on the island, to have full equality as the rest of their fellow 
citizens, by applying federal laws without the consent of the governed, 
with the argument that the right to vote will be recognized only to the 
residents of the states.
    Under the colonial condition imposed on us and not being a state, 
Puerto Rico does not have the right to the electoral college because 
the territories do not meet the requirements established by the 14 
Amendment, which establishes that: ``All persons born or naturalized in 
the United States and subject to the jurisdiction thereof are citizens 
of the United States and of the States in which they reside. [. . .]'', 
so the territories are not part of the United States for constitutional 
purposes.
    Under this premise presented by the Congress, we allude to 
international law on the establishment of the ``International Covenant 
on Civil and Political Rights'' ratified by the General Assembly in 
December 16, 1966.
    Under the Treaty of Paris, the Congress of the United States is 
granted plenary powers over the territory, and it was provided that it 
would have the responsibility not only to determine the civil rights, 
but also the political status of its inhabitants. In this matter we 
must mention that Congress has not taken forceful action to define 
Puerto Rico's status under the regimes of international law and the 
U.S. Constitution.
    These rights began to be discussed after the approval of the 
Universal Declaration of Human Rights on December 10, 1948, adopted by 
the United Nations (UN). This declaration emphasizes the equality of 
rights that all human beings should enjoy. Article 2 states: ``No 
distinction shall be made on the basis of the political, jurisdictional 
or international status of the country or territory to which a person 
belongs, whether it be an independent country, a territory or under any 
other limitation of sovereignty. By this declaration Puerto Ricans 
residing on the island should have equal rights and duties as citizens 
residing in one of the fifty (50) states.
    We must mention that the precedents set in cases subsequent to the 
creation of the Commonwealth create ambiguity in the fact that Congress 
continues to have plenary powers over and above the sovereignty that 
was recognized to Puerto Rico in 1952. The final determination made by 
the Supreme Court in the case of Puerto Rico v. Sanchez-Valle, and the 
establishment of the PROMESA Act, which creates the Fiscal Oversight 
Board, demonstrated the permanence of Puerto Rico as a territory 
subject to the plenary powers of Congress, which violates international 
agreements on the self-determination of peoples and the value of equal 
rights.
    Finally, we would like to allude to the Constitution of the United 
States, where in its preamble establishes the expression ``We the 
People of the United States'' . . .
    This declaration marks the core value of the nation's constitution 
and the intent by which it is created. The cases brought to abolish 
slavery in the nation, as well as other movements such as the 
petitioning for women's right to vote, used this consensus to argue 
that the term ``We the people'' refers to the inclusion of all American 
citizens in the rights outlined in the U.S. Constitution.
    Therefore, we believe it is meritorious to take action on what this 
resolution proposes, to promote equal rights and social justice for 
U.S. citizens residing in Puerto Rico, so that they may enjoy the right 
to vote for the president of the United States. It is important that 
the U.S. Congress take action on the referred case and enforce the 
rights of the Constitution for all U.S. citizens with equality.
    The bills before the House Committee on Natural Resources, chaired 
by Congressman Grijalva, allude to taking action in favor of the 
freedom of determination of the people of Puerto Rico on the future of 
their relationship with the United States. Certainly, the guarantee of 
the right to self-determination of the people of Puerto Rico has been 
guaranteed in all the processes of expression of the people through the 
various plebiscites held since 1967, until the last one held on 
November 3, 2020. But in order for the value of the people's right to 
self-determination to be realized, Congress has the duty to take action 
in favor of the democratic expression of Puerto Ricans residing here on 
the island.
    H.R. 1522, introduced by our only congressional representative, 
Jenniffer Gonzalez, and Congressman Darren Soto, for consideration by 
the U.S. Senate and the U.S. House of Representatives, sets precedents 
in the history of the admission of territories as a state of the union. 
It also ensures concrete action on the mandate sent by the people of 
Puerto Rico last November 3 in favor of statehood, with the 
ratification of the results and the approval of the President of the 
United States.
    In contrast with H.R. 2070, presented by Congresswomen Nydia 
Velazquez and Alexandria Ocasio-Cortez, who presented a bill that seeks 
the creation of a status convention that is unprecedented in the 
processes of admission of territories to the nation, and historically 
only the colonies who have wished to betray themselves toward the 
formation of an independent Republic, have accepted it.
    With much respect to this Congress and members of the House 
Committee on Natural Resources, I submit that H.R. 2070 does not 
represent the will of the people and I request that it not be taken 
into consideration. The only piece of legislation that provides the 
tools for the advancement of the Puerto Rican people and that 
represents the will of the majority of the Puerto Rican people is H.R. 
1522.
    Thank you.

Statement by Mr. Rodney Rios:

    I would like to begin by stating that it is my sincere hope that 
this brief message helps to state the facts and clear the air regarding 
the issue of Puerto Rico's status. Too often in the status debate we 
get lost in a labyrinth of myths, contradictions and mutual 
recriminations, which in the end help no one and contribute little or 
nothing to a solution. Former president John Adams once remarked that 
``facts are stubborn things''. I wish then to focus exclusively on the 
facts of this issue.
    First, statehood for Puerto Rico does not entail annexation. From 
the historical record, it is clear that through the Treaty of Paris in 
1899 the United States annexed Puerto Rico. After annexation there 
arose the question of what Puerto Rico's status would be in regards to 
the rest of the country. This question was not pertinent before 1898; 
before then it was understood by our founders that all territories that 
were acquired permanently by the United States would, eventually, 
become states of the union as long as they met certain criteria. The 
requisites for statehood are and were that the territory had a 
republican form of government, the resources to maintain a state 
government and the desire of that Territory's people to become a State 
of the union.
    It was only after the acquisition of Puerto Rico that the idea of 
permanent territories, colonies to put it another way, reemerged as an 
option. Sadly, I believe this was so because of the stain in our 
country of racial discrimination, an evil which we have long fought to 
defeat. As such, it comes as no surprise that the Supreme Court 
concocted through judicial hocus pocus the idea that some territories 
were to be incorporated and destined for statehood, and that others 
were to be unincorporated and would be forever cursed to be at the 
mercy of the changing whims of Congress. Now, this sounds very 
different to the principles of self-determination that have guided this 
country since the Founding.
    In any case, President Calvin Coolidge once stated in relation to 
Puerto Rico that ``It would not be difficult to demonstrate that the 
existing status of Puerto Rico is much more liberal than any other 
status in its history; that its people have more control of their own 
affairs, with less external intervention; that its people enjoy freedom 
and the protection of the law.'' He was right. Since annexation the 
Puerto Rican people have been free and made great progress. Imperfect 
progress, but progress, nonetheless. The simple fact of the matter is 
that Puerto Rico is better after annexation than before.
    However, one of the fundamental principles of a free society is 
that citizens vote for the people that make and execute their laws. 
There can be no freedom without popular sovereignty; in America the 
people govern. And here lies the crux of the issue. Puerto Ricans are 
American citizens; and citizenship in America is supposed to be only 
one. Furthermore, being citizens for more than a century, it has been 
long understood in American history, that a political community 
composed of American citizens has an inalienable right to statehood. 
Moreover, as former Puerto Rican Governor Rafael Hernandez Colon once 
noted, there has never been a political entity composed of American 
citizens that has separated from the Union. This must also be taken 
together with the fact that Puerto Ricans have never favored 
independence. Independence, then, would not only be antidemocratic, but 
it contrary to our traditions and constitutional order.
    This brings us to the 2020 plebiscite. For a long time it was 
teased by the enemies of political equality that statehooders should 
organize a simple yes or no vote on statehood to solve the issue once 
and for all. This was done in 2020, and the people voted by a majority 
for statehood. States, as is clear from the historical record, create 
themselves before admission to the Union by whatever mechanisms they 
deem fit.
    Historically speaking, Puerto Ricans have voted only to create a 
local government to preserve that commonwealth status, and since 2012 
the people have voted for statehood on numerous times. As such, to 
pretend to continue a fruitless and pointless discussion by including 
independence or free association in a self-determination process, is a 
mockery of the democratic vote of Puerto Ricans. It is also an 
ignorance of the history of Puerto Rico and our deep commitment to 
permanent union.
    We in Puerto Rico are not asking for alms, or to be maintained. Do 
not listen to the voices of gridlock from the extreme right or left. We 
Puerto Ricans are not victims; we have borne the price of freedom in 
every war from World War One to the conflicts in Iraq and Afghanistan. 
We are a free, proud and noble people. What we are demanding as our 
right, as our heritage, is for a chance to have our political rights 
and powers as a State of the Union. To have equal footing, as the 
doctrine is called. To have the power that all other states have 
through voting representation and the Tenth Amendment protections of 
residual and shared sovereignty of a State in relation to the federal 
government.
    In sum, Puerto Rico has an organized political system, a desire for 
statehood, and the resources to maintain a state government. All 
requirements for admission have been met; additionally, Puerto Ricans 
do not want independence, and they are American citizens. It would be a 
shame if this Congress were to end without heeding the voice of the 
people and it decided to side with obstructionists and in favor of the 
discriminatory precedents of a bygone era. We have come very far as a 
nation; it would be a stain in our national honor to keep citizens 
without representation at this day and age. I hope this Congress is 
wise enough to approve a federal statehood plebiscite which will 
resolve this issue once and for all. We are all ready and a century too 
late. Thank you for your time.

                                 ______
                                 

    Miss Gonzalez-Colon. My first question will be to Dr. 
Ponsa-Kraus. Have you had opportunity to read all the DOJ 
reports on both bills?
    Dr. Ponsa-Kraus. I am sorry. Have I read the reports? Yes, 
I have.
    Miss Gonzalez-Colon. Did DOJ raise any constitutional 
issues or concerns with H.R. 1522?
    Dr. Ponsa-Kraus. No. No constitutional concerns.
    Miss Gonzalez-Colon. The first part of the report says the 
Department of Justice supports providing the people of Puerto 
Rico, and I quote, ``the opportunity to vote on whether to 
become a state of the Union, as H.R. 1522 would do.''
    Dr. Ponsa-Kraus. That is right.
    Miss Gonzalez-Colon. So, for you, that would mean that the 
Department of Justice is in support of H.R. 1522?
    Dr. Ponsa-Kraus. That is how I interpret that sentence. 
Yes.
    Miss Gonzalez-Colon. And is the first letter of the report, 
correct?
    Dr. Ponsa-Kraus. That is right.
    Miss Gonzalez-Colon. I will yield back the balance of my 
time.
    Mr. Sablan. Thank you. Mr. Chairman, I yield back my time.
    The Chairman. Thank you, Mr. Sablan.
    Let me now recognize Ms. Gonzalez-Colon for her 5 minutes. 
You are recognized.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. I will 
continue making my questions at this time. Dr. Ponsa, when you 
saw that part of the report that actually is the first line of 
the report from DOJ, did the DOJ raise any constitutional 
issues or concerns with H.R. 2070.
    Dr. Ponsa-Kraus. Yes, it did.
    Miss Gonzalez-Colon. Can you briefly enumerate those that 
concern you the most?
    Dr. Ponsa-Kraus. They coincide with the ones that concerned 
me before. One is that the failure to specify the options opens 
the door to unconstitutional options. And the other is that it 
purports to bind Congress when that is an illusory promise. 
Congress can't bind itself to enact a joint resolution in the 
future.
    Miss Gonzalez-Colon. It has been said here in the hearing 
from several witnesses that H.R. 2070 will guarantee 
citizenship. Do you understand that other options, 
independence, can guarantee citizenship for Puerto Rico?
    Dr. Ponsa-Kraus. No other option than statehood can 
guarantee citizenship in the way that the citizenship clause of 
the 14th Amendment does. Other options could include 
citizenship, but they could not guarantee it prospectively. 
And, in my opinion, this is not a question of first impression 
in the sense that it is spelled out in the citizenship clause 
of the 14th Amendment. It guarantees birthright citizenship to 
persons born in the United States. So, if one is independent, 
with or without a free association, then the United States has 
the power to provide birthright citizenship, but it can also 
decide in the future to stop granting it.
    Miss Gonzalez-Colon. You read the report, as I did. And 
that report from DOJ says that H.R. 2070 does not recognize 
there are only three constitutional status options in statehood 
or keeping the territorial status. So, in fact, doesn't H.R. 
2070 leave the door open for the convention to come up with 
unconstitutional status options?
    Dr. Ponsa-Kraus. That is right. It does. And that has been 
my greatest concern from the beginning, that it opens the door 
to such options, that it doesn't specify the constitutional 
options, and that means it consigns Puerto Ricans to continue 
having the same debate they have had for 70 years without the 
kind of guidance that they need from Congress to tell it here's 
what the constitutional options are and the ones that we would 
agree to.
    Miss Gonzalez-Colon. You have been hearing about nationhood 
and being sovereigns in Puerto Rico and many other things. Is 
Congress the ultimate source of the Puerto Rico government's 
authority?
    Dr. Ponsa-Kraus. With Puerto Rico's current territorial 
status, yes, it is.
    Miss Gonzalez-Colon. Sadly, but it is like that.
    Dr. Ponsa-Kraus. That is right.
    Miss Gonzalez-Colon. And are there other viable options 
under the U.S. Constitution other than statehood or 
independence or the territorial status?
    Dr. Ponsa-Kraus. There are not. I do not believe that free 
association short of independence is possible. I completely 
agree with Professor Cox Alomar that there are lots of forms of 
free association, but they all involve independence with a 
treaty or compact of free association. Anything between 
independence and statehood is territorial under the U.S. 
Constitution.
    Miss Gonzalez-Colon. Having said that, can a constitutional 
convention or a status convention, as proposed in the other 
bill, create a new non-territorial status compatible with the 
U.S. Constitution?
    Dr. Ponsa-Kraus. No. It cannot.
    Miss Gonzalez-Colon. Has the Federal Government previously 
relied on a convention to define the constitutional status 
options?
    Dr. Ponsa-Kraus. Not to define them, no.
    Miss Gonzalez-Colon. My second question will be, is 
statehood the only non-territorial status option that 
guarantees the constitutional U.S. citizenship?
    Dr. Ponsa-Kraus. Prospectively, yes. I agree that current 
U.S. citizens cannot be stripped of their citizenship 
involuntarily under any circumstance, but statehood is the only 
one that guarantees U.S. citizenship prospectively in the 
future.
    Miss Gonzalez-Colon. The Federal executive branch, the 
courts, and Congress have all confirmed repeatedly that Puerto 
Rico is a territory and that the only non-territorial options 
available are statehood and independence. And DOJ just 
reaffirmed this claim. In your opinion, do the people of Puerto 
Rico need a status convention to know and understand this?
    Dr. Ponsa-Kraus. No. I don't think they do.
    Miss Gonzalez-Colon. Do you think that voters in the island 
are capable and knowledgeable enough to understand that status 
options are available to them and their consequences without 
having to resort to an assembly of a few selected--where 
decisions are made behind closed doors?
    Dr. Ponsa-Kraus. I do believe they are capable of it, yes.
    Miss Gonzalez-Colon. Thank you. I yield back.
    The Chairman. Thank you very much. The gentlelady yields.
    Let me now recognize Representative Gallego for his 5 
minutes. Sir, you are recognized.
    Mr. Gallego?
    Mr. Gallego. I apologize. Can you hear me now?
    The Chairman. Yes. Thank you.
    Mr. Gallego. Sorry. You would think after all these months 
I finally would get it together, right?
    My first question is for Dr. Ponsa-Kraus. And I apologize 
if I mispronounced your last name. I appreciate you responding 
to criticisms about low levels of participation in the 2020 
plebiscite. In your experience as a lawyer and a professor, 
have you ever seen the same argument used to dismiss results of 
an election in a state in the United States?
    Dr. Ponsa-Kraus. I have not, no, and you pronounced my name 
perfectly. Thank you.
    Mr. Gallego. Very good. And to note, I have heard this 
from--I said this last time. I have heard this argument in the 
past to also turn back plebiscites, actually, in Arizona, for 
example. And it is usually done by my Republican colleagues, 
especially when trying to do a tax increase. So, witnesses 
supporting both bills, including yourself, have mentioned the 
importance of having clear definitions of options on a self-
determination ballot. In addition to the clarification around 
free association citizenship, what important information do you 
believe should be included in the definitions of statehood and 
independence?
    Dr. Ponsa-Kraus. Well, I appreciate that question because I 
completely agree that there should be clarity for the voters. 
But I believe that a ballot can't spell every last detail of a 
transition out. That is unrealistic. The voters need to choose 
on the basic options, and then the transitions need to be 
developed and implemented.
    So, for statehood, I think voters should understand that it 
gets them equal representation and U.S. citizenship now and in 
the future, which I believe they understand.
    For independence, I believe they should understand that 
that is a separate sovereignty, and Puerto Rico gets to decide 
its own future.
    And with free association, I believe it is critical that 
they understand that it is a form of independence and that 
citizenship would be within the power of the United States, 
that no current citizen would lose their own citizenship, but 
that it would be up to the United States whether to grant 
citizenship in the future, and it could change that policy. I 
believe that voters would deserve to understand that.
    Mr. Gallego. Thank you, Doctor.
    Rev. Carmen Cabrera, just a general statement, I really 
appreciate that you talk about that Puerto Ricans have served 
in the armed services. I was lucky enough to serve in the U.S. 
Marine Corps with a lot of Puerto Ricans, actually, and very 
proud Americans. Can you describe as a community leader the 
impact that you have seen territorial status--what it causes to 
our service members and their families and what a positive 
change would come from us having stated, for example, the 
reimbursement fees with TRICARE, a lot of things of that nature 
that is unequal?
    Did I get bounced off?
    Dr. Ponsa-Kraus. That question is not for me, right?
    Mr. Gallego. No, I am sorry. I apologize. That was for Rev. 
Cabrera.
    The Interpreter. Can you please repeat the question? This 
is Nestor Lima. I will be interpreting for her.
    Mr. Gallego. Oh, I am sorry. Yes.
    [Speaking in Spanish.]
    The Interpreter. So, in review, the question is what is the 
difference between specifically health care in----
    Mr. Gallego. For veterans' benefits in general.
    The Interpreter. Yes, veterans' health care and other 
benefits in the United States versus Puerto Rico for those who 
have served in the military?
    Mr. Gallego. Correct.
    [The following answers were delivered through an 
interpreter.]
    Rev. Cabrera. Let me point out a few differences. For 
example, some that receive Social Security benefits do not 
receive in Puerto Rico some benefits that are received in the 
United States. And what we are also addressing is not just the 
funds and grants but also the dignity that has been negated or 
neglected. I can compare it to a father who pays attention to a 
son who does not live at home. And he allows the son to do 
everything, but he doesn't allow him to come back home and make 
decisions within his family. That is our posture for us here in 
Puerto Rico. This is how we feel.
    So, it is not just about the benefits and about the money. 
And the other ones who are explaining their positions, they are 
doing it in a proper way as well. My position is about the 
heart of the Puerto Ricans, and it has to do with dignity. We 
have voted many times for statehood, and we don't have to keep 
voting for this. And I think it is time for the Congress to do 
what needs to be done.
    Mr. Gallego. Thank you. And I would just like to note 
Puerto Rico actually has sacrificed more men and women in these 
last 20 years than many, many states in the United States.
    Thank you. I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Gallego. The gentleman yields. 
It is my understanding that votes are going to be called at 
2:30. It is supposed to be a lengthy vote process from what I 
understand. We will continue with questioning of those Members 
that are here or the Members that can remain at the meeting, 
and try to proceed that way. If it becomes cumbersome and 
difficult, with all due apologies to the witnesses and to my 
colleagues, we will call a recess until those votes are done.
    With that, let me now turn to the gentleman, Mr. Gohmert, 
for his questions. Sir, you are recognized for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman. I appreciate that 
very much. Having studied history, gotten a degree in it, I 
have to express a concern. I love the people of Puerto Rico. I 
think they would be a wonderful addition, not just as a 
territory but as a state, but I know historically when language 
divides the country from any part of that country, it can 
become problematic. I understand that the generation coming up, 
most of them speak very good English, and I hope that is 
something that will continue. At this point, I want to yield my 
questions to my dear friend, a wonderful colleague, and that is 
the Honorable Jenniffer Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Mr. Gohmert, for yielding 
the time. I really appreciate that. I will now make a question 
again to Dr. Ponsa and Dr. Cordova. A few minutes ago, we were 
talking about the voters and if they were capable or not to 
make decisions for the island. And it is Congress' plenary 
power such that they can approve any form status with any set 
of terms, any set of conditions or even benefits regardless of 
precedent. So, my question now will be, Dr. Ponsa, can Congress 
create a political relationship not contemplated in the 
Constitution.
    Dr. Ponsa-Kraus. No. It cannot. Even its plenary power is 
not unconstrained by the Constitution.
    Miss Gonzalez-Colon. Can you elaborate on that?
    Dr. Ponsa-Kraus. Sure. Plenary power means that Congress 
can govern a territory as the Federal Government and also as 
its local government; and it can grant or withdraw autonomy. 
Those powers are very much constrained by the Constitution. 
They don't include the power to create a status that doesn't 
exist and then bind the United States to it. Congress has the 
power to admit states. Other than that, it can recognize 
independent countries, and it can govern territories.
    Miss Gonzalez-Colon. Do you believe that H.R. 2070 offers a 
binding self-determination process?
    Dr. Ponsa-Kraus. No. It is not binding.
    Miss Gonzalez-Colon. Dr. Cordova, do you think H.R. 2070 
offers a binding self-determination process? Professor Cordova?
    Mr. Cordova. Yes, excuse me. I forgot to unmute.
    Miss Gonzalez-Colon. OK.
    Mr. Cordova. H.R. 2070 does not offer that. It is legal 
fiction which assumes that the people of Puerto Rico somehow 
will exercise their sovereignty and choose whatever path they 
choose, when, in fact, that sovereignty does not lie there. It 
lies in Congress. So, Congress is someone who is authorized to 
determine this, not the status convention.
    Miss Gonzalez-Colon. What about H.R. 1522? Does this bill 
offer a self-executing binding process should a majority of the 
voters on the island support statehood because this is a 
process? This is not forcing a solution on the voters. 
Actually, it needs this bill to get approved to them, be a 
ratification process on the island.
    Mr. Cordova. Sure. And I think part of the comments of the 
Department of Justice precisely regarding H.R. 1522 recognizes 
that even the vote on ratifying the statehood in Puerto Rico 
would have to return to Congress. There is basically a process 
built in already where Congress would exercise its 
constitutional prerogatives. So, yes, I think H.R. 1522 does 
have the prerequisites to----
    Miss Gonzalez-Colon. Thank you, Professor. Dr. Ponsa, do 
you think that H.R. 1522 offers that self-executing binding 
process?
    Dr. Ponsa-Kraus. It does offer a self-executing process. It 
offers statehood, which is something that Congress not only has 
the power, but the duty to do. I do believe Puerto Ricans are 
the ones who get to make a choice but among valid options, and 
Congress should offer them and has the power and duty to do 
that and it does so on H.R. 1522.
    Miss Gonzalez-Colon. Do you believe that a yes-or-no vote 
is a legitimate self-determination process?
    Dr. Ponsa-Kraus. Unquestionably, it is.
    Miss Gonzalez-Colon. Do you agree that H.R. 2070 is 
colonial and paternalistic in nature given that it ignores the 
will of the people?
    Dr. Ponsa-Kraus. I do. I think it is offensive that it 
ignores the November referendum. I think it is offensive that 
it provides for a bilateral negotiating commission that is 
neither bilateral nor negotiating. Really, I have serious 
problems with it, and they are not just constitutional.
    Miss Gonzalez-Colon. Thank you, Dr. Ponsa. I yield back.
    The Chairman. Let me now recognize the gentlelady from New 
York, Ms. Velazquez, for 5 minutes. You are recognized.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Mr. Cox, does a status convention open the door to 
unconstitutional issues?
    Dr. Cox Alomar. The answer is no, and it is rather 
surprising that that argument could be raised. Could you 
imagine the framers in 1787 saying let's keep the Articles of 
Confederation and not convene the convention because Washington 
might all of a sudden become a dictator or all of a sudden he 
might become a king--I mean, that is ridiculous.
    The whole idea here is to have an inclusive process, a 
process that opens up the door for folks to actually have a 
meaningful, detailed conversation that has never happened since 
1898.
    Ms. Velazquez. Thank you. Is Congress vested with the 
authority to negotiate any model of free association with 
Puerto Rico?
    Dr. Cox Alomar. The answer is yes. Congress has plenary 
authority under the Territorial Clause--I mean, has ample 
authority.
    Ms. Velazquez. And can you further explain why this is not 
an issue of constitutionality but of political will from 
Congress.
    Dr. Cox Alomar. That is another huge issue. I am listening 
to folks mixing up constitutional law with public policy. 
Public policy, that is something very different from--the fact 
that the Constitution allows for something to happen doesn't 
necessarily mean that Congress will actually do this. But 
Congress does have authority to do things, right? It is a 
matter of political will to decide what it wants to do.
    Ms. Velazquez. Thank you. This is 2021. Is it morally and 
politically correct for Congress to offer the people of Puerto 
Rico a status option that is subject to the plenary powers of 
Congress, meaning that the U.S. Congress has total authority 
over the island which will pose a clear continuation of the 
history of colonization?
    Dr. Cox Alomar. Of course not. The Senate is dealing with a 
John Lewis bill. All of a sudden, America is actually right now 
before the G7, NATO, trying to fight authoritarianism against 
Putin. And all of a sudden, you have folks here trying to say 
that America shouldn't decolonize Puerto Rico. I mean, it 
doesn't make any sense.
    Ms. Velazquez. Thank you. And Mr. Cox, this is a yes-or-no 
answer. In your opinion, would commonly known Act 2022, now 
renamed Act 60, that effectively creates a special tax 
treatment for foreigners in Puerto Rico be possible under 
statehood?
    Dr. Cox Alomar. No. Pursuant to the Uniformity Tax Clause, 
the answer would be no.
    Ms. Velazquez. OK. The DOJ report on H.R. 1522 argues that 
the Oversight Board is statutorily denominated part of the 
territorial government of Puerto Rico and will continue to do 
so if the island were to become a state. What should we make of 
Governor Pierluisi's previous statement that no state can have 
a fiscal board?
    Dr. Cox Alomar. Well, that is an illusory argument. 
Obviously, Congress has authority to impose conditions. If you 
go back to 1791, when Vermont acceded to the Union, all the way 
to Hawaii, 1959, you see that Congress has authority to make 
and impose conditions on territories acceding to the Union. So, 
Congress does have authority.
    Ms. Velazquez. And would H.R. 1522 automatically grant 
statehood to the island? Is statehood a done deal per the 
language on that bill?
    Dr. Cox Alomar. Well, no. The DOJ says it is no--there is 
no fait accompli. The DOJ on the first page of its opinions 
says this is not a done deal, right? I mean, it is pretty 
obvious.
    Ms. Velazquez. I would like for you to talk to us about the 
lessons we can learn from the pacts that were negotiated by the 
Pacific Islands.
    Dr. Cox Alomar. Well, the problem with those arrangements 
is that folks in the Pacific, they were not U.S. citizens, 
right? The Pacific Islands have a different history. And the 
other thing that people need to realize in the Committee is 
Puerto Rico presents a unique situation. Puerto Rico's 
relationship to the United States has really no parallel. We 
are U.S. citizens. Puerto Rico is its own nation 
sociologically. I hear witnesses speaking Spanish. Obviously we 
have a heritage that is somehow different from the Anglo 
heritage, and that is something that has to be dealt with by 
Congress. It is very, very difficult to superimpose the same 
solutions that have been used in the Pacific to Puerto Rico. 
Puerto Rico is completely different.
    Ms. Velazquez. Thank you. Congressman Gutierrez, what does 
it say that in the last May election to select a shadow 
delegation whose only purpose is to lobby Congress, and where 
only 3.8 percent of voters participated, ousted Governor 
Rossello has now been elected again? Approximately 1 million 
Puerto Ricans marched asking for his resignation in 2019. And 
now with 3.8 percent of voters, he is back. Is this 3.8 percent 
representative of the will of the people in Puerto Rico?
    Mr. Gutierrez. Absolutely not. Let's remember something. 
This was not part of the campaign in November. In other words, 
Pedro Pierluisi and the New Progressive Party did not say after 
the election we are going to pay six people $150,000 in spite 
of the fact that schools are still closed, in spite of the fact 
that pensions are not being paid, in spite of the fact that 
there are not roofs over certain people's homes.
    But we are going to pay them--never said that. And think 
about it, Congresswoman. They elected Ricky Rossello, who was 
ousted by the people of Puerto Rico. You are right. A million 
people----
    Miss Gonzalez-Colon. Chairman, I raise a point of order.
    Mr. Gutierrez [continuing]. One-quarter of the population 
came and marched----
    The Chairman. The time is up.
    Mr. Gutierrez [continuing]. Governor of Puerto Rico.
    The Chairman. Mr. Gutierrez, the time is up.
    Mr. Gutierrez. I participated in that.
    The Chairman. The gentleman yields back. The gentlelady 
yields. Let me recognize Mr. Lamborn for your 5 minutes, sir. 
You are recognized. Mr. Lamborn? Mr. Lamborn is not available. 
Mr. McClintock, you are recognized for 5 minutes.
    Mr. McClintock. Thank you, Mr. Chairman.
    The Chairman. You are welcome, sir.
    Mr. McClintock. I am very disappointed with the Republican 
position on this issue. H.R. 1522 seems to me to be quite 
unambiguous. It would automatically make Puerto Rico a state 
upon a Puerto Rican referendum. And we have heard many reasons 
why this may or may not be in the interest of Puerto Rico. That 
is a question for Puerto Rico.
    The question that Congress must decide is whether that is 
in the interest of the United States as a whole to admit Puerto 
Rico as a state. That is the responsibility that this bill 
would completely aggregate. I find that shocking, and I 
strongly disassociate myself and support that are expressed for 
that on behalf of the Minority. To me, this bill sidesteps 
fundamental questions that arise from statehood. And let's 
start with the impact of taxation. Many Puerto Ricans are 
exempt from Federal income taxes that they would have to pay 
under statehood. The general accounting office has estimated 
that the added tax burden that would accompany statehood could 
cause enormous job losses and additional damage to the economy 
of Puerto Rico. There is a question of language. The language 
of the United States is English, period. A common language is 
absolutely essential in a democracy. It is based on resolving 
our political differences by open debate. Open debate is 
impossible in a polyglot society.
    Seventy-six percent of Puerto Ricans, according to one 
recent poll, thought it would be unacceptable that English 
might become their official language. As one nation, we have to 
be able to talk with each other. The government of Puerto Rico 
is a fiscal basket case, which we have been dealing with on 
this Committee for many years. It has far too many public 
employees, unsustainable pension obligations, and a long 
history of corruption.
    Its labor participation rate is one-third less than that of 
the United States. An important question is does Puerto Rican 
statehood make America stronger or weaker. Furthermore, there 
has been a very unconvincing history of referenda on this 
issue, of six votes on the question since 1966. Three times, 
the people of Puerto Rico said no to statehood. The most recent 
vote was a narrow 52 to 48 in favor of statehood after many 
Puerto Ricans have already fled to the mainland. That is not 
the kind of convincing mandate that you decide the fundamental 
political relationship between Puerto Rico and the United 
States for all eternity. The impact of additional taxation will 
accompany statehood, the imposition of an official language 
opposed by a large majority of Puerto Rico and the strong 
minority sentiments in Puerto Rico for independence, free 
association, or our continued commonwealth status set the stage 
for catastrophic civil unrest if statehood should be imposed on 
such a slender, fragile, and perhaps transitory majority.
    The question we need to ask is whether admitting Puerto 
Rico as a state makes our country stronger or weaker. That is 
the crucial question. But I am shocked and saddened to see my 
party content to simply ignore. This abrogates our 
responsibility under the Constitution and instead leaves this 
far-reaching and permanent decision to a simple referendum 
within Puerto Rico. I would appeal to my Republican colleagues 
to reconsider. I have no questions and I yield back.
    The Chairman. The gentleman yields back. Thank you, Mr. 
McClintock. Let me now recognize Mr. McEachin. Sir, you are 
recognized for 5 minutes.
    Mr. McEachin. Thank you, Mr. Chairman. In the interest of 
time, I am going to yield the balance of my time to Mr. Soto of 
Florida.
    The Chairman. The gentleman yields.
    Mr. Soto. I thank the gentleman. Thank you, Chairman. I 
thank the gentleman from Virginia for your support of the 
Statehood Admission Bill as well. Colleagues, last hearing, you 
heard about the difficult challenges facing Puerto Rico over 
the past few years and currently: Hurricane Maria, the 
deadliest natural disaster in modern history, a decade-long 
recession, Draconian PROMESA budget cuts, earthquakes, and now 
COVID-19.
    As a result, Puerto Rico lost 11.8 percent of its 
population since 2010 according to the 2020 Census. The 
conclusion is obvious. The territorial status is failing Puerto 
Rico, and it is not surprising. Puerto Rico is just too big to 
be a territory anymore--3.2 million Americans there, bigger 
than half the states nearly, and yet they have one non-voting 
Resident Commissioner for the whole island. And she does her 
best, but she doesn't even get a vote on the Floor.
    Against this backdrop, the Puerto Rican legislature passed 
a law to have an election, a simple statehood yes-or-no 
question in a high turnout general election. This is the same 
ballot question used by countless states to join these United 
States before this moment. And in November 2020, they voted yes 
by 52.52 percent. And the reasons are obvious. There is no 
question at this point that having two U.S. Senators and four 
voting Members of Congress would have helped them greatly 
through these crises. There is no question that Puerto Rico as 
a territory gets far less funding than states. This wreaks 
havoc on health care, their economy, disaster relief, child tax 
credits, earned income tax credits, Social Security, and 
countless other aspects of their lives down there. We have 
spent hours upon hours in this Congress and prior Congresses 
trying to make Puerto Rico equal in Federal program after 
Federal program.
    In one bill and one vote, we can empower Americans in 
Puerto Rico to solve these inequities at once. Our bill sets up 
one last statehood yes-or-no question. And let me state the 
obvious. If they want statehood, they could vote yes. And if 
they do not, they could vote no. The vote would be binding, and 
the only action left would be approximately a year-long 
transition period, and then they would be admitted.
    Since our last hearing, Chairman Grijalva asked the U.S. 
Department of Justice to submit reports on both bills. Last 
hearing, we told you that there were only three statuses 
available to Americans in Puerto Rico under the U.S. 
Constitution: statehood, territory, and independence. The U.S. 
Department of Justice agrees. The U.S. Supreme Court already 
ruled this last year. Last hearing, we told you that a 
statehood yes-or-no question was constitutional. The U.S. 
Department of Justice agrees.
    Last hearing, we talked about the need to end the PROMESA 
fiscal board as part of the transition process. The U.S. 
Department of Justice agrees, and we will amend our bill to 
make it clear that the PROMESA fiscal board will be dissolved 
during the transition period before Puerto Rico is admitted as 
a state.
    Last hearing, we told you that a constitutional convention 
could not make up new status options. The U.S. Department of 
Justice agrees. Last hearing, we told you that a constitutional 
convention could not bind future Congresses. And yet again, the 
U.S. Justice Department agrees. So, here we are today in the 
second of two historic hearings with worthy debate. This is the 
first time Congress has had hearings on a straight-up statehood 
admissions bill in our history.
    It is the first time that the U.S. DOJ has weighed in 
timely and thoroughly on the constitutional issues and status 
options available to Americans in Puerto Rico. And soon under 
Chair Grijalva, we will have a markup. It has taken 120 years 
for Puerto Ricans to get to this moment, and it is time to give 
Americans in Puerto Rico one last binding referendum to choose 
whether to be admitted as a state or not.
    That is the opinion backed by the majority vote in Puerto 
Rico. It is also backed by a bipartisan group of legislators, 
including their own Resident Commissioner, Jenniffer Gonzalez-
Colon, and House Majority Leader Steny Hoyer. For these reasons 
stated, I urge you all to support H.R. 1522, the Puerto Rico 
Statehood Admission Act. And from there, if my time is 
remaining, I yield back.
    The Chairman. The gentleman yields. Thank you very much, 
Mr. Soto.
    Let me now recognize Mr. Graves. Sir, you are recognized 
for 5 minutes. The gentleman is recognized.
    Miss Gonzalez-Colon, are there other people on that side of 
the dais that have not been recognized that need to be 
recognized?
    Miss Gonzalez-Colon. Yes, Mr. Chairman. I can see Ms. 
Radewagen on the queue.
    The Chairman. OK. If Mr. Graves is not available, Ms. 
Radewagen, you are recognized for 5 minutes.
    Mrs. Radewagen. Thank you, Chairman Grijalva and Ranking 
Member Westerman, for holding this hearing. As a fellow Member 
representing a U.S. territory, I want to align myself with the 
statements made today by Resident Commissioner Gonzalez-Colon 
and reiterate my support for her legislation. And, with that, I 
yield my time to the Resident Commissioner.
    Miss Gonzalez-Colon. Thank you, Ms. Radewagen. I just want 
to take the floor where Mr. McClintock left it. And I wish to 
respond. I strongly disagree with his position, but this is 
part of being part of America. Not everybody will think alike. 
And, again, sometimes people are misinformed. The Republican 
platform has endorsed statehood for more than 40 years.
    So, having said that, I think this is a process to 
establish which bill has the constitutional base to respond to 
the voters or the people of the island. I may say this. If we 
are Americans, as we are, we should be listened to--that is the 
beauty of democracy. And that is the reason the people of the 
island have been voting many times requesting that equality 
that comes through statehood. This is not different from what 
Alaska and Hawaii did in the past.
    Having said that, I would like to recognize Dr. Ponsa-
Kraus. Do you want to respond to any of the statements 
Members----
    Dr. Ponsa-Kraus. Yes, I do. I think the argument that a 
constitutional convention as proposed in H.R. 2070 opens the 
door to unconstitutional options has been misunderstood and 
mis-stated. The argument isn't that a constitutional convention 
in Puerto Rico might do something crazy. OK? It is much more 
precise than that, and it has a context. The context is that 
Puerto Ricans were led to believe for many decades that 
Commonwealth could be non-territorial. They were led to believe 
that by the Commonwealth Party in Puerto Rico. They were told 
they had a compact. They were told they were no longer a 
territory. They voted for that under the impression they had 
something they did not have. That is the context in which the 
argument that H.R. 2070 opens the door to unconstitutional 
options exists.
    The problem is that if Congress doesn't specify the options 
the way the DOJ has done, if Congress doesn't specify the 
options and say here are the constitutional non-territorial 
options that we would be willing to agree to because they are 
consistent with the Constitution, and they would decolonize 
Puerto Rico, then what they do is send Puerto Ricans back to 
the drawing board to have the same fight again.
    It is a waste of time, and it is a delay tactic designed to 
defeat a statehood offer, which Puerto Ricans earned with their 
vote in November. So, the argument isn't Puerto Ricans might 
just do something crazy. OK? The argument is a specific legal 
argument with a context.
    Miss Gonzalez-Colon. Sorry. You just explained it. And my 
question will be, people argue that the current level of 
support for statehood is somehow not enough. Is there a 
constitutional threshold of support that a territory must meet 
in order to become a state?
    Dr. Ponsa-Kraus. There is not. And can I just say that if 
Congress offers an option that will obviously have an impact on 
the support that the option has, people are voting for 
statehood without knowing whether Congress would grant it. And 
Congress is the only one that has the power to admit. So, 
neither is there a constitutional requirement for a threshold, 
nor is it sensible to think that the level of support will be 
the same after an offer.
    Miss Gonzalez-Colon. I am making those questions because 
sometimes, I can see that for other issues, 50 percent is good 
enough to elect the President of the United States, but 54 
percent is not enough to show the majority of the will of the 
island, and we must be consistent with those percentages. And 
you are the professor here, so I will take your opinion as the 
one that DOJ established.
    Is a simple majority of electors required to select the 
President of the United States?
    Dr. Ponsa-Kraus. Yes.
    Miss Gonzalez-Colon. If the U.S. Constitution only provides 
for statehood or independence, can the U.S. Congress enact 
anything else that at some external committee or convention 
process referring to academic theories?
    Dr. Ponsa-Kraus. It cannot. And Congress' plenary power to 
govern territories is not relevant to Congress' power to create 
a free association that is anything other than independence. 
That is what free association is. And plenary power doesn't 
change it.
    Miss Gonzalez-Colon. Thank you. I yield back.
    The Chairman. Thank you very much.
    Let me now recognize the gentleman from Chicago. Mr. 
Garcia, you are recognized for 5 minutes. Mr. Garcia? Mr. 
Garcia is not available.
    I recognize the gentleman from Florida. Mr. Soto, you are 
recognized for 5 minutes.
    Mr. Soto. Thank you, Chairman.
    [Speaking in Spanish.] Thank you Rev. Carmen Cabrera for 
attending this hearing. And I have just two questions for you. 
I really appreciate you being here and giving a perspective as 
someone living a second-class citizenship on the island. And I 
know there is going to be some interpretation, right?
    The Interpreter. OK.
    Mr. Soto. Rev. Cabrera, why do you think more Puerto Ricans 
voted for statehood than any candidate on the ballot in 
November 2020?
    The Interpreter. Was it 2020 or 2019?
    Mr. Soto. 2020.
    Rev. Cabrera. 2020.
    The Interpreter. OK.
    Mr. Soto. [Speaking in Spanish.]
    Rev. Cabrera. We deeply appreciate our relationship with 
the United States of America. And the youth in Puerto Rico, 
they are changing their mindset. They are the children of 
parents who have seen the inequality. That is like a feeling 
that is inherited to the children, and when they come to the 
ballot box, they vote that way.
    Mr. Soto. Rev. Cabrera, LULAC has been a champion of Latino 
civil rights for many, many years in our country. Why do you 
think LULAC is supporting the Statehood Admission bill?
    Rev. Cabrera. In the different areas that LULAC helps with 
civil rights, with benefits and the well-being of Latinos, they 
know that Puerto Rico must accept their reality as a colony. 
And the way of getting out of this is by getting out of the 
disenfranchisement in becoming the 51st state of America. 
Again, this is not the first time that we vote. We have voted 
many, many, many times. And we have given the opportunity for 
Puerto Ricans to vote. And time and time again, we have voted 
for statehood.
    Mr. Soto. Thank you, and I yield back.
    The Chairman. The gentleman yields. Thank you, Mr. Soto. 
And let me recognize Mr. Obernolte for his 5 minutes. Sir, you 
are recognized.
    Mr. Obernolte. Thank you very much, Mr. Chairman, and thank 
you to the witnesses for what has been a very interesting 
hearing. In the interest of time, I would like to yield my 
remaining time to the Representative from Puerto Rico, Miss 
Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Congressman, for yielding 
the time. I appreciate that. I will go back to some of the 
questions. A few minutes ago, we were talking about the 
contributions of Puerto Ricans to our Nation. And I think it is 
important to establish the numbers that are participating in 
our military forces. Eighteen thousand Puerto Ricans were part 
of World War I in our armed services. Sixty-five thousand 
Puerto Ricans fought in the Second World War. Forty-eight 
thousand Puerto Ricans fought in the Korean War, helping the 
United States. And then 48,000 fought in Vietnam and 61,000 in 
Korea. Ten thousand soldiers from the island in the U.S. Army 
fought in the Gulf War. And then you have more than 25,000 
Puerto Ricans that are active in military service, 5,000 of 
them just in the reserve, more than 8,000 in the National 
Guard, more than 38,000 deployments in Operation Enduring 
Freedom. And I can go on to establish all the recognitions that 
are Puerto Ricans in the Armed Forces--making the ultimate 
sacrifice for our Nation as they were in the Korean War having 
the Congressional Gold Medal, among many others.
    Having said that, I would like to go back to some of the 
questions. Dr. Ponsa, do you understand that the U.S. 
Constitution only provides for statehood or independence, or 
can Congress do anything else?
    Dr. Ponsa-Kraus. The only constitutional non-territorial 
options are statehood and independence. Anything in between is 
territory.
    Miss Gonzalez-Colon. I do believe that the analysis of H.R. 
1522 was particularly comprehensive and helped dispel some of 
the myths that are being used against statehood. For example, 
some of the opponents of statehood, on both sides of the aisle, 
claimed that Puerto Rico would first have to become an 
incorporated territory prior to the state. Didn't DOJ dispel 
this in this report, arguing that Congress could amend any bill 
to clarify that Puerto Rico will remain unincorporated?
    Dr. Ponsa-Kraus. Absolutely. And that is clear historically 
and doctrinally as well. There is no requirement that Puerto 
Rico become incorporated before becoming a state. It is within 
Congress' power to say that it is unincorporated until it 
becomes a state.
    Miss Gonzalez-Colon. Opponents for statehood as well also 
claim that all Federal taxes lost will immediately apply to 
Puerto Rico from becoming a state. However, DOJ again dispels 
that, saying that, and according to the DOJ report, Congress 
has the power to enact legislation provided for Federal or 
delayed application of the constitutional or informative 
requirements. Is that correct or no?
    Dr. Ponsa-Kraus. That is correct.
    Miss Gonzalez-Colon. Do you want to expand on that?
    Dr. Ponsa-Kraus. Even the Supreme Court opinion that 
invented the status of unincorporated territory made clear that 
Congress could incorporate in certain respects and not others 
and be gradual in not others. And that same Court upheld what 
would otherwise have been a violation of uniformity just a few 
years later in the territory of Alaska. So, Congress does have 
the power to do this gradually and to incorporate one step at a 
time and provide for an appropriate transition.
    Miss Gonzalez-Colon. Didn't DOJ also argue that legislation 
provided for gradual transition to taxes and bankruptcy before 
Puerto Rico will be constitutional?
    Dr. Ponsa-Kraus. I didn't hear the beginning of the 
question. I am sorry.
    Miss Gonzalez-Colon. Didn't the DOJ report also argue that 
legislation provided for a gradual transition to tax and 
bankruptcy laws, uniformity for Puerto Rico will be 
constitutional?
    Dr. Ponsa-Kraus. Yes, it did. Yes.
    Miss Gonzalez-Colon. And according to that report of DOJ 
that we are looking into today, will Congress have the ability 
to cite economic circumstances unique to Puerto Rico as a basis 
for a continuation or phase-out of the tax status that treats 
Puerto Rico differently?
    Dr. Ponsa-Kraus. Yes, absolutely. It stands to reason that 
Congress, with its plenary power to govern territories and its 
power to admit can provide for a reasonable transition. And the 
idea that suddenly all these oppressive things happen overnight 
has always been a scare tactic.
    Miss Gonzalez-Colon. Thank you, Dr. Ponsa.
    I yield back, Mr. Chairman.
    The Chairman. I now recognize Mr. Garcia for 5 minutes. 
Sir, you are recognized. Mr. Garcia?
    Let me now recognize Mr. San Nicolas for 5 minutes. Sir, 
you are recognized.
    Mr. San Nicolas. Thank you, Mr. Chairman, and I want to 
first begin by thanking the Committee for convening this 
hearing. I am actually on Guam at the moment. I have been with 
the Committee since 3 a.m., and this has actually been one of 
the most informative hearings that I have sat through in some 
time. I wanted to credit all of the witnesses for definitely 
bringing their A-game. Everybody absolutely is making strong 
cases for both bills, and that is something that I think is 
indicative of the fact that Puerto Rico is absolutely ready to 
vacate its territorial status.
    We have the intellect, we have the capacity, and it is time 
for us to move forward. I wanted to first address statements 
made by a colleague questioning whether or not admitting Puerto 
Rico as a state is something that is good for the country. I 
think that as long as this country maintains the hypocrisy of 
colonies, then we are losing our credibility internationally, 
and we are also undermining our credibility domestically. There 
should be no territories in this country ever. That is not what 
this country was founded upon, and it is not the future of this 
country.
    That being said, Mr. Chairman, Guam is observing this 
hearing and these proceedings with great interest as we as a 
territory also endure the same circumstances of Puerto Rico, 
notwithstanding some differences in our unincorporated 
territorial relationship with the United States. I wanted to 
first posit a question to Dr. Christina Ponsa-Kraus.
    You made it very clear in your testimony that the options 
provided to Puerto Rico, if they are going to be truly 
constitutional, can only be statehood or independence. Am I 
hearing that correctly?
    Dr. Ponsa-Kraus. Yes. Independence, including free 
association. Statehood or independence, including free 
association.
    Mr. San Nicolas. So, free association can also be a status 
option on a referendum, that would be constitutionally 
consistent?
    Dr. Ponsa-Kraus. Absolutely. My position is just that it 
needs to be made clear that free association is a form of 
independence. There is a lot of confusion. Is it two options or 
three options? Well, free association is a form of 
independence. You can count it as 2A and 2B, or 2 and 3.
    Mr. San Nicolas. I very much agree. I am very familiar with 
free association having our freely associated allies to the 
south of Guam in Palau, the Federated States of Micronesia and 
the Republic of the Marshall Islands. They are all independent 
countries with compacts of free association with the United 
States. I think it is very important for us to clearly put that 
on the record that free association is independence with a 
treaty. That is absolutely what free association is.
    I also wanted to clarify some sentiments that were raised 
by our former colleague, Former Representative Luis Gutierrez. 
Sir, you mentioned that 52 percent was inadequate for that to 
reflect the will of the people. I am concerned that if we put 
forward status options that involve multiple considerations, 
whether it is statehood, free association, Commonwealth or 
independence, wouldn't having multiple status options actually 
result in an outcome even worse than 52 percent? Mr. Gutierrez?
    Mr. Gutierrez. Representative, here is my point. They 
define the manner in which the plebiscite was going to be 
conducted. Who did that? They had a majority in the House, a 
majority in the Senate. They had the governorship. And they 
decided that it was going to be yes or no on statehood.
    And my answer to you is the following. We are going to 
ultimately decide on one status. But let's remember this is 
irrevocable. You make Puerto Rico a State of the Union, and it 
is irrevocable. It should be something in which everyone 
participates. How is it----
    Mr. San Nicolas. I don't mean to be disrespectful. I need 
to reclaim my time, so I can make a final point. If I may 
reclaim my time, Mr. Chairman.
    The Chairman. Mr. San Nicolas, thank you.
    Mr. San Nicolas. Thank you. So, my concern and just to 
conclude, I co-sponsored both bills, and that has to do with 
where I initiated my remarks. There should be no territories in 
this country. We need to move this issue forward one way or 
another. I am concerned about diluting the question again and 
there being some kind of undecided outcome, and no one knows 
how to move forward. I am also concerned about whether or not 
we are being very, very clear. And I think that that needs to 
happen regardless of what bill passes. But I will be voting for 
both. Thank you, Mr. Chairman, and I yield back.
    The Chairman. The gentleman yields.
    Mr. Graves, sir, you are recognized for 5 minutes.
    Mr. Graves. Thank you, Mr. Chairman. I appreciate it. 
Congressman Gutierrez, nice to see you again. I hope you are 
doing well. I first want to just make note that I want to 
disassociate myself with comments made earlier.
    The Chairman. Mr. Graves, we are having some difficulty 
hearing. Is there a problem on your end in terms of----
    Mr. Graves. Let me try to see if I can go along to--any 
better or no?
    The Chairman. It is better. Yes.
    Mr. Graves. All right. I am not sure if you heard me 
earlier. I just want to say that I first disassociate myself 
with comments made earlier about the appropriate litmus test or 
language for folks to be citizens of the United States. I don't 
think that is the appropriate standard and very concerning to 
hear those comments made.
    Secondly, I want to thank all the witnesses that I have 
enjoyed hearing in discussion at this hearing and previous. Dr. 
Ponsa-Kraus, in your opinion, would it be disingenuous to tell 
people, the people of Puerto Rico, that there are other 
constitutionally viable status options other than statehood, 
independence, or the current territorial status?
    Dr. Ponsa-Kraus. Yes, it would be, and it has happened 
before, and it will hopefully never happen again.
    Mr. Graves. Is free association independent?
    Dr. Ponsa-Kraus. Free association is a form of 
independence, yes.
    Mr. Graves. Has the United States ever granted blanket 
citizenship to the residents of an independent nation?
    Dr. Ponsa-Kraus. No. It never has.
    Mr. Graves. In an independent Puerto Rico under a treaty of 
free association, would U.S. citizenship be granted for future 
generations?
    Dr. Ponsa-Kraus. Congress would have the power to do so, 
and Congress would also have the power to stop doing so.
    Mr. Graves. Mr. Chairman, I yield my remaining time to 
Congresswoman Jenniffer Gonzalez-Colon.
    Miss Gonzalez-Colon. Thank you, Mr. Garret Graves, for 
yielding the time, and your help in many Puerto Rican issues, 
not just in this Committee but in the Transportation and 
Infrastructure Committee. And I will try to take your last 
question. And, again, I will go directly to Dr. Ponsa and 
Professor Cordova.
    Following that analysis of the Department of Justice 
regarding H.R. 1522, some are saying that statehood is the one 
that is going to say whether voters of the island will have the 
final say, that they will have to ratify statehood also made by 
Congress in a referendum. Is that correct?
    Dr. Ponsa-Kraus. That is correct. H.R. 1522 offers it, and 
the voters have a chance to vote yes or no.
    Miss Gonzalez-Colon. And that would be the way to ratify 
the final step in the process to gain statehood, correct?
    Dr. Ponsa-Kraus. Right. Well, as H.R. 1522 provides, then 
the President would be required to issue a proclamation in the 
wake of a yes vote for statehood. There are more steps, but the 
final substantive stuff would be that choice of yes if the 
voters made it.
    Miss Gonzalez-Colon. So, the first step is actually 
recognizing the votes of November of last year, and that is 
what this bill, H.R. 1522, does, recognizing that vote, 
prompting the question to Congress so Congress can make the 
offer to the people of the island. And once this bill is 
approved--needs to be in the House, it appears to be approved 
in the Senate--if the President is to sign it, then having a 
Federal sponsor of a referendum in Puerto Rico with that final 
yes or no question--do you want to be admitted as a state? Yes 
or no? Thus, in that process, the ``no'' will mean any other 
option, correct?
    Dr. Ponsa-Kraus. No leaves open a subsequent process. To 
choose any other option, we are going to vote on statehood 
again. I mean, ``no'' doesn't rule anything out. The 
constitutional non-territorial options remain available.
    Miss Gonzalez-Colon. So, that will mean that people that 
have been saying that they are excluded from the ballot, that 
they were excluded in the past November referendum is not 
correct, actually. The people who were against statehood, who 
were for independence, who were for free association or even 
the people who wanted to remain as a territory, they were 
paying directly for the ``no'' as an option. So, they were 
represented legally and constitutionally speaking.
    Dr. Ponsa-Kraus. That is right. Opponents of statehood 
freely campaigned against statehood, and supporters freely 
campaigned for it. No party, no option, no voter was excluded.
    Miss Gonzalez-Colon. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields. Mr. Graves yields.
    Let me recognize Mr. Garcia. Sir, you are recognized for 5 
minutes.
    Mr. Garcia. Thank you, Mr. Chairman. I am glad to overcome 
the technical glitches. The people of Puerto Rico have suffered 
too much for too long. And we can all agree that most of Puerto 
Rico's problems are rooted in its colonial status. As Chair 
Grijalva has stated, Congress needs to keep moving forward on 
this because Puerto Rico can't stay in limbo any longer. The 
future of millions of Puerto Ricans shouldn't be a political 
football. We have an opportunity to rectify Puerto Rico's long-
standing colonial status which has resulted in its people being 
treated as second-class citizens. But let me be clear. It must 
be done correctly and transparently. Regardless of the status 
outcome, the people of Puerto Rico deserve a thoughtful and 
thorough transition plan as required in the Puerto Rico self-
determination plan.
    A question for Dr. Cox Alomar. In the analysis of H.R. 
1522, Puerto Rico Statehood Admission Act, the DOJ concluded 
that its biggest concern was execution and transition. In your 
view, would it be possible for the people of Puerto Rico to 
know what a transition to statehood might look like before they 
vote on it? And would they know the economic and political 
trade-offs?
    Dr. Cox Alomar. Well, under the current bill, there is no 
certainty. The people of Puerto Rico would basically be in the 
dark. I mean, there is no certainty about whether PROMESA would 
stay under statehood. There is no certainty of whether Puerto 
Rico would become an incorporated territory or for how long. 
And that is the basic flaw of the bill before the House right 
now before the Committee, lack of certainty.
    Mr. Garcia. So, it is not as it has been portrayed in your 
opinion by the statehood advocates.
    Dr. Cox Alomar. There could be no--I am sorry, sir. I mean, 
very quick, there can be no self-determination if there is no 
informed choice in the first place.
    Mr. Garcia. Thank you, sir.
    Dr. Caraballo, in their analysis, the DOJ recommends, 
quote, ``that Congress consider providing a more tailored 
solution for continuity in the operations of the Oversight 
Board.'' PROMESA passed out of Congress 5 years ago last week, 
but seems like we are talking about it non-stop in the 
Committee since I got here. I think it is fair to say that 
resolving Puerto Rico's debt in a democratic way is a 
complicated political issue.
    Do you think it is realistic for Congress to quickly find a 
tailored solution for PROMESA, and would it be possible for 
Puerto Rican voters to know what the solution might be before 
choosing statehood?
    Dr. Caraballo-Cueto. Yes. I believe that there is a quick 
pass through it. We just have to get rid of the Fiscal Control 
Board that the majority of the citizens in Puerto Rico reject. 
Once we do that, then we can start talking among more 
democratic ways to restructure the debt, especially by looking 
at what the civil society can do. The first thing that many 
people have been demanding is auditing the debt. And that is 
the first step that has to be done before restructuring.
    Mr. Garcia. Thank you, sir.
    And to Congressman Gutierrez, can you talk about two 
things, and briefly, in a minute and 25 seconds? The first is: 
I understand that the FBI Director in the year 2000 offered an 
apology to advocates of a different political solution, those 
for independence for all of the repression that had been 
inflicted upon them for a long time. And (2), I heard a lot of 
talk about civil rights here from advocates of statehood. What 
is their practice in terms of defending civil rights on the 
island?
    Mr. Gutierrez. No. 1, great question. No. 1, it was the FBI 
Director in the year 2000 in a congressional hearing who said 
the FBI conducted illegal searches and criminal actions against 
proponents of independence in Puerto Rico, and they did it for 
over 50 years. It wasn't just happenstance. They did it. It is 
called the creation of Las Carpetas where over 100,000 
advocates of Puerto Rican independence were monitored. And 
Congressman Garcia, we have to understand it wasn't just that 
they created dossiers on them. They destroyed families. They 
destroyed reputations. They destroyed people. And they 
debilitated the fundamental democracy in Puerto Rico. And 
secondly, look, they continued to come before the Congress of 
the United States to say, ``Where are my human rights? Where 
are my civil rights?'' Statehood is what gives it to us while 
they diminish and undermine the rights of the LGBTQ community 
in Puerto Rico.
    The civil code was just changed recently in Puerto Rico to 
undermine same-sex marriages. No. 1, the right of a woman to 
have control over her body and her reproductive system again is 
debilitated. The racist notions--I mean, think about it. The 
Statehood Party in Puerto Rico thinks it is fine to use the N-
word. They think it is fine. They have legislators who give 
congratulatory resolutions to journalists who are fired by 
Univision, one of them for using the N-word.
    How can at this time in this nature--and I just want to say 
to you, Congressman Garcia, look. We cannot let this go by. We 
cannot allow this to continue to happen. You and I have to be 
on the City Council together. We have to go to the Congress 
because black people gave up their lives so that we could have 
a Voting Rights Act, so that we could espouse our positions. 
Cox Alomar is here with us, a distinguished jurist. And when he 
ran for Resident Commissioner of Puerto Rico, the former----
    Miss Gonzalez-Colon. Chairman, I raise a point of order.
    The Chairman. I know. Gentlemen, time is up.
    Mr. Gutierrez. That is something that we should also 
address.
    Mr. Garcia. I yield back, Mr. Chairman.
    The Chairman. Thank you, Mr. Garcia.
    Let me now recognize Mr. Hice. Sir, you are recognized for 
5 minutes.
    Let me now go to Representative Tiffany. Sir, you are 
recognized for 5 minutes.
    Ranking Member, Ms. Gonzalez-Colon, are there additional 
people on your side of the dais that wish to be recognized?
    Miss Gonzalez-Colon. Mr. Chairman, some Members are on the 
Floor at this time, so at this time, there are no Republicans 
in the queue.
    The Chairman. OK. I appreciate that. Thank you. If Mr. 
Cohen is available on the Majority side, sir, you are 
recognized for 5 minutes.
    I think the voting is undergoing. Let me now attempt to 
recognize a member of the Committee, Ms. Tlaib, for 5 minutes, 
any comments you may make or questions?
    Ms. Ocasio-Cortez, you are recognized for 5 minutes for 
your comments and questions.
    Given the fact that people are voting at this point, we 
will recess for a limited period of time, hopefully 15-20 
minutes, and get some of the Members that had indicated they 
wanted to participate and be recognized, Mr. Cohen, Ms. Tlaib, 
Mrs. Trahan, Ms. Ocasio-Cortez, Mr. Hice, and Mr. Tiffany. And 
if the Ranking Member is comfortable with that, we will recess 
and allow them to come back. You are right. This is a very 
important meeting, and I would not want to deny them their 
opportunity to have an opportunity to ask questions, so now we 
will----
    Miss Gonzalez-Colon. Mr. Chairman, I agree with you. Can we 
establish how much time?
    The Chairman. The Committee will notify, but I will--what 
time is it right now?
    Miss Gonzalez-Colon. 3:20.
    The Chairman. Let's say 4 o'clock.
    Miss Gonzalez-Colon. Perfect.
    The Chairman. Thank you.
    And to the witnesses, my apologies. The vote occurred. It 
is a long vote, and hopefully we will be back soon and be able 
to continue with this hearing and with the participation of the 
Members. Thank you very much. The Committee is recessed until 4 
o'clock.
    [Recess.]
    The Chairman. Will staff please notify the Ranking Member 
and whomever is going to be available in terms of Members, but 
we need to reconvene the meeting?
    Miss Gonzalez-Colon. I am sorry, Mr. Chairman. Ready to go.
    The Chairman. OK. Thank you. And before we gavel the 
meeting to start, let me just thank all the witnesses in 
particular for their endurance and their patience. I very much 
appreciate it.
    As Ms. Gonzalez-Colon knows quite well and the staff knows 
quite well, I get really frustrated with the hearings on the 
issue of status in Puerto Rico, whether it is PROMESA, because 
they go on for a long, long time.
    And I am not frustrated today--having learned a lesson that 
the issue of status, the issue of the economic and human life 
in Puerto Rico, is of tremendous consequence to everybody that 
is here, to the Members and to Congress. So, having to recess, 
having to convene back together and having a meeting that has 
extended this far, I appreciate the time. But I think it is 
necessary time because we need to move forward. So, we are 
going to reconvene the meeting, and Representative Gonzalez-
Colon, are there any Members on your side? The sequence was the 
Minority's turn to have questions.
    Miss Gonzalez-Colon. Mr. Chairman, not at this time. They 
are still voting on the Floor. So, I understand that we should 
go with the next in the queue. We can continue with whatever 
Members are available.
    The Chairman. OK. The votes were much longer than 
anticipated, and I want to now recognize Representative Tlaib 
from Minnesota if she is available for any questions or 
comments she might have.
    Ms. Tlaib. Thank you, Chairman. I am actually from 
Michigan, but it is OK.
    The Chairman. Michigan. I am sorry. Oh, God. And I was just 
on that meeting with you.
    Ms. Tlaib. I do have a question. Is Representative 
Velazquez on? Is she logged on? I know I just saw her voting 
just now because I am yielding my time to her, so I just logged 
on to make sure that I yielded my time to her.
    The Chairman. If you would hold, I am certain she is on her 
way, and then I can--I haven't asked questions yet, and I can 
utilize that time to recognize myself.
    Let me ask is Mr. Cohen available for questions.
    And Representative Ocasio-Cortez, is she available for 
questions?
    OK. With that, let me ask the questions that I had 
intended. And thank you very much. And I want to thank all the 
witnesses.
    Two of the witnesses had to leave, and that is unfortunate. 
Professor Cox Alomar, can we discuss the results of the 2020 
plebiscite? If I have the numbers correctly, yes on statehood 
received 52.52 percent, and no was 47 percent out of a turnout 
of 54.7 percent of eligible voters in Puerto Rico.
    Based on these results, is it accurate to say that the 
majority of Puerto Ricans voted in favor of statehood, which, 
if granted by Congress, would be irreversible and permanent? 
Any response to that question, sir?
    Dr. Cox Alomar. Well, Mr. Chairman, the problem really is 
not the numbers. The problem is that there wasn't a real 
informed choice. I mean, statehood wasn't fully defined in 
terms of its consequences. Obviously, statehood is a matter 
that goes into perpetuity. And we do not want to have a Brexit 
situation in Puerto Rico, right? We want the people of Puerto 
Rico to actually exercise their right to determine their future 
on the basis of an informed choice. And the DOJ opinion is 
pretty clear. I mean, there are a series of very problematic 
areas which are completely left undefined in the statehood 
bill.
    What happens with PROMESA and what happens with the debt, 
what is the transition to tax uniformity as required under the 
Constitution and the Equal Footing Doctrine? So, the issue here 
is trying to avoid what has happened with the Brexit, what has 
happened in southern Sudan, what had happened in other places 
where people are making choices pretty much in the dark.
    The Chairman. Thank you. Dr. Ponsa-Kraus, the U.S. 
Department of Justice submitted reports on the two pieces of 
legislation. It was approved by the White House. All executive 
branch agencies with an interest in the bills also had input. 
And those weren't presented to the Committee with comments on 
and recommendations regarding each piece of legislation. Having 
said that, would you support H.R. 1522 and H.R. 2070 if they 
were amended as recommended by the Justice Department/the Biden 
administration?
    Dr. Ponsa-Kraus. I do support the changes suggested to H.R. 
1522, which are not to its basic merits, but there are some 
improvements there that I don't have objections to. As for H.R. 
2070, I certainly don't agree that territorial status should be 
part of any self-determination process at all.
    The Chairman. OK.
    Dr. Ponsa-Kraus. If it specified the options, that would be 
an improvement, but I would still object to it because I 
believe that Puerto Ricans have had a full, free, and fair 
debate for 70 years and that a constitutional convention, while 
it sounds nice, in the context of Puerto Rico is a delay. It 
doesn't move the process forward because Puerto Ricans do know 
what the actions are. And what they need is a campaign for 
options that educates them as to the basic features, but they 
don't need a constitutional convention. Constitutional 
convention is for making constitutions, and Puerto Rico has one 
already.
    The Chairman. OK. Let me just follow up real quickly 
because if I may, Doctor, one of the things that I think the 
Members in Congress and certainly in this Committee are attuned 
to is unintended consequences. And I ask that question because 
having gone through the agony of PROMESA, having gone through 
the agony of relief efforts, the duality and inequality in 
terms of the application of whether it is Social Security, 
taxes, etc., benefits to the citizens of Puerto Rico by the 
Federal Government, and now dealing with the status issue that 
has been constant. You are right, it has been constant for 
decades.
    Let's say we are going into a transition around H.R. 1522. 
Does the issue of the Oversight Board established under 
PROMESA--does that occur before or after action on H.R. 1522? 
Does constitutional uniformity in terms of taxation and 
bankruptcy laws, as an example, that single out Puerto Rico, do 
they occur--and that requires legislative action as well--do 
they occur before or after action on H.R. 1522?
    Dr. Ponsa-Kraus. They absolutely occur after. I think the 
word ``agony'' is exactly right. It is 123 years of agony, and 
it is decades of agonizing debate. It is one thing to ask the 
voters to offer them options that are constitutional and non-
territorial and defined in their basic features for sure, for 
example, statehood, guaranteed citizenship--is independent. You 
offer them that. But then once the voters make that choice, 
then you work out the details of a transition. I mean, think 
about free association, for example. You cannot put to the 
voters a negotiated treaty of free association before they have 
chosen it, right? So, there is no way for every last detail to 
be worked out beforehand. The voters know the basic options. 
They should be told what their basic features are. And then the 
transition should be worked out. So, I don't think action 
should be delayed.
    The Chairman. Delayed being one way, the unintended 
consequences being the other way to describe it, but we will go 
with your word, ``delay,'' at this point.
    Congressman Gutierrez, in this whole discussion in looking 
at H.R. 2070 and the legislation itself, fundamental to it is a 
process, an engagement process, a civic engagement process, a 
public participation process that, as you described it and as 
the legislation describe it, lays the issue of status open for 
everyone to be able to understand exactly what happens, what 
intended and unintended consequences might be to that and have 
input and recommendations relative to that.
    Can you talk a little bit about that transparency issue 
that you mentioned at the beginning of your discussion.
    Mr. Gutierrez. Sure. Thank you, Mr. Chairman. Here is the 
point. There hasn't been a free debate and discussion. In 1948, 
they passed the Ley de La Mordaza. And for 10 years, it was 
illegal. You would be put in jail for displaying this flag. 
There are consequences to that action, as FBI Director Freeh 
apologized and said that the FBI conducted criminal acts of 
repression against those that didn't favor a permanent 
relationship with the United States, the independence 
movements.
    So, you have to put that in context. What I want to say is, 
Mr. Chairman, I actually lived it. I watched the commercials 
each and every day. I was part of that campaign. We have people 
coming here as witnesses who weren't there, didn't see what 
happened, were never there. What happened was we had dirty, 
filthy--how would I say it--dark money.
    We don't know where it came from. So, to say it was fair, 
Mr. Chairman, is just not true. There were at least 20----
    Miss Gonzalez-Colon. Mr. Chairman, point of order.
    The Chairman. Yes. Let me reclaim my time, Mr. Gutierrez. 
Yes. I have been the subject of some full-page ads here in 
Arizona from the pro-statehood people that I have not been able 
to verify who is paying for it at this point. But anyway, that 
doesn't bother me.
    Let me recognize now Ms. Tlaib. You are recognized for 5 
minutes.
    Ms. Tlaib. Thank you, Mr. Chair. I would like to now yield 
my 5 minutes to Congresswoman Velazquez.
    Ms. Velazquez. OK. Thank you, Ms. Tlaib. Thank you so much 
for yielding time to me. I just want to say that time and time 
again, people continue to allege unconstitutionality of H.R. 
2070 with complete disregard to the fact that we have the pen.
    The U.S. Congress, we have this pen. We write legislation. 
We pass the law. So, it is up to us, to Congress, without 
thoroughly, precisely vested by the Constitution, to decide 
what type of mechanism for decolonization we should pursue. So, 
having a transparent process and having options, that is 
exactly what we need to do in order to decolonize Puerto Rico.
    And we, in consultation, the Congress, with a bilateral 
commission, that will be the responsibility to decide what are 
the options that will be included. What are the terms and 
conditions and an education element that is so important. As I 
said before, this is not any election. This is an election to 
define and decide once and for all the colonial status of 
Puerto Rico, to put an end to that--2021. Mr. Cox, I would like 
for you to review any comments or opinions that were made 
before that you feel you need to address.
    Dr. Cox Alomar. Yes. I want to go back to the issue of 
context, and to the issue of opening doors for alleged 
unconstitutional options. When we talk about context, in the 
specific issue of Puerto Rico's status, we need not say that 
the sole culprit for x or y status was a local political party.
    We need to go back to what the United States represented to 
the United Nations. We need to go back to Mason Sears, to Henry 
Cabot Lodge, to the First Circuit of Appeals in Boston, which 
basically, under Chief Judge Magruder, even Justice Breyer, 
when he sat in the First Circuit, actually articulated a 
doctrine whereby Puerto Rico was described as having acceded to 
a special relationship under American federalism, a mutual 
consent agreement covenant with the U.S. Congress.
    So, it is not as if a local political party all of a sudden 
concocted a surreal political status. The context is very broad 
and obviously encompasses representations made by the Truman 
administration, the Eisenhower administration, the Kennedy 
administration, the Johnson administration, and a whole series 
of other administrations. As much as it is a Puerto Rican 
problem, this is an American problem, and it was authored by a 
series of administrations going back to the McKinley 
administration.
    Ms. Velazquez. Thank you, Mr. Cox.
    Mr. Cueto, I would like to address my next question to you. 
How Federal taxation under statehood or an incorporated 
territory will affect the island's economy? How would Puerto 
Rico afford paying for essential services and the debt if it 
also must pay Federal income, excise, gas, and telecom taxes 
they don't pay now? Would the creation be seriously disrupted 
under statehood as the 2014 GAO report on the effects of 
statehood suggested?
    Dr. Caraballo-Cueto. Well, the worst-case scenario will be 
an incorporated territory because we will have taxation, but we 
will not have the parity in Federal programs. So, it is going 
to cost more to Puerto Rico. Plus we are going to lose the tax 
advantages that we have right now to attract investment from 
abroad. And under statehood, especially the middle class and 
the upper class will have to pay more taxes. But the low-income 
class will receive more benefits in the case of parity for 
Federal programs. So, there is a trade-off in terms of taxation 
in the case of statehood. But in the case of incorporated 
territory, that will be the worst of all scenarios.
    Ms. Velazquez. Thank you.
    Mr. Chairman, I yield back.
    The Chairman. Let me recognize the gentlelady from New 
York, Ms. Ocasio-Cortez. You are recognized for 5 minutes.
    Ms. Ocasio-Cortez. Thank you so much, Chairman Grijalva. 
Thank you for taking the time to have this meeting and this 
hearing today, and thank you to all of our witnesses who have 
come to share their expertise.
    I am a proud co-lead along with Representative Nydia 
Velazquez on H.R. 2070, which is the Puerto Rico Self-
Determination Act, and as was noted by one of our witnesses, 
self-determination is a human right. I believe that this 
legislation is the best answer to the centuries-old question of 
Puerto Rico's status and colonial history. I am pleased that in 
the Department of Justice's analysis of our bill, they conclude 
that Puerto Rico as an island does, in fact, have a right to a 
fair and democratic self-determination process and that one-
sided initiatives fail to grant Puerto Ricans this outcome.
    However, I want to be clear that a true decolonization 
process exempts the current territorial status. With that said, 
I just want to clear up some mythologies around this bill. To 
Dr. Cox Alomar, very quickly as a yes or no, have former 
statehood plebiscites and referendums in Puerto Rico been 
plagued historically by electoral irregularities, inaccuracies 
and/or been unilaterally influenced by one party?
    Dr. Cox Alomar. The answer is yes.
    Ms. Ocasio-Cortez. Would a constitutional assembly be the 
most inclusive, democratic, and just process given that history 
of irregularity and bias? Would a constitutional assembly be 
the most just process for the decolonization of Puerto Rico in 
your view?
    Dr. Cox Alomar. Definitely yes, and I actually invite you 
to take a look at the White House Task Force Report of 2011, 
which basically suggests that the convention is the most 
encompassing process.
    Ms. Ocasio-Cortez. Thank you. Now, additionally, in our 
self-determination bill, does the bill oppose statehood?
    Dr. Cox Alomar. No.
    Ms. Ocasio-Cortez. No. Our bill does not oppose statehood 
whatsoever. And does this bill, on the other side, too--does it 
impose independence necessarily on the island?
    Dr. Cox Alomar. The answer is no.
    Ms. Ocasio-Cortez. No. It is status agnostic, and it is 
focused on the process. Now, let's contrast that with the 
statehood bill. The Puerto Rico Statehood Admission Act, if 
passed, would it admit Puerto Rico immediately to the United 
States as its supporters claim?
    Dr. Cox Alomar. The answer is no. And the DOJ says there is 
no fait accompli. This is no done deal. I mean, it is pretty 
clear----
    Ms. Ocasio-Cortez. This bill, if passed, will not 
immediately admit Puerto Rico as a state. Now, would this--in 
your expert opinion, can voters legitimately exercise their 
right to self-determination without knowing fully the options 
that they are voting for?
    Dr. Cox Alomar. The answer is no. Take a look at Brexit.
    Ms. Ocasio-Cortez. Thank you very much. I think that is a 
wonderful example of the situation that voters are in where 
they had a status vote, were not fully informed, and many of 
them regret what is happening. On that note, do you believe 
that Puerto Ricans on the island have ever had the benefit of 
being fully informed that voting for statehood also means 
potentially ensuring the survival of La Junta de Control 
Fiscal?
    Dr. Cox Alomar. No. There is no proper process of actually 
informing folks what is going on. No.
    Ms. Ocasio-Cortez. So, you would say that Puerto Ricans 
don't know that La Junta could stay and be preserved if the 
statehood bill passes?
    Dr. Cox Alomar. The answer is no.
    Ms. Ocasio-Cortez. Lastly, in the cases of Alaska and 
Hawaii, when they were admitted to the United States, they had 
a mandate that information about the legal effects of statehood 
and the transition be provided to those voters. Alaska and 
Hawaii had full information.
    Does H.R. 1522, the statehood bill, have any mandate at all 
that information about the legal effects of statehood be 
granted to voters the way that they were in Alaska and Hawaii?
    Dr. Cox Alomar. The answer is no.
    Ms. Ocasio-Cortez. So, they are being treated differently 
even compared to other recent communities that were most 
recently admitted as states into the country. Puerto Ricans 
deserve to have the full facts and information about what not 
only the statehood bill contains but also what that transition 
would mean because we cannot make these decisions with a lack 
of information and find out afterwards that there are tax 
implications, financial implications, and status implications 
that may negatively affect their lives.
    So, our bill, H.R. 2070, contains, guarantees, and mandates 
a full information campaign so that Puerto Ricans will know 
what they are voting for. It doesn't say no to statehood. It 
doesn't mandate independence. What it mandates is a fully 
informed and just process that Puerto Ricans deserve. With 
that, I thank you very much. Thank you, Dr. Cox Alomar, for 
your expertise, and I yield back to the Chair.
    The Chairman. Thank you very much. The gentlelady yields. 
Madam Ranking Member, are there any Members on your side that 
we did not get to?
    Miss Gonzalez-Colon. They are still on the Floor.
    The Chairman. OK. As we said, we are wrapping up this 
hearing. I want to thank all of you for the sacrifice of time 
and the changes you had to go through to be here, the witnesses 
in particular. To all of you, thank you very much. It was a 
very good one.
    The process of decolonization of Puerto Rico and the path 
to self-determination is the goal. And the issue for me is full 
disclosure and transparency. The issue for me is the public's 
right to know. The issue for me is that there be a level of a 
public understanding and embrace on the part of the Puerto 
Rican people on the island as to their path toward that self-
determination. And statehood is one of the options, as my 
colleague, Ms. Ocasio-Cortez, said very clearly. But also the 
process for me is to assure that those other important 
prerogatives that any voter, and certainly the people of Puerto 
Rico that have been left behind in Federal policy and Federal 
attention for too long, needs to have. We are going to continue 
to go forward.
    I will work with the Ranking Member to continue a meeting. 
The process goes forward. These two pieces of legislation 
continue to be very much the focal point of what this Committee 
will have to deal with. And the other point I want to make is 
that I am going to follow up with the Department of Justice in 
terms of the prerogatives and the powers of Congress and our 
legislative responsibility in terms of what we can and cannot 
do. There could have been some really clear denunciations about 
you can't go any further than this because of constitutional 
limits and prohibitions.
    I would like to get that opinion. I would like to get that 
pretty clearly as to what the prerogatives are so that that 
argument either continues, is validated, or is off the table. 
Thank you very much, Representative Gonzalez-Colon. Thank you 
so much for your cooperation and for helping put this meeting 
together.

    With that, the meeting is adjourned, and thank you so much.

    [Whereupon, at 4:58 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

                        Statement for the Record
                         Department of Justice
           H.R. 1522, the Puerto Rico Statehood Admission Act

                           Executive Summary

    The Department of Justice supports providing the people of Puerto 
Rico the opportunity to vote on whether to become a state of the Union, 
as H.R. 1522 would do. The Department's concerns with the bill relate 
only to the manner of execution. The Department's primary concerns are 
(1) providing for an orderly transition of the Financial Managements 
and Oversight Board for Puerto Rico that was established by the Puerto 
Rico Oversight, Management, and Economic Stability Act (``PROMESA''), 
Pub. L. No. 114-187, 130 Stat. 549 (2016); and (2) addressing legal 
complications that would ensue from application of certain 
constitutional uniformity doctrines upon Puerto Rico's transition to a 
state. The Department stands ready to assist further in refining the 
legislation to address these and other concerns described in more 
detail below.

                      Section-by-Section Analysis

Section 1 (Short Title)

    The stated purpose of H.R. 1522 is allow the Puerto Rican people to 
choose whether to become a state or remain a territory. The bill itself 
would not admit Puerto Rico as a state; rather, it would direct the 
President to issue a proclamation setting a date on which Puerto Rico 
will become a state if a majority of Puerto Rican voters chooses 
statehood in a territory-wide referendum. The Department would thus 
recommend that the title of the bill be the ``Puerto Rico Statehood 
Determination Act,'' or simply the ``Puerto Rico Statehood Act,'' so as 
not imply that admission of Puerto Rico as a state is a fait accompli.
Section 2 (Findings)

    Subsection (4): It is unclear what section 2(4) means in saying 
that Puerto Rico, unlike Alaska and Hawaii, has not achieved statehood 
``due to anomalies emanating from the 1901 Downes ruling and its 
progeny.'' Although Downes v. Bidwell, 182 U.S. 244 (1901), held that 
Puerto Rico was an unincorporated territory--and therefore not ``surely 
destined for statehood,'' Boumedienne v. Bush, 553 U.S. 753, 757 
(2008)--it did not hold that Puerto Rico's current status as an 
unincorporated territory is immutable.

    Subsection (13): As all of the current inhabited territories of the 
United States (the U.S. Virgin Islands, American Samoa, Guam, and the 
Northern Mariana Islands, in addition to Puerto Rico) are also 
considered unincorporated, we recommend changing ``unlike territories 
that are parts of the United States'' to ``unlike incorporated 
territories in the past.''

    Subsections (15)-(19): We note that the validity of the plebiscites 
identified in these findings is disputed. The Department of Justice has 
previously stated that the ballot propositions in the 2012 and 2017 
plebiscites contained inaccuracies and were potentially misleading and 
that the premise of the 2020 plebiscite--that the people of Puerto Rico 
had conclusively rejected the current territorial status in 2012 and 
2017--was one with which the Department disagreed. See, e.g., Letter 
for Juan Ernesto Davila Rivera, Chairman, Puerto Rico State Elections 
Commission, from Jeffrey A. Rosen, Deputy Attorney General, Re: Request 
of Federal Funds for Puerto Rico Plebiscite at 3 (July 29, 2020). 
Although the Department advised that all available status options were 
required to be included in the ballot for the 2017 plebiscite, we were 
not provided adequate time to review and approve the finalized ballot 
in time for the vote.\1\
---------------------------------------------------------------------------
    \1\ The Department has assumed a role in approving the ballots and 
voter education materials for the recent plebiscites upon Puerto Rico's 
requests for disbursement of funding for a plebiscite under the 
Consolidated Appropriations Act of 2014, Pub. L. No. 113-76, 128 Stat. 
5, 61 (2014).
---------------------------------------------------------------------------
Section 3 (Admission)

    Section 3 provides:

        Subject to the provisions of this Act, and upon issuance of the 
        proclamation required by section 7(c), the Commonwealth of 
        Puerto Rico is hereby declared to be a State of the United 
        States of America, and as such shall be declared admitted into 
        the Union on an equal footing with the other States in all 
        respects.

    The language of section 3 is in some tension with the language of 
section 7(c). According to section 3, Puerto Rico would become a state 
upon ``issuance of the proclamation required by section 7(c).'' Section 
7(c), however, directs the President to issue a proclamation that 
declares the date (no more than 12 months after the Governor's 
certification) on which Puerto Rico would become a state, in order to 
``facilitate a transition process.'' Under section 7(c), therefore, 
Puerto Rico becomes a state upon the date specified in the 
proclamation, not upon the issuance of the proclamation. Section 10, 
providing for termination of all federal and territorial laws 
incompatible with a status of statehood for Puerto Rico under the 
Constitution, similarly is tied to ``the date of statehood admission 
proclaimed by the President under section 7(c).'' We presume that one 
of the purposes of this transition process is to give Congress time to 
adjust federal law to be consistent with Puerto Rico's new status as a 
state (by, for instance, repealing tax and bankruptcy laws unique to 
Puerto Rico that might implicate the uniformity requirements of the 
Constitution, discussed further below). Declaring that Puerto Rico will 
become a state ``upon issuance of the proclamation required by section 
7(c)'' will not afford time for these adjustments.

    The Department therefore recommends that section 3 be revised as 
follows:

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

`Section 4 (Physical Territory)

    The Department has no concerns with this section.
Section 5 (Constitution)

    Section 5 provides:

        The constitution of the State of Puerto Rico shall always be 
        republican in form and shall not be repugnant to the 
        Constitution of the United States and the principles of the 
        Declaration of Independence. The constitution of the 
        Commonwealth of Puerto Rico, as approved by Public Law 82-447 
        and subsequently amended, is hereby found to be republican in 
        form and in conformity with the Constitution of the United 
        States and the principles of the Declaration of Independence, 
        and is hereby accepted, ratified, and confirmed as the 
        constitution of said State.

This provision seems to leave open the possibility of further 
amendments to the Constitution of Puerto Rico that would not have been 
known to Congress or the President at the time this bill is enacted 
into law. The Department recommends that section 5 be revised as 
follows:

        The constitution of the State of Puerto Rico shall always be 
        republican in form and shall not be repugnant to the 
        Constitution of the United States and the principles of the 
        Declaration of Independence. The constitution of the 
        Commonwealth of Puerto Rico, as approved by Public Law 82-447 
        and subsequently amended as of the date of enactment of this 
        statute, is hereby found to be republican in form and in 
        conformity with the Constitution of the United States and the 
        principles of the Declaration of Independence, and is hereby 
        accepted, ratified, and confirmed as the constitution of said 
        State.
Section 6 (Certification by President)

    Section 6 provides:

        Upon enactment of this Act, the President of the United States 
        shall certify such fact to the Governor of Puerto Rico. 
        Thereupon the Governor shall, within 30 days after receipt of 
        the official notification of such approval, issue a 
        proclamation for the election of Senators and Representatives 
        in Congress.

This language could be read to imply that Puerto Rico will be entitled 
to Senators and Representatives in Congress as soon as the bill is 
enacted, instead of on the date set by the President in section 7(c) 
for Puerto Rico's admission as a state. To avoid that implication, the 
Department recommends that section 6 be revised as follows:

        Upon enactment of this Act, the President of the United States 
        shall certify such fact to the Governor of Puerto Rico. 
        Thereupon the Governor shall, within 30 days after receipt of 
        the official notification of such approval, issue a 
        proclamation for the election of Senators and Representatives 
        to serve in Congress upon admission of Puerto Rico as a State.

Section 7 (Ratification Vote)

    Subsection (a) (Ratification of Proposition): Subsection (a) 
prescribes the method by which the Puerto Rican people may vote to 
approve making Puerto Rico into a state. It requires a ballot with the 
following question:

        Shall Puerto Rico immediately be admitted into the Union as a 
        State, in accordance with terms prescribed in the Act of 
        Congress approved [date of approval of this Act]?       Yes 
        ____        No ____ .

Because this language incorporates by reference the terms of this bill, 
including the territorial bounds of the new state (section 4) and other 
legal effects (sections 9 and 10), the Department believes it is 
constitutionally adequate to provide the voters of Puerto Rico with 
clear notice of what they would be approving. There is some tension, 
however, between voting that Puerto Rico be ``immediately'' admitted as 
a state and voting that Puerto Rico be admitted ``in accordance with 
terms prescribed in the Act of Congress,'' since that Act provides for 
the President to declare a later date on which Puerto Rico would be 
admitted. We recommend deleting the word ``immediately.''

    It should also be noted that the prescribed ballots for Alaska and 
Hawaii statehood included some additional detail about the legal 
effects of statehood that might have prompted voters to inspect the 
acts of Congress more closely. See Hawaii Statehood Act, Pub. L. No. 
86-3, Sec. 7(b), 73 Stat. 4, 7 (1959) (``(2) The boundaries of the 
State of Hawaii shall be as prescribed in the Act of Congress approved 
[on date of enactment], and all claims of this State to any areas of 
land or sea outside the boundaries so prescribed are hereby irrevocably 
relinquished to the United States. (3) All provisions of the Act of 
Congress approved [on date of enactment] reserving rights orto the 
United States, as well as those prescribing the terms or conditions of 
the grants of lands or other property therein made to the State of 
Hawaii[,] are consented to fully by said State and its people.''); 
Alaska Statehood Act, Pub. L. No. 85-508, Sec. 8(b), 72 Stat. 339, 343 
(1958) (``(2) The boundaries of the State of Alaska shall be as 
prescribed in the Act of Congress approved [on date of enactment] and 
all claims of this State to any areas of land or sea outside the 
boundaries so prescribed are hereby irrevocably relinquished to the 
United States. (3) All provisions of the Act of Congress approved [on 
date of enactment] reserving rights orto the United States, as well as 
those prescribing the terms or conditions of the grants of lands or 
other property therein made to the State of Alaska, are consented to 
fully by said State and its people.''). Congress might consider 
instructing Puerto Rico to include similar informative language on the 
ballot, which might include language making clear the effect of 
statehood on any Federal laws found to be at odds with constitutional 
uniformity requirements, discussed further below.

    Subsection (b) (Certified Results): Subsection (b) prescribes a 
process by which the Governor of Puerto Rico would certify to the 
President and to Congress the results of the voter referendum in 
subsection (a). The Department does not recommend changes to this 
provision.
    Subsection (c) (Presidential Proclamation): Subsection (c) would 
direct the President, upon receiving the Governor's certification in 
subsection (b), to issue a proclamation ``declaring . . . the date 
Puerto Rico is admitted as a State of the Union on an equal footing 
with all other States.'' In this proclamation, the President would 
certify that the people of Puerto Rico have voted in favor of statehood 
(based on a certification by the Governor of Puerto Rico to that fact) 
and would designate a date on which Puerto Rico would become a state. 
The President could declare that Puerto Rico is to be admitted as a 
state as much as 12 months after the certification of results by the 
Governor, ``in order to facilitate a transition process.'' Confusingly, 
however, the final sentence of subsection (c) provides: ``Upon issuance 
of the proclamation by the President, Puerto Rico shall be deemed 
admitted into the Union as a State.'' This contradiction is similar to 
the one noted above in section 3. Assuming that Congress intends for 
the transition process to be effective, the Department recommends 
deleting the final sentence in section 7(c).
Section 8 (Election of Officers)

    Section 8 provides that, upon issuing the proclamation required by 
section 6, the Governor of Puerto Rico shall institute a process for 
the voters of Puerto Rico to elect Senators and Representatives. 
``Puerto Rico shall be entitled to the same number of Representatives 
as the State whose most recent Census population was closest to, but 
less than, that of Puerto Rico,'' H.R. 1522, Sec. 8(2), and that number 
of Representatives would be added temporarily to the current total of 
435 Representatives in the House, until the next apportionment, at 
which time the number of Representatives in the House would revert to 
435. ``Thereafter, the State of Puerto Rico shall be entitled to such 
number of Representatives as provided for by applicable law based on 
the next reapportionment.'' Id.

    According to the Census Bureau's recently issued population counts 
and apportionments based on the 2020 Census, Puerto Rico's population 
in 2020 was 3,285,874. Utah was the State with the closest population 
that was less than Puerto Rico's, with a population of 3,275,252 and 
four Representatives. As a result, under section 8 Puerto Rico would be 
temporarily entitled to four Representatives and the House would 
increase temporarily to 439 members. This arrangement would last until 
the next apportionment following the next decennial census, likely in 
2031.

    The temporary designation of Representatives for Puerto Rico based 
on its population count in the most recent census would comply with the 
constitutional requirements for apportionment of Representatives. Other 
than stating that ``Representatives shall be apportioned among the 
several States according to their respective numbers, counting the 
whole number of persons in each State excluding Indians not taxed,'' 
U.S. Const. amend. XIV, Sec. 2 (Apportionment Clause) (emphasis added), 
the Constitution does not prescribe a precise formula by which 
population is to be used in determining how many Representatives each 
state will receive. Exact apportionment ``according to [the states'] 
respective numbers'' is not possible, since it would yield a non-whole 
number of Representatives for each state, and the Apportionment Clause 
necessarily accords Congress some flexibility in devising a formula to 
distribute Representatives among the states. Congress has used a 
variety of methods over time to determine the number of Representatives 
for each state, settling on the current method of equal proportions in 
1941. See Royce Crocker, Cong. Research Serv., The U.S. House of 
Representatives Apportionment Formula in Theory and Practice, No. 
R41357, at 1-2 (Aug. 4, 2013); Pub. L. No. 77-291, Sec. 1, 55 Stat. 
761, 762 (1941), codified as amended at 2 U.S.C. Sec. 2a. Although the 
apportionment of Representatives to Puerto Rico equivalent to the 
number apportioned to the state with the closest, but lower, population 
than Puerto Rico deviates slightly from simple application of the equal 
proportions approach, it appears well within the range of discretion 
accorded to Congress by the Apportionment Clause and is consistent with 
historical practice when a territory is newly admitted as a state. For 
example, Hawaii received one Representative following its admission to 
statehood, and its apportionment then rose to two Representatives under 
the equal proportions approach after the 1960 census. See Cong. 
Research Serv., Puerto Rican Statehood: Effects on House Apportionment, 
No. R41113, at 2, 5 (Mar. 16, 2011); Hawaii Statehood Act, Pub. L. No. 
86-3, Sec. 8, 73 Stat. 4, 8 (1959).

    In addition, temporarily increasing the number of Representatives 
to 439 would come nowhere close to contravening the constitutional 
requirement that ``[t]he number of Representatives shall not exceed one 
for every Thirty Thousand.'' U.S. Const. art. I, Sec. 2, cl. 3. Here, 
too, this approach accords with historical practice. With the admission 
of Alaska and Hawaii, each of which received one Representative, the 
House of Representatives increased temporarily from 435 to 437 members 
until the next apportionment following the 1960 census. At that time, 
the House reverted to 435 members and the newly admitted states 
received Representatives along with the other 48 states in accordance 
with the method of equal proportions.
Section 9 (Continuity of Laws, Government, and Obligations)

    Subsection (1) (Continuity of Laws): Subsection (1) would provide 
that laws both of the United States and of Puerto Rico shall remain in 
effect following Puerto Rico's admission as a state, if they are ``not 
in conflict with this Act.'' Section 10, discussed next, would provide 
for the repeal of any law ``incompatible with the political and legal 
status of statehood under the Constitution.'' To make these provisions 
parallel, the Department recommends that subsection (1) be modified to 
provide that the laws of the United States and of Puerto Rico shall 
remain in effect if they are ``not in conflict with this Act or with 
the Constitution.''

    The Department additionally recommends that Congress consider 
providing a more tailored solution for continuity in the operations of 
the Financial Managements and Oversight Board for Puerto Rico 
(``Oversight Board''). The Oversight Board was established by the 
Puerto Rico Oversight, Management, and Economic Stability Act 
(``PROMESA''), Pub. L. No. 114-187, Sec. 101, 130 Stat. 549, 553 
(2016), codified at 48 U.S.C. Sec. 2121, to approve plans for 
restructuring Puerto Rico's debt as well as Puerto Rico's budget and 
fiscal plans, id. Sec. Sec. 201-212, codified at 48 U.S.C. 
Sec. Sec. 2141-2152. PROMESA created the Oversight Board ``as an entity 
within the territorial government for which it is established,'' 
pursuant to Congress's authority under the Territory Clause, Article 
IV, Section 3. Pub. L. No. 114-187, Sec. 101(b), (c). The Supreme Court 
recently held that the members of the Oversight Board were local or 
territorial officers because they have ``primarily local duties.'' Fin. 
Oversight & Management Bd. for P.R. v. Aurelius Inv., LLC, 140 S. Ct. 
1649, 1663 (2020).

    Subsection (2) (Continuity of Government): Subsection (2) would 
provide that ``individuals holding legislative, executive, and judicial 
offices of Puerto Rico shall continue to discharge the duties of their 
respective offices when Puerto Rico becomes a State.'' As the Oversight 
Board is statutorily denominated part of the territorial government, 
and the Board members are territorial officers, the Oversight Board 
would appear to become part of the new state government if Puerto Rico 
becomes a state. This would accord with historical practice, although 
the statehood admission acts for Alaska and Hawaii more clearly 
provided that, upon admission as a state, ``officers not required to be 
elected . . . shall be selected or continued in office as provided by 
the constitution and laws of said State'' and would ``exercise all the 
functions pertaining to their offices'' in, under, or by the authority 
of the government of said State. Alaska Statehood Act, Pub. L. No. 85-
508, Sec. 8(c), 72 Stat. 339, 344 (1958); Hawaii Statehood Act, Pub. L. 
No. 86-3, Sec. 7(c), 73 Stat. 4, 8 (1959).

    One complication, however, is that PROMESA provides that the seven 
members of the Oversight Board will be appointed by the President and 
sets out an elaborate structure whereby the President can select from 
congressionally provided lists, thereby avoiding the need for Senate 
confirmation, or can appoint ``off-list'' in which case Senate advice 
and consent is required. 48 U.S.C. Sec. 2121(e)(2). It is unclear 
whether or how this appointment structure would transfer over to the 
state level upon Puerto Rico's becoming a state. Questions about the 
Oversight Board's composition might undercut its capacity to operate.

    The Department thus recommends that Congress expressly provide in 
H.R. 1522, or in separate legislation enacted during the transition 
period effected by the President's proclamation of a date for admission 
of Puerto Rico, for an orderly transition of the Oversight Board into 
an entity of the new State of Puerto Rico. Alternatively, of course, 
Congress may decide that the Oversight Board should terminate 
operations if Puerto Rico becomes a state, in which case the Department 
would also recommend express legislation to that effect.
Section 10 (Repeals)

    Section 10 provides that ``[a]ll Federal . . . laws, rules, and 
regulations, or parts of Federal . . . laws, rules, and regulations, 
applicable to Puerto Rico that are incompatible with the political and 
legal status of statehood under the Constitution and the provisions of 
this Act are repealed and terminated as of the date of statehood 
admission proclaimed by the President under section 7(c) of this Act.'' 
This abrupt transition oversimplifies what it will take to admit Puerto 
Rico on an equal footing with other states. Some additional legislation 
will likely be required to address instances where federal law 
regarding Puerto Rico is not compatible ``with the political and legal 
status of statehood.''

    Under current federal tax and bankruptcy law, for example, Puerto 
Rico is treated differently than states. See, e.g., 26 U.S.C. Sec. 933 
(providing tax credit to ``a bona fide resident of Puerto Rico'' for 
``income derived from sources within Puerto Rico''); id. Sec. 7653(b) 
(``Articles, goods, wares, or merchandise going into Puerto Rico, the 
Virgin Islands, Guam, and American Samoa from the United States shall 
be exempted from the payment of any tax imposed by the internal revenue 
laws of the United States.''); PROMESA, Pub. L. No. 114-187, 130 Stat. 
549 (2016), codified at 48 U.S.C. ch. 20 (providing special process for 
restructuring the debt of Puerto Rico). The Constitution meanwhile 
requires that all ``Duties, Imposts, and Excises shall be uniform 
throughout the United States,'' U.S. Const. art. I, Sec. 8, cl. 1, and 
authorizes Congress to make ``uniform Laws on the subject of 
Bankruptcies throughout the United States,'' id. cl. 4; see also id. 
Sec. 9, cl. 6 (``No Preference shall be given by any Regulation of 
Commerce or Revenue to the Ports of one State over those of another; 
nor shall Vessels bound to, or from, one State be obliged to enter, 
clear, or pay Duties to another.''). These uniformity requirements have 
not applied to Puerto Rico given its status as an unincorporated 
territory, Downes v. Bidwell, 182 U.S. 244, 282-84, 287 (1901); id. at 
291, 339-40 (White, J., concurring, joined by Shiras and McKenna, JJ.), 
but would become applicable upon Puerto Rico's becoming a state.

    Presumably, one reason why the Act allows up to a year between a 
vote by Puerto Rico in favor of statehood and Puerto Rico's admission 
as a state is to provide a window within which Congress can address 
this conflict between current law and uniformity requirements, as well 
as any other issues implicated by Puerto Rico's transition to 
statehood. It is possible, however, that Puerto Rico would become an 
incorporated territory, and thus fully subject to the Constitution and 
the uniformity requirements of Article I, even before the date the 
President designates for Puerto Rico to be admitted as a state. 
Although the case law on when a territory is deemed to be incorporated 
is not ``altogether harmonious,'' Downes, 182 U.S. at 258, one 
formulation the Supreme Court has frequently used is that an 
incorporated territory is one that is ``surely destined for 
statehood.'' Boumediene, 553 U.S. at 757; see also United States v. 
Verdugo-Urquidez, 494 U.S. 259, 268 (1990) (an ``unincorporated 
territory'' is one ``not clearly destined for statehood''). Under H.R. 
1522, Puerto Rico would appear to be ``surely destined for statehood'' 
when the President of the State Elections Commission for Puerto Rico 
certifies under section 7(b) that a majority of Puerto Rican voters 
have cast ballots in favor of statehood. At that point, section 7(c) 
requires the President to proclaim the date on which Puerto Rico would 
succeed to statehood.

    Attorney General Thornburgh took a similar view in 1991, regarding 
a bill that would have authorized a referendum on the legal status of 
Puerto Rico accompanied by a non-binding ``commitment by Congress to 
implement the status receiving a majority.'' S. 244, Sec. 101(e)(2). 
The bill contemplated that the implementing legislation would include a 
five-year transition period to phase out the special tax treatments for 
Puerto Rico that would have come into conflict with the Uniformity 
Clause. Attorney General Thornburgh testified that Puerto Rico ``would 
become subject to the requirements of the [U]niformity [C]lause as soon 
as Congress passe[d] implementing legislation to make Puerto Rico a 
State,'' because at that point in time it would have to be considered 
``destined for statehood.'' Political Status of Puerto Rico: Hearings 
on S. 244 Before the S. Comm. on Energy and Natural Resources, 102d 
Cong. at 189-90 (Feb. 7, 1991) (``1991 Hearings'').

    We nevertheless believe that Congress should be able to enact 
legislation providing for a delayed or gradual application of the 
Constitution's uniformity requirements, including the potential delay 
of up to a year before these requirements apply envisioned by the 
combination of sections 7(c) and 10. Some case law suggests that 
incorporation rests on the intent of Congress as expressed in statutes 
(or on the intent of the President and Senate, as expressed in 
treaties), and not just on an independent judicial assessment of the 
likelihood that a particular territory will eventually become a state. 
See Balzac v. People of Porto Rico, 258 U.S. 298, 309 (1922) (``[I]n 
the absence of other and countervailing evidence, a law of Congress or 
a provision in a treaty acquiring territory, declaring an intention to 
confer political and civil rights on the inhabitants of the new lands 
as American citizens, may be properly interpreted to mean an 
incorporation of it into the Union[.]''); see also Rassmussen v. United 
States, 197 U.S. 516, 523 (1905) (``That Congress, shortly following 
the adoption of the treaty with Russia, clearly contemplated the 
incorporation of Alaska into the United States as a part thereof, we 
think plainly results from the act[s] . . . concerning internal revenue 
taxation, . . . extending the laws of the United States relating to 
customs, commerce and navigation over Alaska and establishing a 
collection district therein.'') In Balzac, the Court reasoned that, 
``[h]ad Congress intended to take the important step of changing the 
treaty status of Porto Rico by incorporating it into the Union, it is 
reasonable to suppose that it would have done so by the plain 
declaration, and would not have left it to mere inference.'' 258 U.S. 
at 306; see also id. (``[I]ncorporation is not to be assumed without 
express declaration, or an implication so strong as to exclude any 
other view.''). The Supreme Court has also highlighted the role of 
``practical considerations'' in determining which constitutional 
provisions apply to a given territory, noting ``a common thread'' in 
the relevant case law: ``the idea that questions of extraterritoriality 
turn on objective factors and practical concerns, not formalism.'' 
Boumediene, 553 U.S. at 757-64.

    H.R. 1522 does not contain an express declaration of intent to make 
Puerto Rico an ``incorporated'' territory immediately upon 
certification of a pro-statehood vote. To the contrary, H.R. 1522 seems 
designed to postpone incorporation until the effective date in the 
President's declaration, at which time Puerto Rico would skip past the 
intermediate step of being considered an incorporated territory and be 
admitted directly into the Union as a state. Moreover, the immediate 
disruption that would result were Puerto Rico to quickly become subject 
to the Constitution's uniformity provisions should count strongly 
against such a result. To reduce the possibility of immediate 
incorporation even further, however, the Department recommends that 
Congress state expressly that Puerto Rico shall remain unincorporated 
until its admission as a state under section 3.

    Even if the uniformity requirements of Article I were to become 
immediately applicable upon certification of a pro-statehood vote, we 
think that legislation providing for a gradual transition to tax and 
bankruptcy uniformity for Puerto Rico would be constitutional. In 
United States v. Ptasynski, 462 U.S. 74 (1983), the Court upheld a tax 
exemption for crude oil produced in a geographically defined area that 
encompassed Alaska and ``certain offshore territorial waters'' that 
were ``beyond the limits of any State'' against a uniformity challenge. 
Id. at 78. Previously, the Court had made clear that the Uniformity 
Clause ``does not require Congress to devise a tax that falls equally 
or proportionately on each State'' and thus had confirmed Congress's 
authority to draw ``distinctions between similar classes'' in 
``defining the subject of a tax,'' as long as the tax applied evenly 
``wherever the classification is found.'' Id. at 82. The Court appeared 
to regard the geographic classification in Ptasynski as a logical 
extension of this principle, in view of credible evidence amassed by 
Congress of ``climatic and geographic conditions'' unique to the 
covered geographic region. Id. at 78; see id. at 78-79 & nn. 6-7 
(discussing evidence).

    Although the tax exemptions for Puerto Rico in 26 U.S.C. 
Sec. Sec. 933 and 7653 are arguably distinct in being expressly ``drawn 
on state political lines,'' id. at 78, the reasoning of Ptasynski 
suggests that a geographic classification based on state boundaries 
does not violate the Uniformity Clause if Congress can demonstrate that 
the classification arises from genuine differences in economic 
circumstance that fall incidentally along state lines. In the case of 
Puerto Rico, the objective of maintaining the tax preferences for a 
short transition period would be to ameliorate the economic dislocation 
that would result from a sudden loss of pre-existing tax preferences 
accompanying the switch from commonwealth status to statehood. Attorney 
General Thornburgh testified to similar effect in 1991, stating that 
``the uniformity clause permits tax transition provisions, provided 
they are narrowly tailored, to prevent specific and identified problems 
of economic dislocation that Congress concludes would otherwise result 
from the transition from a non-incorporated territorial status to 
either an incorporated territorial or State status.'' 1991 Hearings at 
190; see also Puerto Rico's Political Status: Hearings on S. 712 Before 
the S. Comm. on Finance, 101st Cong. at 7 (1989) (``1989 Hearings'') 
(testimony of Shirley D. Peterson, Assistant Attorney General for the 
Tax Division of the Department, that the Uniformity Clause did not 
``disable Congress from fashioning reasonable and necessary 
transitional measures'').

    To the best of our knowledge, no court has addressed the extent to 
which Congress may provide for transitional disuniformity in the tax 
treatment of an incoming state, so any attempt to suggest an outer 
limit on how long the transition period could last would be speculative 
at best. In 1989, the Department testified that a three-year transition 
period to phase out special tax treatment was permissible, see 1989 
Hearings at 7 (testimony of Peterson); in 1991, the Department 
intimated that five years might be too much, see 1991 Hearings at 189 
(testimony of Thornburgh). Notably, at least one statute, retained from 
the period before Alaska and Hawaii were admitted as states, continues 
to single out portions of the routes to and from those states for a 
reduced tax on air transportation. See 26 U.S.C. Sec. 4262(b)(2), 
(c)(1); 26 C.F.R. Sec. 49.4262-2(b). It does not appear that this 
differential treatment has been challenged constitutionally, and this 
treatment may be justified by a uniform principle of reducing the 
incidence of the tax on routes of longer distances. By similar logic, 
Congress might be able to cite economic circumstances unique to Puerto 
Rico--perhaps, for example, patterns of investment undertaken in 
reliance on Puerto Rico's disuniform tax treatment--as a basis for a 
continuation or longer phase-out of tax statutes that treat Puerto Rico 
differently.

    We believe a transition period should also be permissible for the 
special bankruptcy provisions for Puerto Rico in PROMESA. In Railway 
Labor Executives Ass'n v. Gibbons, 455 U.S. 457 (1982) (``Rock 
Island''), the Court struck down on uniformity grounds a federal law 
designed solely for the bankruptcy of the Rock Island Railroad, 
reasoning that ``[t]o survive scrutiny under the Bankruptcy Clause, a 
law must at least apply uniformly to a defined class of debtors,'' and 
``a bankruptcy law . . . confined as it is to the affairs of one named 
debtor can hardly be considered uniform.'' Id. at 473. Yet the Court 
also stated, similar to Ptasyski, that the uniformity requirement `` 
`does not deny Congress power to take into account differences that 
exist between different parts of the country, and to fashion 
legislation to resolve geographically isolated problems.' '' Id. at 469 
(quoting Regional Railroad Reorganization Act Cases, 419 U.S. 102, 159 
(1974)). Arguably, legislation limited to Puerto Rico should be viewed 
not as legislation directed at Puerto Rico as a specific debtor, but at 
Puerto Rico as a specific region for which it is necessary to resolve 
``geographically isolated problems.'' In advising on the 
constitutionality of PROMESA before it was enacted, we had considerable 
doubts that this argument would prevail. But we believe that such an 
argument would be more likely to succeed as a justification for 
disuniformity during a transition period, given that Puerto Rico's 
change in status to a state is a factor distinct from its status as a 
debtor.

    More broadly, we think a good argument can be made that PROMESA 
would not violate the uniformity requirements of the Bankruptcy Clause 
at all were Puerto Rico to become a state. PROMESA was enacted under 
the Territories Clause and its bankruptcy provisions would attach to 
any relevant debt before Puerto Rico becomes a state and uniformity 
requirements applied. Congress could also determine that it is 
``necessary and proper for carrying into Execution'' its Article IV to 
fashion a broader solution for territories entering the Union, thereby 
avoiding the pitfall of ``a bankruptcy law . . . confined as it is to 
the affairs of one named debtor.'' Rock Island, 455 U.S. at 473. ``As 
stated by the Supreme Court in the Railroad Rail Reorganization 
Cases,'' the Bankruptcy Clause `` `was not intended to hobble Congress 
by forcing it into nationwide enactments to deal with conditions 
calling for a remedy only in certain regions.' '' 1989 Hearings at 8 
(quoting 419 U.S. at 159) (testimony of Peterson).

    In short, regardless of whether Puerto Rico becomes subject to the 
uniformity requirements in Article I at the time a pro-statehood vote 
is certified or on the date set by the President for admission to 
statehood, we think there will be opportunity for Congress to enact 
further legislation providing for a phase-out of those tax and 
bankruptcy laws that single out Puerto Rico for special treatment. We 
recommend, however, that Congress include findings in any such bill, 
ideally supported by expert testimony in public hearings, explaining 
why a phase-out period is necessary to avoid specific economic problems 
unique to Puerto Rico.
Section 11 (Severability)

    The Department has no concerns with this section.

                                 ______
                                 
                        Statement for the Record
                         Department of Justice
       H.R. 2070, the Puerto Rico Self-Determination Act of 2021

                           Executive Summary

    The Department of Justice agrees that the people of Puerto Rico 
should be allowed to choose whether to become a nation independent of 
the United States, become a state within the United States, or retain 
the current status of a territory. Insofar as H.R. 2070 would 
facilitate a choice among those three options, which we believe are the 
three constitutional options available to Puerto Rico, the Department 
supports the bill. In the section-by-section analysis, the Department 
explains the basis for its view more fully and advises of its comments 
on certain sections of the bill.

                      Section-by-Section Analysis

Section 1 (Short Title)

    The Department has no comment on this section.
Section 2 (Findings)

    The Department has no comment on this section.
Section 3 (Puerto Rico Status Convention)

    Section 3(a) provides that the Puerto Rico legislature will have 
``inherent authority'' to call a status convention ``for the purpose of 
proposing to the people of Puerto Rico self-determination options.'' 
The convention, consisting of delegates elected by Puerto Rico voters, 
would be tasked with ``debat[ing] and draft[ing] definitions on self-
determination options for Puerto Rico, which shall be outside the 
Territorial Clause of the United States Constitution,'' and presenting 
those options, along with at least one transition plan for each option, 
to Puerto Rico voters in a referendum. H.R. 2070, Sec. 3(c). Once 
assembled, the convention would be ``dissolved only when the United 
States ratifies the self-determination option presented to Congress by 
the status convention as selected by the people of Puerto Rico in the 
referendum.'' Id. Sec. 3(a)(1).

    The Department has three comments on this section.

    1. The Department's first comment relates to the reference to the 
Puerto Rico legislature's having ``inherent'' authority to call a 
status convention. H.R. 2070, Sec. 3(a). We surmise that this 
description of the nature of Puerto Rico's authority is intended to 
acknowledge the Commonwealth's significant autonomy and powers of self-
government. We note, however, that the use of the word ``inherent'' may 
create confusion as to the ultimate source of the Puerto Rico 
government's authority. As the Supreme Court recently noted, even 
though ``Puerto Rico today has a distinctive, indeed exceptional, 
status as a self-governing Commonwealth,'' the ``ultimate source'' of 
Puerto Rico law is an enactment of the U.S. Congress. Puerto Rico v. 
Sanchez Valle, 136 S. Ct. 1863, 1874 (2016) (concluding that Puerto 
Rico and the United States are not separate sovereigns for purposes of 
the Double Jeopardy Clause). Describing Puerto Rico's authority as 
``inherent''--that is, ``existing . . . as a permanent attribute or 
quality . . . indwelling, intrinsic,'' OED Online (Mar. 2021)--when in 
fact that authority derives from Congress, is legally inaccurate. The 
Department does not object to some sort of acknowledgment of Puerto 
Rico's self-governance, but to avoid confusion as to the source of the 
Puerto Rico legislature's authority, we recommend striking the word 
``inherent.''

    2. Second, the Department notes that section 3 appears to be in 
tension with the executive branch's long-standing ``policy . . . to 
enable Puerto Ricans to determine their preference among options for 
the islands' future status that are not incompatible with the 
Constitution and basic laws and policies of the United States'' and to 
``consider and develop positions on proposals, without preference among 
the options, for the Commonwealth's future status.'' Exec. Order No. 
13183 (Dec. 23, 2000). The tension results because of the combination 
of several provisions: section 3(a)(1), which provides that the 
convention would be ``dissolved only when the United States ratifies 
the self-determination option presented to Congress by the status 
convention as selected by the people of Puerto Rico'' pursuant to the 
referendum authorized in section 5; section 3(c)(1), which expressly 
instructs the status convention to develop options for Puerto Rico that 
are ``outside the Territorial Clause of the United States 
Constitution''; and section 3(c)(3), which provides that the convention 
``shall . . . select and present to the people of Puerto Rico the self-
determination options that will be included in the referendum under 
section 5.'' See also Sec. 5(a)(1)(B) (``A referendum vote by the 
people of Puerto Rico . . . may consist of choices each composed of a 
self-determination definition and accompanying transition plan as 
presented by the delegates under section 3'').

    Taken together, these provisions appear to eliminate the current 
territorial status as an available choice for the people of Puerto Rico 
under the procedures in the bill. Moreover, these provisions may be 
read to imply that the United States has determined that the people of 
Puerto Rico may not decide to retain the island's current territorial 
status, departing from the executive branch's long-standing view that 
``Puerto Ricans should determine for themselves the future status of 
the Island'' and the federal government's responsibility is to 
facilitate ``the desire of the people of Puerto Rico to change status 
or to establish, for some period of time, that they have chosen no 
change in status.'' Report by the President's Task Force on Puerto 
Rico's Status at 23-24 (Mar. 2011) (``2011 Task Force Report''); see 
also Presidential Memorandum of December 23, 2000 (``Resolution of 
Puerto Rico's Status'') (noting that ``[s]uccessive Presidents . . . 
have supported the people of Puerto Rico in determining their status 
preference from among options that are not incompatible with the 
Constitution and basic laws and policies of the United States'' and 
concluding that the executive branch has ``the responsibility to help 
Puerto Ricans obtain the necessary transitional legislation toward a 
new status, if chosen''). One way to address these concerns is to 
remove the phrase ``which shall be outside the Territorial Clause of 
the United States Constitution'' from section 3(c)(1).

    3. Finally, the Department notes that section 3 does not specify 
that the only constitutionally permissible status options available to 
the status convention--and thus the only options that Congress could 
subsequently adopt by joint resolution, see H.R. 2070, Sec. 6--are 
statehood, independence, or Puerto Rico's current status as a 
territory. Independence is a general term that refers to the 
possibilities both of full independence from the United States and of a 
compact of free association, in which Puerto Rico would become a 
sovereign nation but would continue to have close ties to the United 
States under the terms of a mutually agreed-upon compact. See 2011 Task 
Force Report at 25. Were Puerto Rico to choose a compact of free 
association, it would occupy a status similar to the Republic of the 
Marshall Islands, the Federated States of Micronesia, and the Republic 
of Palau. Id.

    As has been the Department's consistent view since 1991, we 
continue to believe that the Constitution limits Puerto Rico to three 
constitutional choices: the current territorial status, statehood, or 
independence. The District of Columbia aside, land under United States 
sovereignty must be either a state or a territory; and if land is ``not 
included in any State,'' it ``must necessarily be governed by or under 
the authority of Congress.'' First Nat'l Bank v. Yankton County, 101 
U.S. 129, 133 (1879). Congress may, in its administration of non-state 
land, afford such a territory considerable powers of self-government, 
as it has already done with Puerto Rico. See Puerto Rican Federal 
Relations Act, Pub. L. No. 81-600, 64 Stat. 319 (1950), codified at 48 
U.S.C. Sec. Sec. 731b-731e. But Congress cannot constitutionally 
relinquish its ability to legislate with respect to that territory 
under the Territories Clause unless it either admits the territory as a 
state, U.S. Const. art. IV, Sec. 3, cl. 1, or enacts legislation making 
the territory independent and no longer subject to the jurisdiction of 
the United States. See Mutual Consent Provisions in the Guam 
Commonwealth Legislation, Op. O.L.C. Supp. ____, at *5 (July 28, 1994) 
(``Mutual Consent'') (``The requirement that the delegation of 
governmental authority to the non-state areas be subject to federal 
supremacy and federal supervision means that such delegation is 
necessarily subject to the right of Congress to revise, alter, or 
revoke the authority granted.'') (citing Dist. of Columbia v. Thompson 
Co., 346 U.S. 100, 109 (1953), among other cases). In other words, 
there is no constitutionally permissible status ``outside of the 
Territorial Clause'' other than statehood or independence (including 
free-association agreements).

    Our view on this issue also rests on the general rule that one 
Congress cannot irrevocably bind subsequent Congresses. See Marbury v. 
Madison, 5 U.S. (1 Cranch) 137, 177 (1803) (Marshall, C.J.) (noting 
that legislative acts are ``alterable when the legislature shall please 
to alter [them]''). Although this general rule is subject to 
limitations imposed by the Due Process Clause of the Fifth Amendment, 
those limitations do not apply to protect Puerto Rico's political 
status from congressional revision if Puerto Rico remains a territory. 
Mutual Consent at *8-9. Territories, like states and their political 
subdivisions, are not ``persons'' for purposes of due process. Id. at 
*6-7. And a particular political relationship with the national 
government is not the type of vested property right that due process 
protects. Id. at *8-9 (citing Bowen v. Public Agencies Opposed to 
Social Security Entrapment, 477 U.S. 41, 55 (1986), among other cases).

    In the past, Congress has purported to enter into covenants with 
territories that would be alterable only with mutual consent. See, 
e.g., Pub. L. No. 24-241, 90 Stat. 263, 264 (1976) (approving the 
``Covenant to Establish a Commonwealth of the Northern Mariana Islands 
in Political Union with the United States of America,'' section 105 of 
which provides that certain provisions of the Covenant ``may be 
modified only with the consent of the Government of the United States 
and the Government of the Northern Mariana Islands''); Act of Aug. 7, 
1789, ch. 8, 1 Stat. 50, 52 n.a (maintaining the Northwest Ordinance, 
including a prefatory clause providing that the articles of the compact 
would ``forever remain unalterable, unless by common consent''); Mutual 
Consent at *2 n.2. But in view of the foregoing principles, we believe 
that these provisions cannot be binding--a view to which the Department 
has long subscribed. See Mutual Consent at *13.

    We note, in addition, that the principle of a current Congress's 
not being able to bind future Congresses would also apply to any 
compact of free association entered into with Puerto Rico if Puerto 
Rico were to choose that type of independence. As a matter of our 
domestic law, such a compact would necessarily be revocable or subject 
to revision by a subsequent act of Congress. See Medellin v. Texas, 552 
U.S. 491, 509 n.5 (2008) (``[A] later-in-time federal statute 
supersedes inconsistent treaty provisions.'').
Section 4 (Congressional Bilateral Negotiating Commission)

    Section 4(a) would establish a ``Congressional Bilateral 
Negotiating Commission . . . to provide advice and consultation to 
delegates elected'' to the status convention established under section 
3. H.R. 2070, Sec. 4(a). It would be composed of a number of members of 
Congress, including the chairs and ranking members of the relevant 
congressional committees, members selected by congressional leadership, 
and the Resident Commissioner of Puerto Rico. Id. Sec. 4(b)(1). In 
addition, the Commission would include ``a member from the Department 
of Justice'' and ``a member from the Department of the Interior,'' both 
``with the consent of the Speaker of the House of Representatives and 
majority leader of the Senate.'' Id. Sec. 4(b)(1)(H), (I).

    The Commission would seem to be a legislative branch entity that 
reports only to congressional leadership and is limited to purely 
advisory functions, such as ``develop[ing] recommendations regarding 
self-determination options on constitutional issues and policies'' and 
``provid[ing] technical assistance and constitutional advice to the 
delegates during the Puerto Rico status convention.'' Id. Sec. 4(c). 
Consistent with separation of powers constraints, we do not understand 
that policy or legal recommendations issued by the Commission would 
bind the Executive Branch. See, e.g., Metro. Wash. Airports Auth. v. 
Citizens for the Abatement of Aircraft Noise, Inc., 501 U.S. 252, 276 
(1991) (``If the power is executive, the Constitution does not permit 
an agent of Congress to exercise it.''); Buckley v. Valeo, 424 U.S. 1, 
139 (1976) (per curiam) (holding that congressional appointees may 
``perform duties only in aid of those functions that Congress may carry 
out by itself, or in an area sufficiently removed from the 
administration and enforcement of the public law'').

    Finally, we note that the name of the Commission, the 
``Congressional Bilateral Negotiating Commission,'' does not seem to be 
an apt description of the Commission's advisory duties. The Department 
does not read the duties of the Commission to include negotiations with 
the convention and would accordingly suggest that the name be modified 
to more accurately characterize the Commission's role--e.g., the 
Congressional Advisory Commission.
Section 5 (Puerto Rico Status Referendum; Education Campaign)

    The Department has identified no legal concerns with this 
provision, which sets out the structure for a referendum vote on the 
status options developed by the convention under section 3. We note, 
however, that in the past Congress has sought the Department of 
Justice's involvement in ensuring that the options presented to the 
Puerto Rican people in a plebiscite are constitutional. See H.R. Rep. 
No. 113-171, at 54 (2014). Were the legislation to provide for the 
Department of Justice to have a certification role here, it would help 
ensure that any status option developed by the convention and selected 
by the people of Puerto Rico would be constitutional and thus could be 
ratified by Congress.
Section 6 (Congressional Deliberation and Enacting Resolution)

    Section 6 would provide that ``[i]f the referendum under this Act 
is approved by the people of Puerto Rico, Congress shall approve a 
joint resolution to ratify the preferred self-determination option 
approved in that referendum vote.'' This provision is constitutional 
only if it is read to mean that Congress shall consider whether to 
approve a joint resolution ratifying the results of the referendum. If, 
instead, it were read to bind Congress to approve a joint resolution, 
it would impermissibly constrain Congress.

    To address this constitutional concern, the Department recommends 
changing ``shall'' to ``may'' in section 6. Alternatively, section 6 
could be amended to provide that Puerto Rico's status shall become 
whatever the people selected. The Department has concluded that 
contingent legislation of that type is constitutionally permissible. 
See Altering Puerto Rico's Relationship with the United States Through 
Referendum, 36 Op. O.L.C. 93, 93-94 (2012) (concluding that 
``legislation conditioning a change in Puerto Rico's political 
relationship with the United States on the results of one or more 
referenda by the Puerto Rican electorate, without subsequent 
congressional action, would be constitutional, insofar as the 
referendum . . . presented voters in the territory with a limited set 
of options specified in advance by Congress''). However, for this 
alternative approach to be available, it would be necessary for 
Congress to approve the options presented to the Puerto Rican people 
ahead of the vote (or to provide a list of acceptable options from 
which the status convention could choose).

                                 ______
                                 
                                                     March 31, 2021

    Dear Congressmen and Congresswoman:

English
    On November 3, 2020, we went to our voting centers for the third 
time in this decade to vote in favor of the YES to statehood. There 
have been several Annexation Acts that have been submitted to Congress 
and even the US citizens who live on the island have congressional 
action to support these acts.
    The issue of Puerto Rico's political status is not a matter of 
political party ideals. The status issue is about citizens, about us, 
who suffer second-class citizenship every day. Where our elderly and 
disabled do not have the right to supplementary social security, 
because they live in a neighborhood. On our island where schools lack 
educational resources for students since there is no parity of funds 
for being a colony. Where we cannot vote for him President and we lack 
equal representation, with a vote in Congress and the United States 
Senate. And where our military, who serve our flag with so much honor, 
cannot vote for the person who sends them to war.
    We hereby ask you to support the Admission Act for Puerto Rico HR 
1522, so that all citizens who live on this beautiful island have equal 
rights, as US citizens.
Espanol
    El pasado 3 de noviembre de 2020, fuimos a nuestros centres de 
votacion, por tercera vez en esta decada para votar a favor del SI a la 
estadidad. Han sido varias las Actas de Anexion que se han sometido al 
Congreso y aun los ciudadanos estadounidenses que vivimos en la isla la 
accion dei congreso en apoyar estas actas.
    El asunto del estatus de politico de Puerto Rico no es un tema de 
ideales de partidos politico. El asunto de estatus es sobre los 
ciudadanos, sobre nosotros, los que cada dia sufrimos la ciudadania de 
segunda clase. Donde nuestros ancianos e incapacitados no tienen 
derecho al seguro social complementario, por vivir en una colonia. En 
nuestra isla donde las escuelas carecen de recursos educativos para los 
estudiantes, ya que no existe una paridad de fondos por ser una 
colonia. En donde no podemos votar por el Presidente y carecemos de 
representacion igualitaria, con voto en el Congreso y en el Senado de 
Estados Unidos. Y donde nuestros militares, que con tan tanto honor 
sirven a nuestra bandera, no pueden votar por la persona que los envia 
a la guerra.
    Por este media le solicitamos que apoye el Acta de Admision para 
Puerto Rico HR 1522, para que todos los ciudadanos que vivimos en esta 
hermosa isla tengamos la igualdad de derechos, coma ciudadanos 
estadounidenses.

            Firma,

                                  Jimarie Martinez Baladeio

[GRAPHIC] [TIFF OMITTED] T4978.013

.eps[GRAPHIC] [TIFF OMITTED] T4978.014

.eps[GRAPHIC] [TIFF OMITTED] T4978.015


                                 .eps__
                                 
          Federation of Municipal Legislators of PR

                                                      April 6, 2021

    Dear Chairman Grijalva, Ranking Member Westerman, Chairman Manchin, 
Ranking Member Barrasso:
    For over one-hundred years, the U.S. citizens of Puerto Rico have 
been disenfranchised in federal elections and subjected to unequal 
treatment across federal programs. Last November, voters stood up to 
change that when an absolute majority of 53% demanded statehood in a 
locally sponsored referendum. The Puerto Rico Statehood Admission Act, 
H.R. 1522 and S. 780, directly respond to that mandate, and we urge you 
to support it and help get it approved as soon as possible.
    Puerto Rico's referendum was historic because it is the first time 
that statehood received unquestionable majority support on the island 
with a simple ``YES'' or ``NO'' vote. The 117th Congress is therefore 
presented with a unique opportunity to make history and put an end to 
America's inherently colonial rule over Puerto Rico, which runs counter 
to America's values of democracy, equal justice under the law, and 
government by the consent of the governed.
    We recognize there are some in Congress, such as Rep. Nydia 
Velazquez (NY) and Sen. Robert Menendez (NJ), who oppose statehood for 
Puerto Rico and have completely ignored the results of the referendum 
held last November. Today, they will be submitting a counter-proposal, 
the Puerto Rico Self-Determination Act (PRSDA), which has faced 
criticism from representatives of all status options.
    The most significant concern, across party lines, is that the PRSDA 
is ultimately non-binding. Under the bill, Congress would be under no 
obligation to implement whichever status option is chosen by the 
convention and later voted on by the electorate. This would represent a 
huge setback for voters in Puerto Rico who have engaged in multiple 
acts of self-determination over the last decade and have shown, with 
increasing clarity, that Puerto Rico's voters reject the current 
territory status and favor statehood above all non-territory options.
    Beyond the will of the people on the island, however, Puerto Ricans 
stateside also favor statehood by wide margins. For example, recent 
polls show 81% of Puerto Rican residents in Florida and 69% of those in 
New York favor the admission of the island as a state. A majority of 
Americans have also supported the idea for decades according to Gallup. 
This is a settled issue on the island as well as across the Nation, and 
Congress has a moral obligation to act.
    The only legislative option that respects the will of the people of 
Puerto Rico, and ensures a binding process of self-determination is 
H.R. 1522 & S. 780, the Puerto Rico Statehood Admission Act. By 
offering statehood, stipulating the terms of admission, and requiring a 
ratification vote, Congress would finally open the door to full 
equality and democracy for the U.S. citizens of Puerto Rico while 
leaving the ultimate choice in their hands. If a majority opposes 
statehood at that point, then the island would remain a territory with 
the capacity to pursue independence or free association through the 
procedural mechanism of their choice, including a status convention. 
Congress has a moral obligation to let the people of Puerto Rico decide 
their own self-determination process.
    Our organization represents Municipal Legislators from the 78 
municipalities in Puerto Rico. We believe that it is time to put an end 
to the dysfunctional, obsolete and undemocratic status of territory to 
which Puerto Rico has been subjected. We call on Congress to open the 
door to full emancipation and equality for our fellow Americans in 
Puerto Rico by supporting and passing the Puerto Rico Statehood 
Admission Act. The United States can and must do better.

            Sincerely,

                             Luis Carlos Maldonado Padilla,
                                                          President

                                 ______
                                 
           League of United Latin American Citizens

    Dear Members of Congress:

    LULAC is the largest and oldest Hispanic civil rights organization 
in the United States. The League of United Latin American Citizens 
(LULAC), our National President, National Board Members and one hundred 
and thirty thousand members and supporters nationwide are appealing to 
you to support the Puerto Rico Statehood Admission Act, H.R. 1522 and 
S. 780.
    We strongly support H.R. 1522 and S. 780, the Puerto Rico Statehood 
Admission Act. This legislation respects Puerto Rico's right to self-
determination, as expressed in previous referenda, and empowers voters 
on the island to have a final say on becoming a state of the union.
    Puerto Ricans have been clear about their demand for statehood, 
most recently in a referendum held last November. Voters were asked the 
question ``Should Puerto Rico be admitted immediately into the Union as 
a state?'' and 53% said yes, while 47% said no. Not only did the 
``yes'' option win, it also got more votes than any elected official on 
the island, including the governor and at-large delegate to Congress. 
This vote was historic, and ignoring it means being complicit in the 
continued disenfranchisement of over 3 million Hispanic-Americans.
    The island has been stuck in a territorial status limbo for 
decades, in no small part due to partisan infighting and the 
convenience of simply pushing the issue to the side. LULAC believes 
Congress has a moral responsibility to respond to the will of the 
people of Puerto Rico by offering a concrete path to statehood, 
particularly after the results of the 2020 referendum.
    In addition to those on the island, statehood for Puerto Rico has 
the support of a vast majority of Puerto Ricans living in different 
U.S. states, including Florida, Pennsylvania, and New York. 
Additionally, a majority both Republicans and Democrats across the 
nation have supported the idea of making Puerto Rico a state for 
decades. There is no time to waste when it comes to securing the 
enfranchisement of over 3 million Hispanic-Americans, and this Congress 
has all the reasons it needs to get it done.
    Above all else, LULAC listens to the will of the people of Puerto 
Rico, who value their American citizenship and have clearly stated 
their support for the rights that only statehood can assure. We are 
confident that the people of Puerto Rico would ratify that decision via 
popular vote, and we would be proud to welcome our nation's first 
majority-Hispanic state.
    A competing proposal in Congress is the Puerto Rico Self-
Determination Act, introduced by Rep. Nydia Velazquez (D-NY) and Sen. 
Bernie Sanders (I-VT). LULAC stands in firm opposition to this bill as 
it is written, since it only offers a non-binding ``status convention'' 
as a solution rather than the binding ratification vote offered in the 
Puerto Rico Statehood Admission Act, H.R. 1522 & S. 780.
    The only legislative option that respects the will of the people of 
Puerto Rico, and ensures a binding process of self-determination is 
H.R. 1522, the Puerto Rico Statehood Admission Act. By offering 
statehood, stipulating the terms of admission, and requiring a 
ratification vote, Congress would finally open the door to full 
equality and democracy for the U.S. citizens of Puerto Rico, while 
leaving the ultimate choice in their hands. Should a majority oppose 
statehood at that point, then the island would remain a territory with 
the capacity to pursue independence or free association through the 
procedural mechanism of their choice, including a status convention.

                                 ______
                                 
  FEDERACION DE ALCALDES DE PUERTO RICO, INC.      

                                                       May 14, 2021

        Hon. Raul Grijalva            Hon. Bruce Westerman
        Chairman                      Ranking Member
        House Committee on Natural 
        Resources                     House Committee on Natural 
                                      Resources

        Hon. Joe Manchin              Hon. John Barrasso
        Chairman                      Ranking Member
        Senate Committee on Energy 
        & Natural Resources           Senate Committee on Energy & 
                                      Natural Resources

    Dear Chairman Grijalva, Ranking Member Westerman, Chairman Manchin, 
Ranking Member Barrasso:

    As mayors from municipalities across Puerto Rico we write to 
express our strong support for H.R. 1522 & S. 780, the Puerto Rico 
Statehood Admission Act, and to urge the U.S. Congress to approve it as 
soon as possible.
    We represent a wide range of municipalities, from Puerto Rico's 
largest urban centers in the San Juan metro area to rural 
municipalities in the heart of Puerto Rico's central mountain range. We 
represent coastal towns that thrive on tourism, towns with current and 
former military bases, from towns with significant agriculture 
production to towns with advanced industrial manufacturing.
    While each of our municipalities brings its own unique identity and 
contribution, they all share a common challenge. Under the current 
territory status, we are unable to provide an equal quality of life to 
our residents or to generate as many opportunities for our local 
residents as cities and towns in the states.
    The reason for this is simple. Under the current territory status, 
the federal government is able to discriminate against Puerto Rico in 
the laws, programs and policies that we live under every day. This 
creates an unequal playing field from which it is impossible for our 
cities and towns to ever reach our full potential, because we are 
always starting at a disadvantage.
    The other reason is that under territory status we are denied the 
right to vote for President, denied any representation in the U.S. 
Senate, and have only one non-voting Resident Commissioner in the House 
to represent a population that would normally have approximately four 
voting Representatives. This gap in representation means we often have 
to depend on officials we have no role in electing, and are not 
accountable to us, to advocate for the needs and advance the priorities 
of our communities.
    This combination of structural inequality and democratic deficit 
means that many of our most talented, hard-working and productive 
residents are being forced to seek equal opportunities and full voting 
rights only found in the states. This is tearing apart families and 
communities as people in Puerto Rico feel compelled to leave the island 
and move stateside to seek a brighter future. Data from the U.S. Census 
illustrates this starkly.
    According to the latest numbers Puerto Rico's population declined 
11.8% (approximately 440,000 residents) in the last decade. This is not 
only the worse populations loss of any jurisdiction in the entire U.S., 
but possibly in the whole Western Hemisphere.
    The current territory status is literally robbing our towns and 
cities of their present and future, and voter in Puerto Rico have had 
enough. In 2012 and 2017, voters in Puerto Rico rejected the current 
territory status and favored statehood among the valid non-territory 
options . Then last November, to eliminate any remaining doubt on 
whether or not the majority of Puerto Rico's voters supported 
statehood, 52.5% voted ``YES'' to the island's immediate admission as a 
state of the Union. These voters are calling for equal rights, equal 
representation and equal opportunities to those of their fellow 
citizens in the states.
    We understand that some Members of Congress personally oppose 
statehood and or represent constituents that favor independence for 
Puerto Rico. While we respect their right to their own opinions and 
those of their constituents who do not live on the island, we strongly 
oppose any effort to disregard the will of the majority of the actual 
voters that live in Puerto Rico. That is shy we must also express our 
opposition to H.R. 2070 & S. 865, the Puerto Rico Self-Determination 
Act.
    This bill engages in election denial by ignoring the will of the 
majority of Puerto Rico's voters in support of statehood and opens the 
door to an endless debate on an indefinite number of options, some of 
which are unconstitutional. That is completely reckless, and Congress 
must reject it.
    As mayors, we have seen the issue of Puerto Rico's political status 
debated for decades and we know that until it is resolved we will never 
be able to offer our residents the rights, representation and 
opportunities they deserve and have earned after over 100 years of U.S. 
citizenship. Congress must not delay this debate any further with new 
commissions, false options or indefinite timelines like in H.R. 2070 & 
S. 865. Instead, Congress must listen to the will of the majority of 
Puerto Rico's voters, extend a formal offer of admission to Puerto Rico 
as a state, and empower voters on the island to make the final decision 
to ratify our desire for full equality and democracy through statehood.
    As local elected officials that see and work for the 3.2 million 
U.S. citizens of Puerto Rico every day, we need you to take action now. 
We strongly urge Congress to support and pass the Puerto Rico Statehood 
Admission Act.

            Sincerely,

                                      Angel A. Perez Otero,
                                                          President

                                 ______
                                 

                                CSG EAST

                        RESOLUTION # TR-2020-01

RESOLUTION IN SUPPORT OF CONGRESSIONAL ACTION FOR PUERTO RICO STATEHOOD

Whereas, the People of Puerto Rico held a plebiscite on November 3, 
2020, in which this question was presented to them: ``Should Puerto 
Rico be admitted immediately into the Union as a State?''; and

Whereas, 96.8 percent of those who participated in the 2020 General 
Election also participated in the plebiscite, and

Whereas, of those who participated in the plebiscite, 52.34 percent 
voted ``Yes'' in favor of Congress beginning the statehood process for 
Puerto Rico; and

Whereas, the ``Yes'' column received 623,053 votes more votes than any 
political candidate present on the ballot in the 2020 General Election; 
and

Whereas, support for statehood as the final status option has 
incrementally gained support throughout all six plebiscites that have 
been conducted (1967, 1993, 1998, 2012, 2017, 2020); and

Whereas, both the Democratic and Republican parties' platforms are 
committed to respecting Puerto Rico's right to self-determination; and

Whereas, the ultimate decision regarding Puerto Rico's future political 
status rests in the hands of Congress; and

Whereas, in 1992 CSG/ERC supported a resolution asking Congress for a 
prompt response to the formal petition mandated by the people of Puerto 
Rico that would be issued as a result of the 1993 plebiscite;

Therefore, Be It Resolved, that the Council of State Governments' 
Eastern Regional Conference (CSG/ERC) supports the results of the 2020 
plebiscite which clearly show the will of the People of Puerto Rico; 
and

Be It Further Resolved, that CSG/ERC also supports a prompt response by 
the United States Congress to the formal petition for statehood that 
was supported by the majority of Puerto Rican voters in the 2020 
plebiscite; and

Be It Further Resolved, that a copy of this resolution will be provided 
to the Governor-Elect of Puerto Rico, the incoming President of the 
Senate and Speaker of the House of Representatives of Puerto Rico, the 
President-Elect of the United States, the Vice President Elect of the 
United States, the Speaker of the U.S. House of Representatives, the 
President Pro Tempore of the U.S. Senate, the Majority Leader of the 
U.S. Senate, the Chair and members of the U.S. Senate Committee on 
Energy and Natural Resources and the Chair and members of the U.S. 
House of Representatives Committee on Natural Resources.

                                 ______
                                 
             Puertorriquenos Unidos En Accion (PUA)
                                        Arlington, Virginia

                                                      June 11, 2021

President Joe Biden
THE WHITE HOUSE
Washington, DC 20502

Re: UNITED NATIONS DECOLONIZATION COMMITTEE HEARINGS ON PUERTO RICO

    Dear President Biden:

    November 6, 2012 was a momentous day in the history of Puerto Rico 
and the United States. The people of Puerto Rico spoke out on this 
date. Fifty-five percent of the voters expressed their will to change 
the actual colonial relationship between Puerto Rico and the United 
States. Therefore, the era of colonialism by consent in Puerto Rico has 
ended.
    As you should know, the Constitution assigns Congress the 
responsibility of defining the relationship between the federal 
government and U.S. territories. Now, more than ever, the President and 
Congress' role is significant in Puerto Rico's choice to end the 
present colonial status.
    Over 1.8 million registered voters participated in this plebiscite. 
The numbers indicate the will of the people to change the present 
colonial status. However, Congress has been running counter to the 
United States' democratic beliefs by holding back on a meaningful 
process to end colonialism. The people of Puerto Rico have spoken. Now 
is the United States government's chance to express their will to 
change the current relationship between our two nations. The United 
States should commit to implementing the results of the 2012 referendum 
rejecting the actual relationship without any further referendums or 
delays.
    As it has been stated in two Presidential Task Force Reports, ``If 
the process produces a clear result, Congress should act on it quickly 
with the President's support.'' (See Presidential Task Force Report on 
Puerto Rico under President Bush, December 2007, page 23, and 
Presidential Task Report, March 2011, page 3 under former President 
Obama).
    The current relationship between Puerto Rico and the United States 
has deteriorated. Congress arbitrarily implements laws that affect the 
well-being of many Puerto Ricans and their livelihood, from controlling 
the way Puerto Ricans practice their culture and traditions to deciding 
the way they manage their municipal budgets. Recent examples include 
imposing a finance control board that oversees Puerto Rico's finances 
with more power than the democratically elected government and the 
prohibition of the cockfighting sport; a tradition practiced for over 
500 years.
    We have the results since 2012 that support a realistic chance to 
decolonize Puerto Rico. I urge the President of the United States to 
move forward and achieve this goal of a free Puerto Rico and, in doing 
such, stand by the principles of democracy. The recognition of Puerto 
Rico's right to self-determination and the transfer of political powers 
to the people of Puerto Rico is not an issue to be debated. It is 
Congress and the President's responsibility. It is time to speak out.
    On June 18, 2021, the United Nations Decolonization Committee will 
consider Puerto Rico's colonial status. I urge the President to adopt 
this year's resolution and its recommendations, participate in the 
Committee's works and exhort your country's delegation to present the 
official position of the United States government regarding the case of 
Puerto Rico. The voters of Puerto Rico decided in 2012.
    Thank you very much for your prompt attention to this matter.

            Sincerely,

                                              Manuel Rivera

                                 ______
                                 

                           THE PUERTO RICO SENATE  
                             Office of the Senate President

                                                      June 15, 2021

Hon. Raul Grijalva, Chairman
Committee on Natural Resources
U.S. House of Representatives
Washington, DC

    Dear Chairman Grijalva:

    I am writing to you as President of the Senate of the Commonwealth 
of Puerto Rico and as President of the Popular Democratic Party, the 
party that controls the parliamentary majority in the Legislative 
Assembly and the majority of Puerto Rico's municipalities.
    During the past few months, the congressional committee that you 
lead has been evaluating two legislative bills that have the purpose of 
addressing the issue of Puerto Rico's political status.
    The first, H.R. 2070 (The Puerto Rico Self-Determination Act of 
2021) authored by Congresswomen Nydia Velazquez and Alexandria Ocasio-
Cortez, as well as H.R. 1522 (The Puerto Rico Statehood Admission Act) 
authored by Congressman Darren Soto.
    Our institution has expressed its willingness to support any 
Congressional initiative that seeks to seriously and responsibly 
address an issue as important as Puerto Rico's political status.
    Both initiatives, however, contain serious deficiencies that 
prevent the Popular Democratic Party--the parliamentary majority of the 
Puerto Rican government--from supporting their content at this time. 
The absence of fair procedural mechanisms, the deliberate exclusion of 
the alternative of Commonwealth development and the unrealistic offer 
to convert Puerto Rico into a state of the Union within 12 months, 
without providing details on the impact of federal contributions on the 
island, make these bills unacceptable.
    Consistent with our position, the U.S. Department of Justice has 
reiterated that any political status consultation process intended to 
obtain the validity of the federal government must include the 
Commonwealth option. Moreover, in that opinion, the DOJ only recognizes 
three real alternatives, namely, commonwealth, statehood and 
independence.
    It is for these reasons that the U.S. Congress cannot ignore the 
demand of almost half of the island's electorate and the legal opinion 
of the US Department of Justice.
    As we have pointed out, the bill of Congresswomen Velazquez and 
Ocasio-Cortez has a laudable purpose, but in its wording, it does not 
meet the expectations outlined, since several sections--such as the 
election of delegates and the one that defines the various status 
formulas--are far from resolving the issue, complicate it and make the 
process an ineffective one.
    On the other hand, it is inexplicable that the congressional 
committee that intends to legislate or even urge the legislative branch 
of Puerto Rico to address this issue through future legislation, has 
not had the deference to listen and address the claims of the Popular 
Democratic Party, the party that happens to be the parliamentary 
majority that would have the responsibility to legislate at the local 
level any status proposal on the island.
    However, despite this regrettable omission, I, in discharging my 
responsibility, proceed to submit my comments on both bills summarized 
in the following points:
About H.R. 2070
    1. H.R. 2070 (The Puerto Rico Self-Determination Act of 2021) 
authored by Congresswomen Nydia Velazquez and Alexandria Ocasio-Cortez 
does not include the option of Commonwealth development and rules out 
the participation of political parties in the delegate nomination 
process. For the Popular Democratic Party this is unacceptable.

    2. Contrary to existing legislation adopted by President Barack 
Obama in 2014, H.R. 2070 eliminates the requirement that the US 
Department of Justice must pass judgment prior to any vote on the 
validity of each status formula. For the Popular Democratic Party, this 
should be a mandatory requirement in any congressional legislation.
    3. The way in which H.R. 2070 establishes the delegate selection 
process and the design of status options is a way to mislead voters by 
leading them to vote blindly for delegates without knowing in advance 
their status preferences or the agenda they will advance if elected. 
This is so because the structure of the project places voters in the 
dilemma of electing delegates without knowing what ideological sector 
they belong to or what specific proposals on status formulas they will 
defend. This would be granting a blank check. For the Popular 
Democratic Party, this is unacceptable.

    4. In compliance with the terms of Act No. 51-2020 that called for 
the vote on statehood in the past elections, the majority of the 
Legislature understands that the plebiscite mandate granted to that 
option expires on November 3, 2021; therefore, any Congressional bill 
that intends to act on that vote must be approved on or before that 
date.

    5. We reiterate that if by that date Congress has not acted--
ignoring the results--and does not pass any legislation in both 
legislative bodies aimed at specifically responding to that result, for 
purposes of the Legislative Assembly of Puerto Rico, it shall be 
understood that Congress has rejected that vote. Thereafter, the Puerto 
Rico Legislative Assembly shall route a new political status referendum 
invoking the existing legislation passed by Congress in 2014, which 
provided for an appropriation of $2.5 million. (H.R. Rep. No. 113-171, 
at 54 (2014).

    6. Regarding the institutional position of the Popular Democratic 
Party on our vision for the empowerment of the Commonwealth option, it 
is our opinion that the same shall be part of a fair and balanced 
dialogue process between the people of Puerto Rico, the Congress and 
the White House, in accordance with the commitment made by President 
Joe Biden.

    7. We require that any proposed congressional legislation must 
contain clear and detailed transition reports to be presented to the 
electorate prior to any vote. Specifically, voters must know answers on 
such important issues as: the impact of federal taxation under 
statehood on Puerto Rico's economy, the possibility of requiring Puerto 
Rico to become an incorporated territory as a preliminary to statehood, 
and the loss of U.S. citizenship at birth under independence options. 
Such answers are necessary to eliminate fanciful or misleading options.

    8. For the foregoing reasons, the Popular Democratic Party 
recommends a substitute bill (chairman's mark) for H.R. 2070, 
eliminating sections 3 (selection of delegates) and 5 (design of status 
formulas) of the bills in their entirety and leaving the design of both 
matters in the hands of the Legislative Assembly of Puerto Rico.
About H.R. 1522
    With regard to H.R. 1522 calling for the admission of Puerto Rico 
as a state, I wish to call your attention to a monumental flaw in the 
bill.
    H.R. 1522 does not provide for assessing if Puerto Rico is prepared 
for statehood. It would admit Puerto Rico as a State in 12 months 
without first examining if the island has enough resources to meet the 
federal tax obligations it would be assuming and be able to raise 
enough state tax revenues to balance its budget, meet debt and pension 
obligations, and provide essential services.

    In a recent brief filed before the U.S. Supreme Court, the 
Department of Justice pointed out that:

        Puerto Rico has taken advantage of its exemption from federal 
        income tax by imposing a territorial individual income tax of 
        up to 33% for the highest bracket--well above the typical rate 
        in the States. Puerto Rico Internal Revenue Code 
        Sec. 1021.01(a). Puerto Rico has likewise taken advantage of 
        its exemption from the federal corporate tax by imposing a 
        territorial corporate tax of up to 37.5%--again, well above the 
        typical rate in the States. Id. Sec. 1022.01(b), 1022.02(b)(2).

Pet. Brief, U.S. v. Vaello-Madero, 20-303 (June 2021), 17.

    The reality is that Puerto Rico, even with its particular tax 
rates, has not balanced a budget in over a decade. It even found itself 
unable to pay its general obligations in 2014, prompting Congress to 
legislate, two years later, the creation of a Fiscal Oversight Board, 
as it had previously done for Washington, D.C.
    Five years after the Promesa Act, Puerto Rico still has not 
completed its debt restructuring and has not balanced its first of four 
required budgets in a row.
    On this issue, in 2014, the General Accountability Office took the 
DOJ statement a step further and laid out what would logically occur if 
Puerto Rico were to become a state:

        Puerto Rico's individual and corporate income tax rates are 
        relatively high compared to those of the states. If the Puerto 
        Rico government wanted to maintain pre-statehood tax burdens 
        for individuals and corporations, it would need to lower its 
        tax rates, which could reduce tax revenues.'' U.S. Government 
        Accountability Office, GAO-14-315, Puerto Rico: Information on 
        How Statehood Would Potentially Affect Selected Federal 
        Programs and Revenue Sources 31-32 (March 2014).

    With this clear warning of reduced tax revenues under statehood 
falling on a jurisdiction that has experienced chronic budget deficits 
and an inability to meet its general obligations, the Natural Resources 
Committee would be remiss to consider and pass H.R. 1522 without 
adequate studies on the extent of the impact of statehood on Puerto 
Rico's tax revenues.
    This is of particular importance given that debts are currently 
being restructured for the coming decades based on Puerto Rico's 
current tax revenues. If those tax revenues are reduced under statehood 
and debt service would remain unchanged, the impending hit of cuts 
would affect essential services and pensions the hardest, forcing a new 
default. The U.S. Congress cannot ignore this reality. For the above 
reasons, we call for the reject of this bill.

    I hope you will give serious consideration to these remarks.

            Cordially yours,

                                 Jose Luis Dalmau-Santiago,
                                                   Senate President

                                 ______
                                 
                        Statement for the Record
                          Miriam J Ramirez MD
                              San Juan, PR
         Former Senator of the Commonwealth of Puerto Rico and
                 Founder--Puerto Ricans in Civic Action

    Chairman Grijalva, Members of the Committee, ladies and gentlemen:

    I applaud your efforts in scheduling hearings to discuss Puerto 
Rico's centennial colonial problem. I have been visiting many of you 
for over the last 40 years; to get the United States Congress attention 
to resolve this embarrassing situation of having a colony of US 
citizens without representation in the government that rules our lives. 
On many occasions, we have been told the ``need to get our act 
together.'' BUT it's YOU, the United States CONGRESS, which imposes 
rules, out of our control, which make it impossible to get our act 
together.

    I am mentioning in my statement, just some of the many decisions 
that are totally under the responsibility of the United States 
Congress, with the hopes that you start from there. It's no use to hold 
more hearings on more plebiscites, when you have made decision to keep 
us locked under a colonial rule in order to facilitate tax evasion for 
CFC's, High Tech Corps, the very wealthy from Puerto Rico, the several 
states, and the world.

    THE US CONGRESS has

    Allowed Puerto Rico to be an Offshore Tax paradise,

    Not allowed Representation in Congress to US Citizens

    Not allowed US CITIZENS to vote for the President and Vice 
President, who determine to send us to wars.

    Therefore, I respectfully request that my statement be included for 
the Record towards the Legislative Hearing on H.R. 1522 (Rep. Soto), 
titled ``Puerto Rico Statehood Admission Act,'' and H.R. 2070 (Rep. 
Velazquez), entitled the ``Puerto Rico Self-Determination Act of 
2021,'' on Wednesday, June 16, 2021,and which explicitly says: ``with 
the intent of receiving testimony that is primarily from legal and 
scholarly witnesses.''

    We, the US Citizens of Puerto Rico; hereby let it be known, have 
had extensive patience awaiting for the United States Congress to 
resolve the status of Puerto Rico! We, the US Citizens of Puerto Rico 
also want it to be known, a resolution towards the final political 
status of Puerto Rico is not just a matter for scholars, political 
parties and vested interests, whom have access to express their 
viewpoint before a congressional hearing. There is an essential 
``moral'' and democratic responsibility, with a need to conduct public 
hearing at Puerto Rico.

    The US citizens of Puerto Rico public must be heard!

    We, the US Citizens of Puerto Rico, therefore request, the Natural 
Resources Committee of the U.S. House of Representatives submit a bill 
to the Floor and resolve; the following ``dilemmas'' which Congress 
itself has created towards Puerto Rico, which are:
1. Financial Oversight and Management Board for Puerto Rico
    It is Imperative that Congress eliminate the Financial Oversight 
and Management Board for Puerto Rico.

    It has proven to be totally ineffective in resolving the fiscal 
public debt issue and has probably cost us more than what we Puerto 
Rican's owe.

    If they were ``true and competent'' experts and advisors, as it was 
sold to us, in the content--why have they spent millions of dollars in 
consulting fees and expenses?

    ``Professionals have requested about $883 Million in fees and 
expenses through the Title III compensation process as of March 1, 
2021.'' These are legal expenses for all parties due to litigation. 
Congress instructed the Board to have consensual negotiations with 
bondholders but instead they have litigated for over four years. 
[Reference; (Exhibit--See Page 2) https://drive.google.com/file/d/
1RyNs4H7yvpk0P w4DtK57WeHzeZEKggXA/view?usp=sharing.]

    While the Congressional Budget Office estimated that the process 
should cost approximately $370 Million. [Reference; (Exhibit) https://
drive.google.com/file/d/1QmLknEwU9P20zP57-SZQieBOkBqKieMa/
view?usp=sharing.]

    We, the US Citizens of Puerto Rico therefore; will be over paying a 
cost of more than $350 Million estimated, due to the actions of the 
Board.
2. URGENT--United State CONGRESS Modify--IRC Tax Code towards Puerto 
        Rico
    Puerto Rico is treated as a Foreign Entity for IRC tax purposes. 
Puerto Rico is a US Territory with US Citizens and should be treated as 
such. This participation will open the way towards our full 
participation within the Federal fiscal system. [Reference; (Exhibit) 
Source: https://howmuch.net/articles/corporate-tax-rates-around-the-
world.]
3. URGENT--The United States CONGRESS MUST ELIMINATE TAX EVASION 
        SCHEMES which has made Puerto Rico an Offshore IRC tax shelter!
    The very affluent rich and powerful, use our beautiful island to 
evade taxes and enjoy our bankrupt circumstance, while most of the 
population resides under the poverty level, with the lowest per-capita 
income under the American Flag. [Reference; (Exhibit) Source: IRS 
Seizes Foothold on Puerto Rico Tax Haven Movimiento Revolucion 
Estadista Inc.Audits, https://news.bloombergtax.com/daily-tax-report/
irs-seizes-foothold-on-puerto-rico-tax-haven-audits.]

    We have many more requests for this committee and suggest that it 
hold a hearing to allow the people whom are actually suffering the 
consequences of years of the inactions, report and testify. We, the US 
Citizens of Puerto Rico are more than tired of observing, selected and 
handpicked witnesses who do not represent us, or speak for us.

    I respectfully and publicly request, that the people of Puerto Rico 
who agree with my statement to endorse it by sign your name at the end, 
and ask that it be introduced for the record.

                                 ______
                                 

   Movimiento Puertorriqueno Reunificacionista Con 
                                       Espana--MPRE

                                                      June 16, 2021

Hon. Raul Grijalva, Chairman
Committee on Natural Resources
U.S. House of Representatives
Washington, DC

    Dear Chairman Grijalva and Members of the Committee:

    My name is Manuel A. Rugama Amparo, Vice President of the 
Movimiento Puertorriqueno Reunificacionista con Espana--MPRE (Puerto 
Rican Reunification Movement with Spain). Today I am speaking on behalf 
of the MPRE, a political association which is a legally registered in 
the Department of State of San Juan, Puerto Rico, and all of its 
members.

    We are requesting to consider the inclusion of the option of 
Reunification with Spain as one of the valid options available for the 
Island in this hearing and in future hearings on H.R. 1522 & H.R. 2070.

    The Province of Puerto Rico was invaded by the United States in 
1898 without any justification. One million of Puerto Ricans were 
separated from their true nation and stripped from their spanish 
citizenship, a citizenship that emanated from the spanish constitution 
of 1876 which was the current constitution of the Province of Puerto 
Rico at the time of the US occupation. The Province of Puerto Rico 
never declared its independence from Spain.

    Puerto Ricans have the sacred right to claim the reincorporation of 
the Island to their spanish nation due to the fact that the island was 
separated by an act of war and the imposition of the Treaty of Paris.

            Thank you for your attention,

                                   Manuel A. Rugama Amparo,
                                             Vice President of MPRE

                                 ______
                                 

                        Statement for the Record
                        Professor Roland Blasini

    Chairman Grijalva, and Members of the Committee:

    I respectfully request my statement be included in the Committee's 
Hearing record on H.R. 1522 (Rep. Soto), titled ``Puerto Rico Statehood 
Admission Act,'' and H.R. 2070 (Rep. Velazquez), entitled the ``Puerto 
Rico Self-Determination Act of 2021,'' Wednesday, June 16, 2021, and 
which explicitly says: ``the intent of receiving testimony that is 
primarily from legal and scholarly witnesses.''
    Some 30 years ago, on July 17, 1988; I also had submitted a written 
statement then to the Interior and Insular Affairs Committee--Oversight 
Hearing on: ``The International Role of the U.S. Insular Areas'' 
Chairman, by the late Hon. Morris K. Udall and distinguish author of 
that essential publication on Congress entitled: ``The Role of a 
Congressman.'' I hereby request once again this statement be also 
posted for public discourse.

    Due to the current political and legislative environment, I 
honestly do not foresee this process ending with a final result of a 
signed Presidential authorization.

    On one side, is our desire to see a final solution toward the 
status matter. On the other side of the coin, is the current political 
reality--for which two additional US Senators would change the 
composition of the upper chamber.
    Due to the highly partisanship and policy implications; James 
Carville, an American political consultant and LSU Mass Communication 
faculty, stated the predicament very clearly: ``Do the Math--We Only 
Have a 50/50 Senate, No One Is Playing Patty-Cake'' (Source: Anderson 
Cooper 360, CNN 8 June 21).

    Since the Chairman released and made available the analysis of each 
bill from the Department of Justice--Memorandum--regarding the issues 
of constitutionality and feasibility, The DOJ states and I quote:

        ``. . . agrees that the people of Puerto Rico should be allowed 
        to choose whether to become a nation independent of the United 
        States, become a state within the United States, or retain the 
        current status of a territory. Insofar as H.R. 2070 would 
        facilitate a choice among those three options, which we believe 
        are the three constitutional options available to Puerto Rico, 
        the Department supports the bill.''

    Due to the fact, the DOJ ``suggest'' to maintain the prevalent 
political regimen; I will address this ``poison pill'' element further 
on.

    Since a deadlock reality is prevalent--I would like to present some 
different options before the Committee, in order to address some 
general consensus options with fundamental public policy and 
administrative developmental reforms, which are:

    1. Via Congressional mandate--ELIMINATE--the Financial and 
Management Oversight Board for Puerto Rico

    One must question; ``the reliability and competency cost'' on 
behalf of the advisors and their role, since its foundation. Thus, 
spending Millions of dollars from Puerto Rican taxpayers' fiscal funds 
in consulting fees and expenses on behalf for themselves, with ZERO end 
results.
    One must also question, the length and duration for the Oversight 
Board; especially due to the past political donations received for the 
2020 campaign election cycle.

    Has the Oversight Board become an ATM or Gravy-Train source for 
elected officials? (Source: Puerto Rico Debt Vultures Give Big to 2020 
Candidates as Fiscal Board Appointments Loom). See: Exhibits 1-2019-
2020 Campaigns' Committees Donations; 2-2019-2020 Vulture Funds' 
Donations; 3-2019-2020 Vulture Law Firms' Donations.

    2. Establish a RECALL election procedure.

    All elected positions in the Commonwealth of Puerto Rico's 
government, would be subject to a RECALL Provision and amending the 
Resident Commissioner term for a two-year post.
    During the summer of 2019, a governmental constitutional crisis was 
generated and evolved with disorderly conduct and even up to sporadic 
street violence, at Old San Juan. The final outcome was the Governor's 
resignation. Also during that ``boiling'' time period, various 
instrumental events went on, for which did not prelude toward a smooth, 
rapid and orderly transition.
    Another factor is the local political sociological and cultural 
reality prevalent due to the level of ``institutionalized corruption,'' 
which can easily be documented by the number of federal prosecutions of 
not only administrative appointments, but also elected local officials.

    The insertion of a federal RECALL election procedure statute toward 
Puerto Rico, would safeguard an orderly transition and ensure a 
democratic leadership; if prior conditions were repeated once again.

    3. Procedural--Pathway = Methodology for the Status Solution 
Process

    It's time to approach a final status solution, thru an optical lens 
of quantitative theory analysis.
    Rather than present mathematical modeling equations, let me express 
it in simple terms, there is a game--many have played as children call 
``tug-of-War.'' Under the classic format--there are two sides, the side 
with the greater force pushing, and wins. One the other side, IF a 
modified game model is used, where various ropes are placed thru a 
center and such center illustrates whom the winner is, of such 
interaction will be. The interaction on behalf of the participants can 
neutralize forces and coalitions can evolve, therefore distorting the 
end result.
    Our political constitutional system and order, was developed and 
establish through a Constitutional Convention in Philadelphia. The 
national interest and discussions were focused on a simple two-tier 
model approach, in order to have a final end result on an issue. The 
method used for a solution on behalf this approach is commonly known as 
a decision-tree model.
    Puerto Rico's political status dilemma has quite a different focus; 
since it is based on a multi-polar model, which therefore having 
various final solutions or various options, easily can join different 
options or forces together and neutralize an outcome, having then a 
zero-sum game. The end result being neutralize by the opposite interest 
for a ``spoiler'' option resolution.
    The time has come to approach the voter-pathway electoral 
participation method using a ``decision-tree'' model, for which there 
would ONLY be two options or categories at a time to select from--on 
behalf a simple majority will of the electorate.

      pathway method approach--voters would be asked--for example:
a. Stage One

Do you favor maintaining the current political relationship?

____ Yes or No

If the YES option obtains the majority--simply the voter consultation 
            would ends, until a future timeframe for another inquiry.

If the NO option, obtains the majority--then continue the pathway 
            toward the next phase.

b. Stage Two

Do you favor maintaining ``ties'' with the US or breaking away from the 
            US?

____ Relationship with US                 ____ Breaking Away from US

Next stage responds to which option obtained a majority

c. Stage Three

If the--Relation with US, obtains the majority.

A voter inquiry is conducted between options Congress is willing to 
            grant--territorial, statehood--voters would select an 
            option provided The alternative with a majority would 
            continue, toward the next stage,

If the--Breaking Away from the US, obtains a majority.

A voter inquiry is conducted between options of Free Association or 
            Independence-voters would select an option and the process 
            would Continue, of whom obtained the majority of votes.

d. Stage Four

The option which obtains the majority results from stage three, would 
            be subject toward two (2)--Yes or No voter inquiry 
            consultation and a majority--is required--toward a pathway 
            solution.

It is at this stage a Commission is established on both sides. One on 
            behalf of Puerto Rico and the other on behalf the Federal 
            government to identify, make very clear and educate voters 
            the conditions toward the final pathway solution.

    While NO methodological pathway approach is listed in either bill, 
the Zero-Sum Game reality will persist. The desired ``suggestion'' on 
behalf the US Department of Justice for the inclusion on behalf the 
current status is a clear demonstration of providing a ``poison pill'' 
toward NO solution. The Federal Government has THREE co-equal branches. 
Therefore, it's time to ensure the independence and individual power by 
each branch of government and not be subject toward a submissive stand, 
dictated by one branch toward another regardless of the affinity on 
behalf of the Executive and Legislative branches of government.
    I simply cannot be silent to this institutional violation on behalf 
of the division of powers and foresee an obligation to denounce such. 
In memory of my experience and education provided, here on The Hill by 
academics, highly skilled staffers from all branches and even the 
Library of Congree personnel, but most of all--the bipartisanship 
institutional Members of Congress, which I have always cherished their 
lectures and pleasantries in the hallway, during those years here on 
the Hill, I cannot be silent.

    4. Objection toward Procedural Usage Constitutional Assembly 
Method--H.R. 2070

    The introduction on behalf for usage of a Constitutional Assembly 
method, as a matter of resolution toward the political status of Puerto 
Rico dilemma; came from the late Juan Mari Bras (La Asamblea 
Constituyente. 1962).
    The strategy was first advocated within entities such as MPI-PSP 
(Movimiento Pro-Independencia), the Puerto Rican Bar Association or any 
organization for which it's leadership withheld post or control were 
independence advocates, in order to push such approach. The reason and 
strategy is very simple, The Constitutional Assembly method requires--
ALL transfer of power--be vested entirely back toward Puerto Rico; 
therefore, it would be a sovereign nation with such process. Foreseeing 
a negotiation reality, of non-equals and lack of interest any intention 
toward any negotiation--Puerto Rico would be granted its independence 
by default.
    The intellectual author for such approach (Mari Bras), even 
advocated for an ``Independent Monarchy'' republic for Puerto Rico.

    The usage of a Constitutional Assembly also provides, opportunities 
on behalf of organizational managerial ``mischief.''

    Nassim Nicholas Taleb, Ph.D., author of; ``Skin in the Game: Hidden 
Asymmetries in Daily Life'' (2018) points out in a provocative and 
practical manner, redefines what it means to understand the world, 
succeed in a profession, contribute to a fair and just society, detect 
nonsense, and influence others. He clearly demonstrates with vast 
clearly examples on how--Minority rules--A ``stubborn minority'' can 
impose its will on the relatively disinterested majority.
    One must also add, toward this organizational nightmare forecast 
proposal the usage of Serge Galam ``tipping point.'' (Ref. Serge Galam, 
Ph.D. and Taksu Cheon, Ph.D., ``Tipping Points in Opinion Dynamics: A 
Universal Formulaions,'' CEVIPOF--Centre for Political Research, 
Sciences Po and CNRS, Paris, France).

    ``The universal formula is shown to predict the dynamics of public 
opinion including eventual sudden and unexpected outbreaks of minority 
opinions within a generic parameter space of five dimensions. The 
formula is obtained by combining and extending several components of 
the Galam model of opinion dynamics, otherwise treated separately, into 
one single update equation, which then deploys in a social space of 
five dimensions.
    Four dimensions account for a rich diversity of individual traits 
within a heterogeneous population, including differentiated 
stubbornness, contrarianism, and embedded prejudices. The fifth 
dimension is the size of the update groups being discussed. Having one 
single formula allows one to explore the complete geometry of the 
underlying landscape of opinion dynamics. Attractors and tipping 
points, which shape the topology of the different possible dynamics 
flows, are unveiled. Driven by repeated discussion among small groups 
of people during a social or political public campaign, the phenomenon 
of minority spreading and parallel majority collapse are thus revealed 
ahead of their occurrence.''
    Just these two operational realities demonstrate a clear 
operational ``outcome bias'' toward tilting an end result in favor of 
one option, therefore; I come and oppose such inclusion of the 
Constitutional Assembly; in the proposed legislation.

    In conclusion, I respectfully request my entire statement be added 
for the record and thank you.

                                 *****

Exhibit #1
[GRAPHIC] [TIFF OMITTED] T4978.016


                                .eps***

Exhibit #2
[GRAPHIC] [TIFF OMITTED] T4978.017


                                .eps***

Exhibit #3
[GRAPHIC] [TIFF OMITTED] T4978.018


                                 .eps__
                                 
                        Statement for the Record
                           Elvin Mendez-Rosa
            President, Movimiento Revolucion Estadista Inc.

    Chairman Grijalva, Members of the Committee, ladies and gentlemen:

    I applaud your efforts in scheduling hearings to discuss Puerto 
Rico's centennial colonial problem. I have been visiting many of you 
for over the last 40 years; to get the United States Congress attention 
to resolve this embarrassing situation of having a colony of US 
citizens without representation in the government that rules our lives. 
On many occasions, we have been told the ``need to get our act 
together.'' BUT it's YOU, the United States CONGRESS, which imposes 
rules, out of our control, which make it impossible to get our act 
together.

    I am mentioning in my statement, just some of the many decisions 
that are totally under the responsibility of the United States 
Congress, with the hopes that you start from there. It's no use to hold 
more hearings on more plebiscites, when you have made decision to keep 
us locked under a colonial rule in order to facilitate tax evasion for 
CFC's, High Tech Corps, the very wealthy from Puerto Rico, the several 
states, and the world.

    THE US CONGRESS has

    Allowed Puerto Rico to be an Offshore Tax paradise,

    Not allowed Representation in Congress to US Citizens

    Not allowed US CITIZENS to vote for the President and Vice 
President, who determine to send us to wars.

    Therefore, I respectfully request that my statement be included for 
the Record towards the Legislative Hearing on H.R. 1522 (Rep. Soto), 
titled ``Puerto Rico Statehood Admission Act,'' and H.R. 2070 (Rep. 
Velazquez), entitled the ``Puerto Rico Self-Determination Act of 
2021,'' on Wednesday, June 16, 2021,and which explicitly says: ``with 
the intent of receiving testimony that is primarily from legal and 
scholarly witnesses.''

    We, the US Citizens of Puerto Rico; hereby let it be known, have 
had extensive patience awaiting for the United States Congress to 
resolve the status of Puerto Rico! We, the US Citizens of Puerto Rico 
also want it to be known, a resolution towards the final political 
status of Puerto Rico is not just a matter for scholars, political 
parties and vested interests, whom have access to express their 
viewpoint before a congressional hearing. There is an essential 
``moral'' and democratic responsibility, with a need to conduct public 
hearing at Puerto Rico.

    The US citizens of Puerto Rico public must be heard!

    We, the US Citizens of Puerto Rico, therefore request, the Natural 
Resources Committee of the U.S. House of Representatives submit a bill 
to the Floor and resolve; the following ``dilemmas'' which Congress 
itself has created towards Puerto Rico, which are:
1. Financial Oversight and Management Board for Puerto Rico
    It is Imperative that Congress eliminate the Financial Oversight 
and Management Board for Puerto Rico.

    It has proven to be totally ineffective in resolving the fiscal 
public debt issue and has probably cost us more than what we Puerto 
Rican's owe.

    If they were ``true and competent'' experts and advisors, as it was 
sold to us, in the content--why have they spent millions of dollars in 
consulting fees and expenses?

    ``Professionals have requested about $883 Million in fees and 
expenses through the Title III compensation process as of March 1, 
2021.'' These are legal expenses for all parties due to litigation. 
Congress instructed the Board to have consensual negotiations with 
bondholders but instead they have litigated for over four years. 
[Reference; (Exhibit--See Page 2) https://drive.google.com/file/d/
1RyNs4H7yvpk0P w4DtK57WeHzeZEKggXA/view?usp=sharing.]

    While the Congressional Budget Office estimated that the process 
should cost approximately $370 Million. [Reference; (Exhibit) https://
drive.google.com/file/d/1QmLknEwU9P20zP57-SZQieBOkBqKieMa/
view?usp=sharing.]

    We, the US Citizens of Puerto Rico therefore; will be over paying a 
cost of more than $350 Million estimated, due to the actions of the 
Board.
2. URGENT--United State CONGRESS Modify--IRC Tax Code towards Puerto 
        Rico
    Puerto Rico is treated as a Foreign Entity for IRC tax purposes. 
Puerto Rico is a US Territory with US Citizens and should be treated as 
such. This participation will open the way towards our full 
participation within the Federal fiscal system. [Reference; (Exhibit) 
Source: https://howmuch.net/articles/corporate-tax-rates-around-the-
world.]
3. URGENT--The United States CONGRESS MUST ELIMINATE TAX EVASION 
        SCHEMES which has made Puerto Rico an Offshore IRC tax shelter!
    The very affluent rich and powerful, use our beautiful island to 
evade taxes and enjoy our bankrupt circumstance, while most of the 
population resides under the poverty level, with the lowest per-capita 
income under the American Flag. [Reference; (Exhibit) Source: IRS 
Seizes Foothold on Puerto Rico Tax Haven Movimiento Revolucion 
Estadista Inc.Audits, https://news.bloombergtax.com/daily-tax-report/
irs-seizes-foothold-on-puerto-rico-tax-haven-audits.]

    We have many more requests for this committee and suggest that it 
hold a hearing to allow the people whom are actually suffering the 
consequences of years of the inactions, report and testify. We, the US 
Citizens of Puerto Rico are more than tired of observing, selected and 
handpicked witnesses who do not represent us, or speak for us.

    I respectfully and publicly request, that the people of Puerto Rico 
who agree with my statement to endorse it by sign your name at the end, 
and ask that it be introduced for the record.

                                 ______
                                 
                    Puerto Rico Escogio Estadidad  
                              [Puerto Rico Chose Statehood]

                                                      June 17, 2021

House Committee on Natural Resources,
Washington, DC 20515

    Hello Mr. Modeste and Ms. Varela,

    I wanted to write you after yesterday's hearing on the Puerto Rico 
political status bills because, since we met back in March, my 
organization has been very actively working to show Congress that it 
cannot ignore the will of the majority of voters in Puerto Rico.
    We have driven all across the island, risking our lives during the 
pandemic, going from town to town, to collect signatures from average 
citizens on the street who don't have the means or the know-how to 
communicate with Congress. We have been to a multitude of 
municipalities, and have had people drive for hours to come to our 
gatherings to register their signature and send their message. In total 
we have collected over 5,300 signatures to date demanding that Congress 
listen to the will of the people and pass H.R. 1522. We have placed the 
letters here so you can access them, look at the signatures yourself 
and share them with your Committee members. These are real people who 
are living the injustice of territory status every day. Congress has to 
take this into account, and I humbly ask that you include this for the 
record.
    My organization also worked as part of the Puerto Rico Statehood 
Action Network to mobilize support from our fellow citizens in the 
states, and last Monday I flew from Puerto Rico to DC to participate in 
a demonstration calling on Congress to ``Respect Puerto Rico's 
Statehood Vote.'' We mobilized over 40 people to demonstrate on the 
Capitol grounds, some driving from places as far away as Pennsylvania, 
so that Congress understands that action on this is urgent and 
necessary.

    Please help make sure Chairman Grijalva and the rest of the 
Committee sees this.

            Thank you,

                                            Irma Rodriguez,
                                                          President

[GRAPHIC] [TIFF OMITTED] T4978.019


.epsSee Attachment

                                 *****

                 PR ESTADIDAD                      

        Hon. Raul Grijalva            Hon. Bruce Westerman
        Chairman                      Ranking Member
        House Committee on Natural 
        Resources                     House Committee on Natural 
                                      Resources

        Hon. Joe Manchin              Hon. John Barrasso
        Chairman                      Ranking Member
        Senate Committee on Energy 
        & Natural Resources           Senate Committee on Energy & 
                                      Natural Resources

    Dear Chairman Grijalva, Ranking Member Westerman, Chairman Manchin, 
Ranking Member Barrasso:

    As U.S. citizens from Puerto Rico, we are coming together to 
express our support for the Puerto Rico Statehood Admission Act, H.R. 
1522 and S. 780, and to call on Congress to pass this legislation as 
quickly as possible.
    Puerto Ricans have been part of the U.S. for over one hundred and 
twenty years and we have made countless contributions to the betterment 
of American society. During that time the population of Puerto Ricans 
stateside has grown to close to six million. Yet for the three million 
U.S. citizens that remain on the island, we remain disenfranchised in 
federal elections and subjected to unequal treatment in federal laws 
and programs. This reduces economic development, has robbed our poor 
and elderly of lifesaving healthcare, and every day breaks up our 
families and communities as people feel forced to move stateside to 
seek out better opportunities and quality of life for themselves and 
their children.
    Congress must immediately end its inherently colonial territorial 
rule over Puerto Rico, because it violates America's values of 
democracy, equal justice under the law, and government by the consent 
of the governed. Beyond that, it doesn't serve either America or Puerto 
Rico to prolong an outdated, dysfunctional and morally corrupt form of 
government which its own citizens have now rejected on multiple 
occasions.
    On November 3, 2020, an undisputable majority of 53% of Puerto 
Rico's voters demanded change in a locally sponsored referendum calling 
for full democracy and equality through statehood. While some bills in 
Congress, like H.R. 2070 & S. 865, seek to delay, confuse and distract 
from this electoral majority mandate in the name of ``self-
determination,'' only the Puerto Rico Statehood Admission Act 
acknowledges and responds to the freely expressed will of the people.
    A majority of voters in Puerto Rico have requested statehood, now 
Congress must respond by officially offering it and allowing voters on 
the island to ratify their choice in a binding vote. To turn around and 
tell voters to go back to the drawing board and re-define multiple 
other options which the majority has rejected three times in the last 
eight years in favor of statehood, would not only be insulting to us, 
but effectively serve as a form of voter suppression. That is simply 
unacceptable and un-American.
    We are natural born U.S. citizens and want an equal seat at the 
table in the federal government that writes and implements the laws 
that we live under. We want our full voting rights as American 
citizens, and would challenge any voting Member of Congress that would 
deny that to us to answer if their constituents would accept the 
second-class citizenship that we are subjected to under territory 
status.
    We are proud to be Puerto Ricans, and also proud to be U.S. 
citizens, and know that there is no law that limits us from being both. 
So, don't let anyone tell you that statehood will somehow diminish our 
cultural pride and heritage. If anything, the economic progress that 
statehood would unleash will allow Puerto Rico to flourish in ways that 
will mutually benefit the Island and the States.
    If you really believe in democracy, justice, government by the 
consent of the governed, you must not hesitate any further or give any 
more excuses. Congress must grant us the equal rights and equal 
responsibilities that we have earned with the blood of our veterans and 
the tears of their mothers, wives, children and families. Pass the 
Puerto Rico Statehood Admission Act as soon as possible and together we 
can help make America a more perfect Union.

            Sincerely,
            
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]            

                               *****

There were an additional 250 pages of signatures received for this 
petition. A full listing of all signatures received are part of the 
hearing record and are being retained in the Committee's official 
files.

                              [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
